<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-63]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-63
 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2010

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 2892/S. 1298

 AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF HOMELAND SECURITY 
 FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 2010, AND FOR OTHER PURPOSES

                               __________

                    Department of Homeland Security
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
48-299                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            CHRISTOPHER S. BOND, Missouri
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
FRANK R. LAUTENBERG, New Jersey
BEN NELSON, Nebraska
MARK PRYOR, Arkansas
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

          Subcommittee on the Department of Homeland Security

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             GEORGE V. VOINOVICH, Ohio
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      LISA MURKOWSKI, Alaska
JON TESTER, Montana
ARLEN SPECTER, Pennsylvania

                           Professional Staff

                            Charles Kieffer
                              Chip Walgren
                              Scott Nance
                            Drenan E. Dudley
                            Christa Thompson
                            Suzanne Bentzel
                       Rebecca Davies (Minority)
                        Carol Cribbs (Minority)

                         Administrative Support

                         Katie Batte (Minority)



                            C O N T E N T S

                              ----------                              

                        Wednesday, May 13, 2009

                                                                   Page
Department of Homeland Security..................................     1
Nondepartmental Witnesses........................................   103


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                        WEDNESDAY, MAY 13, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:07 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Robert C. Byrd (chairman) 
presiding.
    Present: Senators Byrd, Murray, Lautenberg, Tester, 
Voinovich, Cochran, and Brownback.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. JANET NAPOLITANO, SECRETARY


              OPENING STATEMENT OF SENATOR ROBERT C. BYRD


    Senator Byrd. I call this subcommittee to order.
    Welcome, Madam Secretary. I welcome you to this challenging 
and important job. As you may know, I at first opposed the 
creation of a Department of Homeland Security and I'll tell you 
why I did that.
    I figured that it would be a management nightmare, but 
since the Department was established, I've been a strong 
advocate for giving the department all the resources that it 
needs to succeed.
    The Bush administration's official position was that the 
Department could be created at no cost, no cost to the 
taxpayers. Now this translated into a Department with aging 
assets and an inability to be nimble in preparing for future 
threats.
    In response, Congress on a bipartisan basis increased 
homeland security spending by an average of $2 billion per 
year. $2 billion per year. That's $2 for every minute since 
Jesus Christ was born. You got that? $2 for every minute, every 
60 seconds since Jesus Christ was born.
    These increases were invested in border security, chemical 
security, port security, transit security, aviation security, 
and cyber security. We also ensured that State and local 
partners in homeland security received adequate resources to 
equip and train our first responders.
    Now, these investments have paid off, making our citizens 
more secure, making us better prepared for any, any disaster, 
but we have work to do, much more work to do.
    I am pleased to see that President Obama has sent us a 
budget that backs up his promises with real resources. Now, 
having said that, there are some gaps in the budget and we're 
going to explore those gaps today, and we'll work with you, 
Madam Secretary, to identify responsible ways to narrow those 
gaps.
    In 2005, I, Robert Carlisle Byrd, B-Y-R-D, led a bipartisan 
effort to improve the security on our borders and to enforce 
our immigration laws. We increased the number of Border Patrol 
agents and detention beds, and we provided funds for fencing, 
vehicle barriers, and new technology on our Southwest--let me 
say that again--on our Southwest border.
    We also provided funds for fugitive operations teams, 
Secure Community programs and for worksite enforcement.
    Madam Secretary, I have read your testimony. I look forward 
to your continuing and expanding these efforts.
    Madam Secretary, I'm aware, I know that you're aware of the 
recent devastation from flooding in Southern West Virginia. 
That's God's country. Last night, last night, Governor Manchin 
requested a Federal disaster declaration. Today, I sent the 
President a letter urging his approval and I urge you, I urge 
you to recommend to the President and he approve this request 
as soon as possible so that Federal funding can begin flowing 
to West Virginians who are in need of help.
    Madam Secretary, you lead a Department of 208,000 men and 
women. That's a rather large army. You lead a Department of 
208,000 men and women who are on the front line every day 
protecting our citizens. We commend those employees for their 
service and we welcome you to this subcommittee today.
    I also welcome Senator George Voinovich, our new ranking 
member. Welcome, Senator George Voinovich. I'm very proud to 
have you here and be with you today.
    George Voinovich follows in the footsteps of my good 
friends and able colleagues, Senator Thad Cochran and Senator 
Judd Gregg. I look forward to working with all of our 
subcommittee members this year and following Senator 
Voinovich's opening remarks, we will hear from Secretary 
Napolitano. Then we will hear from each member who will be 
recognized by seniority for up to 7 minutes, 7 minutes for 
remarks and questions.
    I now recognize Senator Voinovich for any opening remarks 
that he may wish to make.


                 STATEMENT OF SENATOR GEORGE VOINOVICH


    Senator Voinovich. Thank you very much, Chairman Byrd.
    I must say that I am honored to serve as the Ranking Member 
of this subcommittee. You and I have worked together over the 
years on matters that have been mutually beneficial to both the 
State of West Virginia, our neighbor, and my State, the State 
of Ohio.
    Senator Byrd. Yes.
    Senator Voinovich. Madam Secretary, glad to see you and 
look forward to your insights on the priorities of your 
Department during this consideration of your budget.
    I enjoyed meeting with you in my office and I'm pleased 
that you're willing to serve our country at a very critical 
time and I think I share Senator Byrd's concern that you have 
an unbelievable management task when you're talking about 
208,000 people, 22 agencies, that still haven't been really 
brought together, and you're in the situation where you've got 
to take it to the next phase so that it gets done the way we 
anticipated in the beginning. Although, I agree with Senator 
Byrd; I wasn't real happy with the way they put everything 
together, but it's done and so we're going to do our best to 
support it.
    Senator Byrd. We're going to do that, man.
    Senator Voinovich. For fiscal year 2010, the president's 
total discretionary request for the Department is $42.7 
billion. This is a 6.3 percent increase from the fiscal year 
2009 appropriations level.
    It's an increase over the fiscal year 2009, excluding 
emergency supplemental appropriations. Including emergency 
supplemental funding, it's almost a 1 percent decrease from 
below the current year level.
    In other words, when you take in the supplemental, you're 
in about 1 percent below that.
    This is also a 42.3 percent increase since the first 
appropriations act that funded the Department of Homeland 
Security in fiscal year 2004, a 42.3 percent increase in just 7 
years.
    We are quickly approaching the time when we will have 
doubled the resources available to your Department. Within this 
dramatic rise in funding, over the past 4 years we've devoted a 
significant portion of the increase to border security. As a 
former governor of one of the Nation's Southwest border States, 
you are in a unique position of having been on the front lines 
of this issue and I think will be able to offer advice and 
guidance based on your personal experience in terms of what's 
going to work and what you need to get it done.
    This budget proposes to fund U.S. Customs and Border 
Protection at $10 billion. Taking into account all the 
reorganizations of the Department that were executed over the 
years, we're talking about a 93.3 percent increase from fiscal 
year 2004. This is gigantic.
    This budget proposes funding of $5.4 billion for U.S. 
Immigration and Customs Enforcement. Again, we're talking about 
an increase of, a 120 percent increase, since fiscal year 2004.
    I've often wondered if there was another way we could 
secure the border and deal with the 11 million or so illegal 
immigrants. And, as we talked in the office, I really believe 
that without a comprehensive immigration reform plan, if we 
plan to enforce our current laws, it could require a further 
investment of $272 billion and 31 years to locate and remove 
the estimated 11 million unauthorized aliens in the United 
States and this is something I want to talk to you about as we 
go through this period of time.
    It's important to note that the fiscal year 2010 budget 
proposes adequate resources to pay for the border initiatives 
funded over the past 4 fiscal years and commits to meeting the 
goal of 20,000 Border Patrol agents this December and to 
maintaining that level through fiscal year 2010. Again, is 
20,000 the right number? Should it be more?
    As you know, I've also been interested in improving the 
efficiency and effectiveness of the Federal Government during 
my time here in the Senate and for the Department, and this was 
an area that you also identified right away needed to be done. 
You got some good people working with you. I've seen them. I 
think you've got a good team that you've put together.
    In addition to hearing about your budget initiatives for 
fiscal year 2010, I hope to hear your thoughts on a number of 
issues facing the Department, including the progress being made 
to secure our Nation's borders and prepare this country for 
future emergencies.
    In closing, Madam Secretary, there's a tremendous focus on 
the Southwest but the Northern border also poses challenges to 
enforcing our laws while facilitating trade, and I'd hope to 
invite you one of these days to visit Ohio to gain a better 
understanding of the unique aspects of a State on the Northern 
border with no land border with Canada, only coastline.
    Thank you, Mr. Chairman.
    Senator Byrd. Thank you. Thank you very much. And when you 
visit Ohio, West Virginia is just across the river.
    Senator Voinovich. That's right.
    Senator Byrd. I hope you'll come there, too.
    Secretary Napolitano. Thank you. That would be great.
    Senator Byrd. All right. Now, Madam Secretary, please 
proceed.


                     STATEMENT OF JANET NAPOLITANO


    Secretary Napolitano. Thank you. Thank you, Mr. Chairman 
and Senator Voinovich, members of the subcommittee. Thank you 
for this opportunity to testify on the Department of Homeland 
Security portion of President Obama's budget proposal for 
fiscal year 2010.
    The proposed total budget for the Department is $55.1 
billion which includes $42.7 billion in appropriated funding.
    DHS performs a broad range of activities across a single 
driving mission: to secure America from the entire range of 
threats that we face.
    The Department's leadership in the past several weeks, in 
response to the H1N1 flu outbreak only proves the breadth of 
the Department's portfolio as well as the need to make DHS a 
stronger, more effective Department.
    This budget strengthens our efforts in what I see as the 
five main mission areas where we need to focus in order to 
secure the American people.
    First, guarding against terrorism, the founding purpose and 
perennial top priority of the Department.
    Second, securing our borders, an effort even more urgent as 
the United States looks to do its part to counter a rise in 
cartel violence in Mexico.
    Third, smart and effective enforcement of our immigration 
laws. We want to facilitate legal immigration and pursue 
enforcement against those who violate the immigration law.
    Fourth, improving our preparation for, response to, and 
recovery from disasters, not just hurricanes and tornadoes, but 
also unexpected situations, like the H1N1 flu.
    Pause a moment there, Mr. Chairman, and mention that I 
spoke with Governor Manchin and also Kentucky Governor Beshear 
yesterday with respect to the flooding that has occurred and we 
are working with them on their emergency declaration 
applications, so that we can move those through.
    Senator Byrd. How much did you say your budget is?
    Secretary Napolitano. In appropriated funds, it's $42.7 
billion; total funds, it's $55.1 billion.
    Senator Byrd. And it's $55.10 for every minute since Jesus 
Christ was born, right?
    Secretary Napolitano. Mr. Chair, I haven't done the math, 
but it sounds pretty close.
    Senator Byrd. It's correct. If anybody wants to challenge 
it, raise your hands.
    Secretary Napolitano. I'm going to take it as good as gold.
    The fifth major mission area for us, after preparation and 
response to and recovery from disaster and challenge for us, is 
to create one Department of Homeland Security, to unify these 
22 agencies so that they work together to ensure that we are 
operating always at full strength.
    In addition to these five main mission areas, there are 
three approaches for the Department which crosscut everything 
that we do. First among those is to expand our partnerships, 
our partnerships with States, with cities, with tribal 
governments, who are the first detectors and the first 
responders.
    Second, to bolster our science and technology portfolio, 
investing in new technologies that can increase our 
capabilities while being cognizant of interests, such as 
privacy protection, that must be taken into account.
    And third, to maximize efficiency. Through the efficiency 
review process that we launched in March, we hope to ensure 
that every security dollar is spent in its most effective way.
    This budget adheres to the President's major reform goals, 
government efficiency, transparency and cohesion, and will play 
a major part in bringing about a culture of responsibility and 
fiscal discipline within the Department.
    The Department budget request was based on alignment with 
the Department's priorities and the programs were assessed 
based on effectiveness and on risk.
    First, with respect to budget priorities, to guard against 
terrorism, this budget proposal includes $121 million to fund 
research for new technologies that detect explosives at public 
places and transportation networks. It has $87 million for new 
measures to protect critical infrastructure and cyber networks 
from attack. It enhances information-sharing among Federal, 
State, local and tribal law enforcement.
    With respect to border security, the budget proposal 
includes $116 million to deploy additional staff and technology 
to the Southwest border, to disrupt southbound smuggling of 
drugs and bulk cash which will help combat cartel violence.
    It also provides $40 million for smart security technology 
funding on the Northern border, to expand and integrate our 
surveillance systems there.
    To ensure smart, effective enforcement of our immigration 
laws, this budget proposal includes $112 million to strengthen 
e-Verify to help employers maintain a legal workforce; a total 
of $198 million for the Secure Communities Program which helps 
State, local and tribal law enforcement target criminal aliens; 
and it improves security and facilitates trade and tourism 
through the Western Hemisphere Tribal Initiative, $145 million, 
and US-VISIT, $344 million.
    To help Americans prepare for, respond to, and recover from 
natural disasters, this budget proposal includes doubling the 
funds from $210 million to $420 million to increase the number 
of frontline firefighters. It includes a $600 million increase 
to the Disaster Relief Fund to help individuals and communities 
impacted by disasters, and it strengthens pre-disaster hazard 
mitigation efforts to reduce injury, loss of life and 
destruction of property.
    And finally, to unify the Department, this budget proposal 
includes $79 million for the consolidation of the Department's 
headquarters while we bring 35 different offices together, 
generating significant savings in the long run. It also 
includes $200 million to consolidate and unify our IT 
infrastructure and bring all of DHS into the same system.
    Mr. Chairman, in my few months as Secretary, I have seen a 
number of remarkable accomplishments, in addition to 
challenges, at the Department of Homeland Security. I am seeing 
this Department's potential. I believe we are on the path 
toward realizing it.
    We aim to do even better at achieving this country's 
security mission and this budget will help the Department do 
just that.
    Thank you, Mr. Chairman, and I hope that my more complete 
statement can be included in the record.
    [The statement follows:]

                 Prepared Statement of Janet Napolitano

    Mr. Chairman, Senator Voinovich, and members of the subcommittee: 
Let me begin by saying thank you for the strong support you have 
consistently shown the Department, and I look forward to working with 
you to make certain that we have the right resources to protect the 
homeland and the American people and that we make the most effective 
and efficient use of those resources.
    I am pleased to appear before the subcommittee today to present 
President Obama's fiscal year 2010 Budget Request for the Department of 
Homeland Security (DHS). I will also summarize the progress we have 
made since the start of the new administration along with some of our 
key accomplishments from last year.

                    FISCAL YEAR 2010 BUDGET REQUEST

    The Department of Homeland Security's Budget will strengthen 
current efforts that are vital to the Nation's security, bolster DHS' 
ability to respond to emerging and evolving threats, and allow DHS to 
embrace new responsibilities in order to secure the Nation. This Budget 
puts forward critical investments in the protection of the American 
people.
    DHS and its many component agencies fulfill a broad mandate and 
conduct many different activities within a single, unified security 
mission. DHS performs critical tasks from protecting transportation 
hubs to conducting maritime rescues, from aiding disaster victims to 
enforcing immigration laws. Within this broad portfolio, the Department 
aims to secure the American people from all hazards--including 
terrorist threats and natural or accidental disasters--and to work 
effectively with its many partners to lead the collaborative effort to 
secure the Nation. DHS undertakes the mission of securing the United 
States against all threats through five main action areas, each of 
which is strengthened by this Budget:
  --Guarding Against Terrorism.--Protecting the American people from 
        terrorist threats is the founding purpose of the Department and 
        DHS' highest priority. This Budget expands DHS efforts to 
        battle terrorism, including detecting explosives in public 
        spaces and transportation networks, helping protect critical 
        infrastructure and cyber networks from attack, detecting agents 
        of biological warfare, and building information-sharing 
        partnerships with State and local law enforcement that can 
        enable law enforcement to mitigate threats.
  --Securing Our Borders.--DHS prevents and investigates illegal 
        movements across our borders, including the smuggling of 
        people, drugs, cash, and weapons. In March, the Department 
        announced a new initiative to strengthen security on the 
        southwest border in order to disrupt the drug, cash and weapon 
        smuggling that fuels cartel violence in Mexico. This Budget 
        strengthens those efforts by adding manpower and technology to 
        the southwest border. This Budget also funds smart security on 
        the northern border and facilitates international travel and 
        trade. The President's request also makes targeted investments 
        to reduce security risk across our Nation's vast maritime 
        borders.
  --Smart and Tough Enforcement of Immigration Laws and Improving 
        Immigration Services.--DHS welcomes legal immigrants, protects 
        against dangerous people entering the country, and pursues 
        tough, effective enforcement against those who violate the 
        Nation's immigration laws. This Budget contains funding to 
        strengthen our employment eligibility verification systems, 
        target and crack down on criminal aliens and expedite the 
        application process for new legal immigrants.
  --Preparing for, Responding to, and Recovering from Natural 
        Disasters.--The Department must aid local and State first 
        responders in all stages of a natural disaster--preparing for 
        the worst, responding to a disaster that has occurred, and 
        recovering in the long run. This budget contains funding to 
        strengthen DHS assistance for local first responders and the 
        communities and families affected by disasters.
  --Unifying and Maturing DHS.--DHS is a young department. Its 
        components must further evolve in order to operate as 
        effectively as possible as one agency with a single, unified 
        security mission. This Budget contains funding to initiate 
        consolidation of mission support activities that will remain 
        off-site from the St. Elizabeths campus, reducing the many 
        small and widely scattered leased locations and supporting the 
        goal to build ``One DHS.''
    DHS is employing several cross cutting initiatives to strengthen 
activities in each of these mission areas.
    First, DHS is working across the board to increase cooperation with 
its partners--State, local, and tribal law enforcement agencies, 
international allies, the private sector, and other Federal 
departments. The effort to secure America requires close coordination 
and collaboration; this Budget increases resources dedicated to these 
critical partnerships.
    Second, the Department is bolstering its science and technology 
portfolio. This will lead to the development of new techniques and 
technologies that will expand DHS' law enforcement capabilities while 
minimizing law enforcement's impact on everyday, law-abiding citizens. 
This Budget contains important investments in technologies that will 
allow DHS officers to perform their security tasks more quickly and 
with greater accuracy.
    Third, the Department continually aims for greater efficiency in 
its operations. Through the Department-wide Efficiency Review 
Initiative launched in March, DHS is ensuring all its resources are 
used in the most effective way possible to secure the Nation.
    The total fiscal year 2010 budget request for the Department of 
Homeland Security is $55.1 billion in funding; a 5 percent increase 
over the fiscal year 2009 enacted level excluding supplemental funding. 
The Department's fiscal year 2010 gross discretionary budget request 
\1\ is $45.8 billion, an increase of 6 percent over the fiscal year 
2009 enacted level excluding emergency funding. The Department's fiscal 
year 2010 net discretionary budget request is $42.7 billion.\2\
---------------------------------------------------------------------------
    \1\ Gross discretionary funding does not include funding such as 
Coast Guard's retirement pay accounts and fees paid for immigration 
benefits.
    \2\ This does not include fee collections such as funding for the 
Federal Protective Service (NPPD), aviation security passenger and 
carrier fees (TSA), credentialing fees (such as TWIC--TSA), and 
administrative cost of the (National Flood Insurance Fund, FEMA).
---------------------------------------------------------------------------
    The following are highlights of the fiscal year 2010 Budget 
Request:

Guarding Against Terrorism
    State and Local Fusion Centers.--Full support and staffing by the 
end of fiscal year 2011 are requested for the 70 identified State and 
Local Fusion Centers, facilities where information and intelligence is 
shared between Federal, State, local and tribal authorities. Funding is 
dedicated to IT maintenance, support, and training.
    Explosives Detection Systems (EDS) Procurement and Installation.-- 
An increase of $565.4 million to accelerate the Electronic Baggage 
Screening Program (EBSP) at the Nation's airports to ensure 100 percent 
of all checked baggage is screened with an in-line explosive detection 
capability system, or a suitable alternative. This funding will support 
facility modifications, recapitalization efforts, as well as 
procurement and deployment of electronic baggage screening technology 
systems.
    Bomb Appraisal Officers.--$9 million for an additional 109 Bomb 
Appraisal Officers (BAOs) to provide expertise in the recognition of 
and response to improvised explosive devices at airports to enhance 
aviation security. The request will provide BAO coverage at 50 percent 
more airports including all Category X, I, and II airports, and will 
provide a BAO in every hub-spoke airport system, and to airports that 
currently have only one BAO assigned.
    Visible Intermodal Prevention and Response Teams.--An increase of 
$50 million is requested to fund 15 Visible Intermodal Prevention and 
Response (VIPR) teams dedicated to guarding surface transportation. The 
VIPR teams contain multi-skilled resources, including Transportation 
Security Inspectors, canine teams, Transportation Security Officers, 
Bomb Detection Officers, and Federal Air Marshals. These teams enhance 
the Transportation Security Administration's (TSA) ability to screen 
passengers, identify suspicious behavior, and act as a visible 
deterrent to potential terrorists in surface transportation 
environments.
    Vulnerability Assessments.--A $3.0 million increase is requested to 
provide for new nuclear reactor security consultations with the Nuclear 
Regulatory Commission. The budget request will also support 
vulnerability assessment pilot projects, which provide State and local 
stakeholders with a comprehensive understanding of vulnerabilities and 
critical infrastructure resiliency.
    Bombing Prevention.--$4.2 million is requested to enhance improved, 
coordinated national bombing prevention and improvised explosive device 
(IED) security efforts. Additionally, this funding will provide 
resources to enhance national awareness of the threat, facilitate 
multi-jurisdiction planning, and conduct additional capabilities 
assessments for 132 high-risk urban area detection, deterrence, 
response, and search elements. These elements include canine units, 
bomb squads, SWAT teams, and dive teams.
    Cybersecurity for the Federal Government.--A $75.1 million increase 
is requested to enable DHS to develop and deploy cybersecurity 
technologies to counter on-going, real world national cyber threats and 
apply effective analysis and risk mitigation strategies to detect and 
deter threats.
    Explosives Detection Research.--Total funding of $120.8 million, an 
increase of $24.7 million, is requested to support DHS' Science and 
Technology Directorate (S&T) in addressing critical capability gaps in 
detecting, interdicting, and lessening the impacts of non-nuclear 
explosives used in terrorist attacks against mass transit, civil 
aviation, and critical infrastructure. Of the $24.7 million, $10.0 
million will develop high-throughput cargo screening technology through 
automated, more efficient equipment. The remaining $14.7 million will 
build on fiscal year 2009 efforts to counter the threat of hand-carried 
improvised explosive devices to mass transit systems by detecting all 
types of explosive threats such as homemade, commercial, and military 
explosives.
    Cybersecurity Research.--Total funding of $37.2 million, an 
increase of $6.6 million, is requested to support Science and 
Technology in addressing critical capability gaps identified in the 
Comprehensive National Cybersecurity Initiative (CNCI). Specifically, 
this effort will develop technologies to secure the Nation's critical 
information infrastructure and networks.
    Transformational Research and Development (R&D).--A $7.2 million 
increase is requested for Transformational R&D to improve nuclear 
detection capabilities, address enduring vulnerabilities, and reduce 
the operational burden of radiation and nuclear detection. The increase 
in fiscal year 2010 will further these efforts to accelerate material 
optimization and production techniques, and establish a low-rate 
production capability for these materials. Additional funding could 
have a tremendous impact on the ability to uncover threats by detecting 
radiation sources.
    Bio Watch.--Total funding of $94.5 million is requested for the 
BioWatch program in the Office of Health Affairs, which provides the 
capability for early detection and warning against biological attacks 
in over 30 of our Nation's highest-risk urban areas through placement 
of a series of biological pathogen collectors. The request sustains the 
baseline capability of Gen-1/Gen-2 collectors while moving into the 
next generation of equipment. The funding would complete field testing 
for the Gen-3 prototype unit, secure IT architecture to facilitate 
networking between the biodetection systems, and procure production 
units to support the Gen-3 operational test and evaluation.
    Vetting Infrastructure Modernization.--An increase of $64 million 
is requested to modernize vetting infrastructure data management, 
adjudication workflow, and integration of all vetting systems in the 
third and final phase of the Vetting Infrastructure Improvement Plan. 
Modernization will enable a universal fee mechanism that will reduce 
duplicative background checks and fees for transportation workers, and 
provide the capability to process new populations using existing 
enrollment and vetting infrastructure, while continuing to ensure 
privacy and security.
    Information Integration and Technology.--Total funding of $34 
million is requested for U.S. Secret Service information technology. 
Funding would provide for a secure cross-domain IT application, 
engineering and architecture activities to modernize and improve Secret 
Service systems, information-sharing environments, database 
performance, cyber security, and continuity of operations through 
robust backup and recovery procedures.
    Intermodal Security Coordination Office (ISCO).--A $10 million 
increase is requested for the Intermodal Security Coordination Office 
within DHS Policy to support integrated planning between DHS and the 
Department of Transportation in the area of maritime transportation, as 
well as in other homeland security mission areas. The Intermodal 
Security Coordination Office will develop a strategic plan and metrics 
to guide development and modernization of intermodal freight 
infrastructure that links coastal and inland ports to highways and rail 
networks; an assessment of intermodal freight infrastructure needs and 
capability gaps; and recommendations to address the needs and 
capability gaps. The recommendations to address intermodal freight 
infrastructure needs and capability gaps will be incorporated into DHS' 
5-year programming and budgeting guidance, and tracked to ensure they 
are achieved.
    Electronic Crime Task Forces (ECTFs).--Total funding of $2.0 
million is requested to support the operational costs of 13 ECTFs and 
DHS-mandated Certification and Accreditation of the Secret Service 
online reporting system.
    Train 21.--Total funding of $4.1 million is requested for Train 21, 
a business operations and training transformation initiative that 
advances the Federal Law Enforcement Training Center's mission to 
provide training for law enforcement personnel.
    Uniformed Division Modernization.--Total funding of $4.0 million is 
requested to support a restructuring of the U.S. Secret Service 
Uniformed Division's (UD) legal authorities governing pay and 
compensation to bring the UD in line with the rest of the Federal 
Government and to more effectively recruit and retain the talent 
necessary to carry out its protective mission
    National Technical Nuclear Forensics.--A $2.8 million increase is 
requested to expand efforts to develop the capability to improve 
technical nuclear forensics on U.S.-made nuclear and radiological 
materials. The increase will also expand international collaborative 
efforts to collect and share relevant nuclear forensics information.

Securing Our Borders
    Combating Southbound Firearms and Currency Smuggling.--An increase 
of $26.1 million is requested to enhance DHS' capability to combat 
southbound firearms and currency smuggling through additional personnel 
at and between the ports of entry and along the southwest border. This 
funding will support an additional 44 Border Patrol agents and 8 
support staff as well as 65 Customs and Border Protection officers and 
8 support staff. Resources are also requested to expand and maintain 
the Licensed Plate Reader (LPR) program to help establish and maintain 
effective control of the border. Additionally Immigration and Customs 
Enforcement (ICE) requests an additional $70 million to hire 349 
positions (specifically Special Agents, Intelligence Analysts, and 
Criminal Investigators) to increase enforcement staffing, improve 
cooperative efforts with the Mexican Government, and establish another 
Border Violence Intelligence Cell. This cross-program initiative will 
increase national security by expanding activities to secure our 
borders.
    Maritime Border Security Enhancements.--$700 million is requested 
to purchase five new Coast Guard Cutters, two Maritime Patrol Aircraft 
and one aircraft flight simulator to increase surface and air asset 
presence in the maritime domain and vastly improve threat detection and 
interdiction capabilities. $103 million is requested to purchase 30 new 
Coast Guard small boats to replace aging, obsolete assets with more 
capable, multi-mission platforms. $1.2 million is requested to 
establish a permanent Biometrics at Sea System, an investment which 
enables Coast Guard boarding teams to identify dangerous individual 
documented in the US-VISIT database and yields the type of cross-
component operational integration sought through creation of DHS and 
that must continue to be built upon.
    Northern Border Technology.--$20.0 million is requested to assist 
U.S. Customs and Border Protection (CBP) in providing improved 
situational awareness along the northern border through the design, 
deployment, and integration of surveillance, sensing platforms, 
detection technologies and tactical infrastructure. This technology 
will expand DHS capabilities, increase the effectiveness of our agents, 
and increase the ability to detect unlawful border activity 
successfully.
    CBP Air and Marine (A&M) Personnel.--A $19.1 million increase is 
requested to support Border Patrol agents by providing air cover as 
well as expanding maritime assistance along the borders. Funding is 
requested to hire an additional 68 pilots, 20 marine and 56 support 
personnel. During fiscal year 2010, A&M plans to continue the expansion 
of its capabilities across the northern and coastal border and place 
heavy emphasis on the maritime requirements along the southeast and 
Caribbean borders. The additional personnel resources are requested as 
new marine vessels are deployed to marine branches at strategic 
locations along the coastal borders.
    Research and Development for Border and Maritime Security.--A $7.1 
million increase for Science & Technology is requested to fund a new 
research effort to provide advanced detection, identification, 
apprehension, and enforcement capabilities along borders, increasing 
the security of the border and lowering the risk of a successful 
terrorist attack. Additionally, funding will provide new technologies 
to the United States Coast Guard, Customs and Border Protection, and 
Immigration and Customs Enforcement, and other components operating in 
the maritime environment.

Smart and Tough Enforcement of Immigration Laws and Improving 
        Immigration Services
    E-Verify.--Total funding of $112 million and 80 new positions are 
requested to support improvements to the employment eligibility 
verification system, E-Verify. The growth of the E-Verify program will 
increase the need for monitoring and compliance activities to protect 
employees from discriminatory practices, safeguard privacy information, 
and enhance program efficacy. The fiscal year 2010 program increase is 
primarily for monitoring and compliance activities, as well as IT-
related business initiatives to improve system use.
    Secure Communities.--Total funding of $39.1 million is requested to 
hire, train, and equip 80 new enforcement personnel who will identify 
suspected criminal aliens, determine subjects' alien status, prioritize 
ICE enforcement actions against the highest threat criminal aliens, and 
assist in the removal of apprehended criminal aliens. Funding will also 
support the continued investment in information technology to improve 
efficiencies within ICE criminal alien identification prioritization 
and removal processes.
    Detention and Removal Operations Modernization (DROM).--Total 
funding of $25 million is requested for improvements to the system of 
detaining and removing illegal immigrants. The funding will be 
dedicated to developing and deploying the Detainee Location Tracking 
Module as part of the Bed Space and Transportation Management System, 
expanding the ICE Data warehouse data capacity and reporting capability 
to support the DRO IT data, and expanding Web services to allow the 
Electronic Travel Document application to communicate with other 
internal or external applications. DROM will effect improvements in the 
areas of real-time dynamic data reporting, detainee management, 
management of detention beds and tracking detainees, bed-space 
availability management, and transportation management for improved 
efficiency in detention and removals.
    Law Enforcement Systems Modernization.--Total funding of $49 
million is requested to fund the ICE Law Enforcement Systems 
Modernization initiative, including a number of case management, 
information sharing, and operational support service projects that will 
improve access to law enforcement information. For example, the case 
management Traveler Enforcement Communication System (TECS) system 
modernization effort will support the investigative arm of ICE and 
update a 20-year-old system, giving ICE improved capabilities for case 
management, money laundering tracking and reporting, telephone 
analysis, intelligence reporting and dissemination, Bank Secrecy Act 
data access, information sharing of subject record data, and 
statistical/performance reporting. The funding will also support the 
design and development for the integration of ICE-Agreements of 
Cooperation in Communities to Enhance Safety and Security (ACCESS) and 
Information Sharing.
    Immigrant Integration.--Total funding of $10 million is requested 
for an Immigrant Integration program within USCIS, in order to improve 
the integration of immigrants into the United States. This program 
allows USCIS and the Office of Citizenship to work across the Federal 
Government and with State and local Governments, U.S. businesses, non-
profits, academia, and faith-based organizations to support effective 
integration efforts across the country. USCIS will provide grants to 
community-based organizations for citizenship preparation programs; 
facilitate English language learning through improved web resources; 
build volunteer capacity by developing a training certification 
framework for volunteers and, promote citizenship with integration 
messages at the workplace, among Federal agencies, and the general 
public.
    US-VISIT Identity Management and Screening Services.--An $11.2 
million increase is requested to support the increased workload demands 
associated with the transition from 2 to 10 fingerprint biometric 
capture for foreign visitors. The increase will support biometric 
identifications and verifications, latent print processing, data 
sharing with other agencies, and the growing Secure Communities 
initiative, which shares biometric information with local law 
enforcement. The funding will also support information sharing and 
technical assistance to select foreign governments to promote the 
adoption and use of common biometric identity management standards in 
order to advance the ability to screen travelers to and workers within 
the United States.
    Western Hemisphere Travel Initiative (WHTI).--A $20.9 million 
increase is requested to continue maintaining and operating the WHTI 
program that supports Departmental efforts to facilitate the efficient 
movement of people at the land border POEs. WHTI provides a tool to 
conduct the necessary authentication at the time of crossing and it 
also accelerates the verification process mandated by law to the extent 
possible with Radio Frequency Identification (RFID) Technology and 
communications technology.

Preparing for, Responding to, and Recovering From Natural Disasters
    Pre-Disaster Mitigation (PDM).--A $60 million increase is requested 
for Pre-Disaster Mitigation in the Federal Emergency Management Agency. 
Funding will assist in the implementation of pre-disaster hazard 
mitigation measures that are cost-effective and are designed to reduce 
injuries, loss of life, and damage and destruction of property, 
including damage to critical services and facilities.
    Adequate Fire and Emergency Response Staffing for Adequate Fire and 
Emergency Response (SAFER) Grants.--Total funding of $420 million is 
requested to double the funds devoted to SAFER grants administered by 
the Federal Emergency Management Agency, which help fire departments 
increase the number of frontline firefighters. Funding will enable fire 
departments to increase their staffing and deployment capabilities, 
ensuring around the clock protection.
    Disaster Relief Fund (DRF).--Total DRF funding of $2 billion, an 
increase of $0.6 billion, is requested. The DRF, administered by the 
Federal Emergency Management Agency (FEMA), provides a significant 
portion of the total Federal response to victims in declared major 
disasters and emergencies. This increase will provide relief for non-
catastrophic disaster activity.
    First Responder Technology.--Total funding of $12 million is 
requested to develop and design technologies to address capability gaps 
identified by Federal, State, local and tribal first responders. This 
program will test technologies, assess usability, and commercialize 
them to increase availability across all first responder communities.
    Gap Analysis Program.--An additional $3.0 million is requested for 
the Gap Analysis Program to supplement programs that evaluate the 
strengths and weaknesses of each State's emergency plans and evacuation 
plans and expand beyond earlier focus on hurricane-prone regions and 
rural and suburban areas to all hazards.

Maturing and Unifying DHS
    DHS Headquarters Consolidation Project.--An additional $75.0 
million is requested in fiscal year 2010 to initiate consolidation of 
mission support activities that will remain off-campus, reducing the 
amount of small and widely scattered leased locations.
    Strategic Requirements Planning Process.--An additional $5.0 
million and five FTE are requested for the DHS Strategic Requirements 
Planning Process (SRPP) to establish tangible Department-wide targets 
and goals to help integrate DHS components' efforts and ensure that the 
Department fulfills its homeland security mission. The SRPP is designed 
to coordinate with the Department's resource allocation and investment 
processes and ensure that both of these processes address the most 
critical homeland security needs and capability gaps. The SRPP is 
designed to utilize risk assessments to prioritize analysis of 
capability gaps, and risk would also be used to inform the 
prioritization of investment in capability gaps and needs identified 
through the SRPP.
    OIG Auditors.--An increase of $5.1 million is requested to hire an 
additional 60 staff. The increase of staffing will better position the 
Office of Inspector General to assist in supporting the Department's 
integrated planning guidance (IPG) of strengthening border security and 
interior enforcement. In addition, the increase will expand oversight 
of activities relating to DHS issues on immigration and border 
security, transportation security, critical infrastructure protection, 
Federal and State/local intelligence sharing, Secure Border Initiative 
(SBI), and acquisition strategies. The OIG's oversight activities add 
value to DHS programs and operations by providing an objective third 
party assessment to ensure integrity and transparency.
    Data Center Development/Migration.--A $200.0 million increase is 
requested to support further migration of component systems, 
applications and disaster recovery to the DHS Enterprise Data Centers 
for central DHS management. Select DHS component budgets include funds 
to migrate their component specific applications to the DHS Data 
Center. The Data Center consolidation efforts will standardize IT 
resource acquisitions across DHS components, as well as streamline 
maintenance and support contracts, allowing for less complex vendor 
support and expediting response times in the event of an emergency. 
Benefits derived from consolidation include enhanced IT security, 
improved information sharing with stakeholders, and enhanced 
operational efficiencies over time.
    Information Security and Infrastructure.--$23.0 million is 
requested to support: Network Security Enhancements, Internet Gateway 
Enhancements, and Single Sign-On Capability.
    Network Security Enhancements.--This funding is requested to 
mitigate high-risk areas within the DHS firewall. This request will 
establish critical Policy Enforcement Points across the DHS Network, 
improve DHS Security Operation Center capabilities (i.e., remediation, 
forensics), and establish robust classified facilities with highly 
skilled analysts. Network Security Enhancements will identify all 
internet connections for remediation by migrating separate, legacy 
component connections behind the DHS Trusted Internet Connections 
(TICs).
    Internet Gateway Enhancements.--This request will implement a High 
Assurance Guard to support mission requirements for accessing social 
networking sites and establishing the DHS Email Disaster Recovery 
capability where 100 percent of all e-mail traffic will be behind the 
two DHS TICs.
    Single Sign-On (SSO) Capability.--Increased fiscal year 2010 
funding will be utilized to initiate the application integration and 
establishment of the core infrastructures for AppAuth, eAuth, the SSO 
Gateway, and Service Oriented Architecture required under the SSO 
project. Through the close alignment with HSPD-12, DHS employees and 
Federal, State, local and private-sector partners will be able to log 
in to their systems with only a single set of credentials in order to 
access multiple applications.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Fiscal year 2010 Gross Discretionary funding increases by $2.6 
billion, or 6 percent, over fiscal year 2009.
    There is an increase of $8.6 million, or .1 percent, in estimated 
budget authority for Mandatory, Fees, and Trust Funds over fiscal year 
2009.
    Does not include supplementals or rescissions of prior-year 
carryover funds.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The following offices are less than 1 percent of the total budget 
authority and are not labeled in the chart above: Office of the 
Inspector General, Office of Health Affairs.
    Departmental Operations is comprised of the Office of the Secretary 
& Executive Management, the Office of the Federal Coordinator for Gulf 
Coast Rebuilding, the Office of the Undersecretary for Management, the 
Office of the Chief Financial Officer, and the Office of the Chief 
Information Officer.

                                     TOTAL BUDGET AUTHORITY BY ORGANIZATION
                              [Gross Discretionary & Mandatory, Fees, Trust Funds]
----------------------------------------------------------------------------------------------------------------
                                                                       Fiscal year
                                       -------------------------------------------------------------------------
                                                                                                       2010 +/-
                                                                         2010       2010 +/- fiscal  fiscal year
                                        2008 Revised  2009 Enacted    President's      year 2009         2009
                                         Enacted \1\       \2\        Budget \3\        enacted        Enacted
                                                                                                      (percent)
----------------------------------------------------------------------------------------------------------------
Departmental Operations \4\...........     $573,983      $644,553         $904,673        $260,120            40
Analysis and Operations...............      304,500       327,373          357,345          29,972             9
Office of the Inspector General.......      108,711        98,513          127,874          29,361            30
U.S. Customs & Border Protection......    9,285,001    11,274,783       11,436,917         162,134             1
U.S. Immigration & Customs Enforcement    5,054,317     5,928,210        5,762,800        (165,410)     <bullet>
Transportation Security Administra-       6,809,359     6,990,778        7,793,576         802,798            11
 tion.................................
U.S. Coast Guard......................    8,631,053     9,623,779        9,955,663         331,884             3
U.S. Secret Service...................    1,629,496     1,637,954        1,709,584          71,630             4
National Protection and Programs            896,476     1,158,263        1,958,937         800,674            69
 Directorate..........................
Office of Health Affairs..............      118,375       157,191          138,000         (19,191)          -12
Federal Emergency Management  Agency..    5,515,178     5,985,805        6,612,287         626,482            10
FEMA: Grant Programs..................    4,117,800     4,245,700        3,867,000        (378,700)          -99
U.S. Citizenship & Immigration Serv-      2,822,012     2,690,926        2,867,232         176,306             7
 ices.................................
Federal Law Enforcement Training            273,302       332,986          288,812         (44,174)          -13
 Center...............................
S&T Directorate.......................      830,335       932,587          968,391          35,804             4
Domestic Nuclear Detection Office.....      484,750       514,191          366,136        (148,055)          -29
                                       -------------------------------------------------------------------------
      TOTAL...........................   47,454,648    52,543,592       55,115,227       2,571,635          4.89
Less Rescission of Prior Year              (124,985)      (61,373)  ..............         -61,373          -100
 Carryover Funds: \5\.................
                                       -------------------------------------------------------------------------
ADJUSTED TOTAL BUDGET AUTHORITY.......   47,329,664    52,482,219       55,115,227       2,633,008             5
                                       -------------------------------------------------------------------------
SUPPLEMENTAL \6\......................   15,129,607     2,967,000   ..............      (2,967,000)  ...........
----------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2008 revised enacted reflects net reprogramming/transfer adjustments for CBP ($2.6 million); TSA
  (-$10.5 million); USSS ($34.0 million); NPPD (-$5.6 million); OHA ($1.9 million); FEMA (-$23.0 million); US
  CIS ($282.167 million); FLETC ($5.636 million) FEMA--DRF to OIG($16 million). Reflects technical adjustments
  to revise fee estimates for TSA Aviation Security--General Aviation Fee ($.050 million); TSA Aviation
  Security--Passenger & Aviation Security Infrastructure Fee ($96.025 million); TSA Transportation Threat
  Assessment and Credentialing--Registered Traveler (-$31.601 million); TSA Transportation Threat Assessment and
  Credentialing--Transportation Worker Identification Credentials ($37.9 million); TSA Transportation Threat
  Assessment and Credentialing--HAZMAT (-$1.0 million); TSA Transportation Threat Assessment and Credentialing--
  Alien Flight School ($1.0 million); and FEMA--Radiological Emergency Preparedness (-$492 million). Pursuant to
  Public Law 110-161 reflects a scorekeeping adjustment for rescissions of prior year unobligated balances from
  USCG--AC&I (-$137.264 million) and a rescission of current-year appropriations for USM (-$5.0 million).
\2\ Fiscal year 2009 enacted reflects technical adjustments to revise fee estimates for TSA--Transportation
  Threat and Credentialing--Registered Traveler (-$10.0 million), TSA--Transportation Threat and Credentialing--
  Transportation Worker Identification Credentials ($22.7 million); TSA--Transportation Threat and
  Credentialing--HAZMAT (-$3.0 million); TSA--Transportation Threat and Credentialing--Alien Flight School ($1.0
  million). Reflects USCG realignment of Operating Expenses funding and Pursuant to Public Law 110-53 reflects
  TSA realignment of funds for 9/11 Commission Act implementation ($3.675 million--Aviation Security, 13.825
  million--Surface, $2.5 million--Support). Reflects a scorekeeping adjustment for a rescission of prior year
  unobligated balances from USCG--AC&I (-$20.0 million).
\3\ Fiscal year 2010 President's Budget reflects the proposed transfer of Federal Protective Service from ICE to
  NPPD ($640.0 million).
\4\ Departmental Operations is comprised of the Office of the Secretary & Executive Management, the Office of
  the Federal Coordinator for Gulf Coast Rebuilding, the Office of the Undersecretary for Management, the Office
  of the Chief Financial Officer, and the Office of the Chief Information Officer.
\5\ Pursuant to Public Law 110-161, reflects rescission of prior year unobligated balances: fiscal year 2008--
  Counter-Terrorism Fund (-$8.480 million); TSA (-$4.5 million); Analysis and Operations (-$8.7 million); FEMA--
  Disaster Relief Fund (-$20.0 million); USCG--Operating Expenses (-$9.584 million); CBP (-$2.003 million); US
  CIS (-$.672 million); FEMA (-$2.919 million); ICE (-$5.137 million); FLETC (-$.334 million); OSEM (-$4.211
  million); USM (-$.444 million); CFO (-$.380 million); CIO (-$.493 million); DNDO (-$.368 million); OHA (-$.045
  million); OIG (-$.032 million); NPPD (-$1.995 million); S&T (-$.217 million).
Pursuant to Public Law 110-161, reflects fiscal year 2008 rescissions of start-up balances: CBP (-$25.621
  million); FEMA (-$14.257 million); Departmental Operations ($12.084 million); Working Capital Fund (-$2.509
  million).
Pursuant to Public Law 110-329, reflects fiscal year 2009 rescissions of prior year unobligated balances:
  Analysis and Operations (-$21.373 million); TSA (-$31.0 million); FEMA--Cerro Grande (-$9.0 million).
\6\ In order to obtain comparable figures, Total Budget Authority excludes:
  --Fiscal year 2008 supplemental funding pursuant to Public Law 110-161: CBP ($1.531 billion); ICE ($526.9
  million); USCG ($166.1 million);
  --NPPD ($275.0 million); FEMA ($3.030 billion); US CIS ($80.0 million); FLETC ($21.0 million).
  --Fiscal year 2008 supplemental funding pursuant to Public Law 110-252: USCG ($222.607 million); FEMA ($897.0
  million).
  --Fiscal year 2008 supplemental funding pursuant to Public Law 110-329: OIG ($8.0 million); USCG ($300.0
  million); FEMA ($8.072 billion).
  --Fiscal year 2009 supplemental funding pursuant to Public Law 110-252: USCG ($112 million).
  --Fiscal year 2009 supplemental funding pursuant to Public Law 111-5: USM ($200 million); CBP ($680 million);
  ICE ($20 million); TSA ($1.0 Billion); USCG ($240 million); FEMA ($610 million); OIG ($5 million).
  --Fiscal year 2009 supplemental funding pursuant to Public Law 111-8: USSS ($100 million).

                           EFFICIENCY REVIEW

    As the Department highlights its spending priorities in this 
Budget, it is simultaneously conducting a bold and far-reaching 
Efficiency Review initiative to ensure that taxpayer dollars are spent 
in the most effective way possible. Efficiency Review encompasses both 
simple, common-sense reforms and longer-term, systemic changes that 
will, over time, make DHS a leaner, smarter department better equipped 
to protect the Nation.
    I launched the Efficiency Review on March 27, 2009 announcing 
sixteen Department-wide initiatives beginning within 120 days, 
including:
    30 Days:
  --Eliminate non-mission critical travel and maximize use of 
        conference calls and web-based training and meetings
  --Consolidate subscriptions to professional publications and 
        newspapers
  --Minimize printing and distribution of reports and documents that 
        can be sent electronically or posted online
  --Maximize use of Government office space for meetings and 
        conferences in place of renting facilities
    60 Days:
  --Implement an electronic tracking tool for fleet usage data to 
        identify opportunities for alternative fuel usage; heighten 
        vigilance for fraud, waste or abuse; and optimize fleet 
        management
  --Conduct an assessment of the number of full-time, part-time 
        employees and contractors to better manage our workforce
  --Utilize refurbished IT equipment (computers and mobile devices) and 
        redeploy the current inventory throughout DHS
  --Leverage buying power to acquire software licenses for Department-
        wide usage (estimated savings of $283 million over the next 6 
        years)
    90 Days:
  --Develop cross-component training opportunities for employees
  --Develop a process for obtaining preliminary applicant security 
        background data for candidates referred for final consideration 
        (savings of up to $5,500 per avoided full background check)
  --As replacements are needed, convert new printers, faxes, and 
        copiers into all-in-one machines (estimated savings of $10 
        million over 5 years)
  --Streamline decision-making processes in headquarters offices to 
        eliminate redundancies
    120 Days:
  --Establish a plan to ensure the DHS workforce has employees 
        sufficient in number and skill to deliver our core mission
  --As replacements are needed for non-law enforcement vehicles, 
        initiate acquisition and leasing of hybrid vehicles, or 
        alternative-fuel vehicles in cases where hybrids are not 
        feasible (estimated mileage improvement of above 30 percent)
  --Maximize energy efficiencies in facility management projects 
        (estimated savings of $3 million a year)
  --Standardize content for new-employee orientation and mandatory 
        annual training modules department-wide.
    I have issued formal guidance to all DHS employees regarding the 
30-Day initiatives, and planning for the remaining initiatives is 
underway. Beyond the first 120 days, Efficiency Review will become a 
central element of budget development and the long term strategic 
vision of the Department.
Progress
    The initiatives strengthened by this Budget would build atop what 
the Department has already accomplished since the start of the new 
administration.
    To secure the border, DHS has launched a major new initiative to 
combat drug, cash and weapons smuggling that support drug cartels in 
Mexico in their efforts against law enforcement. The initiative 
includes hundreds of new personnel at the border and increased 
technological capabilities. These efforts have resulted in significant 
seizures of smuggled items headed into Mexico.
    The Department has distributed $970 million to bolster transit and 
port security. The Recovery Act signed by President Obama contains $1 
billion for the development of new explosives-detection technologies to 
increase safety at transit hubs and public places. To guard against 
terrorism, I signed a new agreement with Germany to cooperate in 
developing new counter-terrorism technologies.
    In terms of increasing preparedness for, response to, and recovery 
from natural disasters, DHS has led the national effort in response to 
and preparedness for the 2009 H1N1 flu outbreak. Furthermore, the 
Department has responded quickly and effectively to severe ice storms 
in Kentucky, Arkansas, and Missouri, as well as to record flooding on 
the Red River in North Dakota and Minnesota. The Department has also 
taken critical steps to speed recovery in the Gulf Coast communities 
still struggling due to Hurricanes Katrina and Rita, including the 
extension of critical programs.
    The Department has also taken important steps toward building a 
single identity and culture. The Recovery Act contained $650 million 
for a new, consolidated headquarters for DHS, which is now scattered in 
buildings throughout the Washington, DC area. In March, I announced a 
moratorium on new branding for DHS components, which will now all use 
the established DHS seal.
    Thank you for inviting me to appear before you today. I look 
forward to answering your questions and to working with you on the 
fiscal year 2010 Budget Request and other issues.

             REDUCTIONS FOR STIMULUS BILL FUNDED ACTIVITIES

    Senator Byrd. Without objection, that will be done, and I 
thank you, Madam Secretary.
    Now, when President Obama worked with the Congress to enact 
the American Recovery and Reinvestment Act, he, President 
Obama, stressed the need to provide funding for programs that 
would create jobs and make long-term investments in the growth 
of the economy. He did not talk about using the stimulus bill 
simply to pre-fund fiscal year 2010 activities.
    Therefore, I was distressed to see that the President has 
proposed to cut, C-U-T, cut funding for over $750 million of 
programs in fiscal year 2010 that we funded in the stimulus 
bill.
    We included funding in the stimulus bill for fire station 
construction, port and transit security, the Emergency Food and 
Shelter Program, for Coast Guard facilities, and for deploying 
checkpoint security equipment at our airports. We argued that 
these investments would create over 5,000 jobs while improving 
security.
    I simply don't understand, no, I don't understand why the 
President, this President, your President, my President, our 
President, has proposed these reductions. I don't understand 
why.
    I cannot fathom reducing funds for the Emergency Food and 
Shelter Program by $100 million when the unemployment rate is 
above 8 percent. You get that? And it continues to go up. I 
cannot fathom reducing fire, port or transit grants by $485 
million when there is a continuing need to improve our 
security. I do not accept the notion that these cuts are 
justified by the availability of stimulus funds which, in most 
cases, were provided for different purposes.
    I have a question for you now and I'm going to listen to 
your answer.
    Will you work with me to identify ways to restore these 
funds?
    Secretary Napolitano. Mr. Chairman, of course we'll work 
with you and your staff on this budget as it moves through the 
process.

                    SECURITY OF CHEMICAL FACILITIES

    Senator Byrd. All right. On August 28, 2008, there was a 
chemical explosion at the Bayer Crop Science Chemical Plant in 
Institute, West Virginia, just outside Charleston. The 
explosion took the life of--the lives of--two workers and it 
sickened several first responders to the incident.
    The explosion occurred in a unit where the chemical company 
makes MIC. MIC is an extremely toxic chemical and most notably 
associated with the catastrophic leak that occurred in 1984 at 
a similar pesticide plant in Bhopal, India, killing over 4,000 
people.
    The West Virginia chemical facility includes a tank that 
can hold up to 40,000 pounds of MIC. That storage tank is 
located 50 to 75 feet, 50 to 75 feet, from the location of the 
August explosion. That's about as far as it is from here to 
your table or just a little bit beyond.
    Needless to say, the explosion caused a resurgence of 
anxiety about the chemical industry in the Kanawha Valley, the 
great Kanawha Valley.
    After the explosion, the company failed to provide critical 
information to first responders about the nature of the 
explosion. In the months, during the months, since the 
explosion, we learned that no one Federal agency is responsible 
for the safety of chemical plants.
    Among the agencies with responsibility are your National 
Programs and Protection Directorate, the Coast Guard, the EPA, 
the Occupational Safety and Health Administration, and the 
Chemical Safety Board.
    Now, this leaves us, it leaves you and me with the classic 
Washington question, who's in charge here? Who is in charge 
here? Can you answer that question? Will you look into this 
matter and see if there's a better way for our Government to 
secure our chemical facilities and investigate accidents; Do 
you care to respond?
    Secretary Napolitano. Yes, Mr. Chairman. Yes, we will look 
into that particular accident and sympathies to the families 
and workers; and first responders involved.
    Second, we are in the process and have been issuing the 
first set of rules governing chemical and chemical storage 
facilities. They're known as CFATs, and working with the 
private sector all over the country on rules that allow us to 
have greater knowledge about what is contained in these various 
plants around the country which have multiple uses, including 
forewarning of first responders as to what they are dealing 
with.
    [The information follows:]
             Accident at Bayer Crop Science Chemical Plant
    There are multiple agencies which Congress has given jurisdictional 
authority over the BCS facility in Institute, West Virginia. Included 
among the Federal Agencies with regulatory oversight are the Coast 
Guard, Environmental Protection Agency (EPA), and Occupational Safety 
and Health Administration. Other Federal agencies have specific fact 
jurisdiction such as the Chemical Safety and Hazards Investigation 
Board which continues to conduct the investigation into the August 28, 
2008, explosion at the facility.
    Which agency serves as the lead Federal agency on a specific issue 
is dependent upon the issue and the facts. This is actually an 
appropriate situation, as it ensures that the organization with the 
necessary technical expertise has the leadership role. For instance, in 
incidents involving the maritime transfer portion of an inland 
facility, the Coast Guard is the logical Incident Commander just as it 
is the logical regulatory agency. For incidents involving the internal, 
non-maritime portion of an inland facility, the EPA is the appropriate 
Incident Commander, just as they are the logical regulatory agency.
    It is especially worth noting that in the case of these two 
agencies there exists a close working relationship and most incidents 
are actually responded to under a Unified Command Structure, in keeping 
with the National Response Framework and National Incident Management 
System precepts. Through a Unified Command, while one organization does 
provide a leading role, the expertise of both are leveraged.

    Senator Byrd. Thank you, Madam Secretary.
    Senator Voinovich.

                          DISASTER RELIEF FUND

    Senator Voinovich. Thank you, Mr. Chairman.
    As you know, the administration has worked hard to break 
the cycle of requesting emergency funding for the wars in Iraq 
and Afghanistan. Yet no one has suggested fixing the way we 
budget for our natural disasters.
    Using a 5-year average and excluding any large-scale 
disasters has condemned us to a guaranteed cycle of using 
emergency supplementals to fund disasters. Last year alone, we 
provided almost $12 billion in supplemental appropriations.
    The budget request in front of us includes $2 billion for 
the Disaster Relief Fund. According to FEMA, just to pay for 
the declared disasters we have on the books today, the Disaster 
Relief Fund needs $5.8 billion in fiscal year 2010, not $2 
billion. That's a gap of $3.8 billion in your request already 
and hurricane season is just around the corner.
    And the question I've got is when are we really going to be 
forthright about putting money aside for disasters because you 
don't have enough money in this budget to take care of the 
commitments that have already been made, and we know probably 
after August some time we'll probably have other requests 
coming in, so that means another emergency supplemental.
    I'd be interested in how you're going to deal with this.
    Secretary Napolitano. Thank you, Senator. You're right. 
This budget request follows a process by which the request for 
the DRF is $2 billion, which is based on a 5-year rolling 
average.
    The practice has been to come in later and get separate 
appropriations that are almost disaster-specific on the theory 
that it is difficult to predict at the beginning in the budget 
process what you're actually going to need by the end of the 
next fiscal year.
    Senator Voinovich. Yeah. But in this particular case, you 
know that it's inadequate right now by $3.8 billion because 
you're already committed.
    Secretary Napolitano. We're more than willing to work with 
you and the committee if there's a better way to fund disaster 
relief, but under the circumstances and given where we stand, 
we thought this was the best thing to put forward for the 
committee's consideration.

           NEED FOR NATIONAL GUARD TO SECURE SOUTHWEST BORDER

    Senator Voinovich. Okay. The House marked up its version of 
the fiscal year 2009 war and pandemic influenza supplemental 
appropriations bill and they put in $250 million for the 
National Guard.
    The question I have is this. Is the National Guard 
essential? This $250 million supposedly goes to the Department 
of Defense and they're going to hire people to go and, I guess, 
work on the borders and we allowed that to happen. I'm sure 
your State was involved.
    The question then was do we need the National Guard until 
we could get the additional border agents onboard. So we have 
now close to 20,000 border agents, and the question is do we 
need the National Guard to supplement our Border Patrol in 
order to secure the border, and if we do, how long are we going 
to need them, and would it be more prudent for us to hire more 
border patrol agents than to put the money into the National 
Guard who, you know, have other responsibilities in their 
respective States?
    Secretary Napolitano. Yes, Senator. Yes, your memory is 
correct. I did call for the National Guard at the border. I was 
the first Governor to do so and that led to the creation of 
something called Operation Jump Start which involved 6,000 
Guard to help with facilities construction, back office work.
    It was designed to really free up Border Patrol officers 
between the ports of entry, so that they could increase their 
interdiction work for illegal immigration. That project lasted 
2 years and it was very helpful and very effective.
    The marker in the supplemental, the $250 million, is to 
give us flexibility to look at whether there's another role for 
the Guard at the border in light of the increased drug-related 
violence in the northern states of Mexico. So that as we look 
at that operation, what options are available to us.
    Without making a final decision, there at least is a 
designated sum that would be available for that.
    Senator Voinovich. So at this stage of the game, you're not 
confident that with the additional Border Patrol agents, you're 
going to be able to tackle the problem that we've got right 
now?
    Secretary Napolitano. I think--I think I would put it 
another way, which is to say that we want to be sure that the 
Border Patrol agents can keep focused on their work between the 
ports of entry and that we may need some back-up capacity to 
deal with this particular situation in Mexico.
    Senator Voinovich. So you may not use the--the Defense 
Department may not use the $250 million if you don't think it's 
necessary?
    Secretary Napolitano. We will--it's a marker. It's to hold 
money so that we have the option to use it, yes.
    Senator Voinovich. Well, I'd like to have you keep us 
informed about what's going on with that, with that money.
    Secretary Napolitano. Pleased to do so. Yes, sir.

                     FUNDING FOR BIOMETRIC AIR EXIT

    Senator Voinovich. We talked about this--I was very much 
involved in the visa waiver legislation and now it's kind of in 
limbo because of the fact that we're supposed to develop a 
biometric air exit, and I noticed that there is no money in 
your budget to implement that program.
    We have two pilot tests that are going to start, one with 
CBP and one with the TSA. I talked to some CBP people. They 
said TSA should do it. We're not interested in it. That's local 
opinion.
    But, what I'm concerned about is that until this is in 
place, this program of visa waiver as I say is going to be in 
limbo, and I'd just like to find out from you when do you think 
that you're going to be in a position to go forward with this 
and if you are, if you don't have any money in your budget, how 
are you going to take care of buying the equipment that you're 
going to need, whether TSA uses it or CBP?
    Secretary Napolitano. Yes, Senator. There are two pilots. I 
believe they are scheduled to terminate in July so that we can 
study what happened.
    In my view, having been at the Department now a hundred and 
some odd days and looking at all of the infrastructure we have 
in place now to keep track of people entering the country, one 
of our large gaps is we have not determined nor paid for what 
it costs when they leave the country and therefore we haven't 
really completed the loop, the system that we need to have, and 
I believe it deserves a kind of more general look than a 
particular budget item.
    So we are--and I've asked the staff at the Department to 
really think about an exit measurement strategy that would be 
affordable and employable. These two pilots, I think, may get 
us there, at least for air exit.
    Senator Byrd. Senator Voinovich, your time is up, but I'll 
give you an opportunity to ask another question, if you wish.
    Senator Voinovich. Well, it's just a follow-up. Please keep 
me informed on this because this is not only for security but 
it's also a big public diplomacy issue and I've talked to the 
Secretary of State about it. A lot of countries want to get in 
and now it's on hold.
    Secretary Napolitano. Yes, sir. Absolutely.
    Senator Byrd. I stated earlier that we would proceed on the 
basis of seniority.
    Senator Murray.
    Senator Murray. Mr. Chairman, I greatly appreciate that 
consideration. Senator Lautenberg has been since 2 o'clock and 
I would defer to him with your acquiescence since he's been 
here so long.
    Senator Byrd. Senator. Thank you, Madam. Senator 
Lautenberg.

                 CUTS TO PORT AND RAIL SECURITY GRANTS

    Senator Lautenberg. First, I want to thank Senator Murray 
for being so gracious. All of us have time pressures, but I 
will not refuse to take the courtesy that she's offered.
    And Madam Secretary, we're pleased to see you. We think 
that you were kind of the ideal person to take this job. You 
may not agree with that after you've been on the job a bit 
more, but we're comforted by your experience and your 
determination. We urge you to continue.
    My State, the State of New Jersey, has a high degree of 
vulnerability. We have a 2-mile distance between the airport, 
Newark Airport, and our very busy Port of New York-New Jersey, 
and the FBI has declared that that's the most dangerous 2-mile 
target in the country for a terrorist attack.
    So when we look at a couple of the cuts that have been 
taken, very frankly, we look at them with a degree of deep 
concern. The administration requests $250 million each--port 
security grants and rail security grants--and that represents a 
38 percent cut from last year's funding.
    The port security grants were provided in the Economic 
Recovery Act and they were intended to supplement funds 
provided through the regular budgetary process, and I, frankly, 
am at a bit of a loss to understand why it's happening, and I 
will not ask you to contradict what's being done, but I would 
bring the fact that we have this vulnerability and in our area, 
9/11 took place. 700 people from the State of New Jersey 
perished that day and we find ourselves, even with the 
responsibility of 9/11 for the creation of the Department of 
Homeland Security, find ourselves somewhat bewildered by this 
choice for cuts. So I'd throw that out to you as something to 
think about and we can talk about some more. I will call on you 
to review it.

                                 PIRACY

    In recent months, there have been a number of pirate 
attacks on U.S. flag ships off the coast of Somalia. The 
Transportation Security Administration requires Federal 
Marshals, Air Marshals, to fly on high-risk international and 
domestic flights, but just yesterday, the Coast Guard announced 
a directive that essentially States that U.S. flagged vessels 
should consider the use of armed private security guards, again 
placing the onus on the security industry.
    You know, when I look at an American flag and it flies from 
a ship, I see that as a piece of sovereign territory. It's the 
kind of ship that brought me home from my service in the 
military and I don't understand why such a distinguished heroic 
figure like General Petraeus says that the private sector ought 
to invest more in its own security.
    If we can't count on the Navy to jump in here at times, or 
other branches of the military to protect our fleets of marine 
cargo, then I think we're suffering from a delusion and I would 
hope that you would kind of agree with us that the--we might 
take on the responsibility of protecting these vessels when the 
cargo they're carrying in this area, oddly enough, is 
humanitarian cargo and military cargo.
    Those are the two--it's almost 100 percent of the cargo 
that's carried there and I don't know how we can turn our back 
on that.
    I would ask whether there's anything that your Department 
would like to add to the understanding of what's taken place. 
Again, I'm not going to press you now on this.

          TRANSFER OF SENSITIVE TECHNOLOGY TO HOSTILE NATIONS

    Your Department's Immigration and Customs Enforcement 
Agency, responsible for helping to prevent the transfer of 
sensitive technology from the United States to hostile nations.
    Now, given Iran's nuclear ambitions, what is ICE doing to 
help stop Iran from having those materials available to it? 
That's the question.
    Secretary Napolitano. That's the question?
    Senator Lautenberg. Yes, indeed. I saved the easiest one.
    Secretary Napolitano. Well, thank you, because I'd be happy 
to respond on the port security grants and others, but we'll 
get--we'll work with you and get you that information that you 
need as the budget moves toward a markup, Senator.
    But we are--we have several initiatives with respect to the 
illegal export of contraband, it would be contraband, to 
countries that can't get it and particularly to Iran and I'd be 
happy to inform you or give you the staffing on how we are 
doing those initiatives, but we've had some success there, I 
must say.
    [The information follows:]
             Cuts to Port Security and Rail Security Grants
    We do appreciate the criticality of the Nation's port and transit 
systems, to include a number of systems within New Jersey. However, we 
believe the monies provided by the American Recovery and Reinvestment 
Act of 2009 (ARRA) will be well utilized by our transportation and port 
partners as they continue to secure our Nation's transit systems and 
ports and build additional capabilities. As the fiscal year 2010 budget 
was developed, we did consider the ARRA funds and where ARRA funds were 
available, and we made reductions on the basis of competing DHS 
priorities.

                     UASI GRANT PROGRAM REDUCTIONS

    Senator Lautenberg. We'll talk to you about that. In pre-
confirmation hearing questions, you said, I quote you, ``I 
strongly support the idea that homeland security grants must be 
allocated in a manner and form by risk.''
    I remind everybody that the 9/11 Commission in its report 
on what took place on 9/11 was very specific. Yet the 
President's request for the Urban Area Security Initiatives, 
called UASI, falls $163 million below the authorized level for 
2010.
    UASI is a grant program totally based on risk and 
consistent with the 9/11 Commission's recommendation. Why are 
we seeing this kind of a reduction?
    Secretary Napolitano. First of all, a couple of things, 
Senator. One is with respect to many of these grant programs, 
not specifically UASI, but there was money in the stimulus bill 
for that.
    Chairman Byrd disagrees that that should be able to be 
counted against the 2010 number, but there was some reasoning 
there.
    Second, you are right. We have adopted within our granting 
process something we call cost of capability, our phrase for 
really evaluating risk, and if you look at the overall grant 
proposals and add them all together, UASI plus all of the other 
grants, you'll see that the Department has actually given you a 
real grant funding number that we think can beneficially be 
used by the recipients this year.
    Senator Lautenberg. Well, will it reach last year's--the 
current budget's--level?
    Secretary Napolitano. It depends on the grantees. I'll 
share with you, Senator, one issue----
    Senator Lautenberg. I'm comforted by that.
    Secretary Napolitano. And one issue we're going to need to 
confront, Senator, is some of the communities are talking to us 
about matches. Most of our grants require some form of local or 
State matching funds and with their budgets stretched the way 
they are, they're looking for waivers of the match. That may be 
something that we need to bring up with the committee at some 
point.
    Senator Lautenberg. Thank you. Thank you.
    Senator Byrd. Senator Cochran.

                        HOUSING CASE MANAGEMENT

    Senator Cochran. Mr. Chairman, I'm pleased to join you in 
welcoming the Secretary to this subcommittee hearing to review 
the budget request of the Department of Homeland Security.
    Madam Secretary, I was very pleased that one of your first 
initiatives was to visit the gulf coast areas that were so 
severely damaged by Hurricanes Katrina and Rita. I know that 
Governor Haley Barbour appreciates your attention to the 
problems that remain in Mississippi and Louisiana, in 
particular, which continue to suffer from the serious need to 
rebuild and recover from this terrible disaster.
    We look forward to working with you and the Department to 
help ensure that the continuing needs in the gulf coast region 
are met.
    I have a few questions, some of which I will submit for the 
record, but I would like to specifically express my 
appreciation to FEMA and the Department for the assistance it 
provided through the Disaster Case Management Pilot Program for 
Temporary Housing.
    This program has helped non-profit organizations in our 
State reduce the number of families remaining in temporary FEMA 
housing due to Hurricane Katrina from nearly 8,000 in August of 
2008 to just 2,000 today.
    But in the case of these Hurricane Katrina victims, housing 
case management continues to be required to assist some 
families in returning to permanent housing. I hope you will 
work with our Governor and help explore the possibility of 
further Federal assistance for this purpose.
    Secretary Napolitano. Senator, yes, we are working with 
both States on this. This is the last remaining portion of FEMA 
housing associated with Katrina.
    FEMA has actually placed well over 100,000 families now and 
between the two States, there are about 5,000--maybe a few 
more--left. Each of the families has had opportunities or 
options presented to them for a substitute for the FEMA 
housing. We have offered, as well, to Louisiana.
    I don't know about Mississippi. I'll follow up, but I know 
we offered Louisiana case workers, whether they needed money 
for more case workers because the case management is supposed 
to derive from the State offices, not from the Federal offices. 
Louisiana turned down that offer.
    So we proceed, but, unfortunately, while my sympathies go 
to these remaining, last remaining, occupants of the FEMA 
housing, it is several years past the actual deadline that was 
supposed to be closing and it's time now to begin closing this 
chapter.
    [The information follows:]

    In July 2008, FEMA approved the State Mississippi Disaster 
Case Management Pilot Program proposal and granted funding. The 
Mississippi Case Management Consortium is administering this 
program on behalf of the State of Mississippi. The original end 
date was March 1, 2009, but FEMA granted a 3 month extension 
until June 1, 2009. FEMA recently approved Mississippi's 
request to extend their Disaster Case Management Pilot Program 
until August 1, 2009.

                    ASSISTANCE TO FIREFIGHTER GRANTS

    Senator Cochran. On another subject, I want to bring to 
your attention or invite your attention to the strict training 
and certification requirements that are placed on fire 
departments who wish to apply for assistance to firefighters 
grants.
    It leaves small volunteer fire departments with little 
ability to compete for these funds. These are primarily rural 
departments providing service which are in areas where there's 
far more land area. They're often in more need of resources 
than their urban counterparts.
    In our State, professional fire departments are even 
advocating for resources to help the volunteer departments in 
outlying areas because cooperation with these departments is 
often critical to their successful missions.
    If you believe that the current distribution of assistance 
to firefighter grants is inequitable or should include 
volunteer fire departments, I hope you will explore something 
akin to a set-aside that would allow the use of these funds and 
grants to send those firefighters to training sessions with the 
more urban and better-organized professional fire departments.
    Secretary Napolitano. Well, thank you, Senator. That's the 
first time I've heard that suggestion made and it's an 
interesting one and we will pursue it.
    Senator Cochran. Thank you very much.
    Senator Byrd. Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    Let the record show I offered Senator Tester to go ahead of 
me. He declined. I think he has something back in his office he 
doesn't want to do, but he graciously said no.
    Senator Tester. Just wanted to hear your question, Senator.
    Senator Murray. Yeah.
    Madam Secretary, thank you so much for being here today.
    First of all, before I ask my questions, I do want to say 
to you that you have some great people working in your agency, 
from Coast Guard to FEMA folks. We've had a lot of weather-
related disasters in my State and these people have saved lives 
and been there time and again. So I just want to remind all of 
us that some really amazing people work for you and they make 
huge differences in our States and I appreciate it.
    Secretary Napolitano. Thank you.

                     PACIFIC NORTHWEST NATIONAL LAB

    Senator Murray. I did want to start by thanking you for 
finally budgeting some adequate levels of funding for the 
Pacific Northwest National Lab which is in my State. The 
Department has a large portfolio of research and touches on 
almost every aspect of your Department's priorities, from cargo 
import security to border security projects. And, 
unfortunately, PNNL has had to build some new facilities or 
modify some of their current ones at the 300 area at the 
Hanford Nuclear Reservation to accommodate about 600 staff who 
are going to be forced out of the current offices that they're 
in in order to accommodate the clean-up that is ongoing at 
Hanford.
    Any disturbance of those facilities or disruption of the 
construction schedule will have a significant impact on those 
agencies that are under your jurisdiction.
    So because of that, DHS, Science and Technology, signed a 
memorandum of understanding with DOE to budget funding for PNNL 
and every year we have had to fight DHS and this year we did 
not. Thank you very much for including that in your budget.
    Our Chairman has been most generous to provide it within 
our appropriations process here, but I appreciate that and I 
hope I have your commitment to continue to budget that $12 
million for the PNNL (Lab) in the budget you sent us.
    Secretary Napolitano. Yes.

                             2010 OLYMPICS

    Senator Murray. Thank you very much. The second topic I 
wanted to bring up was the 2010 Olympics and the Northern 
border.
    The Winter Olympic Games are going to be held in Vancouver, 
British Columbia. It's less than a year away. We've got 7,000 
athletes from 80 countries who are going to be participating. A 
quarter million people will be attending those games. We have 
about 10,000 reporters and members of the media who are going 
to be there to report and televise that, up to about 3 billion 
people.
    These games are obviously in Canada, but I think most 
people don't realize how significant that is to my State of 
Washington. The distance from downtown Vancouver, which is 
central to the games, is about--to our border--is about the 
same distance as Salt Lake City to Park City during the 2002 
Olympics. So we've been very involved in the key transportation 
planning and the security planning relating to that.
    And I also need to mention that Whatcom County where the 
border crossing is the third busiest crossing with Canada, 
which is our largest trading partner. We've had the Department 
and representatives from DHS, Customs and Border Protection, 
Immigration, Customs Service, everybody, Secret Service, FEMA, 
been working with our State for a long time on preparing for 
this and last year our chairman was very supportive in funding 
the 2010 Olympics Coordination Center in Bellingham, 
Washington, which is right on the border and I am happy to see 
that--to tell you today that project is going well and we are 
working very hard to make sure we've got the security in place 
for a very significant event in less than a year away.
    I just wanted to remind us of all of that and your 
Department, your agencies, that will be involved, and I extend 
to you a visit, extend to you a warm invitation to come and 
visit the Northern border, specifically, as we prepare for the 
2010 Olympics to see the challenges that we have for that.
    Secretary Napolitano. Well, thank you, Senator, and that 
would be a lovely invitation to accept, particularly for August 
in Washington, DC, I suspect.
    Senator Murray. Perfect time.
    Secretary Napolitano. But we are, and do have personnel 
that are, working on both sides of the border in preparation 
for the games. So we definitely have it on our radar screen.
    Senator Murray. Okay. And we talked with Secretary Chertoff 
before about maintaining that coordination center following the 
Olympics. So I'd like to have a conversation with you in the 
future about the possibility of doing that, as well.
    Secretary Napolitano. Absolutely.
    Senator Murray. Okay. Well, we will have much more to talk 
about as that gets closer, but I just wanted to make sure that 
we're still on your radar.
    Secretary Napolitano. Absolutely.

                  COAST GUARD'S ICEBREAKER POLAR STAR

    Senator Murray. The final question I wanted to bring up was 
I was disappointed to see that the President's budget didn't 
contain the second half of the funding required to retrofit the 
Coast Guard Icebreaker Polar Star. Two of the Coast Guard's 
icebreakers, Polar Star and Polar Sea, have now exceeded their 
30-year intended service lives and Polar Star's now not 
operational and it's been in caretaker status since 2006.
    The third icebreaker, the Healey, is primarily a research 
vessel and doesn't offer the same capabilities as the Polar Sea 
and Polar Star.
    We are watching as Russia and Canada and Norway and other 
countries have invested a lot of money right now in their ice-
breaker capabilities. Not surprisingly, the changing global 
climate has increased the possibilities of a vessel like this 
with oil and gas exploration and a lot of research that's very 
important, and I'm very concerned that if the United States 
doesn't have the proper tools and doesn't have a presence, we 
are going to be behind a lot of people very quickly.
    I know that the Coast Guard Commandant Allen has been very 
forceful about this need and--last year, in fact, Congress 
appropriated $30.3 million of the about $63 million, so about a 
half of it, to retrofit the Polar Star. So I was surprised to 
see that the Coast Guard didn't include any of the funds in its 
spending plan for the Recovery Act or in the budget to finish 
this project and wondered if you could respond.
    Secretary Napolitano. Yes, and we can get back to you with 
further detail on that, but the view is with the additional 
money that the Congress appropriated last year and the backed-
up funds that that retrofit--it's in dry dock right now.
    Senator Murray. Correct. And it's ongoing.
    Secretary Napolitano. While we examine more generally, 
Senator, what is needed for that capacity for the Coast Guard 
moving forward and rather than rush that decision process which 
is a long-term capital process for the Coast Guard, we are 
really looking at what is, in light of all of the myriad 
missions the Coast Guard is being asked to perform, what we 
should come to the Congress for in the 2011 budget.
    Senator Byrd. Senator Brownback.

                                  NBAF

    Senator Brownback. Thank you, Mr. Chairman.
    Welcome, Secretary, glad to have you here. Got a big job 
and Godspeed to you on getting it done.
    I want to talk with you about two areas, if I can do that 
in the time I've got on the NBAF facility that the DHS and USDA 
will be doing, constructing in Kansas and then also on flood 
map.
    I was looking. We obviously want to get this facility 
moving forward. I know you want to get this facility moving 
forward. The zoonotic diseases keep coming. The H1N1 is a 
zoonotic disease. So we want to move this forward as fast as we 
can, yet we've got this kind of dance we've got to do on the 
movement on Plum Island and then the money to be able to move 
this on forward.
    I was looking in your budget and I wanted to get this--make 
sure I'm clear on this and just to clarify on this--because it 
comes to my attention in the CBO baseline score, the sale of 
Plum Island in fiscal year 2015--2015--and if that's the case, 
it will be a large problem to be able to get the offsetting 
collections by 2011 to start the funding on the construction of 
the facility.
    So to clarify for this committee and for the CBO, do you 
intend to sell Plum Island in calendar year 2010 and use the 
proceeds from this sale as an offsetting collection for the 
funding of the construction of the NBAF in fiscal year 2011?
    Secretary Napolitano. Senator, again I'll get back to you 
on that. I don't know if we are dependent on the sale of Plum 
Island in 2010, but what we are trying to do is make sure that 
there is a funding stream for NBAF so that as the State of 
Kansas puts in its own resources that facility continues.
    We are still awaiting--I think it's a GAO report about 
moving the facility with respect to one or two of the diseases 
on to the mainland as opposed to Plum Island. We expect that 
shortly. Everybody that looked at that issue has concluded that 
that shouldn't be a problem and that Kansas is a very good 
place to place the NBAF facility.
    But some of those things have to happen, as well. So we're 
working on the funding stream and making sure we take care of 
any safety concerns that might arise.
    [The information follows:]

    Using the authority granted by Congress in the fiscal year 2009 DHS 
Appropriations Act (Public Law 110-329), the Department is working with 
the General Services Administration (GSA) to sell Plum Island. GSA 
expects to put the island on the market in fiscal year 2010 with a 
final sale and closing date in fiscal year 2011. The sale proceeds will 
be an offsetting collection to the appropriation for National Bio and 
Agro-defense Facility (NBAF) construction and all other associated 
costs including Plum Island environmental remediation. The Science and 
Technology (S&T) Directorate plans to request an appropriation in 
fiscal year 2011, the fiscal year in which S&T plans to sell Plum 
Island, as well as begin construction of the actual building that will 
house the NBAF.

    Senator Brownback. Okay. And if you could get back to 
myself, more importantly to CBO, because of the way that 
statute is written, so that we do have a funding stream to move 
forward in 2011 and maybe just to get at that, I noticed in the 
budget tables for future year expenditures for NBAF 
construction, you lumped the 2011 to 2014 into the same column 
and I know this is a lot of detail, but I do want to get it out 
because it's a very particular issue on NBAF.
    Just to clarify, do you intend to budget the entire $584 
million for the 2011 fiscal year budget for NBAF, do you know? 
Are you familiar with that particular line?
    Secretary Napolitano. I'm very familiar with NBAF because 
of our conversations and some meetings I had in Kansas earlier 
this year. It depends, sir, on a number of things whether we 
actually plug that full number in 2011 or not.
    So what I would like to do is keep you and your office 
informed as we move along as we're keeping the State of Kansas 
informed, as well.
    Senator Brownback. Okay. Just obviously I think it is 
something that matters, has some urgency to it, needs to move 
forward as quickly as we can. The State is prepared to move 
forward, is moving forward as rapidly as it can, and so to the 
degree that the agency can move forward and make decisions on 
this, it'd be, I think, to the security of the country a very 
high-priority item, but also I think it can move forward on a 
good basis, on a rapid basis, so we can get the facility up and 
going.
    Secretary Napolitano. Senator, I couldn't agree more. We 
actually have a team of people working with the State of Kansas 
and all the players on this particular project. So we've made 
it a high priority within our department, as well.

                             FLOOD MAPPING

    Senator Brownback. Good. Thank you very much.
    I also want to note to you, and this is a flood map issue, 
that actually I would think being from Arizona you would 
recognize this and the reason I raise it is it's coming up in 
my State but I gotta think it's coming up in a lot of places.
    Garden City, Kansas, has just been told that there's a 
region in their city where 800 to 1,000 are now in the flood 
plain that haven't been in the flood plain previously. It's in 
the western part of the State, fairly dry, too often very dry, 
and they built two drainage ditches in the city to connect with 
a dry river that doesn't have water in it, and for four 
different iterations of flood insurance maps they've not said 
this is in a flood plain and now they're saying that it is.
    And the odd thing is if they hadn't been responsible and 
built the manmade drainage ditches, it wouldn't be in a flood 
plain. So I've said to them, ``Well, I guess we should fill in 
the drainage ditches. Is that the idea?'' Well, no, you'll 
probably get more flooding. I said, ``That's my whole point. If 
we hadn't been responsible, we wouldn't be in the floodplain 
and now you're making us do this,'' and I can't imagine there 
aren't really quite a few cities in the country that are 
getting caught in a fairly similar situation, that being the 
same sort of--you get a heavy rainfall--event. It's a fairly 
flat area. Okay. This is going to flood and you're looking at 
it, going it hasn't flooded in several hundred years and it's 
drier now than it's been.
    I would ask you, if you could, or have your office to look 
at this because this is going to cause us quite a bit of 
additional expense for my city and I really think it's probably 
going to affect a fair number of cities from Kansas on west 
that get into a semi-arid region and then get caught in this 
zone of, well, it might be a flash flood that will happen, and 
then they have to buy the flood insurance where they haven't 
ever had to any time previously and for prior iterations of 
flood insurance maps.
    We'll get you some more specifics on that. If you could 
look at it, it would be really appreciated.
    Secretary Napolitano. Senator, I'm familiar with that--I 
became familiar with that issue as the Governor of a State not 
known for rain and yes, we will keep you informed on that.
    I just want to say, however, that those--the mapping 
process that is being used, our direction is use the best 
science available to make these determinations and that will 
guide us as we move forward, but then we have to temper that 
with what people are actually seeing, experiencing, and all of 
the rest.
    So we will look forward to working with a number of members 
of the Congress and of the Senate on this issue. It's been 
raised by several.
    Senator Brownback. Thank you. Thank you, Mr. Chairman.
    Senator Byrd. Thank you. Thank you.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    Thank you, Secretary Napolitano, for being here. Senator 
Byrd, I want to tell you it's a real pleasure and honor for me 
to serve on this subcommittee with you.
    Senator Voinovich, I serve with you on Homeland Security 
and that, too, is an honor and I look forward to serving with 
you on this committee, too.
    Secretary Napolitano, I see that you have Sarah Cuban on 
staff. Is she doing a good job?
    Secretary Napolitano. Excellent job, Senator.
    Senator Tester. Well, good. Then we don't have to deal with 
that budget line item.
    Madam Secretary, as----

                        SOLE SOURCE CONTRACTING

    Senator Tester. As we try to help to ensure that the 
American people are kept safe, we also need to protect their 
tax dollars. When we talk about IT initiatives with the things 
that we buy in the name of homeland security, it is easy to 
lose track of our needs to be smart about how we spend our tax 
dollars.
    In our conversations, you have always acknowledged that 
balance. I appreciate that, and I appreciate your interest in 
trying to do right by the taxpayer in a very difficult job.
    However, I do have a number of questions. Stemming from a 
recent conversation, these won't come as a surprise to you. 
They deal with small business.
    I understand the need to move recovery dollars to the 
ground very quickly. However, I am concerned that the decision 
to use existing no-bid sole source contracting to begin 
planning and design for reconstruction of land ports of the 
entry from Canada to Montana in particular sent the wrong 
message signal to small businesses interested in this work.
    As you know, I have talked about it is vital to the 
Recovery Act work, as well in rural America as it does on the 
coasts.
    With that concern in mind, what is the Department doing to 
ensure that interested small businesses are aware of the 
subcontracting opportunities that may be available on some of 
this work?
    I understand that there are small businesses, small 
business subcontracting requirements. How is the Department 
going to ensure compliance? And one of the real good efforts 
underway in tracking recovery dollars is that the agencies are 
required to track how the dollars are spent. Should prime 
contractors be disclosing publicly how they are sharing the 
wealth on some of these contracts?
    Several questions. Have at it.
    Secretary Napolitano. Thank you, Senator. Yes, this 
involves the Recovery Act monies for construction and 
improvements on land ports,----
    Senator Tester. Yes.
    Secretary Napolitano [continuing]. And you're right, in the 
effort to get that money out quickly, it went to general 
contractors, basically who had done work before and were known 
quantities.
    But the requirements do include the requirement to 
subcontract because we're focused on jobs, job creation in the 
areas where those ports are going to be. We are going to be 
monitoring that very closely. We're going to be making 
information available to small businesses through the Internet 
and other sources so that they can apply and compete for those 
subcontracts and other channels, as well, and then, yes, we are 
making our process in terms of what we're spending those 
Recovery Act dollars very, very transparent and posting them on 
our website, among other things.
    Senator Tester. I need to be clear that I think we need to 
get the most bang for the buck and we need to be competitive, 
but is there something your department's doing specifically 
with the prime contractors to encourage them to use local 
contractors when the bid is competitive?
    Secretary Napolitano. We have a direct connection. We're 
actually putting together a joint office with CBP and GSA 
together, working on these and other port projects, so that we 
have direct connect with the generals, general contractors.

                        TSA ACQUISITIONS PROCESS

    Senator Tester. Okay. I have a TSA question. I will leave 
it to you to decide whether or not the Screening Partnership 
Program is the best bang for the taxpayer buck.
    However, the inability of TSA to follow through on the 
acquisitions process indicates a need to reform within this 
agency. There are seven airports that have waited 15 months. I 
would really like a commitment from you or at least a 
commitment to investigate what's going on here.
    The contract for security at these seven airports in 
Montana will be awarded, it's scheduled on June 7. I was told 
last night, as a matter of fact, that no way that's going to 
happen. We have been put off several times before. It's costing 
us a lot more money than if we just put the contract out and 
get somebody to do it that really does it.
    Can you make me any sort of--give me any sort of vision or 
commitment on what the process is going to be there? And I know 
this is a big agency and this is a small thing, but it's a big 
thing to me.
    Secretary Napolitano. No, I can understand why. Of course, 
I'm going to get a commitment from TSA not to call Senators or 
committees the day before my hearing.
    Senator Tester. No, no, no. They----
    Secretary Napolitano. I'll start there. But in any event, 
no. Senator, I will look at this directly. We'll follow up 
directly with you. We'll see what we can do.
    [The information follows:]

    The Request for Proposals for seven airports in Montana was 
released February 7, 2009. Proposals were received March 19 and 
reviewed. The Office of Acquisitions' estimate for Montana contract 
award is at the end of July. All seven airports included in the RFP 
currently have commercial service with security screening provided by 
TSA's National Deployment Office (NDO). TSA is committed to providing 
security screening until the contractor is able to provide screening 
operations.

    Senator Tester. TSA didn't call me, actually. It was----
    Secretary Napolitano. Oh, somebody else.
    Senator Tester. Exactly right. That was in the know. So 
thanks.
    Senator Byrd. Senator, is that satisfactory?

                            US-VISIT PROGRAM

    Senator Tester. All right. On another topic, I'm deeply 
concerned how DHS has done with procurement on IT ventures, 
kind of rolling back over the last few years.
    The US-VISIT Program was originally supposed to cost $3 
billion. To date, GAO can't tell us what the actual cost is 
going to be because it's far from full operating capacity.
    Can you give us any insight there on what's going on with 
the Visit Program and if it's effective and if there is a light 
at the end of the tunnel as far as how much it's going to cost?
    Secretary Napolitano. Senator, that's one of the areas that 
we're looking at and drilling down deeply on now, not just in 
terms of what's already happening and what it's costing our US-
VISIT but where is the light at the end of the tunnel, and I 
don't think it would be appropriate for me to answer that 
question now because I don't know the answer. We're still 
looking at it, but we'll get back to you.
    [The information follows:]

    Insight on the US-VISIT program, if it's effective and if there is 
light at the end of the tunnel as far as how much it's going to cost?
    For fiscal years 2004 through 2009, US-VISIT has been appropriated 
$2.18 billion. These funds have been effectively managed. US-VISIT has 
delivered biometric entry screening capabilities to our air, land, and 
sea ports of entry on time and within budget, and not only meeting but 
actually surpassing performance expectations. These nationwide 
deployments of cutting-edge biometric technologies have resulted in a 
number of significant achievements.
    Success of the system has been proven with sustained positive 
performance. US-VISIT has screened more than 100 million travelers 
applying for entry to the United States since its inception, and it has 
provided homeland security decision makers on the front lines 
information with which to take adverse actions against more than 5,000 
travelers seeking entry into the United States. US-VISIT has also 
supported the Department of State in preventing visa applicants from 
obtaining visas through deception or fraud.
    Over time, US-VISIT has transitioned from a program that supports 
the screening of international travelers entering the United States to 
a more robust program that supports a wider array of Federal agencies 
engaged in supporting the Department of Homeland Security (DHS) 
mission. Some examples of other DHS efforts US-VISIT supports include:
  --The U.S. Coast Guard and its ``biometrics at sea system,'' which 
        has reduced illegal migration from the Dominican Republic to 
        Puerto Rico by 75 percent.
  --Immigration and Customs Enforcement's Secure Communities 
        initiative, which will greatly enhance immigration enforcement 
        by using technology to automate sharing with law enforcement 
        agencies and by applying risk-based methodologies to focus 
        resources on assisting all local communities to remove high-
        risk criminal aliens.
    Because biometric exit will most likely be the highest cost factor 
to the program, US-VISIT has undertaken substantial testing, planning, 
and analysis of biometric exit. US-VISIT has conducted prototype 
testing of possible air, land, and sea exit scenarios, with a second 
round of air exit pilots now underway in Detroit and Atlanta. The 
Department will use the results of these pilots to inform deployment of 
Air/Sea Biometric Exit. A second round of land exit pilots is planned 
for later this year to help identify the best approach to exit at the 
land ports.
    DHS will not submit appropriations requests until the Department is 
certain it has identified a viable path forward for implementing 
biometric exit in the air, sea, and land environments. Future funding 
requests for biometric exit will be produced during the formal 
Administration budgeting cycle as appropriate.

    Senator Tester. Well, I appreciate that. I've got some 
other questions we can put into the record for the Secretary, 
but I just want to echo something that many other people said 
before.
    You've got a big job. There's a lot of money that hits the 
ground that, quite frankly, if we can hold some folks 
accountable, and I will be the first and I hope I don't hurt 
anybody's feelings in this room, but I'm going to tell you some 
of the big contractors, I don't think we're getting the bang 
for the buck for, and they need to step up to the plate and be 
accountable for what they're doing and, quite frankly, I think 
that if the small contractors were in there being able to get a 
piece of the pie, not only would we get better work but it'd 
bring the big guys around and say, you know what, we gotta be 
competitive, we've gotta make sure we deliver, and it's a big 
agency and I don't envy your position, but I will tell you 
this. If there's one person in the Obama administration that 
can run an agency like I think it should be run, it's you.
    So thank you very, very much for your public service and 
very good luck to you in running this very important agency.
    Secretary Napolitano. Thank you, Senator.
    Senator Byrd. That's a great compliment.
    Secretary Napolitano. That was very nice. Thank you. And we 
will follow up on all of those matters.

                     DECLARATION OF MAJOR DISASTER

    Senator Byrd. All right. Madam Secretary, West Virginia, 
with its mountainous terrain, floods occur, unfortunately, all 
too often. Nearly a year ago, Governor Joseph Manchin requested 
the declaration of a major disaster for the State of West 
Virginia in response to heavy rains and high winds that 
resulted in severe flooding in many areas of the State.
    Inconceivably, inconceivably, it took nine days for the 
disaster to be officially declared. Critical Federal assistance 
to victims who were facing immediate hardships needed to be 
made available as quickly as possible. Each day the funds were 
held up resulted in real suffering for many families and small 
business owners.
    May I have your commitment that you will do everything in 
your power to ensure that such unnecessary delays will not 
occur again, particularly with regard to the most recent 
request received from the State of West Virginia?
    Secretary Napolitano. Mr. Chairman, yes, we are doing 
everything we can to eliminate unnecessary delay in that grant 
process. It goes, of course, from the field to FEMA to me to 
OMB to the White House and we have been able to turn around 
declarations very rapidly in my tenure as Secretary. We will 
continue to work to improve even on that record.

                        SOUTHWEST BORDER FENCING

    Senator Byrd. All right. Do the best you can do, do the 
best you can.
    Since fiscal year 2007, Congress has provided over $3 
billion, that's $3 for every minute since Jesus Christ was 
born, Congress has provided over $3 billion to construct 670 
miles of fencing and other barriers on our Southwest border and 
to deploy cameras, radar, and sensors.
    Madam Secretary, in your opinion are the fence and new 
technology working?
    Secretary Napolitano. Senator, we have and intend to 
complete the fencing that the Congress has appropriated for. We 
are now deploying the first major stretch of what is called SBI 
net which is virtual fencing. It will go on the Mexico-Arizona 
border.
    There were, as you remember, some glitches and significant 
problems with that technology. It was not operationally 
interfaced with our Border Patrol agents. It now is. Those 
towers are now going in. The environmental issues have been 
addressed and the like. So we have fencing. We have virtual 
fencing.
    We have and will have 20,000 boots on the ground, among 
other things, and so what we're seeing now, Senator, is the 
numbers of illegal crossings going down and it's been going 
down fairly significantly over the last 2 years.
    I think that's partially due to these enforcement efforts 
and probably partially due to the American economy, as well, 
but we have, in my view, a process and are embarked on a plan 
that gives us operational control on that Southwest border and 
it's very different down there now than it was, say, 8 or 10 
years ago.

                    ASSISTANCE TO FIREFIGHTER GRANTS

    Senator Byrd. I am disturbed, Madam Secretary, by the 
proposed cut in funding for our firefighters. The budget 
request proposes a major shift in the distribution of grants to 
firefighters. It significantly reduces the funding for 
equipping and training our firefighters and it significantly 
increases the amount for hiring firefighters.
    Now, this is a question I ask of you. Was the decision made 
based on risk, on need, or effectiveness of the programs?
    Secretary Napolitano. Yes, Mr. Chairman, and if I might, 
let me explain how we arranged that or how we looked at the 
grant process for fire.
    Senator Byrd. All right.
    Secretary Napolitano. We have the grant program that is--
was funded in the Recovery Act. That is for the construction of 
fire stations. That's the same program that they use for 
equipment and training and then you have another grant program 
that's used to actually hire firefighters or retain 
firefighters. It's a personnel program.
    There was money in the stimulus act for fire stations and 
there has been money appropriated before for equipment and 
training. Our exploration and consultation with localities was 
that, in this day and age of very tight, tight budgets, they 
preferred money to actually pay for personnel, for salaries, 
because they didn't want to have to lay people off and so we 
rearranged the budget to reflect that priority.
    Senator Byrd. Thank you. Senator Voinovich.

                                 SBINET

    Senator Voinovich. Thank you, Mr. Chairman.
    The U.S. Customs and Border Protection is working to finish 
the pedestrian and vehicular fence along the Southwest border, 
and what I'd like to know is what further tactical 
infrastructure projects are going to be needed, roads or 
pedestrian fence and so forth that have been identified that 
need to be undertaken.
    I think it would be worthwhile for you, I'd like to have it 
and I'm sure maybe the chairman would, to tell us just where we 
actually are in fulfilling the strategic plan to secure the 
border in terms of the physical things that need to be done.
    We've had lots of problems with this SBInet Program, on-
again/off-again, and the real question for you is: do you have 
enough in this budget to take you as far as you need to go and 
once you've gone that far, what more are you going to need in 
future budgets to get us in a position where you can tell the 
American people we've done the job that you expect us to do to 
secure the border?
    Secretary Napolitano. Senator, in--we have enough in this 
fiscal year 2010 request to do what I believe we need to do at 
the Southwest border, particularly given that we have plussed-
up for some equipment, personnel and things, such as K-9 teams, 
to help us on the Southwest border on our initiative to begin 
looking at southbound trafficking.
    If we have a particular need this year on sort of a surge 
sort of theory, I believe I have enough resources in my back 
pocket in order to deal with that, as well. So I'm very 
comfortable with the fiscal year 2010 budget request for CBP.
    Now, the harder question is what's the end goal? When can 
we say we're done? And we are, and I am, relooking at that now. 
There was some work done on that by the prior administration. I 
want to take an independent look at it, based on my own 
experience, and I'm doing that work right now.
    I will close with one final thought, however, Senator, 
which is this. One thing I think we need to avoid is backing 
off of our work on the border because numbers are going down, 
apprehensions are going down and the like. This is precisely 
the time when we should keep at our current efforts, keep at 
everything that we're doing and then estimate and plan that 
we're going to have to sustain these efforts over time.
    Part of the problem at that border historically has been 
there's a lot of money put in 1 year and then the next year 
there wasn't and there was no continuity and one of the things 
that we're going to have to have is a sustainment and 
continuity.
    Senator Voinovich. Well, there's been a lot of speculation 
about are we having less people coming across the border 
because our economy's in the tank. Are there people here that 
have worked and are now going home? I mean, there's----
    Secretary Napolitano. Lots.

                         COORDINATION WITH DOJ

    Senator Voinovich [continuing]. A lot of questions that you 
can ask about what's impacting on people's behaviors. So I 
think that's something that we have to be guarded against. The 
point you're making is let's stay with it, stay the course and 
get the job done the way it's supposed to be done.
    One of the things around here that bothers me is that so 
often we look at things in silos and you got the Justice 
Department involved. There's that wonderful program we talked 
about in the office where they bring people in, hold them and 
book them and charge them and it seems that once that's done, 
they usually don't come back because if they do, they're going 
to be arrested for something significant.
    Secretary Napolitano. Operation Streamline, yes.
    Senator Voinovich. Right, yeah. And have you looked at the 
other budgets that are impacting on yours to make sure that 
they're up to snuff in terms of what you think needs to be done 
there? Do you coordinate with these folks at all and talk about 
that? Do you have a special group that meets together?
    Secretary Napolitano. The Attorney General and I have met 
together because that's really the closest phase of interaction 
on a lot of these things, and we're working on trying to break 
down some of the silos that still exist.
    For example, there are memoranda of understanding, some of 
which date back to the mid 1970s, about what kind of legal 
authorities ICE, INS really, the predecessor to ICE, has in 
investigations and if they turn up drugs in the context of a 
human smuggling ring and the like, and the Attorney General and 
I are working to revise those memoranda to reflect modern day 
reality where everything is interrelated and law enforcement 
needs to be interrelated, as well.
    Senator Voinovich. If you think that there is some more 
that needs to be done, you know, in terms of the Justice 
Department, I think you ought to let us know about that in 
terms of our consideration, in terms of their budget.
    Secretary Napolitano. Thank you.

                                E-VERIFY

    Senator Voinovich. E-Verify. The Appropriations Committee 
uses E-Verify, Homeland Security uses E-Verify, but Federal 
contractors are still not required to use E-Verify.
    Is the rule to require Federal contractors to use E-Verify 
going to go into effect on June 30 or is it going to be delayed 
again?
    Secretary Napolitano. My understanding is it's not complete 
there. I do not know the answer. I can say, however, that I 
believe E-Verify is an important part of our ongoing 
immigration enforcement to make sure that employers are hiring 
those who are lawfully qualified to work within our country.
    I was--when I was Governor, I signed probably the Nation's 
toughest employer sanctions law and it pushed employers into 
the E-Verify system, incentivized them to use it, and it's no 
surprise that a quarter of the employers of the whole country 
that are on E-Verify right now are Arizona employers.
    I've seen it work. I used it as a Governor. We intend to 
make it, like I said, an integral part of our ongoing workplace 
enforcement.
    Senator Voinovich. Thank you, Mr. Chairman.
    Senator Byrd. Senator, you made the remark ``up to snuff.'' 
Are you talking about Copenhagen?
    Senator Voinovich. Pardon me?
    Senator Byrd. Are you talking about Copenhagen?
    Senator Voinovich. No, I'm not talking about--I think, 
Senator, you understand what that means. Maybe some people that 
haven't been around as long as you have don't understand that, 
but we sure do know what that means.
    Secretary Napolitano. Skoal.
    Senator Byrd. Would you say that again?
    Secretary Napolitano. Skoal. It's another brand.
    Senator Byrd. Madam Secretary, I thank you for your 
testimony today.
    We plan to mark up our fiscal year 2010 bill in mid-June. 
Therefore, it will be essential that we receive responses to 
our questions for the record by May 27.
    Do you have anything further, Madam Secretary?
    Secretary Napolitano. Mr. Chairman, did you say May 27?
    Senator Byrd. Yes, I did.

                     ADDITIONAL COMMITTEE QUESTIONS

    Secretary Napolitano. Mr. Chairman, we will do everything 
humanly possible to meet your requirements and your deadline.
    Senator Byrd. Very well. I thank you, Madam Secretary.
    Senator, do you have any closing remarks?
    Senator Voinovich. No, I haven't.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

             Questions Submitted by Senator Robert C. Byrd

                        Departmental Management
                              acquisitions
    Question. Nearly 40 percent of the Department's annual budget is 
spent on contracts. The Department has been heavily criticized for its 
oversight of those contracts. The Government Accountability Office 
reported in November 2008 that senior department officials did not 
provide the oversight to ensure that acquisitions needed to help meet 
important national security objectives meet specifications and stay 
within budget. GAO found that 45 of 48 major acquisitions were not 
reviewed regularly by a Homeland Security oversight board created to do 
the reviews.
    To increase oversight and efficiency of its major contracts, the 
Department of Defense is planning to increase the size of its defense 
acquisition workforce by converting up to 33,400 contract employees to 
Federal employees by 2015 and by hiring 3,669 additional government 
acquisition professionals by fiscal year 2010. What measurable goals 
and incentives do you have for improving contracting by the Department 
of Homeland Security?
    Answer. DHS is focused on quality contracting created by a well 
trained, professional acquisition workforce, monitored through active 
oversight from program initiation through contract completion. The DHS 
Workforce (including Contracting Officers, Contracting Officer 
Technical Representatives and Program Managers) are all Federal 
employees with Federal certifications. They perform inherently 
governmental functions that have never been performed by contractor 
employees, thus there are no conversions planned for these career 
fields.
    For other career fields, DHS is taking an aggressive approach to 
determining the appropriate balance between Federal and contract 
employees. All components' professional services contracts over the 
simplified acquisition threshold are being reviewed before a new 
contract is awarded or an option on a contract is exercised to ensure 
that the proposed contract awards do not include inherently 
governmental requirements or personal services. In addition, the 
Components are reviewing their current service contract workload to 
determine whether (a) any work can and should be justified for 
conversion as inherently governmental, (b) any work should be justified 
for conversion to in-house performance by Federal employees in order to 
maintain a minimum residual core capability, or (c) any contract work 
costs appear excessive.
    If any one or all of these criteria exist, the Component will 
submit, by July 3, 2009, a list of such activities by contract number, 
function, location, FTE and associated justification for review and 
approval. The analysis will culminate on DHS's planned conversion of 
contract positions to Federal employee positions for fiscal year 2010.
    DHS uses the following metrics and measurable goals to improve its 
contracting capability:
  --DHS has initiated the Acquisition Professional Career Program 
        (APCP) to improve fill critical shortages with trained 
        acquisition professionals (this is not a conversion of 
        contractors to Federal employees; rather it identifies needed 
        positions and from creation fills the position with an 
        appropriate Federal employee). Currently, DHS has more than 300 
        vacancies in Contracting, Program Management and Contracting 
        Officer's Technical Representative Positions. To fill this gap, 
        DHS has hired 64 APCP employees. An additional 36 employees 
        will be hired by the end of fiscal year 2009 to further close 
        the vacancy gap. DHS is adding four additional acquisition 
        career fields to those it centrally manages. During fiscal year 
        2010 DHS will measure the current vacancies and future need for 
        Federal employees in the career fields of Test and Evaluation, 
        Logistics, Business and Financial Management and Cost 
        Estimating. DHS will use the intern program to fill critical 
        vacancies with Federal employees.
  --DHS measures its quality in contracting by the number and dollar 
        value of its competitively awarded contracts. Fiscal year 2008 
        marked a recovery by DHS to pre-Katrina levels of competition. 
        fiscal year 2008 was the third, over a six fiscal year period, 
        in which DHS achieved a level of competition equaling or 
        exceeding 70 percent. DHS's fiscal year 2007 and 2008 
        competitive accomplishments exceeded the Government-wide 
        average of 64 percent and 67 percent, respectively. DHS 
        establishes and monitors competition goals by contracting 
        activity. The following are the recent accomplishments.

                                                  [In Percent]
----------------------------------------------------------------------------------------------------------------
                                                                                 Fiscal year
                                                           -----------------------------------------------------
            DHS Component/Contracting Activity                    2008              2007              2006
                                                             Accomplishment    Accomplishment    Accomplishment
                                                             in Competition    in Competition    in Competition
----------------------------------------------------------------------------------------------------------------
CBP (Includes SBI)........................................                74                65                60
DHS-HQ. (OPO and CIS).....................................                80                66                54
FEMA......................................................                79                81                37
FLETC.....................................................                74                77                85
ICE.......................................................                79                70                57
TSA.......................................................                71                62                61
USCG......................................................                68                73                53
USSS......................................................                47                49                42
Department wide...........................................                75                69                48
----------------------------------------------------------------------------------------------------------------

  --Annually, DHS also establishes goals for contract awards to small 
        businesses and for small business participation at the sub 
        contract level. Since SBA instituted the annual small business 
        procurement scorecard for fiscal year 2006, DHS received the 
        highest ranking or distinction with a score of green for fiscal 
        year 2006 and fiscal year 2007 based on DHS's quantity and 
        quality of contracting performed by small businesses; another 
        favorable score is likely when SBA releases the annual 
        scorecard for fiscal year 2008 in June, 2009. The current 
        metrics for fiscal year 2008 are as follows:

----------------------------------------------------------------------------------------------------------------
                                                                                 Accomplishment   Accomplishment
                           Category                            Goal (percent)      (dollars)         (percent)
----------------------------------------------------------------------------------------------------------------
Total Procurement Dollars....................................             N/A    $13,905,538,042             N/A
SB Prime Contracts...........................................            31.9      4,524,001,365           32.53
8(a) Contracts...............................................             4.0        838,369,605            6.03
SDB Prime Contracts [other than 8(a)]........................             4.0      1,006,019,811            7.23
SDB Prime Contracts [overall; including 8(a) contracts]......             8.0      1,844,389,417           13.26
HUBZone SB Prime Contracts...................................             3.0        424,655,973            3.05
SDVOSB Prime Contracts.......................................             3.0        264,303,028            1.90
VOSB Prime Contracts.........................................             N/A        660,369,837            4.75
WOSB Prime Contracts.........................................             5.0        921,484,775            6.63
----------------------------------------------------------------------------------------------------------------

  --In addition, DHS performs oversight reviews of specific contracts 
        as well as overall assessments of its ten contracting 
        organizations using the GAO reviewed Oversight Program. These 
        reviews collect metrics and discern best practices as well as 
        organizational weaknesses. Where appropriate, targeted learning 
        and corrective action are immediately instituted to correct 
        problems and improve future contracts. Specifically DHS is 
        performing reviews on the fleet purchase card program, use of 
        Time and Materials contracts, performance based contracting, 
        award fee contracts.
  --In order to improve the entire acquisition process, DHS has 
        developed and implemented an acquisition policy and process 
        under Directive 102.01. This directive instituted an issue and 
        decision focused acquisition governance process for DHS 
        programs.
  --DHS is piloting a department-wide web hosted metrics application 
        known as nPRS which will provide information on the cost, 
        schedule and performance status of DHS's major development 
        contracts. Currently approximately 40 of the 52 major 
        acquisition programs are reporting their metrics in the new 
        system. By the end of fiscal year 2009 DHS intends to have all 
        52 major acquisition programs reporting all of their cost, 
        schedule and performance data in this automated system.
  --Finally DHS reviews all of its acquisition programs through a 
        ``portfolio review'' process to achieve a common situational 
        awareness of what each Component within DHS is acquiring and 
        allow early identification and correction of problem contracts 
        within the Components.
    Question. The Department of Homeland Security released revised 
acquisition oversight procedures in November 2008. Have these 
procedures made a difference?
    Answer. The re-engineered acquisition management procedures have 
made a significant difference to DHS' ability to oversee and control 
acquisition programs. As more programs transition to the revised 
acquisition management procedures, the Department is better able to 
assess program status and proactively identify and mitigate risks. The 
following are some of the key differences as a result of the revised 
acquisition procedures:
  --The new acquisition governance framework addresses the entire 
        acquisition portfolio, including capital assets, information 
        technology, and services. Through this broader perspective, the 
        Department has a full understanding of its acquisition 
        portfolio.
  --The new framework provides for the appointment of a Component 
        Acquisition Executive (CAE), who is responsible for a given 
        Component's portfolio of acquisition programs. Documentation 
        and process are core components of the new framework. Programs 
        are required to request approval to proceed at key milestones 
        in the acquisition life cycle. At these Acquisition Review 
        Boards, decision makers focus on key decisions and issues, and 
        issue an Acquisition Decision Memorandum which provides 
        authority and direction for each ARB conducted.
  --Additionally, each program is required to have an approved 
        Acquisition Program Baseline (APB) which documents the 
        program's cost, schedule and performance baseline. Each Level 1 
        and 2 program is expected to have an approved APB by the end of 
        the year.
  --Through the DHS-wide metrics program, new Periodic Reporting System 
        (nPRS), DHS gathers and analyzes the cost, schedule and 
        performance metrics for all of DHS' major acquisition programs. 
        By the end of May, all Level 1 programs are expected to have 
        their information in the system.
    Although much work remains to fully implement the acquisition 
management reforms identified in Directive 102-01, the Department is 
encouraged by the gains realized to date and expects to see 
corresponding improvements in the end-State outcomes of the acquisition 
programs as they are fielded under the new process. This new process in 
concert with the Procurement Oversight Process provides DHS with a full 
view of acquisition from beginning through mission completion.

                        RELIANCE ON CONTRACTORS

    Question. The Department has been criticized for being too 
dependent on contractors in performing its mission. This leaves the 
Department vulnerable to decisions which reflect a conflict of interest 
from contractors. It also limits the Department's ability to create an 
in-house workforce, which is critical to preventing terrorism and 
responding to natural disasters. The Defense Department is requesting a 
significant increase in its acquisition workforce.
    What percent of your Department's workforce is made up by 
contractors? Do you have an aggressive plan to reduce your Department's 
reliance on contractors?
    Answer. As discussed between DHS/USM and Committee staff in April, 
pursuant to Section 519 of the fiscal year 2009 DHS Appropriations Act 
(Public Law 110-329), the Department is taking an aggressive approach 
to determining the appropriate balance between Federal and contract 
employees. Effective immediately, all Components' professional services 
contracts are being reviewed before a new contract is awarded or an 
option on a contract is exercised to ensure that the proposed contracts 
do not include inherently governmental, nearly inherently governmental 
or personal services requirements. The program office will demonstrate 
that there are sufficient Federal employees within the organization to 
provide adequate direction and oversight to the service contractor--
before the contract is awarded. Components have also begun to review 
their current service contract workload to determine whether; (a) any 
work can and should be justified for conversion as inherently 
governmental, (b) any work should be justified for conversion to in-
house performance by Federal employees in order to maintain a minimum 
residual core capability, or (c) any contract work costs appear 
excessive. If any one or all of these criteria exist, the Component 
shall submit, by July 3, 2009, a list of such activities by contract 
number, function, location, FTE and associated justification for review 
and approval to the Office of the Chief Procurement Officer. CPO/CHCO 
will issue policies regarding the actions needed to achieve the most 
effective and balanced workforce of contractor and Federal employees 
while maintaining appropriate management and oversight.
    To better identify the total workforce and the current balance 
between in-house and contract workload, DHS will combine its FAIR Act 
inventory of work performed in-house by Federal employees with 
estimated Contractor Work Year Equivalents using the same process 
applied to DOD's Section 807 reporting requirements. This requirement 
involves an automated review all of the estimated 19,500 DHS contracts 
captured in the Federal Procurement Data System for fiscal year 2008. 
The percent of the overall DHS contract workforce can then be 
estimated. More importantly, the question of question of whether 
requirements should or can be performed by Federal employees or 
contractors is best answered on a function by function and business 
line level or review. Components have developed plans for these reviews 
and will conduct reviews, in accordance with CPO/CHCO requirements, to 
determine the proper and cost effective balance of contractor and 
Federal resources in the performance of mission and mission support 
requirements.
    Question. Please provide an agency by agency list of conversions 
from contractors to Federal FTE's for fiscal year 2009 and fiscal year 
2010.
    Answer. DHS has approved plans to convert approximately 500 
contractor FTE to performance by Federal employees over the course of 
the fiscal year 2009-fiscal year 2010 timeframe. This number may change 
in fiscal year 10 and the out-years as a result of one or more of the 
analyses discussed above.
    Approximately 350 FTE are planned for conversion from contractor to 
Federal in-house performance at the National Protection and Programs 
Directorate (NPPD). Within the NPPD, 110 FTE of the 350 FTE have been 
successfully converted from contract to in-house performance (on-
board).
    An additional 188 FTE have been identified and approved for 
conversion from contractor to Federal in-house performance at the Coast 
Guard associated with food preparation requirements. The USCG has 
determined that this work needs to be performed by military billets in 
order to protect their sea-share rotational requirements.

------------------------------------------------------------------------
                                                            On Board/In
                        NPPD Org.                             Process
------------------------------------------------------------------------
Infrastructure protection (IP)..........................           47/29
Cybersecurity and Communications (CS&C).................           17/29
US-VISIT................................................           35/20
Office of Risk Management and Analysis (RMA)                         5/6
Office of the Under Secretary (OUS).....................             6/8
                                                         ---------------
      Total.............................................         110/92
------------------------------------------------------------------------
The total equals 202 (110 + 92) of the 350 with 148 expected in fiscal
  year 2010.

            transformation and systems consolidation (tasc)
    Question. The Department plans to procure an acquisition management 
system to consolidate and modernize component financial systems. What 
is the current schedule for TASC implementation? Provide an obligation 
schedule associated with available funds and funds requested as part of 
the fiscal year 2010 budget. The schedule should include when each 
component's financial system will be consolidated. A current financial 
management vendor argues that the Department is pursuing a ``high risk/
high cost'' single system concept versus a ``lower risk/lower cost'' 
consolidated approach that leverages existing systems. Why is TASC a 
better solution? What is the lifecycle cost for TASC? Can you quantify 
the benefits TASC will produce? Will there be savings associated with 
the new system over time?
    Answer. Please see the following.

Overview
    The Transformation and Systems Consolidation (TASC) effort at DHS 
focuses on increasing transparency and reliability of information by 
consolidating the financial, asset and acquisition management systems 
of the Department as well as standardizing business processes and the 
DHS accounting line. TASC gives DHS a way to increase its fiscal 
accountability to the American taxpayer and improve the efficiency of 
its mission-critical financial services while moving DHS Components 
toward becoming ``One DHS.''
    DHS currently maintains 13 separate financial management systems 
resulting in multiple business processes and accounting lines. Mission 
support requires a real-time enterprise view of DHS resources, yet some 
of the current systems rely on manual processes. Components maintain 
similar systems with similar functionality, yet the cost for upgrades, 
integration, operations, maintenance and mandated changes are 
replicated across the Department. Currently, the myriad of existing 
systems do not provide consistent internal controls over financial 
reporting.

Schedule
    DHS is in the midst of conducting an acquisition to select a vendor 
to provide (1) an enterprise solution that integrates end-to-end 
business processes in support of financial, acquisition and asset 
management; and (2) integration services and program management support 
for TASC. As a part of the acquisition process, vendors are to propose 
a recommended migration timeline that includes a schedule for all DHS 
Components to transition to the new TASC system. This proposed schedule 
is closely tied to the vendor's recommended technical solution and is 
subject to negotiation during the acquisition process. A final schedule 
will be established and available upon contract award.

Fiscal Year 2010 Budget
    The fiscal year 2010 Budget requests $11 million for TASC. DHS is 
currently on target for a second quarter 2010 award. If the Department 
continues to meet the procurement milestones, component migration may 
begin by 2011.
    The information related to the break-out of the fiscal year 2010 
TASC spend plan will be provided to the Committee separately as it is 
procurement sensitive and should not be published in the official 
hearing record.

Approach and Litigation
    In November 2007, DHS issued a solicitation for services to manage 
the migration and consolidation of DHS Components' financial, 
procurement and asset management systems by leveraging two established 
system baselines within the Department: Oracle and SAP. However, on 
April 15, 2008, the United States Court of Federal Claims (COFC) ruled 
in a pre-award protest filed by Savantage Financial Services, Inc. 
(hereinafter referred to as ``Savantage'') that DHS could not continue 
its acquisition strategy of leveraging existing Departmental systems. 
The Department revised its procurement strategy to conducting a full-
and-open competition in accordance with the Court's order and Part 15 
of the Federal Acquisition Regulation.
    On November 24, 2008, Savantage filed a motion with the COFC 
alleging that DHS was in contempt of the April 2008 order. Savantage 
also filed a pre-award bid protest challenging the terms of the new 
solicitation. The COFC combined all of the allegations into one 
hearing. On April 22, 2009, the Court ruled in favor of the Department 
on all counts, concluding that the Department was not in contempt of 
its prior order and that the current solicitation was compliant with 
law and regulation.
    On April 22, 2009, the Department received a ``Notice of Appeal'' 
of the April 2009 decision by Savantage to the United States Court of 
Appeals for the Federal Circuit. As part of the appellate process, 
Savantage can seek a stay or injunction against the procurement 
proceeding pending resolution of the appeal. To date, Savantage has not 
requested a stay. Savantage has 60 days from the date of filing the 
``Notice to Appeal'' to submit its brief. The Department then has 40 
days to file its response.

Lifecycle Cost
    TASC will be awarded as an Indefinite Delivery Indefinite Quantity 
(IDIQ) contract. Although the system solution is yet to be determined, 
$450 million is the order of magnitude estimate for the total value of 
the work to be performed under this 10-year contract assuming all 
option years are exercised. The order of magnitude is consistent with 
other financial system benchmarks within the Federal Government. The 
actual cost of the work will be determined by the solution selected 
through the competitive acquisition process. However, the aggregate 
dollar value of the work is expected to be fairly consistent from year 
to year while showing a gradual increase over the life of the contract.

Benefits
    The Department's approach is in line with the guidance of the 
Financial Management Lines of Business (FMLoB), as mandated by 
Financial Systems Integration Office (FSIO). This concept is one of 
cost avoidance while improving the quality and performance of financial 
management systems by leveraging common standards and shared service 
solutions. It also includes implementing other Government-wide reforms 
that foster efficiencies in Federal financial operations. TASC is 
aligned with the FMLoB guidance that enables the Department to reach a 
key goal of becoming compliant with the Office of Management and Budget 
(OMB) Circulars A-123, A-127 and A-130.
    Consolidation benefits include:
  --Eliminate redundancies across DHS
  --Avoid costs associated with inefficiencies
  --Strengthen internal controls
  --Standardize business processes and line of accounting
  --Create consolidated financial reporting capability
  --Reduce manual processes
  --Correct Department-wide material weaknesses
  --Centralize hosting, database integration, upgrades and maintenance

Cost Benefits
    TASC yields significant cost benefits by eliminating both redundant 
hosting and interface requirements as well as proprietary vendor 
reliance while reducing operations and maintenance costs by supporting 
fewer financial systems. TASC provides the optimal solution for the 
Department to increase the transparency of its financial data and 
accountability to Congress and the American taxpayer.
    As the Department works to resolve fiscal challenges, the TASC 
initiative is more critical than ever, DHS must be relentless in its 
pursuit of fiscal transparency and its ability to report on financial 
data in a timely and accurate way. DHS appreciates the Committee's 
continued vigilance and support of the Department and looks forward to 
providing a briefing on this initiative in the future.

                 DHS CONSOLIDATED HEADQUARTERS PROJECT

    Question. The request includes $75 million to consolidate and 
realign DHS mission support leases currently dispersed throughout the 
NCR. These functions are not planned for transfer to the St. 
Elizabeth's campus. The request says that this is a ``one time 
opportunity.'' Why? What is the total cost of this initiative? Is $75 
million the minimum amount needed in fiscal year 2010 to begin this 
process? What will that amount buy in fiscal year 2010? Has a 
prospectus been approved for this project? Has a prospectus been 
submitted to Congress for consideration? Provide a schedule for this 
project, from initial solicitation to the opening of the facility. 
Provide a schedule for the realignment of DHS offices to this new 
facility. What is the amount GSA needs to initiate a contract for this 
facility in fiscal year 2010? What is the impact if a lower level is 
provided for this initiative? Provide the impact in $15 million 
segments from $75 million to $0.
    Answer. The DHS National Capital Region (NCR) Housing Master Plan 
was developed to provide the strategic vision for facilities that 
support a unified department, organizational structure, operations and 
culture. The plan outlines priorities of implementation and addresses 
the mission fragmentation caused by the Headquarters (HQ) elements 
being scattered throughout the NCR. While St. Elizabeths will 
accommodate the main Department and Component HQ mission execution 
functions, it does not have the capacity to accommodate all of the DHS 
mission support functions. As a result, the DHS NCR Housing Master Plan 
proposes to consolidate and realign the remaining functions that are 
currently dispersed throughout the NCR in more than 40 locations (and 
growing) to enhance performance across the spectrum of operations, 
through improved communications, coordination and cooperation among all 
DHS Headquarters Components. In addition, since DHS will incur 
occupancy costs for leases regardless of the location, consolidation 
will reduce risk of continued dispersal by replacing existing leases 
throughout the NCR as they expire with new occupancies that meet the 
ISC standards. Consolidating locations will foster a ``one-DHS'' 
culture, will optimize our prevention and response capabilities and is 
vital for the safety, security and success of DHS in achieving the 
mission of securing the homeland. This question has several parts and 
each is provided below with an answer.
    This is a unique opportunity because forty-five leases for 
approximately 1.2 million RSF are expiring by fiscal year 2010 that 
creates a window of opportunity to consolidate into on to three lease 
of the same RSF. If we do not take advantage of this opportunity now 
the leases will need to be extended or held over on a sole source basis 
at a higher cost and without achieving the goals of the consolidation 
plan.
    DHS projects a need for $251 million over the next 4 years with $75 
million in fiscal year 2010 to complete this initiative. The General 
Services Administration (GSA) Pricing Guide requires tenant agencies to 
fully fund tenant improvements (TI) before GSA will start the 
contracting process. Tenant improvements are the finishes and fixtures 
that typically take space from the ``shell'' condition to a finished, 
usable condition. GSA estimates these costs to be approximately $103 
million. The minimum amount needed in fiscal year 2010 to begin this 
process for a large consolidation is $75 million.
    The total for the initiative is $251 million with the expectation 
that we acquire 1.2 million RSF of space with a two phase 
implementation schedule over a 4 year period. The $75 million gets the 
initiative started for phase 1 move in calendar year 2012.
    No, a prospectus has not been approved. The GSA has developed a 
prospectus and submitted it to the Office of Management and Budget 
(OMB) for review and clearance.
    The schedule below is the current schedule developed by GSA for 
this initiative.
  --Advertise--July 2009
  --Offers Due--September 2009
  --Negotiations--October 2009
  --Best and Final--December 2009
  --Lease Signatures--March 2010
  --Final Lease Award--May 2010
  --Phase 1 & 2 Design and Phase 1 Construction Complete--July 2012
  --Phase 1 Move-In--August/September 2012
  --Phase 2 Construction Complete--July 2013
  --Phase 2 Move-In--August/September 2013
  --Phase 1 of the new lease is scheduled for 2012 and will house 
        Citizen Immigration Services (CIS), elements of the 
        Undersecretary for Management (USM) and Science and Technology 
        (S&T) in approximately 500,000 RSF. Phase 2 is scheduled for 
        2013 and will house the remainder of CIS. This plan is pending 
        the final prospectus clearance from OMB and may change.
    This initiative is for a leased office space and GSA does not 
require an appropriation. All costs will be passed to the tenant 
agency. The impact of a lower level of funding for this initiative in 
fiscal year 2010 is a delay in the consolidation effort and the planned 
schedule cannot be maintained. The result will require lease 
extensions, hold over and sole source procurements to sustain the 
status quo. It will change the acquisition strategy and require smaller 
blocks of space which will diminish the potential benefits of the 
consolidation effort resulting in higher costs than the strategy 
developed by GSA. The current situation of a dispersed DHS HQ with the 
associated problems stated above will continue.
    The impact to the consolidation initiative in $15 million segments:
  --$75 million will deliver space in 2 phases for a single 
        consolidated location. This follows the consolidation strategy 
        and will achieve the desired end State of eight to ten 
        locations for the DHS HQ.
  --$60 million will either extend the number phases requiring more 
        extensions/holdovers, sole source procurement or result in 
        greater costs in the future years in an attempt to make-up for 
        the shortfall. The attached migration schedule optimizes the 
        moves to limit the impact of consolidation and it will need to 
        be revised if the requested funding is not provided resulting 
        in higher overall costs.
  --$45 million will not significantly reduce the number of locations 
        and will not achieve the desired consolidation. DHS HQ will 
        continue to lease space without the benefit of a comprehensive 
        strategy and will continue to be scattered around the NCR. It 
        will require lease holdover, extensions and sole source actions 
        that will cost more than the consolidation strategy.
  --$30 million will relegate the initiative to a one for one 
        replacement of leases without the benefit of consolidation only 
        allowing consolidation of a specific component with the same 
        issues as stated in the $45 million segment. It will not be an 
        efficient use of resources and could create a vacancy risk that 
        will require a backfill from another component continuing to 
        scatter the DHS HQ.
  --$15 million will only allow partial replacements of large leases or 
        an ad-hoc approach to space management.
  --$0 million is the status quo and is a step back because additional 
        locations will continue to be added when components acquire 
        additional lease space as they grow.

                         HSPD-12 CARD ISSUANCE

    Question. How many DHS Federal employees and contractors have HSPD-
12 compliant cards today? What is the gap? Will the $25 million 
eliminate the gap or is there a remaining financial commitment in the 
outyears? What is the impact if DHS doesn't meet the October 2010 
mandate? Does this request fund DHS component requirements? If not, how 
are components paying for the cards? Provide a schedule by component 
(including headquarters offices) to issue smartcards to all DHS Federal 
employees and contractors.
    Answer. As of May 19, 2009, DHS has issued HSPD12 compliant cards 
to 10,060 Federal employees and contractors. There are approximately 
240,000 cards to be issued. The $25 million will cover card issuance 
for 135,000 cards; however, additional funding will be required in 
fiscal year 2011 to complete card issuance and to cover operations and 
maintenance costs. The completion of the card issuance was mandated by 
the Executive Branch. The impact of not completing card issuance in 
2010 will be the delay in obtaining the security benefits provided by 
the HSPD-12 card.
    The $25 million does cover Component requirements. The schedule for 
issuing DHS Headquarters and Component HSPD-12 compliant cards was 
developed based on geographical regions. Using a collaborative, 
enterprise approach, issuance workstations and support will be shared 
across Components. When card issuance begins in a region, the objective 
will be to complete issuance to the majority of DHS employees and 
contractors in the region, regardless of Component affiliation. A 
regional approach, versus a component-by-component approach, was 
selected because of the efficiencies to be gained by doing so. Issuing 
cards by the regions indicated below ensures that the department can 
deliver cards to more employees in a shorter period of time.

------------------------------------------------------------------------
                                                               Estimated
             Start Date                      Milestone          End Date
------------------------------------------------------------------------
Q1--fiscal year 2010................  Begin remaining                 Q2
                                       Expanded National
                                       Capital Region
                                       locations and complete
                                       issuance, which
                                       includes remaining
                                       Washington, D.C.
                                       personnel as well as
                                       Virginia, Maryland,
                                       Pennsylvania, West
                                       Virginia, and
                                       Delaware. Estimated
                                       total of 52,500
                                       additional issuances
                                       to DHS employees and
                                       contractors. The
                                       completion of this
                                       region in Q2,
                                       including the initial
                                       Headquarters
                                       issuances, will result
                                       in completing issuance
                                       to approximately 25
                                       percent of the DHS
                                       population.
Q2--fiscal year 2010................  Begin the South West            Q4
                                       Region, which includes
                                       California, Arizona
                                       and Nevada. Estimated
                                       total of 39,200
                                       additional issuances
                                       to DHS employees and
                                       contractors.
Q3--fiscal year 2010................  Begin the Mid Atlantic          Q4
                                       Region (for card
                                       issuance purposes,
                                       this will include New
                                       York and New Jersey).
                                       Estimated total of
                                       20,600 additional
                                       issuances to DHS
                                       employees and
                                       contractors.
Q4--fiscal year 2010................  Begin the New England           Q4
                                       and South Atlantic
                                       Regions. The New
                                       England Region
                                       includes Maine,
                                       Vermont, New
                                       Hampshire,
                                       Massachusetts,
                                       Connecticut, and Rhode
                                       Island. Begin The
                                       South Atlantic Region,
                                       including Georgia,
                                       South Carolina and
                                       North Carolina.
                                       Estimated total of
                                       22,700 additional
                                       issuances to DHS
                                       employees and
                                       contractors. Complete
                                       issuance in the
                                       Expanded National
                                       Capital, South West,
                                       Mid Atlantic, and New
                                       England Regions and
                                       portions of the South
                                       Atlantic Region,
                                       which, with the prior
                                       completion of Region
                                       1, will result in
                                       completing issuance to
                                       approximately 58
                                       percent of the DHS
                                       population (total of
                                       approximately 135,000
                                       and initial 10,000 at
                                       Headquarters). The
                                       remaining States
                                       within the South
                                       Atlantic Region and
                                       remaining regions will
                                       be addressed in fiscal
                                       year 2011.
------------------------------------------------------------------------

                  USM CONVERSION OF CONTRACTORS TO FTE

    Question. The budget request indicates that there are 25 
contractors to FTE conversions in fiscal year 2009. However, the budget 
shows zero planned for fiscal year 2010. Is this the full extent of 
contractor conversions? Why?
    Answer. The Office of the Under Secretary for Management, like 
other DHS Components, is currently considering the conversion of a 
limited amount of workload from contract to in-house performance in 
fiscal year 2009 and the out years. This review is not yet complete.

                             ACTION ORDERS

    Question. Shortly after being confirmed, you issued action 
directives instructing specific offices to gather information and 
review existing strategies and programs. Please describe (in summary 
form) what you found. How did the results of these reviews impact the 
allocation of resources for the fiscal year 2010 request? Be specific.
    Answer. The action directives did not impact the fiscal year 2010 
Budget Request because most of the responses were received after the 
budget request was submitted. As I review the reports, I will formulate 
new policies, make changes to existing procedures and launch new 
initiatives. The action directive reports are the first step, as they 
serve as a snapshot of the current challenges, needs and 
recommendations. To that end, they will help inform future resource 
allocation requests, but at this point have not altered the fiscal year 
2010 resource allocation.

                           NON-PAY INFLATION

    Question. The Department is being required to absorb $331million in 
non-pay inflation costs. Please explain how these costs will be 
absorbed without impacting operations.
    Answer. The Department's goal is to find sufficient savings through 
the efficiency review process to absorb the estimated $331 million in 
non-pay inflation. We plan to generate savings in travel costs, 
acquisition of office equipment, software, general supplies and support 
contracts to offset some of the estimated 2 percent increase in prices. 
Our efficiency review is ongoing and we expect to identify additional 
measures that will generate further savings.

                            OUT-YEAR FUNDING

    Question. According to the President's budget, homeland security 
funding would decrease between fiscal year 2010 and 2014. Other 
domestic agencies receive healthy increases over the same period of 
time. Even after adjusting for the assumed enactment of additional 
aviation security fees, there are no increases for homeland security. 
Is this reduction based on a threat analysis? If so, please provide in 
classified form. Can you achieve these reductions without cutting 
personnel or major acquisition programs like the Secure Border 
Initiative or Deepwater? If the increase in air passenger fees is not 
enacted by Congress, how will this impact the need for DHS 
discretionary resources?
    Answer. Through our current programmatic review and internal budget 
build for fiscal year 2011 to 2015, DHS is analyzing how to most 
effectively and efficiently allocate resources including the optimal 
balance of personnel and major acquisition programs. Following this 
review, additional information will be included in our fiscal year 2011 
budget submission.
    Raising air passenger fees increases the portion of existing 
Aviation Security activities offset by direct users of aviation 
transportation, thereby decreasing net discretionary appropriated 
resources. If the increase in air passenger fees is not enacted by 
Congress, DHS will work with OMB to evaluate other options toward 
maintaining current operations.

                   U.S. Customs and Border Protection

                           PROGRAM INTEGRITY

    Question. What was the total fiscal year 2009 level of funding 
provided and what is the total requested fiscal year 2010 level for CBP 
Program Integrity?
    Answer. The total funding level in fiscal year 2009 for the Conduct 
and Integrity program is $19.181 million; in fiscal year 2010 the 
funding level is $20.242 million.
    Question. How many positions related to the integrity program were 
on-board in fiscal year 2008, will be on-board by the end of fiscal 
year 2009, and are requested for fiscal year 2010?
    Answer. As of September 30, 2008 there were 159 (143 agents/16 
support) positions related to the Conduct and Integrity program on-
board in fiscal year 2008; 255 (227 agents/28 support) positions will 
be on-board by the end of fiscal year 2009. There are no additional 
positions requested for fiscal year 2010.
    Question. From 2007-2009 (to date):
  --How many investigations?
  --How many arrests?
  --And how many convictions?
    Answer. Please see the following tables.

                                       CBP INTERNAL AFFAIRS INVESTIGATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year
                                                                 -----------------------------------------------
                                                                       2007            2008            2009
----------------------------------------------------------------------------------------------------------------
Investigations Closed...........................................             578             757             113
Investigations Open.............................................              28             235             569
                                                                 -----------------------------------------------
      TOTAL INVESTIGATIONS......................................             606             992             682
----------------------------------------------------------------------------------------------------------------


                                              CBP EMPLOYEE ARRESTS
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year
                                                                 -----------------------------------------------
                                                                       2007            2008            2009
----------------------------------------------------------------------------------------------------------------
Non Mission Critical Arrests....................................             222             286             179
Mission Critical Arrests........................................               8              21              17
Convictions (Mission Critical Arrests Only).....................               7               9              14
                                                                 -----------------------------------------------
      TOTAL ARRESTS.............................................             230             307             196
----------------------------------------------------------------------------------------------------------------

    From October 1, 2006 to present, CBP Internal Affairs (CBP/IA) 
initiated 2,280 investigations involving current or former CBP 
employees or contractors. Of that total, 1,448 investigations (63.5 
percent) are closed. The remaining 832 cases (36.5 percent) constitute 
CBP/IA's open investigative inventory.
    It should be noted that these figures do not include investigations 
into CBP employee misconduct conducted by the DHS Office of the 
Inspector General (DHS/OIG), U.S. Immigration and Customs Enforcement's 
Office of Professional Responsibility (ICE/OPR), or the FBI Border 
Corruption Task Forces (FBI/BCTF). The DHS/OIG, ICE/OPR and FBI/BCTF 
maintain separate investigative inventories with respect to cases 
involving CBP employees.
    From October 1, 2006 to present, 720 current and former CBP 
employees have been arrested for (or charged with) criminal misconduct 
ranging from mission critical corruption (e.g., alien or drug 
smuggling, bribery, conspiracy, money laundering, etc.) linked directly 
to the employees' discharge of their official duties to off-duty 
arrests for DUI/DWI, shoplifting, assault, etc. Of the 720 total 
arrests, 46 involved mission-critical corruption.
    CBP is the largest law enforcement agency in the United States with 
more than 56,000 employees, of which approximately 40,000 are sworn law 
enforcement officers. During fiscal year 2008, CBP received more than 
43,00 allegations of criminal and non-criminal misconduct lodged 
against CBP employees.
    The 46 corruption arrests since October 1, 2006 represent less than 
one percent (.08) of the total workforce. Of the 46 CBP employees 
arrested for (or charged with) mission critical corruption, 31 cases 
resulted in convictions and 14 cases are at various stages in the 
judicial process. In one case all charges were dismissed.

                           TRADE REGULATIONS

    Question. Provide a brief description of the details and changes 
contained in the new ``10+2'' regulations.
    Answer. On November 25, 2008, Customs and Border Protection (CBP) 
published in the Federal Register (73 FR 71730), an Interim Final Rule, 
``Importer Security filing and Additional Carrier Requirements'' (CBP 
Dec. 8-46). Pursuant to Section 203 of the Security and Accountability 
for Every Port Act of 2006 (``SAFE Port Act,'' Public Law 109-347) this 
Interim Final Rule requires the submission of certain information from 
carriers and importers pertaining to cargo destined to the United 
States by vessel, for the most part, prior to lading of such cargo onto 
the vessel at the foreign port. The Interim Final Rule was effective on 
January 26, 2009; however, a 12 month delayed enforcement date (until 
January 26, 2010) was provided to allow industry to determine best 
practices to comply with the new requirements. CBP is conducting an 
extended round of outreach activities to engage with the trade 
community on all aspects of the rule.
    Carriers are generally required to submit two data elements, a 
vessel stow plan and container status messages (CSMs) relating to 
containers loaded on vessels destined to the United States. This is in 
addition to the data elements that carriers are already required to 
electronically transmit in advance of lading pursuant to Section 343(a) 
of the Trade Act of 2002 (19 U.S.C. 2071 note). Vessel stow plan 
information must generally be transmitted to CBP no later than 48 hours 
after the vessel departs from the last foreign port. CSM information 
must generally be transmitted to CBP no later than 24 hours after a CSM 
is entered into the carrier's equipment tracking system. See 73 FR 
71779-80 for regulatory text and 73 FR 71731-32 for general discussion.
    CBP Dec. 08-46 also requires the submission of an Importer Security 
Filing (ISF). The party required to submit the ISF, known as the ``ISF 
Importer,'' is the party causing the goods to enter the limits of a 
port in the United States. ISF Importers, are generally required to 
submit an ISF containing 10 data elements which include: seller, buyer, 
importer of record number/foreign trade zone applicant identification 
number, consignee number(s), manufacturer (or supplier), ship-to party, 
country of origin, commodity HTSUS number, container stuffing location, 
and consolidator (stuffer). Only five data elements are required, 
however, for shipments consisting entirely of foreign cargo remaining 
on board (``FROB'') and shipments consisting entirely of goods intended 
to be ``transported'' as immediate exportation or transportation and 
exportation in-bond shipments. These include: booking party, foreign 
port of unlading, place of delivery, ship to party, and commodity HTSUS 
number. Generally, an ISF must be transmitted to CBP no later than 24 
hours prior to lading at the foreign port. The regulations allow for 
some flexibility as to timing of transmission and interpretation for 
six of the data elements. [See 73 FR 71782-85 for regulatory text and 
73 CFR 71733-34 for general discussion.] CBP invited public comments on 
these six data elements in the Regulatory Assessment and Final 
Regulatory Flexibility Analysis. Comments regarding this interim final 
rule are due by June 1, 2009.

                        AUTOMATION MODERNIZATION

    Question. Is the lower level of funding requested for ACE and TECS 
an indicator that the agency is backing off of its support for 
automation modernization?
    Answer. CBP is committed to modernizing the import/export process 
through the deployment of the Automated Commercial Environment (ACE). 
The successful completion and roll out of this mission critical system 
will ensure that international trade flows smoothly and efficiently 
without sacrificing national security. ACE is an investment that will 
strengthen the agency's anti-terrorism capability through enhanced risk 
assessment, expand coordination with other Federal agencies to ensure 
the safety of imported goods, guarantee the efficient accounting/
control of over $30 billion in duty/tax/fee collections, and streamline 
the import/export process resulting in real cost savings for the 
international trade community. CBP will continue to aggressively work 
with all stakeholders to ensure that ACE is fully deployed as 
efficiently as possible within available budgetary resources.
    The fiscal year 2010 Budget Request has no impact on TECS, only 
ACE. The fiscal year 2010 Request for TECS Modernization maintains TECS 
funding at $50 million as planned. It is important to note that CBP is 
developing new approaches to improve the efficiency of the overall ACE 
program. CBP is currently working to implement management reforms to 
improve program efficiency. In addition, there are numerous efforts 
underway to drive down the cost of operations and maintenance.
    An important new capability within the ACE was just fielded in 
April 2009. This new capability allows CBP trade partners to file in 
ACE, entry summary information for the most common entry types. Going 
forward, CBP will add other entry summary types to this foundational 
release, achieving an important step in the modernization of the import 
process.
    In the late summer/early fall of 2009, CBP will deploy the 
capability to receive and process vessel and rail manifests in ACE. 
This release has been delayed due to defects discovered during internal 
and trade testing. The defects are being addressed, and CBP continues 
to ensure that the software is tested before deployment. CBP is 
committed to ensuring that this software is thoroughly tested before 
deployment.
    These new capabilities along with the already deployed truck 
manifest, periodic monthly statement, and portal capabilities used by 
both the trade community and over 30 other Federal agencies, 
demonstrates the success that CBP has achieved with ACE and portends 
well for the future of this critical program.
    CBP acknowledges the strong support that the ACE modernization 
effort has received from Congress. This support is greatly appreciated 
and viewed as essential in CBP's effort to successfully finish ACE.

                              CONSTRUCTION

    Question. Please confirm that no new funds are requested for port 
of entry, Border Patrol station, or checkpoint construction.
    Answer. CBP requested funding to continue many construction 
projects in the fiscal year 2010 Budget Request.

                        AGRICULTURAL SPECIALISTS

    Question. How many agricultural specialists have been brought on-
board since fiscal year 2004--by fiscal year?
    Answer. The numbers in the following table represent CBP 
Agriculture Specialists brought onboard from fiscal year 2004 through 
April 25, 2009. These numbers include accessions and gains of employees 
in full-time, part-time, and term appointments.

------------------------------------------------------------------------
                       Fiscal year
------------------------------------------------------------------------
2004 \1\................................................           1,523
2005....................................................             618
2006....................................................             314
2007....................................................             371
2008....................................................             318
2009....................................................             202
------------------------------------------------------------------------
\1\ Fiscal year 2004 includes agricultural specialists moving from USDA
  to CBP.

    Question. How many CBP officers have received basic agriculture 
training?
    Answer. A total of 9,637 CBP officers trained from fiscal year 2004 
to date (May 15, 2009) in CBP Integrated Training (CBPI), the basic 
academy course for officers.
    Question. What does this training consist of, how many hours are 
devoted to it, is there additional training conducted in the field?
    Answer. The basic agriculture training consists of the below three 
classes:
  --``Threats to Agriculture in Passenger Processing'' is an 8 hour 
        module given in 2 hour intervals during the 6 week of CBP 
        Integrated Training (CBPI).
  --``Threats to Agriculture in Trade Processing'' is an 8 hour module 
        given in 2 hour intervals during the 11 week of CBPI.
  --``Agriculture Fundamentals'' is a 3 hour on-line course given to 
        CBP officers as well as Agriculture Specialists once assigned 
        to the field.
    The terminal objectives for the first two classes are to provide a 
series of scenarios and the use of an agriculture reference card for 
participants to recognize potential threats to United States 
agriculture and ecosystems, and determine if a secondary examination by 
the Agriculture Quarantine Inspector (AQI) is warranted. Both modules 
are instructed by an Agriculture Health Inspection Service (APIS) 
inspector stationed at the Customs and Border Protection Field 
Operations Academy in Glynco, Georgia.
    Question. Prior to the creation of the Department, did any Customs 
Service or Immigration and Naturalization Service personnel receive any 
agriculture training?
    Answer. Yes, prior to the creation of the Department, U.S. 
Immigration and Naturalization Service (INS) Inspector new hires 
received 2 hours of training during their basic academy. INS Inspectors 
at the southern border received an additional 4 hours of informal 
training on local U.S. Department of Agriculture (USDA) Animal Plant 
Health Inspection Service (APHIS), Plant Protection and Quarantine 
(PPQ) procedures. U.S. Customs Inspector new hires received 4 hours 
during their basic academy. Any U.S. Customs Inspectors at southern 
border ports also received 4 hours of informal training on local USDA 
APHIS PPQ procedures

                         LICENSE PLATE READERS

    Question. What is the total number of inbound and outbound lanes on 
the southwest border?
    Answer. There are 234 inbound non-commercial and 91 commercial 
lanes for a total of 335 inbound lanes and 110 outbound lanes on the 
southern border.
    Question. With the fiscal year 2010 funding requested in the budget 
for license plate readers (LPRs) on southbound lanes, how many 
additional existing southbound lanes need to be outfitted with LPRs, if 
any?
    Answer. Fiscal year 2010 funds will begin the requirements process 
for the deployment of the remaining 58 lanes without LPRs, to include 
environmental studies, site surveys and design.

                                VEHICLES

    Question. With the number of CBP employees increasing, why has the 
requested level for new and replacement vehicles gone down?
    Answer. Fewer new vehicles are needed in fiscal year 2010 because 
fewer new hires are proposed.
  --New Vehicles.--In fiscal year 2010, CBP requests authority to buy 
        500 new vehicles; in fiscal year 2009 3,000 new vehicles were 
        authorized, a net decrease of 2,500.
  --Replacement Vehicles.--In fiscal year 2010, CBP requests authority 
        to buy 4,000 replacement vehicles; in fiscal year 2009 3,300 
        replacement vehicles were authorized, a net increase of 700.
  --The combined decrease for new vehicles and increase for replacement 
        vehicles, nets to requested authority for 1,800 fewer vehicles 
        in fiscal year 2010 than in the previous fiscal year.
    Question. How short is the fiscal year 2010 budget request from 
meeting the requirement in the fiscal year 2009 Act of funding to 
replace a minimum of 20 percent of the CBP fleet?
    Answer. Assuming a 20 percent replacement rate, funding for an 
additional 1,210 vehicles would be required. Over the past 3 years 
during which the 20 percent replacement rate has been a matter of 
discussion, CBP has made significant progress replacing vehicles in the 
fleet, reducing the average age to a manageable level. CBP believes 
that relying solely on a fixed replacement rate may inhibit programs 
from meeting mission requirements. CBP uses analysis of fleet data to 
forecast an appropriate vehicle replacement rate within the constraints 
of funding and vehicle purchase limits (vehicle caps in the 
appropriations bill).

                        ADVANCED TRAINING CENTER

    Question. What is the fiscal year 2010 estimated base request for 
total operations of the Center--within Salaries and Expenses?
    Answer. CBP is budgeting $30.3 million in fiscal year 2010 for 
training, staffing, travel, transportation, utilities, supplies, 
equipment, and contract support. There is no enhancement request for 
the Advanced Training Center in the fiscal year 2010 Budget Request.
    Question. Within the new Facilities Management account?
    Answer. CBP requested $5.955 million in the fiscal year 2010 Budget 
for Maintenance, Repairs, and Operations activities for the Advanced 
Training Center in Harpers Ferry. There is no enhancement request for 
the Advanced Training Center in the fiscal year 2010 Budget Request.

                        NEED FOR MISSION SUPPORT

    Question. One of the benefits of Operation Jump Start was the 
sending of National Guard troops to the four States on the Southwest 
border. Actually, you were the first governor to call for these troops. 
These men and women performed non-law enforcement functions--such as 
watching cameras and fixing vehicles--so that actual Border Patrol 
agents could be on the border stopping illegal aliens and drugs from 
entering our country. Unfortunately, while the National Guard troops 
were performing mission support activities, the last administration was 
not hiring the mission support personnel Congress was funding. So once 
the Guard left, the Border Patrol agents went back to performing 
mission support functions. This was a wasted opportunity to address a 
critical need.
    This budget request includes funding for mission support personnel. 
Can you commit to this Committee that if the Congress gives you the 
funds to hire mission support personnel, you will actually do so? This 
would be a huge morale boost for your troops in the field.
    Answer. OBP is currently funded for 2,260 operational support staff 
employees. By the end of fiscal year 2009 the Office of Border Patrol 
anticipates approximately 2,056 operational support personnel hired (by 
the end of the calendar year CBP anticipates 2,242 operational support 
personnel hired). While the operational support workforce is currently 
comprised of a mixture of government employees and contractors, the 
contractors will be phased out over time.
    In addition to the mission support positions in the field, CBP has 
aligned 140 mission support positions to other CBP offices to provide 
direct support to OBP. The decision to realign these positions to the 
other CBP support offices was made in late March.

                        STATUS OF REALIGNED MISSION SUPPORT POSITIONS (FISCAL YEAR 2009)
----------------------------------------------------------------------------------------------------------------
                                                                                          Anticipated
                                                         Positions   Hires to      In      Additional  Remaining
                         Office                          Allocated     Date     Process    Selections   to Fill
                                                                                           by 9/30/09
----------------------------------------------------------------------------------------------------------------
HRM....................................................         28          3  .........          25   .........
OF.....................................................         35  .........         11          24   .........
IA.....................................................         41          7         28           6   .........
OIT....................................................         16  .........  .........          16   .........
COM....................................................         14          3  .........           4           7
OTD....................................................          6  .........          5           1   .........
                                                        --------------------------------------------------------
      Total............................................        140         13         44          76           7
----------------------------------------------------------------------------------------------------------------

    A number of recruitment strategies are in place to actively recruit 
for the 140 mission support positions, including open continuous 
announcements, a professional hiring day event, and a virtual Federal 
Career Intern Program job fair.
    End-of-year onboard for the mission support positions is dependent 
upon background investigation clearances. The background investigation 
process averages 3 months from selection date.

                     SECURE BORDER INITIATIVE (SBI)

    Question. The GAO reported in April 2009 that the Border Security 
Fencing, Infrastructure, and Technology (BSFIT) fiscal year 2009 
Expenditure Plan did not fully satisfy all of the conditions set out in 
response to a mandate in the Consolidated Security, Disaster 
Assistance, and Continuing Appropriations Act, 2009. GAO found that 
three of the conditions were satisfied and nine were partially 
satisfied. If the Committee decides to require an expenditure plan for 
these fiscal year 2010 funds, how will you improve the plan to meet the 
mandated conditions?
    Answer. A strong, good-faith effort was made to meet all of the 
conditions set forth by the Committees for the BSFIT fiscal year 2009 
Expenditure Plan. Extensive discussion and collaboration was conducted 
with the GAO prior to submittal of the plan to the Committees--the 
intent being to submit a compliant plan. Nonetheless, GAO assessed that 
the Expenditure Plan did not fully satisfy all of the conditions, and 
DHS disagreed with some of those findings. We believe that one of the 
root causes of GAO's determination was GAO audit methodology, which 
drew the focus away from a broader assessment of the overall quality of 
the plan and discounted volumes of supporting information that 
augmented the data provided directly in the Expenditure Plan.
    Going forward, we are prepared to provide the Committees with 
embedded supporting source material in the Expenditure Plan. However, 
doing so will increase the difficulty in preparing, coordinating and 
maintaining an already voluminous document. A more streamlined 
approach, which is proposed in the response to the question which 
follows, would be to craft compliance conditions that focus more on the 
substantive quality of the plan. We believe that supporting source 
material which is referenced in the Plan should be considered as part 
of the assessment of the overall quality of the Plan.
    Question. What suggestions do you have for us in considering 
whether to require an expenditure plan and in determining what 
conditions it needs to meet?
    Answer. DHS would be pleased to continue providing additional 
information to assist the Committee in its determination of what 
conditions need to be met, whether that is through an expenditure plan 
for fiscal year 2010 or otherwise. However, given that the preparation 
and coordination of such a large document (192 pages) is labor-
intensive and time-consuming, and in order to streamline its 
production, review and approval, we recommend that the Committees avoid 
overly technical compliant requirements for the Expenditure Plan. 
Requirements should be limited to the minimum essential information and 
conditions needed to determine the overall quality of the plan. The 
Committees should also permit source material to be referenced and 
otherwise used to assess accuracy and completeness of the Expenditure 
Plan, rather than requiring that it be embedded within the Expenditure 
Plan itself in order to be compliant. In addition, the Committees 
should consider other more flexible and responsive methods for 
obtaining the information needed, such as meetings and presentations to 
the Committees or the Committees' staffs. Finally, to avoid unintended 
programmatic impacts due to funding withholds, we urge consultation on 
the amount of funding being withheld before it becomes legislation. We 
are especially concerned with BSFIT funding for fiscal year 2010, since 
the production decision for follow-on SBInet Block 1 deployments will 
be made in the 1st quarter of 2010.

                          BORDER PATROL AGENTS

    Question. The SBI Director was recently quoted as saying that CBP 
is estimating a need of a total of 25,000 Border Patrol agents assuming 
full deployment of SBI. That is nearly 5,000 more agents than requested 
and funded in this budget. Over what timeframe does CBP plan to grow to 
this level of agents? Is there a plan for funding and hiring a portion 
of them on an annual basis?
    Answer. CBP is in a short term re-assessment mode until full 
activation of the BSFIT and technology demonstrates its maximum impact. 
Effective control is based upon the proper mix of personnel, technology 
and infrastructure. These resources have been appropriated to CBP at 
differing rates over the past several years. Congressional 
appropriations have significantly contributed to doubling the number of 
border miles under effective control (345 miles versus 697) along the 
southwest border since the end of fiscal year 2006. These gains, 
however, which CBP identifies as ``pre-SBInet,'' have been very 
manpower-intensive and relied upon Agents for the detection and 
monitoring capabilities SBInet technology will provide, as well as 
response and resolution. Conversely, as SBInet is deployed in Tucson 
and Yuma sectors, Agents in the field will adapt to SBInet's 
technological capabilities. This adaptation should lessen the need for 
current manpower and facilitate using appreciable numbers of agents 
elsewhere. We will continue to evaluate law enforcement needs in 
conjunction with SBInet technological systems solutions, current 
manpower, and tactical infrastructure.

                             RADAR COVERAGE

    Question. What level of radar coverage does Montana receive?
    Answer. CBP Air and Marine notes this information as sensitive/
classified. CBP Air and Marine personnel are willing to brief cleared 
personnel in an appropriate environment to discuss the details of a 
more succinct response.
    Question. In which parts of the United States can CBP see or track 
aircraft flying lower than 5,000 feet?
    Answer. CBP Air and Marine notes this information as sensitive/
classified. CBP Air and Marine personnel are willing to brief cleared 
personnel in an appropriate environment to discuss the details of a 
more succinct response.
    Question. Which agency (or agencies) is/are responsible for 
providing radar coverage nationally?
    Answer. The three main reasons for radar coverage are Air Traffic 
Control, Homeland Defense and Homeland Security. The Federal Aviation 
Administration operates and maintains both Long Range and Terminal 
radars used for Air Traffic Control. Some of these same radars are part 
of the Joint Surveillance System (JSS) also used by the Department of 
Defense providing both communications and radar data. Terminal radars 
are typically located on or near an airport. The Tethered Aerostat 
Radar System (TARS), which is maintained and operated by the Department 
of Defense, is located along the southwest border and in Florida. 
Radars within this system are attached to moored balloons. CBP's Air 
and Marine Operations Center (AMOC) utilizes TARS to provide radar 
surveillance for DHS to execute a Homeland Security Mission (Law 
Enforcement). The aggregate of the data from these radar systems is 
managed by the FAA's National Airspace System Defense Program (NDP). 
The NDP office utilizes existing FAA infrastructure and human resources 
to expand voice and surveillance services to meet external user 
requirements.
    Question. Do Air Force facilities in Montana have and provide radar 
coverage to CBP or the Air Marine Operations Center (AMOC)?
    Answer. Malstrom Air Force Base located in Great Falls, MT does not 
provide radar feed to the AMOC however a Long Range Radar (LRR) located 
on Bootlegger Ridge outside of the base is received by the AMOC.

                U.S. Immigration and Customs Enforcement

                          WORKSITE ENFORCEMENT

    Question. There has been no stronger supporter in Congress of the 
worksite enforcement program than this Senator. When we met in my 
office, I asked you if you supported the worksite enforcement program 
and you said, yes. On April 30, 2009, you announced new guidelines for 
how worksite enforcement operations are to be conducted. Specifically, 
the guidelines are targeted at the unscrupulous employers who hire 
illegal aliens.
    Please describe to the Subcommittee your plans for the worksite 
enforcement program. What is the requested level of funding for 
worksite enforcement? What was the level provided for worksite in 
fiscal year 2009?
    Answer. Illegal employment draws people to enter the United States 
illegally. Immigration and Customs Enforcement (ICE) is committed to 
reducing those opportunities.
    On April 30, 2009, ICE announced a new worksite enforcement 
strategy targeting employers who knowingly hire illegal labor while 
continuing to arrest and process for removal any illegal workers. 
Pursuant to this strategy, ICE will do the following: (1) penalize 
employers who knowingly hire illegal workers; (2) deter employers who 
are tempted to hire illegal workers; and (3) encourage all employers to 
take advantage of well-crafted compliance tools and best practices. 
Arresting and removing unlawful workers alone is not sufficient to 
deter employers.
    In addition to prosecuting employers, seizing illegal profits 
through asset forfeiture, and arresting illegal workers, ICE also will 
use other tools to penalize and deter employers who violate the law. In 
particular, ICE will conduct more Form I-9 inspections and pursue civil 
fines as appropriate. ICE also will seek debarment of businesses that 
have violated the employment provisions of the Immigration and 
Nationality Act. Finally, ICE will continue to provide training, tools, 
and information to assist employers who want to comply with the law and 
avoid hiring unauthorized workers.
    As set forth in the projected Office of Investigations (OI) 
expenditure plan for fiscal year 2010, OI requests $128,778,000 for 
worksite enforcement.
    In fiscal year 2009, $126,515,000 has been provided for worksite 
enforcement, consistent with the fiscal year 2009 DHS Appropriations 
Act (Public Law110-329).

                           PROGRAM INTEGRITY

    Question. What was the total fiscal year 2009 level of funding 
provided, and what is the total requested fiscal year 2010 level for 
ICE Program Integrity?
    Answer. For fiscal year 2009, the Office of Professional 
Responsibility's (OPR) budget was $81.9 million and the total requested 
level for fiscal year 2010 is $90.6 million. The overall OPR budget 
funds investigations of allegations of criminal and administrative 
misconduct by ICE and CBP employees, inspections of detention 
facilities, 287(g) programs, and ICE field office and physical security 
management. These investigations and inspections support the integrity 
of ICE and CBP staff and programs.
    Question. How many positions related to the integrity program were 
on-board in fiscal year 2008, will be on-board by the end of fiscal 
year 2009, and are requested for fiscal year 2010?
    Answer. At the end of fiscal year 2008, OPR had 415 employees 
onboard. By the end of fiscal year 2009, OPR anticipates having 493 
positions on-board. OPR has requested 49 additional positions for 
fiscal year 2010. The requested fiscal year 2010 positions will support 
inspections of ICE programs, ICE field offices, and detention facility 
inspections.
    Question. From 2007 to 2009 (to date):
    How many investigations?
    How many arrests?
    How many convictions have there been?
    Answer. As of May 19, 2009, these statistics reflect criminal 
investigations, arrests and convictions of ICE and CBP employees. Note 
that these statistics do not include arrests of civilians for crimes 
such as impersonation of a Federal officer and bribery. Also, the 
investigations category statistics do not reflect administrative 
inquiries or management referrals.
    Investigations:
  --Fiscal year 2007--829
  --Fiscal year 2008--983
  --Fiscal year 2009--824
    Arrests:
  --Fiscal year 2007--11
  --Fiscal year 2008--32
  --Fiscal year 2009--19
    Convictions:
  --Fiscal year 2007--14
  --Fiscal year 2008--22
  --Fiscal year 2009--16

                             DETENTION BEDS

    Question. There is only a 50 bed increase in the number of 
detention beds (for a total of 33,450). Does the request fully fund 
this bed level for the entire fiscal year? In what State or region of 
the country is there a shortage of accessible detention beds? What is 
the ICE plan to address this regional shortage?
    Answer. ICE current detention funding request, including the $36.2 
million adjustment to the base request, will assist the Office of 
Detention and Removal Operations (DRO) in maintaining detention 
capacity in support of ICE's enforcement efforts for the entire fiscal 
year. This request will also cover the costs associated with:
  --Unforecasted increases in Inter-Governmental Service Agreement 
        (IGSA) contract costs
  --Increases in detainee health care costs
  --Increased detention standards monitoring contracts.
    DRO continues to explore short-term and long-term ways to 
streamline and reduce costs associated with detention management while 
maintaining high standards. ICE will also use Secure Communities 
funding to meet additional bedspace needs due to increasing criminal 
alien enforcement efforts.
    ICE is presently experiencing regional bed space shortages in the 
Northeastern United States, California, and its Miami Field Office. 
Although ICE strives to complete the removal process while an alien is 
in the custody of another law enforcement organization, there is 
inevitably a period of time the alien enters ICE custody before his or 
her physical removal from the United States can be affected.
    ICE addresses regional fluctuations in detention space, such as 
those in its California and Miami Field Offices, by transferring ICE 
detainees from locations experiencing an increase in detainees to 
locations where bed space is more readily available. ICE monitors bed 
space on a daily basis. In addition, ICE is in the process of 
initiating a request for proposals for increasing ICE's bed space 
capacity in the southern California region.
    Additionally, ICE competes for bed space with other State and local 
law enforcement agencies, as 70 percent of ICE detention beds are 
currently located within IGSA facilities owned by these State and local 
entities.
    DRO is in the process of establishing the Detention Management 
Strategy Working Group (DMSWG), which will further evaluate ICE's long-
term detention management strategy. The group will create a 3-4 year 
detention plan for DRO that will meet the needs of both ICE and our 
immigration enforcement partners. The DMSWG will be comprised of 
representatives from all ICE programs, as well as representatives of 
Custom and Border Protection's (CBP) Office of Border Patrol and Office 
of Field Operations and the Department of Justice's Executive Office.

                           SECURE COMMUNITIES

    Question. With the Secure Communities fiscal year 2010 request of 
$195.589 million, to how many counties will this program expand? What 
is the increase in counties covered over fiscal year 2009? How many 
additional counties will remain to receive the Secure Communities 
program after fiscal year 2010? By what date does the Secure 
Communities plan to be operational nationwide?
    Answer. Secure Communities plans to expand coverage by at least 50 
counties during fiscal year 2010 to establish biometric identification 
of arrested criminal aliens in over 140 counties.
    Secure Communities' threat-based deployment schedule prioritizes 
those counties with the highest threat criminal alien populations 
first, consisting primarily of counties in major metropolitan areas 
throughout the country as well as all counties along the Southwest 
Border. Secure Communities estimates that after deploying to these 
counties, ICE will cover over 50 percent of the Nation's criminal alien 
population.
    Secure Communities anticipates that, with continued funding, 
including redeployment of existing resources, it will establish 
biometric identification of arrested criminal aliens in all counties 
that are willing and technically able to participate by the end of 
fiscal year 2012.
    Question. From 2007 to 2009 (to date), how many criminal illegal 
aliens were:
  --Incarcerated?
  --Entered into deportation proceedings?
  --Deported following incarceration?
    Answer. As ICE is not present at every State and local jail, ICE is 
unable to provide the exact number of criminal aliens incarcerated from 
2007-2009. However, as ICE deploys Interoperability nationwide, ICE 
will be able to obtain more reliable estimates. Secure Communities 
developed a 2006 estimate of the total incarcerated criminal alien 
population based on statistical information from the Bureau of Justice 
Statistics. Please see the information and table that follows.
    Entered into removal/deportation proceedings:
  --At the close of fiscal year 2007, there were 164,296 charging 
        documents issued to criminal aliens placing them into removal/
        deportation proceedings.
  --At the close of fiscal year 2008, there were 221,085 charging 
        documents issued to criminal aliens placing them into removal/
        deportation proceedings.
  --Currently in fiscal year 2009 (YTD), there have been 133,118 
        charging documents issued to criminal aliens placing them into 
        removal (deportation) proceedings.
  --Figures for fiscal year 2007 and fiscal year 2008 are reflective of 
        historical statistics related to charging documents issued 
        under the Criminal Alien Program (CAP). Figure for fiscal year 
        2009 is reflective of year to date CAP statistics.
    Deported following incarceration:
  --fiscal year 2007 Criminals removed (deported): 102,024
  --fiscal year 2008 Criminals removed (deported): 114,415
  --fiscal year 2009 (YTD) Criminals removed (deported): 71,236
  --Figures for fiscal year 2007 and fiscal year 2008 are historical. 
        The figure for fiscal year 2009 is reflective of year to date 
        statistics. All figures include aliens who, after being 
        apprehended, may have been allowed to voluntarily depart the 
        United States before being placed into removal proceedings.
    Please see the following table.

                                      CRIMINAL ALIEN PROGRAM (CAP) ANALYSIS
                                          [Incarcerated Alien Universe]
----------------------------------------------------------------------------------------------------------------
                                                                                            Totals      Totals
                                                                    Local Min  Local Max  (including  (including
                                               Federal     State       \1\        \2\     Local Min)  Local Max)
                                                                                              \1\         \1\
----------------------------------------------------------------------------------------------------------------
Daily Population \3\........................    170,000  1,365,438  1,510,000  3,020,000   3,045,438   4,555,438
Number Foreign Born \4\.....................     34,000    273,088    302,000    604,000     609,088     911,088
Number of Removable Aliens \5\..............     17,000    136,544    151,000    302,000     304,544     455,544
Criminality Levels and Types: \6\
    Level 1--Violent and Major Drug Offenses      1,598     71,139     21,442     42,884      94,179     115,621
     \7\....................................
    Level 2--Property and Minor Drug             10,013     55,164     44,847     89,694     110,024     154,871
     Offenses \8\...........................
    Level 3--Other Offenses \9\.............      5,389     10,241     84,711    169,422     100,341     185,052
                                             -------------------------------------------------------------------
      Totals................................     17,000    136,544    151,000    302,000     304,544     455,544
----------------------------------------------------------------------------------------------------------------
\1\ The local daily population figure is based on 755,000 with an average sentence of 6 months. The 6 month
  figure is based on the average sentence for a felon sentenced to local jail.
\2\ The local daily population figure is based on 755,000 with an average sentence of 3 months. The 3 month
  sentence is an attempt to incorporate the majority of pre-sentenced inmates who are in local jail.
\3\ Source. The Bureau of Justice Statistics Bulletin, Prisoners in 2006, Year end Report dated December 2007 is
  the source document for the Federal, State and Local daily population and Federal and State criminality
  percentages within this table. The Uniform Crime Reporting Program, Crime in the United States 2005, U.S.
  Department of Justice, Federal Bureau of Investigations is the source document for the local foreign born
  criminality percentages within this table. The Bureau of Justice Statistics (BJS) Year end 2006 Report on
  Jails and Prisons is a snapshot of the population at yearend, December 2006. All data from the BJS Federal
  Justice Statistics Program is based on all sentenced inmates, regardless of sentence length.
\4\ Bureau of Prisons (BOP) foreign born population was derived from the BOP SENTRY system. The percentage (20
  percent) of foreign born nationals in the BOP was applied to the State and local daily population to determine
  the foreign born population based on ICE historic data and average annual State Criminal Alien Assistance
  program funding requests.
\5\ The removable alien population is based on the percentage of CAP screened cases that require a detainer.
  This information is derived from the CAP manual report. On average 50 percent of screened cases will require a
  detainer.
\6\ The Criminality Levels 1, 2, and 3 and associated crimes from the BJS source document has been applied to
  the Federal and State population while the FBI source document has been applied to the Local population. The
  statistics for each Criminality Level for the Federal, State and Local populations are a percentage of the
  number of removable aliens.
\7\ Level 1 includes crimes such as murder, manslaughter, rape, robbery, assault, and major drug offenses.
\8\ Level 2 includes crimes such as burglary, larceny, motor vehicle theft, fraud, and minor drug offenses.
\9\ Level 3 includes crimes such as public order, immigration, weapons or other unspecified offenses.

                               ICE LEASES

    Question. What will be the additional cost to ICE of renewing 
leases, etc. between fiscal year 2011-2013, if the requested increase 
of $92 million for co-location of ICE facilities is not approved?
    Answer. Over the next 5 years, 72 percent of ICE leases will 
expire. If ICE remained in existing space and renewed these leases on 
an ad hoc basis, it would cost ICE an additional $69 million through 
fiscal year 2013. In fiscal year 2014, the costs will increase by 
another $21 million.
    Currently, most ICE employees are housed in 351 separate leases in 
55 metropolitan areas. ICE averages 6 leases in each metropolitan area. 
Co-location reduces ICE's footprint to 56 leases in these 55 areas, 
providing sufficient, modern space for both employees and detainees who 
come into the agency's custody. The co-location plan also addresses 
inadequate electrical grid capacity in our many older facilities that 
cannot support new technology requirements. It incorporates space for 
holding cells, evidence rooms, and safety features to protect officers, 
detainees and the public. The plan will also allow efficiencies, such 
as shared support and guard services, as well as greater coordination 
on operations.
    Question. Are there tranches of funding less than $92 million that 
will address a portion of the need? Please describe.
    Answer. Given the short remaining life of most of the existing 
leases in these cities, ICE has not developed alternatives for how it 
would manage collocation with less than $92 million. If necessary, ICE 
would likely seek to extend existing leases in some cities, albeit at 
significantly higher cost. ICE would also likely be forced to cover 
these higher costs with base resources, reducing funding available for 
operations.
    ICE identified its top 12 collocation projects based on operational 
needs and looming lease expirations. The President's request of $92 
million would fully fund these projects in the cities listed below. The 
12 projects include cities close to the southwest border such as El 
Centro, CA and Albuquerque, NM, and other key high-priority cities.

----------------------------------------------------------------------------------------------------------------
                                                                                                     TOTAL Build-
              No.                     City              State         Project Type    Consolidation   Out Costs
                                                                                        Size (RSF)    (dollars)
----------------------------------------------------------------------------------------------------------------
1.............................  El Centro.......  CA..............  Non-Prospectus..        61,538        $9,613
2.............................  Portland........  OR..............  Non-Prospectus..        46,484         9,207
3.............................  Spokane.........  WA..............  Non-Prospectus..        30,120         4,140
4.............................  Columbus........  OH..............  Non-Prospectus..        36,914         4,665
5.............................  Reno............  NV..............  Non-Prospectus..        20,712         2,273
6.............................  Jacksonville....  FL..............  Non-Prospectus..        45,964         7,864
7.............................  Albuquerque.....  NM..............  Non-Prospectus..        71,142        19,428
8.............................  Salt Lake City..  UT..............  Non-Prospectus..        40,527         8,011
9.............................  Orlando.........  FL..............  Non-Prospectus..        51,048         8,695
10............................  Raleigh.........  NC..............  Non-Prospectus..        29,251         5,791
11............................  Greenville......  SC..............  Non-Prospectus..        29,960         3,670
12............................  Charleston......  SC..............  Non-Prospectus..        53,517         8,897
----------------------------------------------------------------------------------------------------------------

                 Transportation Security Administration

                    TSA AIR CARGO INSPECTOR STAFFING

    Question. I am concerned with the lack of additional funding for 
TSA air cargo and surface inspectors. The DHS Inspector General 
suggested in a February 2009 report that, ``additional surface 
inspectors are needed to perform future tasks and enhance understaffed 
field offices.'' For air cargo, the Government Accountability Office 
reported in March 2009 that, ``TSA's limited inspection resources may 
also hamper its ability to oversee the thousands of additional entities 
that it expects to participate in the Certified Cargo Shipper 
Program.'' This Subcommittee has added significant resources in the 
past to get these programs up and running. We do not believe the 
programs are staffed at a level yet to insure compliance with the 
statutory deadlines for securing air cargo on passenger aircraft, or 
for surface transportation requirements. What actions do you intend to 
take to rectify this shortfall?
    Answer. TSA is working diligently to fill the remaining cargo and 
surface inspector positions by posting job listings both internally and 
externally as well as actively recruiting applicants from both the 
public and private sectors.
    TSA is adding 50 additional surface transportation security 
inspectors using funds provided by Congress in the fiscal year 2009 
appropriations act for 9/11 Act implementation. In recruiting new 
surface inspectors, TSA is targeting individuals that have relevant 
transportation security experience as required by the Implementing 
Recommendations of the 9/11 Commission Act of 2007 and notifying key 
surface transportation industry officials of posted job announcements.

                       AIR PASSENGER FEE INCREASE

    Question. The President's fiscal year 2010 budget proposes that 
security fees which airline passengers pay to fly will increase 
starting in fiscal year 2012, generating an additional $2.6 billion in 
aviation security funding by 2014. This plan requires legislative 
authority. Has a legislative proposal been submitted to the appropriate 
authorizing Committee(s)? If Congress rejects this plan, will the 
administration ask to increase funding in the outyears to accommodate 
for this shortfall?
    Answer. A legislative proposal was transmitted to both the House 
and the Senate on May 20, 2009. This adjustment will fulfill the 
original intent of the Aviation and Transportation Security Act (ATSA) 
by more closely allocating the cost of aviation security services to 
the users of the aviation system, who directly benefit from this unique 
government service, and reducing the burden on the general taxpayer. We 
are hopeful that the Congress will support the President's plan after 
careful consideration. In the event Congress rejects the proposal, the 
administration will consider out-year alternatives.

                           BEHAVIOR DETECTION

    Question. There are 2,860 behavior detection officers budgeted for 
fiscal year 2009. What is the current on board level for BDO's?
    Answer. As of April 25, 2009, there were 2,929 Behavior Detection 
Officers on board.
    Question. There are 3,204 budgeted in fiscal year 2010. Can you 
send us the 5 year cost projection for the program (2007 to 2011)?
    Answer. Please see the chart that follows. The fiscal year 2011 
figure represents a 3.7 percent cost of living adjustment on the fiscal 
year 2010 Request.

------------------------------------------------------------------------
                       Fiscal year                             Cost
------------------------------------------------------------------------
2007....................................................     $20,170,205
2008....................................................      87,652,230
2009....................................................     198,336,627
2010....................................................     225,861,214
2011....................................................     234,290,953
------------------------------------------------------------------------

    Question. What performance standards are being used to justify such 
a large increase in the program over this 5 year period?
    Answer. TSA maintains a Screening Passengers by Observation 
Techniques (SPOT) database, which lists all referrals by a Behavior 
Detection Officer (BDO). From that we can track the number of referrals 
resulting in arrest, referred to another agency, questioned and 
released by a Law Enforcement Officer (LEO), LEO not responded, LEO 
responded but not questioned, and resolved by SELECTEE screening. TSA 
uses this data, along with information from other sources, such as 
Performance Measurement Information System, to help determine the 
effectiveness of the program at the various locations as well as a 
whole. BDOs are a proactive layer of security in front of the security 
checkpoint and enhance the overall security posture of TSA.

                      COLLECTIVE BARGAINING RIGHTS

    Question. What is the status of the Secretary's review of 
collective bargaining rights for Transportation Security Officers 
(TSO's)? When will a decision be made by the Secretary?
    Answer. The review is ongoing.
    Question. What are the cost implications if the decision is made to 
provide TSO's with collective bargaining rights? Are sufficient funds 
included in the fiscal year 2010 request to support such a decision?
    Answer. Any budgetary concerns would be contingent upon the outcome 
of the ongoing review. At this time, it is premature to speculate on 
budgetary impacts.

                            U.S. Coast Guard

                     NATIONAL SECURITY CUTTER (NSC)

    Question. The Coast Guard is in the middle of a large procurement 
to replace 12 aging high endurance cutters with eight modern ships 
known as National Security Cutters. The costs of this acquisition have 
significantly increased due to the weakening of the dollar, rising 
commodity prices, and rising labor costs. Your budget funds the 
remaining costs for the 4th NSC. Yet, it does not provide any funding 
for NSC number five. This will cause a delay in producing that cutter.
    The NSCs will play a primary role in the Coast Guard's drug 
interdiction strategy, which is focused on transit routes from source 
countries in the Caribbean and eastern Pacific Ocean. The legacy fleet 
of 12 cutters loses an average of 250 operational days per year due to 
unplanned maintenance, which is directly impacting the Coast Guard's 
ability to disrupt drug movements headed towards the United States. Is 
it not critical to get the new cutters on line to replace these 
underperforming assets?
    Is the administration considering a budget amendment for NSC #5 (or 
any segment of NSC #5)? If not, why?
    Answer. Completion of the NSC Acquisition Program Baseline (APB) of 
eight hulls to replace the in-service High Endurance Cutter fleet 
continues to be the Coast Guard's highest recapitalization priority.
    At this time there is no plan to amend this portion of the fiscal 
year 2010 Budget Request. The request in 2010 is sufficient to backfill 
the current funding gap and enables Coast Guard to award a contract for 
NSC-4. The Coast Guard anticipates NSC-1 acceptance in early 2010, 
which would allow procurement of the next cutter (NSC-5) to begin in 
2011.

                              COAST GUARD

    Question. The Commandant consistently says ``demand for Coast Guard 
services outstrips our supply'' and that the Coast Guard workforce is 
``capable of growing by 2,000 employees a year.'' Under the fiscal year 
2010 request, the Coast Guard workforce would grows by only .05 
percent. In fact, under your request, the size of the military 
workforce actually decreases. Is that really adequate to deal with the 
many demands on the Coast Guard? What mission requirements have been 
reduced to warrant the reduction in military personnel? How does this 
status quo budget for staffing address the significant gaps in meeting 
mission requirements identified in the Coast Guard's Quarterly Abstract 
of Operations Report?
    Answer. The Coast Guard's fiscal year 2010 Budget Request balances 
many important priorities, including marine safety and security 
enhancements, modernization, and asset recapitalization requirements. 
The fiscal year 2010 Budget Request reflects the balance of these needs 
and supports the Coast Guard's highest priorities, including 
substantial personnel growth in several key areas. Specifically, the 
fiscal year 2010 President's Request includes 74 new positions to 
support the Marine Safety improvement plan, 86 new positions to improve 
financial management oversight, and 100 positions for critical 
acquisition program management. These enhancements, build upon the 
significant workforce growth provided in fiscal year 2008 and fiscal 
year 2009 further optimize the military and civilian workforce mix, 
particularly in critical Marine Safety, financial management and 
acquisition programs, where we have identified a need for the stability 
and experience provided by the civilian workforce. The new positions in 
the fiscal year 2010 budget request are partially offset by the 
reduction of 294 FTE as a result of the proposed termination of the 
antiquated loran-C system.
    These enhancements build upon the significant workforce growth 
provided in fiscal year 2008 and fiscal year 2009 and further optimize 
the military and civilian workforce mix; particularly in critical 
Marine Safety, financial management, and acquisition programs where we 
have identified a need for the stability and experience provided by the 
civilian workforce.

                       COAST GUARD ASSETS IN IRAQ

    Question. The Coast Guard has well documented readiness challenges 
associated with its aging platforms, such as 110 foot patrol boats. 
These patrol boats are used to stop illegal drugs and illegal aliens 
from coming to our shores. While the Coast Guard has a history of 
``doing more with less,'' they are stretched thinner than ever because 
their fleet was built for the last century. New patrol boats are being 
built, but the first won't be in service until 2012 at the earliest. 
Six Coast Guard patrol boats are operating in Iraq to protect our 
troops and critical infrastructure. I support the Coast Guard's mission 
to provide force protection for military and civilian personnel. 
However, the President's plan is to have all troops removed from Iraq 
by the end of 2011. As we bring our troops home from Iraq, will DOD ask 
the Coast Guard to increase the Coast Guard presence to protect U.S. 
Naval Assets?
    Answer. It is unknown whether DOD will request increased Coast 
Guard presence to protect U.S. Naval Assets during a large-scale 
demobilization from Iraq. Coast Guard forces operating in Iraq and in 
the Northern Arabian Gulf are under the Operational Control (OPCON) of 
USCENTCOM, which has not addressed Coast Guard force requirements in 
the region beyond 2011.
    Question. Is there currently a plan to bring the Coast Guard boats 
home to help with non-defense Coast Guard missions when our troops are 
out of Iraq?
    Answer. These vessels are currently under the operational control 
of USCENTCOM, which has not yet addressed Coast Guard force 
requirements in the region beyond 2011, so the Coast Guard has not 
finalized a plan for the disposition of the six 110 foot WPBs.

                             ARCTIC POLICY

    Question. According to the U.S. Geological Survey, over 22 percent 
of the world's undiscovered energy supply is under the Arctic ice cap. 
In pursuit of these energy resources, Russia has literally planted its 
flag underneath the Arctic cap. Russia has a fleet of 20 heavy 
icebreakers and has plans to significantly increase its fleet by 2020.
    By contrast, the United States has only one operational heavy ice 
breaker and it has only seven years of useful life left. It takes seven 
to ten years to build an icebreaker, so we are facing a situation where 
at a time when the Russians will have 20 or more icebreakers to 
facilitate exploration in the Arctic, the United States will have none. 
The Bush administration did nothing during its 8 years to address this 
problem.
    Last year, the leaders of the U.S. Pacific Command, U.S. 
Transportation Command, and the U.S. Northern Command sent a memorandum 
to the Chairman of the Joint Chiefs of Staff stating that, ``the 
effects of climate change and increasing economic activity require a 
more active presence in this maritime domain.'' They specifically 
called for the construction of a new polar icebreaker and funding to 
keep existing icebreakers viable until the new ships enter service.
    This Subcommittee provided $30 million in fiscal year 2009 to begin 
repairing a second icebreaker, the Polar Star, which has been in dry 
dock for 30 months. An additional $32.5 million is necessary to 
complete the repairs in fiscal year 2010. The Department's budget 
provides no funding to complete the repair of the Polar Star and no 
funding for the design of a new icebreaker.
    How can we compete with Russia and other Nations in the region 
without viable icebreaking support?
    Answer. The USCGC HEALY, which is specifically designed for Arctic 
conditions, fulfills the Federal requirements for Arctic exploration 
and has a projected service life of at least 15 more years. The 
administration is assessing the overarching issues facing the Arctic, 
including those associated with impacts of climate change, increased 
human activity, new or additional information needs, and conservation 
of Arctic resources. This approach will necessarily include identifying 
any implementation issues associated with the Arctic policy signed by 
the previous administration. Additionally, the Coast Guard will report 
out the findings of their 2009 High Latitude Study. From these 
activities, the administration will be able to address specific 
operational issues in 2011.

                         GREAT LAKES ICEBREAKER

    Question. What is USCG view on the House-passed authorization bill 
for a new Great Lakes Icebreaker? Does it include enough funding to 
build an Icebreaker and is this the right strategy?
    Answer. The Coast Guard is initiating a Great Lakes icebreaking 
Mission Analysis Report (MAR), a prerequisite to the Major Systems 
Acquisition process. Until the MAR is complete, the Coast Guard cannot 
fully assess the need or capability requirements for an additional 
icebreaker on the Great Lakes as authorized in H.R. 1714. Assuming a 
CGC MACKINAW-like icebreaker is the intended platform authorized by 
H.R. 1714, the funding level in the authorization passed by the House 
of Representatives would be insufficient. Initial Coast Guard estimates 
indicate construction costs alone for a MACKINAW-like icebreaker would 
be approximately $200 million. This estimate does not include potential 
homeport facility costs or additional capability requirements 
identified by the aforementioned MAR.

                     INTERAGENCY OPERATION CENTERS

    Question. Why didn't the Coast Guard request funding for fiscal 
year 2010? Has the need for IOC's gone away? Does the request of $0 in 
the fiscal year 2010 budget for IOC's signal a strategy change by the 
Coast Guard? Is the Coast Guard still on track to roll out Watchkeeper 
at the Seahawk in Charleston in September? If not when will it be 
rolled out? Without additional fiscal year 2010, how many Sectors will 
receive Watchkeeper in fiscal year 2009? fiscal year 2010? Are 
additional watchstanders needed as Sector Commands transition to 
Watchkeeper? What is the status of segment 2 (enhancing information 
exchange)? Will it be deployed in fiscal year 2010? Is there a funding 
need for segment 2 in fiscal year 2010? What Sector facilities require 
maintenance/renovation/upgrade/replacement to meet IOC requirements? Be 
specific on costs for each and when funding could be obligated if 
funding were available.
    Answer. Prior appropriations will support continued Interagency 
Operation Centers (IOC) facility upgrades, rollout of the prototype for 
WatchKeeper and testing of the prototype in fiscal year 2010. The Coast 
Guard will continue the IOC project through fiscal year 2010 in 
accordance with the SAFE Port Act.
    DHS remains committed to implementation of IOCs consistent with the 
SAFE Port Act. The Coast Guard will continue its IOC activities through 
fiscal year 2010, including the continuation of IOC activities at 
Seahawk Charleston.
    The U.S. Coast Guard will continue as the DHS executive agent for 
Maritime Domain Awareness (MDA); the strategy remains unchanged. The 
fiscal year 2010 Budget Request supports further MDA investment through 
Long Range Identification and Tracking, Rescue 21, and SeaHawk 
Charleston. IOCs are part of an overall strategy to bolster MDA and 
operational collaboration through virtual or actual collocation of 
interagency, State, and local partners in one facility, improve 
situational awareness, and increase operational efficiency through 
enhanced technology and information sharing.
    The Coast Guard is on schedule to roll out the WatchKeeper 
prototype for testing at SeaHawk in Charleston, South Carolina during 
September 2009.
    Upon successful completion of operational testing and evaluation, 
the Coast Guard will work with the Department of Homeland Security to 
deploy WatchKeeper to the remaining 35 Sectors in fiscal year 2010.
    The deployment of a full-scale system will depend on the results of 
prototype testing.
    The Coast Guard's current work on Interagency Operations Center 
facility modifications includes:
  --Complete or upgrades not required--for nine IOCs: Seattle, San 
        Diego, Los Angeles/Long Beach, Long Island Sound, Hampton 
        Roads, San Juan, Charleston, Miami, and Key West
  --Underway--for two IOCs: New Orleans and San Francisco

                                LORAN-C

    Question. The administration made a lot of noise with its list of 
$17 billion in cuts to wasteful programs. One of those programs is the 
termination of loran-C, developed as a radio navigation service for 
U.S. coastal waters and later expanded to include complete coverage of 
the continental United States as well as most of Alaska. According to 
the budget request, the emergence of the Global Positioning System 
(GPS), loran-C is no longer required by the armed forces, the 
transportation sector, or the nation's security interests, and is used 
only by a small segment of the population. In January 2009, an 
independent report commissioned by the Department of Transportation 
concluded that a back-up system is prudent and eloran is the only cost-
effective backup for national needs. Why then is it prudent to shut 
down loran stations and sell them as your budget proposes?
    Answer. The President's fiscal year 2010 Budget Request identifies 
potential savings across the Federal Government to reduce the Nation's 
deficit and to discontinue outdated programs.
    As a result of technological advancements, loran-C has become an 
antiquated system that is no longer required by the Armed Forces, the 
transportation sector, or the Nation's security interests. The 2009 
report was based on information dating back to 2006. It was one 
analysis among many that was considered in formulating the 2010 
termination decision.
    The loran-C system was not established as, nor was it intended to 
be, a viable systemic backup for GPS. As stated in the 2008 Federal 
Radionavigation Plan, backups to GPS for safety-of-life navigation 
applications, or other critical applications, can be other 
radionavigation systems, operational procedures, or a combination of 
these systems and procedures. Backups to GPS for timing applications 
can be a highly accurate crystal oscillator or atomic clock and a 
communications link to a timing source that is traceable to Coordinated 
Universal Time.
    With respect to transportation to include aviation, commercial 
maritime, rail, and highway, the Department of Transportation has 
determined that sufficient alternative navigation aids currently exist 
in the event of a loss of GPS-based services, and therefore loran-C 
currently is not needed as a back-up navigation aid for transportation 
safety-of-life users.
    DHS will continue to work with other Federal agencies to look 
across the critical infrastructure and key resource sectors identified 
in the National Infrastructure Protection Plan assessment to determine 
if a single, domestic system is needed as a GPS backup for critical 
infrastructure applications requiring precise time and frequency. If a 
single, domestic national system to back up GPS is identified as being 
necessary, DHS will complete an analysis of potential backups to GPS, 
including appropriately hardened facilities to protect these systems 
(currently, most loran-C sites are not hardened for such purposes). The 
continued active operation of loran-C is not necessary to advance this 
evaluation.
    Question. When the Coast Guard proposed to terminate all loran 
stations in the fiscal year 2007 budget, it proposed a phased approach 
using recurring savings to fund exit costs. The fiscal year 2007 budget 
estimated first year savings of $11.8 million. Would the assumed level 
of $36 million of savings require all 24 stations to be shut down on 
October 1, 2009? A phased approach to closing loran stations appears to 
be more realistic. Provide the Coast Guard loran station 
decommissioning schedule. Based on the schedule, provide the true 
savings in fiscal year 2010.
    Answer. The Coast Guard is currently refining its plan for 
terminating the loran-C system. The approach to termination includes 
both domestic and international notification of signal termination 
followed by signal termination, securing individual sites, and 
destaffing. The process will be phased with the first stations being 
closed in the first quarter of fiscal year 2010 with all sites 
destaffed by the end of fiscal year 2010. In determining the schedule 
for station closures, the Coast Guard is considering factors such as 
climate, international obligations, ease of access, property management 
and personnel matters.
    The actions taken by the Coast Guard will result in annualized 
savings of $36 million in fiscal year 2010 and $190 million over 5 
years. The Coast Guard is currently refining its precise estimates 
regarding the actual direct and indirect fiscal year 2010 savings 
associated with terminating the loran-C system. DHS would be pleased to 
provide the Committee with a brief on its final termination plan when 
those details are available.

              FEDERAL INFORMATION SECURITY MANAGEMENT ACT

    Question. Please identify the resources you requested for the 
implementation of the Federal Information Security Management Act. How 
does that compare to fiscal year 2009?
    Answer. The Coast Guard is requesting $759,000 in recurring funding 
for Federal Information Security Management Act (FISMA) implementation 
in fiscal year 2010. The Coast Guard requested the same amount in 
fiscal year 2009.

                      United States Secret Service

                          OVERSEAS ACTIVITIES

    Question. Are any funds requested in the fiscal year 2010 budget to 
open any new overseas offices or start new overseas activities? If so, 
please describe funding, anticipated level of activity, and personnel 
involved.
    Answer. The fiscal year 2010 Budget Request provides an additional 
$700,000 to annualize the cost for one additional international office 
in Tallinn, Estonia, and provides level funding to support operations 
in the Secret Service's existing 22 international offices.
    The fiscal year 2009 DHS Appropriations Act (Public Law 110-329) 
provided the Secret Service with an additional $1,658,000 to expand 
foreign field office operations. Pending approval by the Committees on 
Appropriations, the Secret Service will move forward with the National 
Security Decision Directive-38 (NSDD-38) application to establish an 
international office in Tallinn, Estonia. Once approved, this office 
will be staffed by two Special Agents, one administrative support 
position, and one Foreign Service National Investigator position.
    The Secret Service has seen an increase in financial institution 
fraud, credit card fraud, and counterfeiting of United States currency 
emanating from the Baltic region. To combat this problem, the Secret 
Service will assign highly trained Special Agents to work with our 
international law enforcement partners on criminal investigations, 
while deepening the partnerships that provide critical support to the 
protection mission.
    Overall, in fiscal year 2008, Secret Service international offices 
closed 188 counterfeit cases, 180 financial crimes cases, 444 
protective intelligence cases, 466 protective surveys, and 217 non-
criminal cases. During this period, Secret Service international 
offices also assisted our law enforcement partners abroad with the 
arrest of 657 suspects, and seized over $31.3 million in counterfeit 
United States currency before it could be introduced into circulation.

                    NATIONAL SPECIAL SECURITY EVENTS

    Question. How have the National Special Security Events funds been 
used in fiscal year 2009?
    Answer. Please see the following table.

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Campaign (Inauguration).................................      $5,599,000
G-20....................................................       1,012,000
                                                         ---------------
      Total.............................................       6,611,000
------------------------------------------------------------------------

                             MAIL FACILITY

    Question. When will the new mail facility become operational?
    Answer. At the present time, construction of the White House mail 
screening facility is ahead of schedule, with GSA estimating that all 
construction will be finished by December 31, 2009. The Secret Service 
is expecting to take possession of the building on January 1, 2010. 
Tenant fit-out is expected to begin in the 2nd quarter of fiscal year 
2010 with the anticipation that the new White House mail screening 
facility will become fully operational between the 3rd and 4th quarter 
of fiscal year 2010.
    Question. What is its anticipated annual operating budget?
    Answer. The anticipated annual operating budget for the new mail 
facility is approximately $25.3 million.

                           FUNDING CROSSWALK

    Question. Provide a crosswalk of the funds requested for the 
Information Integration and Transformation Program with the funds 
provided for these activities in the fiscal year 2009 DHS Act and the 
$100 million in Omnibus Supplemental funds. It should be a chart that 
shows activity, previously provided funding, fiscal year 2010 requested 
funding, and future/unmet needs.
    Answer. The following table provides the requested crosswalk.

                         INFORMATION INTEGRATION AND TRANSFORMATION PROGRAM INITIATIVES
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal Year
                                                                    Fiscal Year     Fiscal Year     2010 Budget
                                                                   2009 DHS Act    2009 Omnibus       Request
----------------------------------------------------------------------------------------------------------------
WHCA Interoperability...........................................  ..............          23.800  ..............
Access Control Program..........................................  ..............           7.000  ..............
Information Assurance...........................................  ..............  ..............           2.400
Cyber Security..................................................  ..............  ..............           6.400
IT Modernization................................................  ..............  ..............          14.860
Database Architecture & Maintenance.............................  ..............  ..............           4.000
Cross Domain Application/Data Environment--Multi-Level Security.  ..............  ..............           6.300
COLD (Enterprise Logistics Management & Operations).............  ..............           0.900  ..............
Funding Crosswalk Totals........................................  ..............          31.700          33.960
----------------------------------------------------------------------------------------------------------------

                    UNIFORMED DIVISION MODERNIZATION

    Question. Which authorizing Committees have the jurisdiction over 
the Uniformed Division Modernization proposal?
    Answer. The Committees with jurisdiction over the Uniformed 
Division Modernization proposal are the House Oversight and Government 
Reform Committee and the Senate Homeland Security and Governmental 
Affairs Committee.
    Question. If the authorizing legislation is not enacted, does the 
budget submission to this Committee need to be modified in any way?
    Answer. The fiscal year 2010 budget impact of the authorizing 
legislation consists of $3.64 million in increased pay and benefits 
costs for Uniformed Division personnel, and $400,000 in associated 
implementation costs related to payroll processing programming changes. 
Should the authorizing language not be enacted, none of these costs 
will be incurred.

              National Protection and Programs Directorate

                             CYBER SECURITY

    Question. We are all anxiously awaiting the findings of the cyber 
security review that President Obama ordered on February 17, 2009. The 
budget request follows the same initiatives that were previously 
developed across the Federal Government. Those current initiatives are 
predominately focused on the Federal Government cyber security. However 
many Federal systems connect directly to States to conduct official 
business through Medicaid, TANF, and other programs. The National 
Association of State Chief Information Officers state that, ``the 
digital infrastructure that enables State government to conduct 
business and protect Federal pro
gams . . . is under attack each day''.
    When the President releases the findings of his review, do you 
anticipate that there will be budget amendments to address issues such 
as having a cohesive plan to coordinate with States on cyber security? 
If not, how will this matter be addressed within the resources 
requested?
    Answer. DHS worked closely with the Homeland Security Council and 
the National Security Council leadership and staff in the development, 
tracking, and coordination of the Comprehensive National Cybersecurity 
Initiative. However, at this time, the administration is still 
reviewing the results of the 60-day review. DHS would be happy to 
discuss the results of the 60-day review after it has been released.
    As for working with States on cyber security, States are recognized 
as among the owners and operators of the Nation's Information 
Technology (IT) critical infrastructure under the National 
Infrastructure Protection Plan framework. As such, the National Cyber 
Security Division's (NCSD's) Critical Infrastructure Cyber Protection 
and Awareness (CICP&A) branch has been actively engaged with the 
National Association of State Chief Information Officers (NASCIO), as 
well as other government and industry partners, to develop an IT 
sector-wide baseline risk assessment. This assessment, nearing 
completion, will be used to develop and drive mitigation strategies 
including protective programs and research and development activities. 
CICP&A has worked closely with NASCIO to identify priority State IT 
facilities and to provide briefings about DHS cyber programs to the 
State Chief Information Officers. In addition, NCSD has been working to 
clarify and prioritize cybersecurity within the DHS State grants 
process.
    NCSD also funds the Multistate Information Sharing and Analysis 
Center (MS-ISAC) to provide both operational support and outreach to 
State Chief Information Security Officers and their staffs. The MS-ISAC 
is funded under the CICP&A branch to conduct outreach and awareness 
activities, including the Annual MS-ISAC conference, as well as 
targeted efforts such as control systems training and recommended 
practices for acquiring secure control systems. NCSD also funds the MS-
ISAC as an extension of the United States Computer Emergency Readiness 
Team to facilitate information sharing and analysis with and among 
States and to support incident response.
    A part of the Comprehensive National Cybersecurity Initiative 
(CNCI), ``Project 12,'' tasked DHS to explore ways to enhance the 
security of the Nation's Critical Infrastructure and Key Resources 
networks. Partnering with the U.S. Chamber of Commerce and the National 
Cybersecurity Alliance, DHS has been conducting a series of regional 
events to increase awareness of the cyber threat and the importance of 
investment in cybersecurity ``outside the Beltway.'' Each of these 
events has included a panel of State government officials.

                           CHEMICAL SECURITY

    Question. With the past administration, it was like pulling teeth 
to get adequate attention to securing our chemical facilities. First--
only because of Congressional initiative--chemical facility security 
regulations were required in the fiscal year 2007 DHS Appropriations 
Act. Second--and again, only because of Congressional initiative--
adequate funding was provided for inspectors to carry out the 
regulations. Now, we learn that as of today--7 months into the fiscal 
year--only 150 of the inspectors are on board out of the 223 funded. We 
are missing 30 percent of the very people we need to get the job done. 
While, I am pleased to see that the request proposes an additional 23 
FTE dedicated to this important issue, I am very frustrated with the 
pace at which inspectors have been hired.
    Madam Secretary, can I have your commitment that you will get to 
the bottom of the slow pace of the hiring of chemical security 
inspectors so that we can confirm that chemical facilities are in fact 
being secured? What specific timeframe can be expected?
    Answer. The Department continues to increase the current size of 
its chemical security inspector cadre. Of the total staff currently 
onboard for chemical security, there are 51 chemical inspectors, with 
35 additional new selections in process. The projected total of 
personnel onboard for the Infrastructure Security Compliance Project by 
the end of fiscal year 2009 is 178 positions. This increase reflects 
the Department's recognition of the need for a properly sized inspector 
cadre. In an effort to support this accelerated growth of the inspector 
cadre, DHS proposed funds in the fiscal year 2010 Budget Request to 
increase staffing levels to 246 FTEs. The fiscal year 2010 FTE level 
will provide for 139 chemical facility inspectors and 20 additional 
cross-trained chemical/ammonium nitrate inspectors. The Department is 
working to accelerate and improve its hiring and security clearance 
processes to bring qualified and vetted personnel onboard in an 
expeditious manner.

                    WEST VIRGINIA CHEMICAL EXPLOSION

    Question. On August 28, 2008, there was a chemical explosion at the 
Bayer Crop Science chemical plant in Institute, West Virginia, just 
outside of Charleston. The explosion took the lives of two workers and 
sickened several first responders to the incident. The explosion 
occurred in a unit where the chemical company makes MIC. MIC is an 
extremely toxic chemical, and most notably associated with the 
catastrophic leak that occurred in 1984 at a similar pesticide plant in 
Bhopal, India, killing over 4,000 people. The West Virginia chemical 
facility includes a tank that can hold up to 40,000 pounds of MIC. That 
storage tank is located 50 to 75 feet from the location of the August 
explosion.
    Needless to say, the explosion caused a resurgence of anxiety about 
the chemical industry in the Kanawha Valley. After the explosion, the 
company failed to provide critical information to first responders 
about the nature of the explosion.
    In the months since the explosion, we learned that no one Federal 
agency is responsible for the safety of chemical plants. Among the 
agencies with responsibility are your National Programs and Protection 
Directorate, the Coast Guard, the EPA, the Occupational Safety and 
Health Administration, and the Chemical Safety Board. This leaves us 
with the classic Washington question, who is in charge here? Is there 
is a better way for our government to secure our chemical facilities 
and investigate accidents? How specifically do components within DHS 
coordinate their roles in chemical security within DHS? Will you work 
with the White House Domestic Policy Office to develop a coordinated 
policy for securing chemical facilities?
    Answer. Section 550 of the fiscal year 2007 DHS Appropriations Act 
(Public Law 109-295) grants the Department the authority to regulate 
chemical facilities that ``present high levels of security risk.'' 
Under this authority, the Department promulgated the Chemical 
Facilities Anti-Terrorism Standards (CFATS) regulation in April, 2007. 
By statute, facilities that are regulated by the Coast Guard under the 
Maritime Transportation Security Act (MTSA), such as the Bayer facility 
in West Virginia, are expressly exempt from regulation under CFATS.
    Within the Department, the Office of Infrastructure Protection (IP) 
and the U.S. Coast Guard are working in close collaboration to identify 
those facilities that are completely regulated under MTSA and are 
entirely exempt from CFATS, and those that contain some areas regulated 
under MTSA and other areas that might be subject to CFATS regulation. 
IP is also working with the Transportation Security Administration 
(TSA) concerning potential areas of interface, such as security of 
chemicals in those areas of a facility that may be covered under both 
CFATS and under the TSA railroad security regulations.
    IP supports working with the White House Domestic Policy Office, 
and other White House offices, to develop a coordinated and integrated 
approach for securing chemical facilities.

                                US-VISIT

                  TIMELINESS OF SPEND PLAN SUBMISSION

    Question. The administration has requested $356 million for US-
VISIT, the Department's program to provide biometric identity 
verification services to authorized DHS, Federal, State and local 
government and law enforcement agencies, an increase of $56 million 
over the $300 million appropriated in 2009. The Committee has been 
concerned with the repeated delays in submitting the statutorily 
required expenditure plans for US-VISIT resulting in larger carryover 
balances from 1 year to the next. For example, the 2008 expenditure 
plan was not submitted until June 12, 2008 which meant that nearly a 
quarter of the program's budget carried over into fiscal year 2009. The 
fiscal year 2009 report was submitted on April 9, 2009. Why does it 
take over half the fiscal year to produce an expenditure plan?
    Answer. National Protection and Programs Directorate and US-VISIT 
leadership is committed to the timely delivery of the expenditure plan 
in fiscal year 2010 and understands the concerns of the House and 
Senate committees about the length of time regarding the submission of 
its expenditure plan in fiscal year 2008 and 2009. US-VISIT has begun 
working with DHS Chief Executive Officers to obtain more expeditiously 
the required program certifications required within appropriations 
language by providing program documentation on a more recurring basis 
throughout the year.
    US-VISIT prepares an expenditure plan each year as required in its 
appropriation. After the fiscal year end, the program office compiles 
and analyzes prior-year performance and milestone data, and includes 
these results and their accomplishments. US-VISIT's goal is to complete 
the expenditure plan within 5 weeks of the end of the fiscal year. Once 
the body of the plan is completed, US-VISIT works with the Chief 
Executive Officers to provide the program documentation needed for 
these certifications. After the certifications are received, the review 
and comment period begins.

                                AIR EXIT

    Question. In response to questions raised during briefings on the 
fiscal year 2010 budget request, the US-VISIT office responded to a 
question about anticipated fiscal year 2009 carryover funding with this 
statement: ``US-VISIT is currently planning on a carryover balance of 
$34 million. These funds are to support the Air/Sea Exit deployment.'' 
However, there are no funds requested in fiscal year 2010 for an air/
sea exit deployment. The Secretary testified during budget hearings 
that the results of the two air exit pilots being conducted this fiscal 
year will be studied during fiscal year 2010 and that a deployment of 
some sort would occur in fiscal year 2011.
    How much of the fiscal year 2010 request of $356.2 million is 
targeted to deployment of an air/sea exit capability?
    Answer. None of the fiscal year 2010 Budget Request is targeted to 
deployment of an air/sea exit capability. The prior administration's 
proposed solution for air/sea biometric exit, as stated in its notice 
of proposed rulemaking published on April 24, 2008, was for commercial 
air carriers and vessel carriers to collect and transmit biometrics to 
DHS. This solution required no further funding for DHS to implement 
air/sea biometric exit because the commercial air carriers and vessel 
carriers would pay all costs associated with collecting biometric exit 
data at exit. Therefore, DHS did not need to request funding for fiscal 
year 2010.
    Congress directed DHS to conduct at least two biometric exit pilots 
in fiscal year 2009 before proceeding with a final rule implementing 
the proposed solution. The results of those pilots will inform the 
decision as to whether the Government or the carriers will collect 
biometrics at exit. Funding for these pilots is currently in US-VISIT 
base resources.

                            UNIQUE IDENTITY

    Question. How much of the total fiscal year 2010 request is for 
Unique Identity and IDENT/IAFIS interoperability? If need be, please 
break out these funds into their appropriate compartments.
    Answer. Unique Identity accounts for $28.7 million of the total 
fiscal year 2010 request. The breakdown of funds is as follows:
  --$4.5 million for planning and analysis
  --$13 million for increased support to U.S. Immigration and Customs 
        Enforcement Secure Communities and development of wrap-back 
        capabilities, which will notify authorized agencies of 
        subsequent criminal and/or civil data of existing biometric 
        records
  --$11.2 million for the acquisition of hardware (matchers)

                              OBLIGATIONS

    Question. As of May 15, 2009, how much of the $300 million 
appropriated in fiscal year 2009 has been obligated?
    Answer. As of May 15, 2009, US-VISIT has obligated $112.9 million 
of the fiscal year 2009 enacted budget of $300 million.

                              CONTRACTORS

    Question. How much of the $20.8 million increase for program 
management services goes to contractors?
    Answer. None of the $20.8 million increase will be used for 
contractor support. The $20.8 million program management increase is 
due to a $13.8 million increase for Federal staffing and $8 million for 
the DHS working capital fund. The Federal staffing increase of $13.8 
million will support 199 full-time equivalents/212 full-time positions. 
This increase includes the annualization of the 35 full-time positions 
that were received in the fiscal year 2009 enacted budget. In addition, 
the working capital fund is increasing in fiscal year 2010 by $8 
million because of increases in costs associated with the Department of 
Justice data centers.

                       Federal Protective Service

                        CAPITAL IMPROVEMENT PLAN

    Question. To clarify a response to a get-back from the fiscal year 
2010 budget briefings, will the anticipated FPS carryover range 
anywhere between $189 million and $237 million depending on procurement 
according to the Capital Improvement Plan (CIP)?
    Given the potential for cost and efficiency savings to be achieved 
under the CIP discussed during the budget briefing, what is the 
estimated staffing level range for FPS personnel by the end of fiscal 
year 2010?
    Answer. In the response to the original get-back regarding normal 
Federal Protective Service (FPS) carry-forward, the answer provided was 
$45 million. The figure represents only cash carry-forward available 
for investment in the subsequent fiscal year. For budgetary purposes, 
FPS attempts to maintain a contingent liability fund balance of $20 
million for contract claims, requests for equitable adjustment, Merit 
Systems Protection Board, Equal Employment Opportunity Commission, and 
Labor Union judgments and settlements. Also, $25 million provides 
funding for the security equipment and systems replacements and 
enhancements. The total ``carryover'' in budgetary resources brought 
forward from prior years includes the Unfilled Customer Order (UCO) 
balances on individual Security Work Authorizations (SWAs). Of the $237 
million in budgetary resources brought forward from prior years at the 
beginning of fiscal year 2009, $139 million represented UCO balances. 
These balances are available to FPS only to complete the contract 
support or projects requested by the customer agencies. Once the final 
invoices have been paid and the contract supported by the SWA is 
closed, any UCO balance is automatically returned to the customer 
agency.
    In fiscal year 2009, the $98 million in cash carry-forward will be 
dedicated to a Capital Investment Plan to address the deferred 
infrastructure and equipment investments from prior years and to 
routinely upgrade and replace these items at the end of their useful 
life cycle. FPS expects to obligate or expense $69.9 million of the 
Capital Investment Plan projects with the remainder anticipated for 
award in early fiscal year 2010.
    The Risk Assessment and Management Program (RAMP), Computer-Aided 
Dispatch and Information System (CADIS), and Post Tracking System (PTS) 
systems will provide FPS with the ability to record, analyze and report 
on the full complement of information necessary to better plan its 
resource needs in the future. Through timestamp capabilities, RAMP, 
CADIS and PTS will provide an accurate means to determine, on average, 
how long specific activities take to complete. This validation of 
activity-based costs will inform management decisions to tailor the 
number and allocation of personnel resources to meet mission demands. 
However, the impact of this information on the FPS staffing and work 
planning will not be known until the systems have been fully 
implemented, deployed and tested, sometime in fiscal year 2010.
    FPS is currently operating at a full staffing level of 
approximately 1,225 and, based on current and anticipated revenue 
projections through fiscal year 2010, expects to maintain this level of 
staffing. Given that FPS will be making adjustments in staffing levels 
based on geographic workforce realignments and the hiring for off-sets 
to personnel detailed to other DHS components, total staffing may 
change slightly during the year.

----------------------------------------------------------------------------------------------------------------
                                                                        Law
                                                                    Enforcement    Support Staff       Total
----------------------------------------------------------------------------------------------------------------
Current Staffing Level..........................................         \1\ 952             273           1,225
----------------------------------------------------------------------------------------------------------------
\1\ Law Enforcement includes: Law Enforcement Security Officers, Federal Police Officers, Criminal
  Investigators, Supervisory Policy Officers, and Supervisory Criminal Investigators.

                        Office of Health Affairs

                               BIOSHIELD

    Question. The President's budget proposes to move all 
responsibility for Project Bioshield to the Department of Health and 
Human Services. However, traditionally the Department of Homeland 
Security's role has been to determine what material threats face the 
Nation and therefore which countermeasures we should procure. If all of 
the responsibility for the funding lies in another Department, how will 
you be able to ensure the risks we face are truly being considered in 
future procurements?
    Answer. While the fiscal year 2010 Budget Request will transfer 
unspent balances of the BioShield Special Reserve Fund (SRF) to HHS to 
support advanced development and future procurements of medical 
countermeasures, it will not affect DHS's statutory authority under the 
Project BioShield Act of 2004. Specifically, the DHS responsibility to 
determine and assess the material threats facing the Nation would 
continue, an activity that is funded out of a separate DHS account 
rather than the SRF and therefore not subject to the transfer. HHS 
would continue to use this information as part of the equation in 
determining which countermeasures to procure.
    DHS intends to continue assessing and determining material threats 
as the threat landscape evolves to inform medical countermeasure 
activities at HHS, as well as carrying out its biennial Biological 
Terrorism Risk Assessment, Chemical Terrorism Risk Assessment, and 
integrated CBRN Risk Assessment to guide prioritization of on-going 
investments in biodefense-related research, development, planning, and 
preparedness, including medical countermeasure efforts. While the 
funding for medical countermeasure activities will be consolidated in 
one Department, DHS hopes that HHS will continue to rely upon the 
robust capability DHS has built in the threat and risk assessment and 
characterization fields. DHS will continue to participate in the HHS' 
led Public Health Medical Countermeasure Enterprise (PHEMCE), the 
central coordinating body for medical countermeasure activities at HHS, 
bringing our resources to bear as an ex-officio member. DHS will also 
require either legislative authority or a formal Memorandum of 
Understanding to ensure that HHS procurements are responsive to DHS-
determined threats.
    Question. In your review of the Strategic National Stockpile and 
Project Bioshield efforts, do you think the Bioshield spend plan 
provides the countermeasures needed for the greatest risks we face and 
what are the specific threats we still need to prepared for?
    Answer. HHS, via coordination with DHS, has been maximizing the use 
of the tools and resources it has been provided to address the greatest 
risks from CBRN agents facing our Nation. Successful BioShield 
acquisitions to date, include medical countermeasures for anthrax, 
smallpox, botulinum toxins and radiological/nuclear agents which are 
among those agents posing the greatest risks and the first for which 
DHS issued Material Threat Determinations in 2004. These 
countermeasures were relatively mature and appropriate for BioShield 
acquisitions.
    In evaluating the BioShield spend plan, it is important to consider 
that it often takes more than one type of countermeasure to counter a 
single agent. For example, a comprehensive medical countermeasure 
strategy to address the anthrax threat involves vaccines, antibiotics 
and anti-toxins. As existing countermeasures in the stockpile start to 
expire, HHS must factor in costs of replenishment to ensure we are not 
left vulnerable to our greatest risks.
    In formulating the acquisition strategy for the SNS and BioShield, 
HHS accounts for these factors weighing the threat and risk (as 
informed by DHS) vs. availability of funding and countermeasures. HHS 
faces a difficult task of balancing the urgency to stockpile medical 
countermeasures across the CBRN threat spectrum against relatively long 
timeframes for drug development, high product failure rates, a finite 
amount of available funding and the lack of incentives to industry 
considering the government is the sole customer. While DHS helps to 
identify and define threats across the CBRN threat spectrum, this is 
only one contributing factor to the HHS' spend plan.

                                BIOWATCH

    Question. Included within the total $94.5 million requested for 
BioWatch, how much is for the maintenance of Generation 1 and 
Generation 2 and how much is for the procurement of Generation 3?
    Answer. The fiscal year 2010 operations and maintenance of 
Generation 1 and Generation 2 is $79.4 million. The remaining $15.1 
million will be obligated as follows:
  --$8 million on field-testing
  --$4 million on advanced deployment items, engineering changes prior 
        to production unit procurement
  --$3.1 million on IT infrastructure procurement
    The Generation 3 procurement process will begin in fiscal year 2010 
with the contract expected to be awarded in early fiscal year 2011.

                  Federal Emergency Management Agency

                             DISASTER COSTS

    Question. For years I have been critical of the fact that the true 
costs of disasters are not included in the budget request. Since 
Hurricane Katrina, Congress has had to take the initiative on many 
occasions to provide funding for disaster recovery because the Bush 
administration would not ask for funding when the Disaster Relief Fund 
was in jeopardy of running out of money.
    President Obama's budget takes credit for being more honest by 
accounting for the cost of disasters. However, as I look through the 
budget, I do not see a request for the continuing costs of recovery 
from Hurricanes Katrina, Rita, Wilma, Gustav and Ike, nor from the 
Midwest floods and the California wildfires. At the rate funds are 
being spent now, even with the $2 billion requested, we estimate that 
the Disaster Relief Fund will be exhausted early in 2010.
    In order to insure that the victims of past and future disasters 
receive assistance, we will need to include emergency funding in the 
Homeland Security bill that we will mark up in June. I will need to 
know your best estimate of the shortfall by the end of May. What is 
your estimate?
    Answer. The fiscal year 2010 Budget Request includes $2 billion for 
the Disaster Relief Fund (DRF), a net increase of $600 million over 
fiscal year 2009 enacted. This request is based on a funding 
methodology that uses the 5-year average obligation level for non-
catastrophic disaster activity. The funding methodology assumes that 
catastrophic events--those with obligations above $500 million--will be 
funded through supplemental appropriations.
    The Budget Request accounts for the estimated cost of future 
emergencies as part of its deficit calculation. The Budget Request does 
that by including more than $20 billion annually (the statistical 
probability of the costs of dealing with these emergencies) in its 
budget and deficit projections. The $20 billion figure should not be 
viewed as a ``reserve fund,'' nor is it a request for discretionary 
budget authority or congressional legislation of any kind. Although the 
administration believes that congressional budget resolutions should 
incorporate this same entry for disaster costs, the budget resolution 
should not allocate these amounts to any committee because the amounts 
are not a request for congressional action.
    The administration's DRF request and funding methodology of seeking 
direct appropriations for the average of non-catastrophic disasters and 
relying on supplemental funding for catastrophic storm complies with 
this policy. Seeking full funding of all estimated DRF obligations 
would result in a large corpus of unused funds pending obligation (DRF 
spendouts are slow--with large obligations still outstanding for 
Katrina 4 years later).
    Based on current funding availability and an expectation of 
Congress fully funding the 2010 request for the Disaster Relief Fund, 
an additional $3 to $4 billion may be necessary in 2010 to fund the 
continuing liabilities associated with prior disasters. However, it is 
premature to assume that this is the true 2010 funding requirement at 
this time.

                         FIREFIGHTER ASSISTANCE

    Question. Madam Secretary, I am disturbed by the proposed cut in 
funding for our firefighters. The budget request also proposes a major 
shift in the distribution of grants to firefighters. It significantly 
reduces the funding for equipping and training our firefighters and 
significantly increases the amount for hiring firefighters. Were these 
decisions made based on risk (risk = threat  vulnerability  
consequence), need, or effectiveness of the programs? If so, which 
specific system in DHS was used to calculate risk, need, and/or 
effectiveness? Which needs assessment was used? What factors were used 
to gauge effectiveness?
    Answer. When developing the fiscal year 2010 Budget Request, the 
administration developed a set of priorities to guide the next year's 
grant programs. The administration doubled the amount of funding going 
to SAFER grants to support firefighters, a top priority for fire 
service stakeholders.

                          PREPAREDNESS GRANTS

    Question. As you know, the 9/11 Act authorized most of the 
preparedness grant programs under the purview of your Department. Since 
then, Congress has had to include several legislative provisions to 
force the prior administration into following the intent of the law 
after hearing complaints from grant recipients. Today, the grant 
process is cumbersome and delayed, and it is completed without 
understanding all of the needs of the end user. Out of complete 
frustration from Congress and in an effort to improve the system, the 
fiscal year 2009 DHS Appropriations Act includes a provision 
withholding $10 million from your office and $10 million from the FEMA 
Administrator's office until you certify that stakeholders are properly 
included in the development of guidance and the distribution of grant 
funding. While there has been a transition, I still cannot understand 
why 7 months into the fiscal year we have not received such a 
certification.
    You have issued action directives on the very topic of engaging 
State and local governments but there still seems to be a disconnect 
when it comes to grants. As a former Governor and in your short time 
here inside the beltway--I am curious if you think the grant process 
and the guidance that is issued each year is conducive to meeting 
security needs in the best way possible, do you?
    Answer. The Department has been working to improve its stakeholder 
engagement processes over the last 2 years, and this process is 
discussed in the Stakeholder Plan that is currently under review. This 
engagement strategy includes formal, after-action type conferences, 
conference calls and webinars, as well as daily contact between FEMA's 
grants staff and State, local, tribal and private sector grantees 
across this Nation. As we move towards wrapping up the majority of 
fiscal year 2009 grant announcements in the next few weeks, we will 
start to move into that guidance development cycle with our partners as 
we prepare for the fiscal year 2010 grants.
    While I believe that FEMA has made significant strides in this 
area, I believe there is always room for improvement. I have instructed 
both FEMA and my Intergovernmental Programs staff to continue to work 
with our State and local partners as we move into the fiscal year 2010 
cycle.
    Question. When do you anticipate we will receive the certification 
that there is a more inclusive process?
    Answer. The Stakeholder Outreach Plan required by the fiscal year 
2009 DHS Appropriations Act (Public Law 110-329) is currently in 
clearance with DHS and should be moved to the Hill shortly.

                            MASS EVACUATION

    Question. I am concerned that we are not doing enough to prepare 
for a mass evacuation in response to a terrorist attack or a major 
natural disaster. The Department's own Nationwide Plan Review found 
significant weaknesses in evacuation planning. I am profoundly 
concerned, not only about getting people out of harm's way after a 
disaster, but also about how we will take care of those who have to 
evacuate. We must prepare now to care for victims and mass evacuees by 
pre-planning and pre-deploying assets. In fiscal year 2007, at my 
initiative, Congress established the Regional Catastrophic Preparedness 
Grant Program to get at this problem. I was pleased to see that for the 
first time the administration recognized my wisdom and requested 
funding for this program. If this request is approved, it will be the 4 
year of funding for this program but we still have a long way to go. 
Will you work with me to ensure potential host communities are ready to 
assist victims of a mass evacuation? What specific measures are in 
place to gauge our capabilities in mass evacuation? What gaps still 
exist and how will those gaps be filled?
    Answer. We will continue to work with Congress to address the 
concerns related to mass evacuations. In order to support preparedness 
for these events, a number of actions are underway.
    The National Preparedness Guidelines (NPG)--approved by the 
President in September 2007--sets forth eight national priorities 
including ``strengthen Planning and Citizen Preparedness Capabilities'' 
which is comprised of Citizen Evacuation and Shelter-in-Place 
capabilities. The NPG is supported by the Target Capabilities List 
which provides the definitions, activities, tasks and performance 
measures for 37 Target Capabilities, including the capability to 
``Citizen Evacuation and Shelter-in-Place.'' The ``Citizen Evacuation 
and Shelter-in-Place'' Target Capability serves to synchronize at the 
strategic level how the variety of Federal preparedness activities 
(e.g., planning, grants, training, exercises, assessments) perform to 
achieve a consistent goal. Types of measures include the ability to 
Direct Evacuation and/or In-Place Protection Tactical Operations, 
Activate Evacuation and/or In-Place Protection, Implement Evacuation 
Orders, Collect and Evacuate Population Requiring Assistance, Operate 
Evacuation Staging/Reception Area, Manage Incoming Evacuees, and Assist 
Re-Entry.
    A complimentary effort is the FEMA GAP Analysis Program, which is 
designed to provide an understanding of State and local evacuation 
capabilities, among others, at the operational and tactical level in 
order to anticipate potential needs for Federal support. A sample of 
the information sought includes the availability of transportation 
sources, the identification of collection and staging areas, refueling, 
signage and special needs and companion animal planning.
    Planning guidance is also in development by FEMA to address not 
only the operational elements of conducting a mass evacuation but to 
also support the deliberate planning needed prior to an event.
    The Regional Catastrophic Preparedness Grant Program has provided 
an enormous amount of focus on issues related to planning. We have 
already begun to see increased cooperation between cities and across 
State lines to address planning shortfalls, including mass evacuation. 
Should the next round of funding be approved, we will begin expanding 
the effort to focus on the larger multi-State and multi-regional 
aspects of mass evacuation and other planning requirements.
    Finally, this year the State Preparedness Report Survey will 
collect quantitative information on the States' capabilities for all 37 
Target Capabilities including Mass Evacuation. The Survey will be sent 
out at the end of August 2009 and the data will be returned to us and 
analyzed in January 2010.

                       PRINCIPAL FEDERAL OFFICIAL

    Question. The budget request proposes to lift the restriction on 
the use of a Principal Federal Official (PFO) during a Stafford Act 
disaster declaration. The restriction was included because the role 
between a PFO and a Federal Coordinating Officer was confusing during a 
declared disaster and led to a serious breakdown of communication in 
previous disasters. State and local governments were left wondering who 
was in charge at the Federal level. A coordinated response cannot be 
well executed without a clear communication and decision-making 
process. Your predecessors had different approaches to using this 
position. Secretary Ridge used PFOs as informal close advisors. 
Secretary Chertoff formalized the position and made it a part of the 
response protocol. How does this administration intend to use this 
position and how can you be sure it will not create a duplicative and 
confusing process, hindering Federal assistance during a response?
    Answer. Role clarity and clear, well-trained and well-exercised 
protocols for communication and decision-making are vital to achieving 
a coordinated response to any domestic incident.
    During catastrophic or unusually complex incidents that require 
extraordinary coordination, with close communication with the 
President, I may elect to deploy an official to assist me in my 
designated role as the Principal Federal Official and focal point for 
domestic incident management. Such an official would supplement the 
Federal Coordinating Officer (FCO) (if assigned) by serving as my 
primary source in the field for situational awareness and decision-
support for overall Federal incident management. The law makes clear 
the FCO coordinates the administration of Stafford Act relief and takes 
other actions within his or her authority to assist local citizens and 
public officials in promptly obtaining assistance to which they are 
entitled. The law makes it equally clear that directive authority over 
the FCO is reserved to the President, the Secretary and the FEMA 
Administrator--not to other deployed officers. Our recent operational 
experiences, training and exercises demonstrate the value and 
necessity, however, in unusually complex incidents of assigning and 
supporting one senior official to provide Washington with strategic 
situational awareness across the entire Federal family, while ensuring 
the FCO remains unencumbered to focus on and lead the vital 
administration and coordination of relief at the operational and 
tactical levels.
    We will rely on strong leadership and ongoing intensive training 
and exercises to achieve an effective Federal response consistently and 
consistent with the law. We will reinforce clarity of roles through 
habitual relationships between our elite cadre of Type 1 FCOs and a 
small group of prospective senior field officials. We will further 
reinforce and refine clear doctrine consistent with the letter and the 
spirit of the law, to ensure that when confronted by unusually complex 
incidents that require extraordinary coordination, everyone involved at 
all levels is clear in advance regarding their respective roles and 
missions in support of the overall effort.
    I do not expect to deploy additional senior officials to the field 
often; indeed, I intend to reserve this measure for catastrophic or 
unusually complex incidents that require extraordinary coordination. In 
times of catastrophic emergency--involving situations and contingencies 
that we cannot predict--I will need the flexibility to coordinate the 
Federal response in a manner that meets the needs of the nation. Thus, 
the administration requests rescission of the current appropriations 
constraint.

                              ALL-HAZARDS

    Question. In the description of the DHS budget, you listed five 
main action areas: guarding against terrorism, securing our borders, 
enforcement of immigration laws, preparing for, responding to and 
recovering from natural disasters, and unifying and maturing DHS. It 
appears the budget draws a distinction between preparation and response 
for a natural disaster and preparation and response for a manmade 
disaster. I have long advocated an all-hazards approach to disaster 
response. Why did you distinguish between the two types of disasters?
    Answer. While the fiscal year 2010 Budget in Brief described 
specific proposals in five main areas, it was not the intent to make a 
distinction between preparation and response for different types of 
incidents. The Budget Request clearly articulated the continuing all 
hazards nature of the Department's mission, an approach I strongly 
support. For example, in the second paragraph of the Budget in Brief 
overview, we state:

    ``Within this broad portfolio, the Department aims to secure the 
American people from all hazards--including terrorist threats and 
natural or accidental disasters--and to work effectively with its many 
partners to lead the collaborative effort to secure the Nation. DHS 
undertakes the mission of securing the United States against all 
threats through five main action areas, each of which is strengthened 
by this Budget:''

    The Department of Homeland Security remains committed to an all-
hazards preparedness effort.
    Question. What does the term ``all-hazards'' mean to you?
    Answer. ``All-Hazards'' describes any incident that warrants action 
to protect life, property, environment and public health or safety, and 
to minimize disruptions of government, social or economic activities.
    Question. How do you intend to distribute funding to State and 
local partners as it relates to preparedness and response for all of 
the hazards this Nation faces?
    Answer. The Department will continue to distribute funds to our 
State and local partners in a number of ways. For example, the 
Department has a portfolio of risk based programs, including the State 
Homeland Security Program, the Urban Areas Security Initiative, the 
Interoperable Emergency Communications Grant Program, the Transit 
Security Grant Program and the Port Security Grant Program. We will 
continue to allocate those funds based on risk and effectiveness, while 
also adhering to the State and territorial minimums as appropriate.
    The Department also has formulaic grants that use a population-
based formula, such as the Emergency Management Performance Grants 
(EMPG). These grants will be awarded according to the formula codified 
in statute.
    Finally, the Department has purely competitive grant programs such 
as the Assistance to Firefighters Grant Program, or UASI Nonprofit 
Security Grant Program. These provide opportunities for our broad-based 
constituencies to compete for funding and present the best application 
possible.

                    FIRE GRANT FUNDING DISTRIBUTION

    Question. The authorizing law for firefighter assistance grants, 15 
USC 2229, requires that a portion of the grant funding be reserved for 
volunteer fire departments in an amount not less than the proportion of 
the of the United States population that those firefighting departments 
protect. How is this amount calculated each year (based on what 
factors)?
    Answer. The National Fire Protection Association (NFPA) annually 
issues a report on the Nation's fire service that includes this 
calculation. FEMA uses this calculation.
    Question. How much of the fiscal year 2006, 2007, and 2008 funding 
was awarded to volunteer departments?
    Answer. The amounts awarded to all volunteer fire departments for 
these years are as follows:
  --fiscal year 2006--$272,875,963
  --fiscal year 2007--$243,812,518
  --fiscal year 2008--$216,969,884 (awards are still ongoing until 
        September 30, 2009)
    Question. How much was awarded to ``small community organizations'' 
(50,000 or fewer)?
    Answer. The amounts awarded to small community organizations (those 
that have cost shares of 10 percent and 5 percent) are as follows:
  --fiscal year 2006: 4,457 awards for $397,746,273
  --fiscal year 2007: 4,558 awards for $389,594,699
  --fiscal year 2008: 4,285 awards for $349,804,024 (awards are still 
        ongoing until 9/30/09)
    Question. For what major activities such as training and vehicles 
(including amounts), were funds applied for and awarded for?
    Answer. Data for vehicle requests are segregated from requests for 
other activities since a maximum amount for vehicle awards is 
specifically addressed in the governing statute:
  --In fiscal year 2006, we received 4,989 requests for vehicles 
        reflecting $1,076,229,305 in Federal funds, and awarded 734 
        vehicles for $133,625,780.
  --In fiscal year 2007, we received 7,801 requests for vehicles 
        reflecting $1,825,920,396 in Federal funds, and awarded 714 
        vehicles for $143,787,952.
  --In fiscal year 2008, we received 7,910 requests for vehicles 
        reflecting $1,933,921,318 in Federal funds, and have thus far 
        awarded 635 vehicles for $131,776,635.
    Data for other activities (training, equipment, etc.) are not 
maintained separately. A special report has been requested from the 
system administrators to provide these data.

                                GUIDANCE

    Question. Provide a list of guidance documents (by topic and last 
date issued), which are still in effect, that FEMA has issued for 
prevention, preparedness, response, recovery, and mitigation for State, 
local, and private sector partners.
    Answer. The following represents input from FEMA's NPD, GPD, and 
DAD directorates:
National Preparedness Directorate
    National Incident Management System (December 2008)
    National Response Framework (January 2008)
    Homeland Security Exercise and Evaluation Program (February 2007)
    National Preparedness Guidelines (September 2007)
    Target Capabilities List (September 2007)
    Comprehensive Preparedness Guide 101 (April 2009)
    Radiological Emergency Preparedness Program Manual (August 2002)
    Chemical Stockpile Emergency Preparedness Program Exercise Policy 
and Guidance (September 2004)
    State Preparedness Report guidance (November 2008)
NIMS Resource Typing Definitions
    Animal Health Emergency (May 2005)
    Emergency Medical Services (EMS)
    Fire and Hazardous Materials (July 2005)
    Incident Management (IM) (July 2005)
    Law Enforcement (July 2007)
    Medical and Public Health (March 2008)
    Pathfinder Task Forces (May 2007)
    Public Works (PW) (May 2005)
    Search and Rescue (SAR) (November 2005)
NIMS Credentialing Job Titles
    Animal Health Emergency (October 2007)
    Emergency Medical Services (EMS) (March 2008)
    Fire and Hazardous Materials (April 2007)
    Incident Management (IM) (October 2006)
    Medical and Public Health (March 2008)
    Public Works (PW) (May 2007)
    Search and Rescue (SAR) (November 2006)
Grant Programs Directorate
    GPD issues a number of Information Bulletins (IBs) to grantees and 
the public throughout the year. IBs from 2006 through 2008 can be found 
at the following Web site: http://www.fema.gov/government/grant/
bulletins/index.shtm
Disaster Assistance Directorate
    Disaster Specific Guidance includes the following:
            2006
  --Abbreviated Decision Process for the Placement of Mobile Homes, 
        Travel Trailers, and Readily
  --Fabricated Dwellings (Direct Disability Lodging Assistance) (DSG)--
        October 24, 2006
            2007
    Sale of Temporary Housing Units to Occupants (Sales DSG)--April 19, 
2007
    Approving Site Requests for Temporary Housing Units Following the 
Initial 18 month Period of Assistance--March 20, 2007
    Hurricane Katrina/Rita Student Recoupment Criteria--April 20, 2007
    Emergency Lodging Assistance for Occupants in Direct Housing (ELA) 
(DSG) August 22, 2007
    Hurricane Katrina/Rita Relocation Assistance (DSG)--October 9, 2007
    Revised Direct Rental Assistance Payment Agreements (CLC Prime)--
November 6, 2007
            2008
    Emergency Food and Supplemental Assistance (DSG)--March 14, 2008
    Direct Lease Agreements (DSG)--March 25, 2008
    Emergency Pet Management and Sheltering (DSG)--March 20, 2008
    Emergency Packing, Transportation and Storage of Personal Property 
Assistance (DSG) March 27, 2008
    Emergency Furniture Assistance (DSG)--March 27, 2008
    For DAD Declarations, Individual Assistance Public Assistance 
Policies, please visit the following Web sites:
  --Declarations Policies http://www.fema.gov/hazard/
        guidance.shtm_internet
  --IA Policies http://ia.fema.net/contents/policy/
        policies.asp_intranet
  --PA Policies http://www.fema.gov/government/grant/pa/
        9500toc.shtm_internet

                          FEDERAL REQUIREMENTS

    Question. Provide a list of the total inventory of information, 
reports, and data FEMA requires State and local entities to submit, and 
when the entity must submit it.
    Answer. In February 2009, FEMA's Office of Policy and Program 
Analysis convened a working group, comprised of internal FEMA staff, 
adding external stakeholders from State, local and tribal governments 
in April 2009, to discuss ways to consolidate and/or reduce reporting 
requirements and requests from FEMA. This working group has begun to 
compile a comprehensive list of FEMA reporting requirements. While we 
have identified many of the significant reporting requirements, we 
continue to work on completing the inventory. We hope to have the final 
list compiled later this year. The most current inventory follows.

       SUMMARY OF FEMA REPORTING REQUIREMENTS TO STATE AND LOCALS
------------------------------------------------------------------------
                                            When Requested/Frequency of
      Name of Report or Data Request                  Request
------------------------------------------------------------------------
Planning:
    Emergency Management Accreditation     State and local EMAP
     Program-State and local voluntary      assessments and/or
     assessment and accreditation reports.  accreditation reports are
                                            made available based on the
                                            participants schedule and
                                            completion of process.
                                            (average bi-monthly)
    ``Gap Analysis Program--GAP (Disaster  Gulf/Atlantic Coast States
     Ops)''.                                begin data collection/
                                            updates March 16 (when GAP
                                            Data Collection Tools are
                                            released). This is an annual
                                            process. All other States
                                            can start March 16, but will
                                            have 19 months for the
                                            initial GAP lifecycle,
                                            afterwards lifecycles will
                                            be 1 year, on an opposite
                                            schedule from Gulf/Atlantic
                                            coast States.
    Demonstration Program: Logistics       .............................
     Capability Calculator (Logistics).
    Target Capabilities List (NPD).......  Demonstrating compliance with
                                            NIMS is an annual
                                            requirement to be fulfilled
                                            by the end of each fiscal
                                            year by States and local
                                            jurisdictions through an on-
                                            line NIMSCAST tool.
Readiness Measurements/Requirements:
    National Fire Department Census......  To be included in the census
                                            database, fire departments
                                            must register with the
                                            census only once, however,
                                            departments are periodically
                                            (about once every 5 years)
                                            contacted to submit updates
                                            or changes to their data.
                                            Again, this process is
                                            voluntary.
    National Fire Department Census......  To be included in the census
                                            database, fire departments
                                            must register with the
                                            census only once, however,
                                            departments are periodically
                                            (about once every 5 years)
                                            contacted to submit updates
                                            or changes to their data.
                                            Again, this process is
                                            voluntary.
    State Preparedness Reports (NPD).....  The SPR is an annual
                                            requirement. The fiscal year
                                            2009 SPR data call was
                                            issued in February and
                                            consisted of merely an
                                            update to prior data
                                            submissions instead of
                                            requiring a wholesale
                                            resubmission of SPR data.
                                            The SPR requirement is
                                            planned to be consolidated
                                            within the PrepCast tool.
    NIMSCAST (NPD).......................  Demonstrating compliance with
                                            NIMS is an annual
                                            requirement to be fulfilled
                                            by the end of each fiscal
                                            year by States and local
                                            jurisdictions through an on-
                                            line NIMSCAST tool.
Lessons Learned:
    National Fire Incident Reporting       The data is requested monthly
     System (NFIRS).                        although some fire
                                            departments choose to report
                                            on a less regular basis.
    FCO State Evaluation.................  On closure of a declared
                                            disaster
    HSEEP Reports........................  As needed
    After Action Report/Improvement Plans  Through an on-line
                                            Preparedness Portal
Grant Related Requirements:
    ``Cost-to-Capability--Pilot program    June-August/One-time request
     (GPD)''.                               to pilot Cost-to-Capability
                                            prototype
    NIMS Implementation Reports..........  Annual
    ``Quarterly Progress Reports--By       .............................
     Disaster (DAD via Regions)''.
    Investment Justification (IJ)........  Once--as part of grant
                                            application.
    Detailed Budget Worksheet............  Once--as part of grant
                                            application.
    Initial Strategy Implementation Plan   Once, 45-60 days after grant
     (ISIP).                                award date (date depends on
                                            program)
    Financial Status Reporting (FSR).....  Quarterly, 30 days after end
                                            of calendar quarter
    Biannual Strategic Implementation      Biannually, January 31 and
     Strategy (BSIR).                       July 31
    Categorical Assistance Progress        Biannually, January 31 and
     Report (CAPR).                         July 31
    Programmatic Monitoring..............  Annually/semi-annually
    ``Quaterly Report and Project          AHPP Quarterly Reports are
     Management Plan (DAD)''.               due Jan 30, April 30th, July
                                            30 and Oct 30 of each year
                                            from each grantee for the 4
                                            year life of the program.
    ``State Administrative Plan (DAD via   Annually (amended by
     Regions)''.                            Disaster)
    Community Preparedness Reports.......  Quarterly
    CSEPP Grant Reports..................  Quarterly
    EMPG Reports.........................  Quarterly
    Audit Report.........................  Annually
------------------------------------------------------------------------

                              REGULATIONS

    Question. Provide a list of FEMA regulations that State, local, and 
private entities must comply with, including the date of the last 
update to the regulation.
    Answer. FEMA's regulations are located in Title 44 of the Code of 
Federal Regulations. FEMA most recently updated its regulations in a 
comprehensive technical amendment on April 3, 2009 (74 FR 15328).

                     COMMERCIAL MOBILE ALERT SYSTEM

    Question. The Congressionally-mandated improvements to Digital 
Emergency Alert System were still incomplete at the beginning of 2009. 
The FCC has fulfilled its obligations to establish the framework for 
the Commercial Mobile Alert System (CMAS) that would be able to relay 
alerts through cell phones. In addition to presidential alerts, which 
clearly are a Federal responsibility, the service would transmit 
emergency alerts generated by State, local, and other non-Federal 
authorities. The Federal agency responsible for completing work on this 
project is FEMA's National Continuity Program Directorate, which has 
the role of acting as a gateway and aggregator of alerts for 
dissemination through CMAS.
    What work remains before the CMAS system is functional, and what is 
the timeline for FEMA to complete its work its role in these efforts?
    Answer. FEMA and the Science and Technology Directorate's Command, 
Control and Interoperability Division (CID) are jointly developing the 
C-Interface specification with ATIS/TIA representing the cellular 
industry as defined by the CMSAAC proceedings and formalized by the FCC 
in the CMAS Reports and Orders. At present, the finalization of the 
Government interface specifications is on schedule to be completed in 
October 2009. The following schedule is defined in the FCC Reports and 
Orders and begins when FEMA publishes the Government interface 
specifications: Industry has a 10 month preparation time before the 
beginning of an 18 month ``CMAS Development & Testing'' period. The 
total time from FEMA Government interface publishing to an operational 
CMAS, as defined by FCC report and orders is 28 months.
    Question. In West Virginia, cellular telephone reception is often 
compromised by our beautiful yet rugged terrain, and West Virginians, 
like many Americans, increasingly rely on wireless telecommunications 
devices to receive critical, time-sensitive information.
    How is the Department addressing the limitations of cellular 
communications in rural and mountainous areas in terms of advancing 
more reliable technologies and improvements to the CMAS system?
    Answer. Under the WARN Act (Section 604 and 605 of the 2006 SAFE 
Port Act) the Department's Science and Technology Directorate in 
consultation with NIST are named to address research, development, 
testing and evaluation (RDT&E) with the FCC to increase the number of 
commercial mobile service devices that can receive emergency alerts. 
The RDT&E program will give specific attention to coverage issues and 
addressing underserved populations. To date the program has completed a 
full analysis of current coverage gaps and determined that 
approximately 1.5 million people reside in areas of the United States 
where there is a coverage gap (i.e. no cellular coverage). For 
perspective, approximately 36 million people in the United States are 
not current wireless subscribers. Additional research will be needed to 
discover areas in which there are dead spots and other coverage issues.

           United States Citizenship and Immigration Services

                                E-VERIFY

    Question. The President's budget requests $112 million for the 
legal employment verification system known as E-verify, a $12 million 
increase over the amount funded in fiscal year 2009. Additionally, the 
budget includes language extending the E-verify program through fiscal 
year 2012. Is this an indication of the administration's continued 
support for this important program?
    This committee supports the E-verify program. But many critics of 
this program claim that it has a very high error rate which may 
jeopardize the jobs of otherwise eligible employees. Are these concerns 
valid?
    Answer. The Department strongly supports E-Verify and is working to 
improve its ability to automatically verify those who are work 
authorized, detect identity fraud, and detect system misuse and 
discrimination. E-Verify is both an essential tool for employers 
committed to maintaining a legal workforce, and a key deterrent to 
illegal immigration. The requested program increase will primarily 
promote monitoring and compliance activities and IT-related business 
initiatives geared toward improved system use.
    USCIS has significantly enhanced E-Verify over the last few years, 
decreasing tentative non-confirmation rates and implementing continuous 
improvements. According to an independent evaluation of E-Verify (by 
the research firm Westat), 96.1 percent of all cases queried through E-
Verify were automatically verified, in the first instance, as work 
authorized. The 96.1 percent figure (based on data from the third 
quarter of fiscal year 2008) represents a significant improvement over 
earlier evaluation results; the automatic verification rate improved 
from 83 percent in 2002 to 94.7 percent in 2007. Of the remaining 3.9 
percent of queries with an initial mismatch, only .37 percent of those 
were later confirmed to be work authorized. The initial mismatch could 
have been due to data error or someone not notifying SSA of name 
change, etc. The majority of remaining queries that were not 
automatically verified indicate that the program is doing what it is 
intended to do--detect unauthorized workers trying to work unlawfully.
    There is a common misconception that an initial mismatch indicates 
a program or database error. An initial mismatch instead indicates 
either: (1) a discrepancy between the information an employee has 
provided and information in government records; (2) that an employee 
has failed to update their information with SSA or DHS (such as a name 
change after marriage); or (3) an individual without work authorization 
has submitted fraudulent information. These individuals are afforded 
the opportunity to contest the finding by contacting SSA or DHS to 
resolve the discrepancy; however, as indicated, less than half of one 
percent of all individuals run through the program successfully contest 
an initial mismatch. Remaining queries receive a ``Final Non-
Confirmation'' in the system to inform an employer that they are not 
work authorized. This data indicates the program's success in quickly 
verifying the status of those who are work authorized and detecting 
those ineligible for employment.
    Even with the high level of current performance, USCIS will 
continue to work to enhance the system to further improve performance 
wherever possible.
    Question. USCIS is requesting $112 million for the E-Verify 
program, yet as of February 28, 2009, the program had approximately 
$121 million in funds available. Please detail the agency's plans for 
these unobligated balances, as well as the funds it is requesting for 
fiscal year 2010.
    Answer. The fiscal year 2009 Budget included $100 million in 
appropriated funds and $43.2 million in carryover (no year) funds for a 
total of $143.2 million.
    Planned spending can be summarized in the following categories:
  --$27 million for salaries and expenses
  --$15 million for rent, travel, facilities, and supplies
  --$21 million for SSA operations and enhancements
  --$59 million in information technology operations, maintenance and 
        enhancements
  --$4 million for outreach to employers
  --$12 million for administrative, customer service, project 
        management, training, and other miscellaneous contract support
  --$5 million for specialized studies and analysis
    The fiscal year 2010 Budget Request includes $112 million. Planned 
spending for current services includes:
  --$31 million for salaries and expenses
  --$13 million for rent, travel, facilities, and supplies
  --$8 million for SSA operations and enhancements
  --$22 million in information technology operations, maintenance and 
        enhancements
  --$10 million for outreach to employers
  --$13 million for administrative, customer service, project 
        management, training, and other miscellaneous contract support
  --$5 million for specialized studies and analysis
    The additional $10 million in enhancements will support:
  --Verification Information System (VIS) Enhancements.--The program 
        will continue to enhance the technology of the program; 
        including a focus on identity management and identity assurance 
        (for both the employer and the employee), enhancing the photo 
        screening tool and document assurance, expanding the data 
        sources the program uses, and ensuring aging hardware is 
        replaced.
  --Enhanced Data Matching.--E-Verify will continue exploring several 
        potential developments aimed at reducing false negatives, 
        including the inclusion of the updated Immigration and Customs 
        Enforcement (ICE) database that houses student visa data--SEVIS 
        II--which will decrease false negatives for foreign students.
  --Staffing Increase.--E-Verify is requesting 80 additional positions, 
        (40 FTE in fiscal year 2010) to be located in a new regional 
        site to support the following efforts: (a) detecting and 
        deterring system misuse and/or discrimination, (b) secondary 
        verification, quality assurance and case resolution operations, 
        (c) outreach and education efforts, and (d) mission support 
        activities.

                                  FEES

    Question. The administration has requested about $206 million in 
appropriated funds to cover the cost of asylum and refugee operations, 
as well as the cost of military naturalizations. Currently, fees are 
not charged on beneficiaries of these services and instead the cost 
burden is spread to applicants for other immigration benefits unrelated 
to those programs. Of the total, what is the anticipated cost in fiscal 
year 2010 for military naturalizations?
    Answer. For the purposes of the budget estimate, USCIS is using the 
current $595 per application naturalization fee as an approximate cost 
for military naturalization. The total budget of $5 million reflects a 
$595 fee multiplied by 8,500 military naturalization applications, 
approximately the level of applications filed in fiscal year 2008. 
USCIS is currently conducting a comprehensive fee review assessing the 
costs and fees for all application types.
    Question. To what extent did DHS consider charging a fee to 
applicants for asylum and military naturalization and what was DHS's 
rationale for not doing so?
    Answer. Applicants for military naturalization are exempt by law 
from fees. Individuals are not charged fees by USCIS for applications 
associated with entry into the United States under asylum claims, 
consistent with USCIS statutory fee authority permitting the recovery 
of asylum program costs through fees without charge to asylum 
applicants. The Department supports current law and practice for both 
categories
    Question. Will approval of the $206 million fee change result in 
other CIS benefit fees being reduced?
    Answer. USCIS is working to complete a biannual fee review to 
assess if current fees are set at an appropriate level to recover the 
costs of providing immigration and services. This and other fiscal year 
2010 budget decisions will be incorporated into the fee review.

                                REAL ID

    Question. Will the $25 million request for the REAL ID Hub complete 
the planned project?
    Answer. Yes, the fiscal year 2010 funding will be needed to 
complete and deploy the hub verification capabilities. The follow on 
request of $25 million will complete the build out of the verification 
system capabilities, including structured testing and system 
connectivity for participating States. Some fiscal year 2010 funds will 
also be used to support establishment of a concept of operations for 
REAL ID audits of the States after implementation. The concept of 
operations will be developed in collaboration with the Department of 
Transportation (DOT) and will consider relevant DHS and DOT assets and 
interactions with State departments of motor vehicles (DMV).

                         Science and Technology

                             PROJECT NEWTON

    Question. What is the purpose of Project Newton?
    Answer. Project Newton is an aircraft vulnerability project that is 
developing complex computer models that simulate on-board blast effects 
of different types of explosives threats on commercial aircraft, given 
multiple threat scenarios and other technical variables. The models 
will be used to provide information to the Transportation Security 
Administration (TSA) to verify or revise current explosives detection 
standards. The standards will comply with the Explosives Detection 
System (EDS) Standard section of Public Law 101-604 (Aviation Security 
Improvement Act of 1990). Project Newton is a joint effort between the 
Science and Technology (S&T) Directorate and the Transportation 
Security Administration (TSA).
    Question. What is the status of the program?
    Answer. Project Newton is a three phase program. Phase I, took 
place between May 2007-December 2007 and comprised a modeling and 
simulation effort focused on the Boeing 737-200 commercial aircraft, as 
well as new analyses of explosives equivalencies. The project is 
currently in Phase II, which began in 2008 and is still in progress. As 
part of this current phase, models of the Boeing 737-800 are being 
created in addition to explosive equivalence models. Phase III will 
begin later this year and include the creation of structural models of 
the current air fleet that will be tested to provide information to TSA 
to verify or revise current explosive standards.
    Question. What is the timeline for decisions related to the 
research?
    Answer. Results of the work with the Boeing 737-800 aircraft will 
be provided to TSA in late 2009 to inform their decisions regarding 
explosives standards and their acquisition programs. The S&T 
Directorate's Explosives Division is developing a multi-year program 
strategy for Project Newton. This strategy will include the appropriate 
number of commercial aircraft, scenarios, phenomenology and model 
validation as well as outline the additional explosive testing required 
to improve the understanding of the risk associated with using modeling 
and simulation. This approach has the potential to inform many programs 
beyond the current acquisition of explosives screening equipment. It 
will provide data to help TSA and other DHS components with numerous 
activities, including future requirements development, vehicle 
hardening programs, and the identification of air/land/sea vehicle 
explosive vulnerabilities.
    Question. How will decisions related to Project Newton impact the 
installation of explosives detection equipment at airports?
    Answer. Project Newton will improve the detection standards of TSA 
explosives detection systems (EDS) at airports. It will not impact 
actual installation or schedules. The airframe survivability modeling 
effort is expected to provide better information for setting detection 
standards. TSA is in the midst of planning competitive EDS procurements 
incorporating a tiered detection standard that will evolve to 
accommodate the results for Project Newton and other threat 
information.

                         CONTRACTOR CONVERSIONS

    Question. How many contractor to Federal FTE conversions are 
proposed for fiscal year 2010 out of the total contractor workforce?
    Answer. In fiscal year 2010, the S&T Directorate's target is to 
convert at least 17 FTE from contractor to Federal positions. These 
conversions are part of an ongoing effort to identify positions that 
are more appropriately filled by Federal employees.

                   Domestic Nuclear Detection Office

                DOMESTIC NUCLEAR DETECTION OFFICE (DNDO)

    Question. No funds are provided for systems acquisition, leaving 
DNDO with only a Research, Development, and Operations mission in 
fiscal year 2010. What is the future DNDO? Are you considering moving 
this function to other DHS components or offices?
    Answer. DNDO's mission has not changed and the Office will continue 
to carry out its research, development, operations, and systems 
acquisition functions. Due to the delay in certifying the Advanced 
Spectroscopic Portal System, DNDO has unobligated balances from past 
year appropriations. As such, DNDO will continue to acquire 
radiological/nuclear detection equipment in fiscal year 2010 using the 
available unobligated balances remaining for this activity.

                          SYSTEMS ACQUISITION

    Question. No funds are provided in fiscal year 2010 for systems 
acquisition. How does this decision impact the Joint CBP/DNDO 
Deployment Strategy for Radiation Portal Monitors (RPMs)? Isn't there 
still a need to deploy Radiation Portal Monitors regardless of any 
decision related to Advanced Spectroscopic Portal monitor deployment 
(ASP)?
    Answer. Yes, regardless of the ASP decision, the Joint CBP/DNDO 
Deployment Strategy calls for additional RPMs to be deployed. DNDO will 
continue to carryout this strategy using the remaining $39 million in 
funds appropriated for current generation RPMs. DNDO will still have 
unobligated balances of $77 million pending ASP certification, of which 
$17 million remains from fiscal year 2008 and $60 million remains from 
fiscal year 2009. Assuming a successful outcome of Secretarial 
certification, these funds will be used to procure a mix of current 
generation and ASP systems. If certification does not occur, these 
funds will be used to procure only current generation systems.
    Question. What is the unobligated balance for RPM acquisitions and 
will this provide enough funding for deployments through fiscal year 
2010?
    Answer. The fiscal year 2009 unobligated balance for current 
generation RPMs, which will soon be obligated for current year 
requirements, is $39 million. The unobligated balance for ASP systems 
is $77 million, of which $17 million remains from fiscal year 2008 and 
$60 million remains from fiscal year 2009. Assuming a successful 
outcome of Secretarial certification, these funds will be used to 
procure a mix of current generation and ASP systems. If certification 
does not occur, these funds will be used to procure only current 
generation systems.
    Question. For Human Portable Radiation Detection Equipment, how 
will the lack of funding impact this program? Isn't there still a need 
to outfit DHS employees, i.e., Coast Guard and CBP?
    Answer. DNDO will use prior year funds to procure additional human 
portable radiation detection equipment for the Coast Guard and TSA's 
Visible Intermodal Prevention and Response (VIPR) team.
    Question. What is the unobligated balance for Human Portable 
Radiation Detection Systems acquisitions and will this provide enough 
funding for deployments through fiscal year 2010?
    Answer. DNDO recently conducted a review of unobligated HPRDS 
funding, which produced sufficient prior year funds and captured 
savings to pay for most TSA requirements and all Coast Guard 
requirements for fiscal year 2010. A residual unobligated amount of 
$1.4 million remains available to fund documented CBP and TSA 
requirements.

                       SECURING THE CITIES (STC)

    Question. No funding is requested for ``Securing the Cities'' in 
fiscal year 2010. Has DNDO fulfilled its requirements stipulated in the 
Memorandum of Understanding (MOU) between DHS and the New York Police 
Department (NYPD) signed in April 2007?
    Answer. DHS continues to meet all of its responsibilities as 
stipulated in the MOU. The MOU stipulated that DHS will provide current 
and next-generation rad/nuc detection technologies for use by NYPD in 
evaluating current and next generation technologies and developing and 
refining CONOPS. Assets provided to NYPD included one RadTruck and 
three ASP-L Mobile Detection Platforms and associated equipment. The 
RadTruck was a loaned asset and was returned to DHS. In addition, DHS 
has provided scientific and technical training in the use of DHS-
provided equipment and coordinated activities involving the use of this 
equipment.
    Question. Was the agreement between DHS and NYPD for 3 years--
fiscal year 2007-2009?
    Answer. The STC Strategic Plan, which was provided to NYPD, 
indicated that STC will be a 3 year engagement in NYC.
    Question. When will fiscal year 2009 funding be awarded to New York 
City? Will this complete the 3-year agreement?
    Answer. Applications for the 2009 STC Funding Opportunity 
Announcement are due May 28, 2009. Depending on the quality of 
applications received, and the results of the review, an award could be 
made as early as July 15, or as late as September 30.
    Beginning in fiscal year 2010, no additional funds are being 
requested for the STC initiative. The 3 year NYC pilot, which will end 
with funds appropriated in fiscal year 2009. NYC regional STC 
stakeholders can continue to fund additional capabilities through other 
DHS grant programs such as the Homeland Security Grant Program. DNDO 
will continue to operate in the NYC region. For example, DNDO is 
planning to actively support a regional full scale exercise in 2010. 
DNDO has a vested interest to reduce the risk of radiological and 
nuclear terrorism to New York City and extract lessons-learned for 
application to other major urban centers.
    Question. Does New York City have additional needs in fiscal year 
2010?
    Answer. The STC initiative is intended to provide the relevant 
regional jurisdictions with the skills, capabilities, and experience to 
expand and continue to support the regional capability over time. 
Homeland Security Grant Program funding could be leveraged to expand 
the capability as deemed useful by the region.
    Question. Since the fiscal year 2009 funding will not be awarded 
until late fiscal year 2009, could additional equipment be deployed to 
New York City if funding was available?
    Answer. While additional funds could provide more equipment, it 
would not necessarily result in a more timely delivery. After fiscal 
year 2009, New York City should look to other funding sources if 
additional equipment is needed.
    Question. The Securing the Cities strategic plan states that ``The 
STC initiative will be a 3-year engagement in NYC, and will likely be 
so for subsequent cities.'' What are DNDO's plans to expand this 
project to subsequent cities?
    Answer. DNDO Red Teaming and Net Assessments (RTNA) will remain 
engaged to assess the effectiveness of the STC initiative. Upon the 
completion of the assessment, DHS will determine whether to terminate, 
expand to subsequent cities, or substantially modify the initiative.
    Question. Did the MOU with New York City require a State or local 
contribution? Did they provide that contribution?
    Answer. No cost sharing contribution is required in STC Cooperative 
Agreements. NYPD continues to meet its responsibilities in the DHS/NYPD 
MOU on STC.
                                 ______
                                 

            Questions Submitted by Senator Frank Lautenberg

                          REDUCTION IN GRANTS

    Question. The administration has requested $250 million each for 
port security grants and for rail security grants which represents a 38 
percent cut from last year's funding. The port security grants that 
were provided in the ``American Recovery and Reinvestment Act of 2009'' 
(Public Law 111-5) were intended to supplement funds provided through 
the regular budget process. Why does this budget propose reducing the 
funding to secure our ports and railways?
    Answer. The monies provided by the American Recovery and 
Reinvestment Act of 2009 (ARRA) will be well-utilized by our 
transportation and port partners as they continue to secure our 
Nation's transit systems and ports. As the fiscal year 2010 budget was 
developed, we considered where ARRA funds were available. We also 
considered the grant applications process and award pipeline for the 
Port Security Grants Program. Due to time it takes for grant recipients 
to drawdown their funds based upon their own financial management 
processes, we were able to reallocate funding for other programs that 
may more urgently need and utilize the funding.

                   PROTECTION OF U.S.-FLAGGED VESSELS

    Question. In recent months, there have been a number of pirate 
attacks on U.S.-flag ships off the coast of Somalia. The Transportation 
Security Administration requires Federal Air Marshals to fly on high-
risk international and domestic flights. However, the Coast Guard 
recently announced a directive that essentially states that U.S.-
flagged vessels should consider the use of armed private security 
guards, placing the onus of security on the industry. Doesn't the U.S. 
government have a responsibility to protect U.S.-flag vessels?
    Answer. Similar to other private industries, the security of U.S.-
flagged commercial vessels is a shared responsibility by the U.S. 
Government and by vessel operators who must take appropriate steps to 
minimize their vulnerability to piracy. The maritime security directive 
requires all vessels in designated high-risk waters to consider 
supplementing ship's crew with armed or unarmed security. Certain 
vessels transiting the Horn of Africa shall supplement the ship's crew 
with armed or unarmed security based on a piracy-specific vessel threat 
assessment conducted by the operator and approved by the Coast Guard.

                      TECHNOLOGY TRANSFER TO IRAN

    Question. The Department of Homeland Security's Immigration and 
Customs Enforcement Agency is responsible for helping to prevent the 
transfer of sensitive technology from the United States to hostile 
nations. Given Iran's nuclear ambitions, what is this Agency doing to 
stop Iran from attaining U.S. weapons and technology?
    Answer. U.S. Immigration and Customs Enforcement (ICE) is 
responsible for overseeing a broad range of investigative activities 
related to exports to sanctioned or embargoed countries such as Iran. 
ICE's strategy focuses on the trafficking of WMD components and 
materials, sensitive dual-use commodities, technologies, illegal 
exports of military equipment, significant financial and business 
transactions and export enforcement training for private industry as 
well as State, local and foreign agencies.
    To combat the proliferation of U.S. origin arms and other sensitive 
commodities by Iran, ICE leverages multiple resources, including 30 
years of experience in criminal export investigations.
    ICE's authorities and historical enforcement are rooted in many of 
our Nation's export laws. The Arms Export Control Act (AECA) gives ICE 
the authority to investigate, detain or seize any export or attempted 
export of defense articles. The Export Administration Act (EAA) gives 
ICE the authority to investigate, detain or seize any export or 
attempted export of dual-use commodities. The International Emergency 
Economic Powers Act relates to trade sanctions violations. Pursuant to 
these statutes, ICE may prevent, prohibit and investigate the transfer 
or exportation of any property subject to the jurisdiction of the 
United States. Through the use of Title 18 USC  554, Outbound 
Smuggling, ICE investigates the smuggling of goods from the United 
States to include sensitive technology and weapons destined for Iran.
    Two of the main strategies that ICE focuses on in stemming the flow 
of sensitive technology to proliferate countries such as Iran revolve 
around the long standing success of its counter-proliferation 
undercover operations, and its unique border search authority. These 
various authorities provide effective tools for ICE agents to form an 
overlapping unilateral export regime to contain the threat posed by 
Iran.
    An additional tool in ICE's arsenal of export enforcement is ICE's 
Project Shield America program. ICE provides training to the high tech 
industry and solicits cooperation with American companies. These 
outreach efforts have led to the identification and dismantling of 
numerous procurement networks operating in the United States and 
throughout the world.
    Cases involving the exportation of sensitive materials by their 
nature involve sensitive information. ICE would be happy to provide a 
law enforcement sensitive briefing about these types of investigations 
as may be requested.

                              CEDAP GRANTS

    Question. The Department of Homeland Security's Commercial 
Equipment Direct Assistance Program (CEDAP) provides critical equipment 
and training to law enforcement and emergency responder agencies in 
small jurisdictions and certain metropolitan areas. Without CEDAP 
grants, these agencies may not have the resources to prevent or 
properly respond to an act of terrorism in the United States. Why does 
the President's budget request not include any funding for the CEDAP 
program?
    Answer. The President's fiscal year 2010 Budget Proposal for the 
Department includes over $3 billion for the purpose of assisting small, 
medium and large jurisdictions with funds for planning, equipment 
acquisition, training and exercises to improve their ability to 
prevent, mitigate and respond to incidents of terrorism and other 
hazards. The Budget Request seeks to streamline preparedness assistance 
programs by reducing disparate programs while fully funding the 
Department's mission in support of local, State and tribal government. 
The funding for CEDAP-type investments was actually incorporated into 
the Urban Area Security Initiative (UASI) and the Firefighter 
Assistance Grant Program. In this way, the funding formerly directed 
for CEDAP can be weighed by State and local entities against other 
homeland security investment priorities.
                                 ______
                                 

           Questions Submitted by Senator George V. Voinovich

                        EFFECTIVENESS OF GRANTS

    Question. The fiscal year 2010 budget request includes $3.8 billion 
for grants to improve the preparedness and response capabilities of 
State and local governments. This is 8.8 percent of the total 
discretionary request of $42.7 billion. More importantly, this $3.8 
billion will be in addition to the $24 billion that has been 
appropriated since fiscal year 2004, including emergency supplemental 
appropriations. This is a significant investment, but we have no 
reliable data or measures to show that the equipment, training, and 
planning purchased to date have made the Nation sufficiently capable of 
responding to disasters. Have you ascertained the effectiveness of 
these grants in accomplishing the Department's mission? What is the 
Department doing to track and measure the effectiveness of these 
grants?
    Answer. The Grant Programs Directorate (GPD) has developed the Cost 
to Capability (C2C) Initiative to develop the tools needed by GPD and 
its grantees, to manage performance across a diverse portfolio of 
preparedness grant programs, and to better demonstrate the historical 
and future effectiveness of GPD's preparedness grant programs in 
building State and local all hazards capabilities outlined in FEMA 
National Preparedness Directorate's Target Capabilities List (TCL). 
Before building a system that could evaluate the use of grants at the 
State and local level, GPD has developed the C2C initiative to support 
the strategic goal of building a robust and standardized data analysis 
capability to quantify benefits and demonstrate the importance of 
grants management to Homeland Security priorities. The C2C Initiative 
is building the tools needed to manage the performance of its grant 
programs in a consistent and transparent manner that can be traced to 
Homeland Security doctrine and policy. C2C will be based upon credible 
capability targets found in TCL, which links all preparedness cycle 
activities to strengthen preparedness capabilities.
    GPD first did a retrospective analysis of grant funding, by 
reviewing existing grantee-reported data to establish the feasibility 
of quantifying its preparedness grant programs' combined 
accomplishments from past fiscal years. These finding in turn created 
the FEMA GPD Grant Programs Accomplishments Report: Summary of Initial 
Findings (fiscal year 2003-2007). This report is the first-ever study 
of how grantee spending builds target capabilities. GPD analyzed 
grantee data spanning the last 5 fiscal years from its core grant 
programs, which accounted for 64.8 percent of GPD's preparedness grant 
portfolio from fiscal years 2003-2007. This Accomplishments Report is 
currently under final review.
    GPD has several additional activities underway regarding C2C. The 
C2C Alpha Prototype, which is still in development, is a conceptual 
capability return-on-investment tool. The Prototype provides the 
analysis needed to inform the stakeholder where, how much and for what 
purpose grant program funding should be allocated. The process involves 
the following steps:
  --Stakeholder prioritization of the target capabilities
  --Creation of an exhaustive list of strategic projects
  --Calculation of project importance based on the target capabilities
  --Creation of multiple portfolios of investment based on the list of 
        projects and their importance
  --Giving the stakeholder the choice of selecting the best overall 
        portfolio
    In coordination with the National Preparedness Directorate, plans 
have been made to Pilot the alpha prototype July 15-17, 2009. Eighteen 
pilot sites (States, tribes and UASIs) have been selected to 
participate in this effort:
  --Boston UASI
  --Vermont
  --New York State
  --New York City UASI
  --New Jersey
  --US Virgin Islands
  --Delaware
  --Poarch Band of Creek Indians (AL)
  --South Carolina
  --Columbus UASI
  --Arkansas
  --Oklahoma
  --Houston UASI
  --Kansas
  --Utah
  --California
  --Los Angeles UASI
  --Washington State

                        NUMBER OF GRANT PROGRAMS

    Question. When we passed the Department of Homeland Security 
Appropriations Act, 2004, there were six grant programs directed at 
preparing State and local government to respond to disasters. In fiscal 
year 2009, there are 16 separate grant programs. How does this tie your 
hand in terms of putting the money were it will make the most 
difference?
    Answer. The Department does not create grant programs, but rather, 
implements the programs as appropriated by Congress. Although there are 
a larger number of programs than in 2004, FEMA staff works closely with 
Departmental entities, State, local and tribal responders, and other 
Federal agencies (such as Health and Human Services) to ensure that 
each program is aligned against other programs within the preparedness 
portfolio. In addition, FEMA welcomes the opportunity to work with the 
Department, Congress and all of our partners and stakeholders to move 
toward grant program consolidation and allocate precious Federal 
resources using a sound risk-based methodology.

                     REALIGNMENT OF GRANT PROGRAMS

    Question. The President's fiscal year 2010 budget proposes 
realigning the Firefighter Assistance Grants Program and the Emergency 
Management Performance Grants Program into the State and Local Programs 
appropriation. What is the reason for this proposal and what practical 
effect would the proposal have on the administration and management of 
the Firefighter Assistance Grants Program and the Emergency Management 
Performance Grants Program?
    Answer. FEMA/GPD currently manages grants within all three of these 
appropriations. All of them include programs that help to build and 
sustain capacity across our Nation to prevent, protect against, recover 
from, mitigate against and respond to acts of terrorism and other 
hazards. As such, since EMPG and AFG are developed along side the other 
State and local programs to enhance collaboration, it would be 
practical for them to be included as part of the State and local 
appropriations.

                       REAL ID ACT IMPLEMENTATION

    Question. The fiscal year 2010 budget proposes an additional $50 
million in grants to States for REAL ID implementation, and $25 million 
for U.S. Citizenship and Immigration Services for further development 
of system capabilities to verify data against Federal databases. You 
have been working with the National Governor's Association on a 
legislative proposal to amend the REAL ID Act. What changes are being 
recommended?
    Answer. The proposed $50 million to States for REAL ID 
implementation is required to assist States in improving the security, 
privacy protections and integrity of driver's license issuance 
processes consistent with current law and the 9/11 Commission 
recommendation to set national standards for the issuance of driver's 
licenses. The proposal to amend the REAL ID Act maintains the provision 
to set national standards and acknowledges the efforts to date towards 
meeting the standards.
    The current proposal also provides for a demonstration project to 
develop an electronic verification system (hub) capable of verifying a 
State's department of motor vehicle driver's license applicant's 
document information against Federal databases. That provision is 
specifically intended to continue the efforts already begun by the 
States toward that end. The $25 million fiscal year 2010 request within 
USCIS is the administration's promise to complete funding for that 
effort.
    Key changes included in the current legislative proposal include:
  --Adding specific privacy provisions to protect personal data.
  --Adding flexibility for the States in how to achieve security 
        improvements.
  --Allowing for continued innovation by setting minimum standards for 
        secure driver's licenses and ID cards while providing States 
        the flexibility to determine how best to meet or exceed such 
        standards.
  --Setting an implementation timeline for states that begins 1 year 
        after issuance of final regulations and will be phased in over 
        the following 5 years.
    Question. If you endorse the National Governor's Association 
proposal, which I understand eliminates the ``hub'', would the $25 
million proposed within the U.S. Citizenship and Immigration Services 
fiscal year 2010 budget for this purpose be needed?
    Answer. Yes, the funding will still be needed because the National 
Governors Association proposal still provides for a demonstration 
project to develop an electronic verification demonstration system 
(hub) capable of verifying State department of motor vehicle driver's 
license applicant document information against Federal databases. That 
provision is specifically intended to continue the efforts already 
begun by the States toward that end. The project received $50 million 
in fiscal year 2009; the follow on request of $25 million will complete 
the build out of the verification system capabilities, including 
structured testing and system connectivity for participating States.

                      NATIONAL GUARD ON THE BORDER

    Question. The National Guard does provide some routine support of 
U.S. Customs and Border Protection today. How many National Guard are 
on the border today and what activities are they performing? Are they 
supporting both the Northern and Southwest borders?
    Answer. On the Southwest border, National Guard support is in the 
following categories: Aviation--Forward Looking Infrared (FLIR) 
Support; Engineer/Infrastructure; Communication; Intelligence; SBInet 
Support; Camera/Field Support; Checkpoint Support. Due to the Guard's 
short-term 2-week deployments the number of National Guard personnel 
on-the-ground fluctuates. The number has reached a high point of up to 
75 persons. There are no National Guardsmen performing duties with the 
Border Patrol on the northern or coastal borders.

                      UNACCOMPANIED ALIEN CHILDREN

    Question. What increased costs does the Department of Homeland 
Security estimate it might need for fiscal year 2009 due to the new 
changes in law related to the care of unaccompanied alien children? How 
does the fiscal year 2010 address these new requirements?
    Answer. To date, there has been no increase in the average number 
of UAC. In fact, the number of UAC projected to enter the custody of 
the Federal Government has decreased significantly in fiscal year 2009 
compared to fiscal year 2008, and there has been no up-tick since the 
passing of the TVPRA. However, there is not enough data to suggest 
whether this downward trend will continue.
    ICE has historically funded the cost of UAC transfer from base 
resources, and will continue to do so in fiscal year 2010. No 
additional funding was requested for this in fiscal year 2010 above 
normal DRO current operations. New policy officials at HHS and DHS have 
agreed to work cooperatively to review TVPRA implementation and will 
determine whether policy and operational changes are necessary to allow 
HHS to fully assume its statutory responsibilities to ensure proper 
care and custody for UAC.

                       H1N1 SUPPLEMENTAL FUNDING

    Question. The Department of Homeland Security has indicated it 
needs an additional estimated $200 million in fiscal year 2009 
supplemental funding for H1N1 pandemic influenza activities. 
Specifically what will these additional funds be for?
    Answer. DHS estimates that costs associated with the H1N1 flu could 
reach approximately $200 million. There are both short and long term 
costs for DHS. We project a need for $61 million in the short term to 
purchase anti-virals and Personal Protection Equipment (PPE) for DHS 
employees and to preposition, distribute and train on proper use of 
PPE's. DHS currently has stockpiles of these items that will cover DHS 
employees into the fall of 2009. However the current stockpiles are not 
sufficient to equip and protect our workforce for a prolonged period. 
In the long term an additional $153 million is needed to restock anti-
virals and PPE stockpiles of N95 Respirators, surgical masks, 
disposable gloves, disposable garments, splash goggles, and hand 
sanitizer.

                           MEDICAL STOCKPILE

    Question. I understand the Department maintains medical stockpiles 
for its employees identified to be mission critical or at high risk--
the Office of Health Affairs manages the Department's stockpile and the 
Coast Guard has its own. Is that correct? Are additional funds 
requested in the fiscal year 2010 for these stockpiles (procurements, 
storage, training, etc.)? If not why?
    Answer. The Department maintains medical countermeasure stockpiles, 
or antivirals, for the DHS workforce. DHS maintains one course for each 
DHS employee and additional courses for outbreak prophylaxis for high-
priority mission critical or essential employees. The Coast Guard 
antiviral stockpile includes high risk military and civilian employees. 
In fiscal year 2006, the President requested and Congress appropriated 
$7.1 billion in supplemental funding for avian and pandemic influenza 
preparedness activities. Though a majority of the funding was 
appropriated to the Department of Health and Human Services (HHS), DHS 
received $47.3 million which was used for stockpiling and distribution 
of stockpiles to DHS components by DHS's Chief Medical Officer.
    The Department has stockpiled two types of antivirals with the 2006 
appropriation, oseltamivir (Tamiflu) and zanamivir (Relenza), 
dedicated for DHS workforce protection. The U.S. Coast Guard purchased 
courses of antivirals through Department of Defense stockpile channels. 
Overall DHS has on hand approximately 540,000 courses of antivirals for 
its workforce (240,000 DHS; 300,000 USCG).
    The non-USCG stockpile (procurements, storage, training, etc.) is 
currently funded with carryover balances from the fiscal year 2006 
supplemental appropriation. Therefore, the Office of Health Affairs 
budget does not include additional funding for pandemic influenza 
activities in fiscal year 2010. The Coast Guard released antivirals 
from its medical stockpile in response to recent events associated with 
the H1N1 outbreak and will work with DHS to replenish them. However, 
its budget also does not include additional funding in fiscal year 2010 
because it considers its stockpile to be sufficient to meet HHS, DHS 
and Coast Guard response guidelines.
    Question. I understand the Office of Health Affairs stockpile 
maintenance and related activities are currently being funded from 
fiscal year 2006 supplemental appropriations carryover balances. Is 
that correct? How are the Coast Guard stockpile activities being 
funded?
    Answer. The Department's stockpile maintenance will continue to be 
funded from the fiscal year 2006 supplemental appropriation carryover 
balance for fiscal year 2010. The remaining funds from fiscal year 2006 
will be obligated in fiscal year 2010.
    The Coast Guard's stockpile activities for a potential pandemic 
influenza event were funded from fiscal year 2008 Operating Expense 
funds. The funding was used to replenish/purchase medication based on 
the projected need and to ensure that mission critical, high risk 
personnel will be protected in a pandemic environment.

                           BIOMETRIC AIR EXIT

    Question. The Department of Homeland Security Appropriations Act, 
2009, requires that biometric air exit pilot projects be conducted. I 
understand that those pilots will be conducted from May 28-July 2, 
2009, and after the pilots are reviewed the US-VISIT office anticipates 
issuing a final rule regarding biometric air exit procedures sometime 
between January and March of 2010. However, there is no money in the 
fiscal year 2010 budget request for biometric air exit implementation. 
What is the Department's plan for moving forward with biometric air 
exit implementation during the second half of fiscal year 2010, when we 
anticipate that there will be a biometric air exit final rule, but no 
money to implement the rule or move biometric air exit forward?
    Answer. Approximately $28 million remains available from prior-year 
dollars (for testing technological solutions in the air/sea 
environments with pilot scenarios) to fund the current Air/Sea 
Biometric Exit project.
    On April 24, 2008, DHS published a notice of proposed rulemaking 
(NPRM) in the Federal Register proposing to establish biometric exit 
procedures at airports and seaports of departure from the United 
States. The NPRM incorporated the findings from US-VISIT's initial test 
during 2004-2007 of biometric exit technology and procedures at 14 
airports and seaports, and recommended that commercial air carriers and 
vessel carriers be required to collect and transmit biometric exit 
information to DHS, in conjunction with the passenger manifest 
information they already collect and submit to DHS.
    In the fiscal year 2009 DHS Appropriations Act (Public Law 110-
329), Congress required US-VISIT to test and report on the collection 
of biometrics from non-U.S. citizens exiting the United States in two 
different settings at airports: (1) air carrier collection of 
biometrics from passengers already subject to US-VISIT entry 
requirements; and (2) collection by U.S. Customs and Border Protection 
(CBP) of those passenger biometrics at the boarding gate. The pilots 
must occur before funding will be released to support the deployment of 
biometric exit procedures to airports and seaports. Currently, no 
airline has agreed to participate in a pilot. Consequently, US-VISIT 
will conduct two pilots: one by CBP at the boarding gate and one by the 
Transportation Security Administration (TSA) at a security checkpoint 
beginning May 28, 2009.
    Based on the results of the pilots and comments to the NPRM, US-
VISIT plans to publish a final rule, tentatively scheduled for March 
2010, which will direct the implementation of new biometric exit 
procedures for non-U.S. citizens departing the United States via 
airports and seaports.
    If DHS goes forward with a final rule implementing its recommended 
solution as stated in the NPRM--that commercial air carriers and vessel 
carriers will collect and transmit biometrics--no further funding would 
be required to implement Air/Sea Biometric Exit.

                VISA WAIVER COUNTRY INFORMATION SHARING

    Question. What is the timetable to bring the original 27 visa 
waiver countries up to the same information sharing standards as the 
agreements signed with the countries recently admitted to the program?
    Answer. Under the terms of the 9/11 Act, there is no statutory 
deadline for current VWP member states to come into compliance with the 
security enhancements, including the information sharing agreements. 
However, the VWP law requires a review at least every 2 years to ensure 
that member countries continue to meet the relevant criteria. 
Consistent with previous reforms of the VWP, DHS will address 
compliance with the requirements of the 9/11 Act, as well as all other 
VWP requirements, as part of the ongoing biennial review process. Pre-
2008 VWP countries are being given a reasonable amount time (not to 
exceed the completion of their next biennial review) to reach full 
compliance with the additional security requirements of the 9/11 Act.

           EFFECT OF ECONOMIC DOWNTURN ON FEE-FUNDED PROGRAMS

    Question. As the economic downtown negatively affects fee-funded 
programs, many Department components (U.S. Citizenship and Immigration 
Services, U.S. Customs and Border Protection, U.S. Immigration and 
Customs Enforcement, e.g.) could encounter problems sustaining their 
activities. How are you monitoring this and what actions have you 
taken?
    Answer. As you note, a number of DHS components rely significantly 
on user fee collections. USCIS, for example, receives almost all of its 
funding from user fees. We are monitoring user fee collections on a 
monthly basis and adjusting our projections with the most up-to-date 
data. We have re-prioritized planned spending to react to the 
uncertainty, and are posed to make spending cuts if necessary. Our goal 
is to avoid disrupting operations, and one strategy we will employ is 
drawing down from carryover balances in the fee accounts. We would also 
consider reprogramming funding within discretionary accounts if 
necessary to meet mission-critical needs.

                          ROLE OF CONTRACTORS

    Question. What steps has the Department taken to determine the 
appropriate role of contractors in meeting its mission requirements and 
to convert contract functions to government personnel functions where 
appropriate?
    Answer. DHS has taken a number of important steps to ensure the 
appropriateness of its use of contractors in meeting DHS's mission 
requirements. Over 2 years ago, DHS began a special review of 
contractor performance at the National Protection and Programs 
Directorate (NPPD). No contractors have been found to be performing 
inherently governmental work, but, as the NPPD matured from start-up 
status and as its mission expanded, the need to expand its minimum core 
competencies became clear. Over 350 contractors are now in the pipeline 
for conversion to Federal employees.
    Since March of this year, and as a part of the DHS 2009 Federal 
Activities Inventory Reform (FAIR) Act data call, DHS Components have 
been engaged in several related actions. An inventory of contractors in 
Federal space within the DHS National Capital Region has been developed 
as a proxy for identifying contractors that are closely related to DHS 
Headquarters activities. As a part of the DHS Efficiency Review 
Process, DHS Components have developed a schedule of functional or 
business line specific studies that will assess the most efficient 
approach to accomplishing mission requirements, including the 
appropriate balance of contractor and Federal resources. These are 
detailed assessments of workload requirements and alternative 
approaches to mission accomplishment, which include a review of the 
balance between in-house and contractor resources. We have begun to 
review these proposals with the Components, and Components have been 
asked to develop lists of individual functions being performed by 
contractors that may warrant the immediate conversion of work to 
performance by Federal employees. The initial data will be submitted to 
the Office of the Chief Procurement Officer in July.
    As part of the DHS Efficiency Review Process, all proposed 
contracts for professional support services with an annual value 
greater than $1,000,000 will be reviewed prior to awarding the 
contract. The Components will review the proposed contracts to ensure 
that only appropriate work is included. If the contract amount is 
greater than $50,000,000 it will also be reviewed by the Chief 
Procurement Officer.
    DHS is also a member of the OMB Multi-Sector Workforce Working 
Group, which is reviewing the definitions of inherently governmental 
work, insourcing policy, and the development of contract workload 
inventories. The Working Group is responding to the President's 
Memorandum dated March 4, 2009 on Government Contracting and a number 
of statutory mandates that suggest the need to better balance Federal 
and contract employees. As this information and Government-wide policy 
develops, DHS will be issuing related policies on the accomplishment of 
mission requirements by Federal and contract employees (expected 
issuance is October 2009).

           CONVERSION OF CONTRACTORS TO GOVERNMENT POSITIONS

    Question. Is there a plan in place to convert contractors to 
government positions? How many contractor conversions are planned in 
fiscal year 2009 and proposed for fiscal year 2010?
    Answer. As part of the annual 2009 Federal Activities Inventory 
Reform (FAIR) Act data call, DHS has directed each Component to review 
its contract workforce to determine whether work is inherently 
governmental or commercial ``core/exempt'' and to evaluate whether 
existing contract prices are excessive or performance is inadequate. 
Components have been directed to provide information on contract 
positions that they believe are justified for conversion to government 
performance. Components have also been instructed to work with the 
Chief Procurement Officer to determine if conversion is authorized or a 
competition is required. DHS components will be submitting their 
``insourcing'' data (including FTE, functions and justifications) to 
DHS HQ in July 2009.
    DHS currently plans to convert approximately 500 contractor FTE to 
performance by Federal employees over the course of fiscal years 2009-
2010. This number may change in fiscal year 2010 and the out-years as a 
result of one or more of the analyses discussed in response to other 
questions for the record on this subject.
    Approximately 350 FTE are planned for conversion from contractor to 
Federal in-house performance associated with the NPPD. This workload 
has been reviewed in accordance with the FAIR Act and the OMB Circular 
A-76, which, subject to certain statutory exceptions, provides 
government-wide policy on the conversion of commercial work to or from 
in-house and contract performance. Each of the 350 FTE has been 
justified as required to meet emerging minimum residual core capability 
requirements. An additional 188 FTE have been identified and approved 
for conversion from contractor to Federal in-house performance at the 
USCG associated with food preparation requirements. The USCG has 
determined that this work needs to be performed by military billets in 
order to protect their sea/shore rotational requirements.
    Within the NPPD, 110 FTE of the 350 FTE have been successfully 
converted from contract to in-house performance (on-board).

------------------------------------------------------------------------
                                                            On Board/In
                        NPPD Org.                             Process
------------------------------------------------------------------------
Infrastructure protection (IP)..........................           47/29
Cybersecurity and Communications (CS&C).................           17/29
US-VISIT................................................           35/20
Office of Risk Management and Analysis (RMA)............             5/6
Office of the Under Secretary (OUS).....................             6/8
                                                         ---------------
      Total.............................................         110/92
------------------------------------------------------------------------
The total equals 202 (110 + 92) of the 350 with 148 expected in fiscal
  year 2010.

                     NATIONAL CYBER SECURITY CENTER

    Question. The National Cyber Security Center was established by the 
Secretary of Homeland Security pursuant to Presidential directive and 
stood up last year. I see no funding in the Department of Homeland 
Security's fiscal year 2010 budget request for the Center. Why?
    Answer. The Department did not request funding for the Center in 
fiscal year 2010 because an overall cyber security plan, which will 
include goals, objectives, milestones, and activities, has not yet been 
finalized. To request funding for the NCSC prior to the outcome of the 
cybersecurity review being carried out by the National Security 
Council, would be premature. The results of the Council review will be 
used in establishing a permanent roadmap for cybersecurity. Resources 
for many of the proposed functions of the NCSC are included in the 
budget request for the National Cyber Security Division in the National 
Protection and Programs Directorate.

                   DHS ROLE IN CYBER SECURITY EFFORTS

    Question. What is the Department's role in cyber security efforts, 
as contemplated in the fiscal year 2010 budget request?
    Answer. DHS has responsibility for securing the Federal ``.gov''--
the networks that support our Executive Branch civilian agencies. In 
addition, DHS is responsible for partnering with private-sector owners 
of the Nation's critical infrastructure and State and local government 
to improve the security of their networks. As the Department builds 
these capabilities and executes strategies to build the ``.gov'' 
defense in fiscal year 2010, DHS must also continue its collaboration 
and engagement with the private sector.
    Within the National Cyber Security Division (NCSD), the United 
States Computer Emergency Readiness Team (US-CERT) and others define 
the cybersecurity requirements for the National Cybersecurity 
Protection System (NCPS). Network Security Deployment (NSD) develops, 
acquires, deploys, and operates and maintains the NCPS that is used by 
US-CERT to conduct the DHS cybersecurity mission for the .gov domain.
    NSD efforts are divided into various blocks of capabilities. Block 
1.0, flow collection, will be in an operations and maintenance stage. 
Block 2.0 will consist of procuring and deploying NCPS Block 2.0 
Intrusion Detection System sensors to Phase 4 departments and agencies, 
as well as to any additional Managed Trusted Internet Protocol Service 
vendors awarded. During this block, NSD will also finish the data 
migration to the DHS-approved data center, Electronic Data Systems, and 
provide needed infrastructure upgrades to the US-CERT Mission Operating 
Environment. During NCPS Block 2.1, NSD will expand the capabilities 
and back-end storage of analytical tools that supply automated 
correlation and aggregation capabilities for US-CERT analysts, 
decreasing their overall workload. Block 3.0 will consist of 
deployments, operation, and maintenance of Intrusion Prevention 
sensors.
    Critical Infrastructure Protection and Awareness (CICP&A) will be 
conducting the Cyber Storm III national cyber exercise in fiscal year 
2010. CICP&A activities will also focus on expanding control system 
security efforts among public- and private-sector partners. This will 
include assessing and mitigating risks to enabling technologies such as 
Smart Grid. CICP&A programs work closely with private Critical 
Infrastructure and Key Resources (CIKR) sector partners under 
frameworks such as the National Infrastructure Protection Plan and 
through forums such as the Cross-Sector Cyber Security Working Group 
and the Industrial Control Systems Joint Working Group. In fiscal year 
2010, CICP&A will expand information sharing with its CIKR sector 
partners.
    Federal Network Services' (FNS's) Trusted Internet Connection (TIC) 
program will manage the continued agency reduction and consolidation 
efforts for internet connections. The continued reduction and 
consolidation of external connections into the Federal Government will 
enable the NCPS intrusion-detection system to efficiently monitor and 
alert on suspicious activity occurring across the Federal enterprise.
    FNS's Compliance and Oversight program will also continue to 
perform Compliance Assessments of TIC Access Providers (TICAPS). The 
TIC Compliance Validation program conducts compliance checks of TICAPs 
to ensure that agencies have the appropriate operational capabilities 
in place to meet the TIC objectives. Correct interpretation and 
implementation of the critical security capabilities identified by the 
TIC initiative will provide a robust, holistic approach to network 
security across the Federal Government.
    US-CERT is charged with providing response support and defense 
against cyber attacks for the Federal Civil Executive Branch (.gov) and 
information sharing and collaboration with State and local government, 
industry, and international partners. To fulfill this mission, US-CERT 
disseminates threat, vulnerability, risk, analysis and mitigation 
strategies, and works with partner organizations to update information 
assurance policies and technologies continually to defend the Federal 
computer network space. Through monitoring, communications and 
coordination activities, US-CERT provides timely and accurate cyber-
threat mitigation guidance and serves as the focal point for 
collaborative cyber awareness, mitigation and reduction for threats and 
vulnerabilities.
    The Department also has a role in the Federal Government in 
cybersecurity research and development. The DHS Science and Technology 
(S&T) Directorate's Cyber Security Research and Development (CSRD) 
program funds activities addressing core vulnerabilities in the 
Internet, finding and eliminating malicious software in operational 
networks and hosts, and detecting and defending against large-scale 
attacks and emerging threats on our country's critical infrastructures. 
The CSRD program includes the full research and development lifecycle--
research, development, testing, evaluation and transition--to produce 
unclassified solutions that can be implemented in both the public and 
private sectors. S&T has established a nationally recognized 
cybersecurity research and development portfolio addressing many of 
today's most pressing cybersecurity challenges. The CSRD program has 
funded research that today is realized in more than 18 open-source and 
commercial products that provide capabilities such as secure thumb 
drives, root kit detection, worm and distributed denial of service 
detection, defenses against phishing, network vulnerability assessment, 
software analysis and security for process control systems.
    The program is focused in three main areas:
  --Information Infrastructure Security (IIS) Program--engaging with 
        industry, government and academia to ensure that the core 
        functions of the Internet develop securely and benefit all 
        owners, operators and users. The IIS program ensures that 
        Internet naming and routing services are always reliable, even 
        in the event of a cyber attack.
  --Cybersecurity Research Tools and Techniques Program--providing 
        secure facilities, methods and data for testing and evaluating 
        new defensive cybersecurity technologies.
  --Next-Generation Technology Program--addressing cybersecurity 
        research and development needs in support of DHS and private-
        sector stakeholders. These needs are aimed at preventing, 
        protecting against, detecting, responding to and recovering 
        from large-scale, high-impact cyber attacks. Customers of these 
        technologies include emergency responders, critical 
        infrastructure providers, the banking and finance industry, the 
        private industry; and local, tribal, State and Federal 
        Governments.

                   DHS ROLE IN CYBER SECURITY EFFORTS

    Question. Reports are that the administration's 60-day cyber review 
is soon to be released. If media reports are accurate, control and 
coordination of cyber security activities is being placed in the White 
House. How will this affect the Department's role in cyber security and 
its ongoing cyber security efforts?
    Answer. DHS worked closely with the Homeland Security Council and 
the National Security Council leadership and staff in the development, 
tracking, and coordination of the Comprehensive National Cybersecurity 
Initiative. However, at this time, the Adminstration is still reviewing 
the results of the 60-day review. DHS would be happy to discuss the 
results of the 60-day review after it has been released.

                     DHS HEADQUARTERS CONSOLIDATION

    Question. No additional funding is included in the President's 
fiscal year 2010 budget for the Department of Homeland Security 
Headquarters consolidation at St. Elizabeths. Are the fiscal year 2009 
funds provided for this project in the regular Department of Homeland 
Security Act and the American Recovery and Reinvestment Act of 2009 
sufficient to sustain this project through fiscal year 2010?
    Answer. Yes. The funds provided in the fiscal year 2009 
appropriation and the ARRA will allow DHS to maintain the current 3 
Phase schedule for completion of the DHS Consolidated Headquarters at 
St. Elizabeths by fiscal year 2016 (Phase 1--fiscal year 2013, Phase 
2--fiscal year 2014, Phase 3--fiscal year 2016) subject to receiving 
planned appropriations for the out-years (fiscal year 2011 and beyond).

                        CONSOLIDATION OF LEASES

    Question. The fiscal year 2010 request includes $75 million to 
consolidate the leases of those Department of Homeland Security 
activities that will not relocate to St. Elizabeths. How many current 
lease locations are occupied by the Department? How many will be 
consolidated with the funds requested for fiscal year 2010? Will you 
seek to consolidate other leases in future years?
    Answer. DHS has 40 lease locations currently dispersed throughout 
the National Capital Region (NCR) and growing. The $75 million 
requested for fiscal year 2010 will be used to begin the consolidation 
effort by reducing from 40 locations down to about 30 lease locations. 
We will seek to consolidate the remaining leases in future years. To 
accomplish this, GSA used a national real estate broker to complete a 
study of DHS Headquarters (HQ) real estate requirements and to develop 
a migration strategy to consolidate in the NCR. The study determined 
that keeping the current Federal property housing DHS HQ elements is 
the best course of action because it results in a lower cost versus 
leasing. The strategy will allow DHS HQ to go from more than 40 
locations down to approximately less than 10 using St. Elizabeths as 
the center of gravity and keeping the federally owned locations at the 
Nebraska Avenue Complex (NAC), the U.S. Secret Service HQ and the space 
at the Ronald Reagan Building. DHS has two long-term leases that will 
also be retained--the TSA HQ in Arlington, VA and the ICE HQ in SE 
Washington, DC. The consolidation strategy indicates one to three 
additional leases for approximately 1.2 million Rentable Square Feet 
(RSF) of office space is needed to replace the remaining leases as they 
expire. A prospectus is being submitted to Congress for authority to 
procure this space.
    The 30 year net present value (NPV) difference between continuing 
the status quo versus following a comprehensive strategy that retains 
the federally owned space and has the least amount of short-term lease 
extensions is $163 million cost avoidance. DHS HQ is growing and is 
requesting space from GSA on a fragmented basis. Therefore, after the 
DHS HQ 5 year growth is determined and the leased space needs are 
better defined, GSA will submit a prospectus, as necessary, to Congress 
for leased space authority.

                   OVERSIGHT OF MANAGEMENT FUNCTIONS

    Question. The Department has had management failures that cut 
across departmental components such as financial management, 
procurement, acquisition and development of large-scale information 
technology, and physical asset programs such as SBInet and Deepwater. 
What role do you see yourself taking as the Secretary in the oversight 
of departmental management functions, such as the acquisition review 
process within the Department?
    Answer. The DHS Acquisition Review Board (ARB), chaired by the 
Deputy Secretary, governs major investment programs across the 
Department. The ARB includes the Departmental functional leaders 
(including the Under Secretary for Management; Chief Procurement 
Officer; Chief Financial Officer; Assistant Secretary for Policy; and 
Director, Operational Test and Evaluation). The ARB examines a 
program's progress and risk to determine if the program should move 
forward to the next phase in its life cycle. The Department re-
engineered and strengthened its acquisition governance framework in 
2008, and has already conducted more than fifteen ARBs of Level 1 and 2 
programs. I recognize the importance of sound acquisition management in 
support of the mission and intend on continuing the practice of 
conducting ARBs, thereby providing approval and direction for the 
investment programs.
    The DHS Program Review Board, also chaired by the Deputy Secretary, 
is a key step in the Department's annual budget development process. I 
intend to use this process to identify cross-component issues and to 
implement solutions to these issues (or to seize opportunities for 
collaboration).

                       BIODEFENSE COUNTERMEASURES

    Question. The fiscal year 2010 budget proposes to transfer $1.57 
billion in Department of Homeland Security balances of advance 
appropriations for Biodefense Countermeasures (i.e., the BioShield 
program) to the Department of Health and Human Services Advanced 
Development Program. Can you please tell us if these two programs are 
redundant? Are the authorities for the BioShield and Advanced 
Development Program the same? If not, how do they differ? Why does it 
make sense for the Department of Homeland Security to no longer have a 
role in this program?
    Answer. The Project BioShield program, with responsibilities 
managed by DHS and HHS, and the Advanced Development Program, managed 
by HHS, are not redundant but complementary programs. The Project 
BioShield program predated the creation of HHS' Biomedical Advanced 
Research and Development Authority (BARDA) which is charged with the 
unique mission to support the advanced development of novel medical 
countermeasures.
    The Project BioShield Act of 2004 (Public Law 108-276; 42 USC 
Sec. 247d et. Seq), created the framework, mechanisms, and a Special 
Reserve Fund (SRF) for the acquisition of medical countermeasures to 
chemical, biological, radiological and nuclear (CBRN) threats. Congress 
appropriated to DHS in the SRF $5.6 billion over 10 years to be used 
for the purchase of these countermeasures. There have been successful 
BioShield acquisitions to-date, including medical countermeasures to 
address anthrax, smallpox, botulinum toxin and radiological and nuclear 
threats.
    However, in the first few years of executing BioShield, challenges 
arose largely stemming from the inherent risks in pharmaceutical and 
vaccine development--relatively long timeframes for drug development, 
high product failure rates, and the lack of incentives to industry 
considering the government is the sole customer. Congress recognized 
that in order for BioShield to fulfill its promise and intent of 
building a robust stockpile of urgently needed medical countermeasures, 
new tools and resources would be necessary to balance the risk of 
medical countermeasure development. To this end, Congress enacted the 
Pandemic and All-Hazards Preparedness Act (Public Law 109-417) in 
December 2006, establishing BARDA within HHS as the single point of 
authority within the Federal Government for developing civilian medical 
countermeasures, including drugs and vaccines, in response to CBRN 
threats.
    Under BARDA, HHS was specifically provided the authority to invest 
in advanced development that will carry products across the so-called 
``Valley of Death'' to meet medical countermeasure requirements, reduce 
risk to both medical countermeasure developers and the Government, and 
promote innovation. By funding advanced development through such a 
dedicated mechanism, the development phases that the SRF was not 
authorized to support could bridge some of the risks assumed by the 
developers and lead to a more robust pipeline of countermeasure 
candidates ripe for procurement. BARDA also has the authority to manage 
procurement programs for vaccines, drugs, therapeutics and diagnostics 
for CBRN threats, including BioShield, and pandemic influenza and other 
emerging diseases that fall outside the scope of BioShield.
    Given the shortage of candidates ready for procurement under 
BioShield, and the likelihood that the entire balance may not be 
obligated prior to expiration, the administration is choosing to 
increase support for BARDA and support the advanced development 
necessary to fill the gaps. This transfer will allow HHS BARDA to 
enhance the pipeline of countermeasure candidates for future 
procurements. It is important to note that if the SRF monies are used 
in this manner, future procurement decisions will be made in the 
context of available appropriations for procurement activities
    Project BioShield provided additional authorities to DHS aside from 
the SRF and approving acquisitions made with this funding. These 
responsibilities include assessing and determining material threats to 
our Nation through Material Threat Determinations (MTDs) and Population 
Threat Assessments (PTAs)--an activity that is funded out of a separate 
DHS account than the SRF and therefore not subject to the transfer. 
Considering the vast spectrum of CBRN threats, DHS helps to identify 
and characterize those threats that pose the greatest risk. HHS uses 
this information as part of the equation in determining which 
countermeasures to pursue.
    DHS will to continue to assess and determine material threats as 
the threat landscape evolves to inform medical countermeasure 
activities at HHS, as well as carrying out its biennial Biological 
Terrorism Risk Assessment, Chemical Terrorism Risk Assessment, and 
integrated CBRN Risk Assessment to guide prioritization of our on-going 
investments in biodefense-related research, development, planning, and 
preparedness, including medical countermeasure efforts. Although the 
funding for medical countermeasure activities would be consolidated in 
one Department with the SRF transfer, HHS will continue to rely upon 
the robust capability DHS has built in the threat and risk assessment 
and characterization fields. Likewise, DHS will continue to participate 
in the HHS-led Public Health Medical Countermeasure Enterprise 
(PHEMCE), the central coordinating body for medical countermeasure 
activities at HHS, bringing our resources to bear as an ex-officio 
member.

                INTERMODAL SECURITY COORDINATION OFFICE

    Question. For fiscal year 2010, the Department is requesting $10 
million for an Intermodal Security Coordination Office within its 
Office of Policy to support integrated planning with the Department of 
Transportation. Can please provide us a fuller explanation of this 
proposed initiative and its purpose? What will the Department of 
Homeland Security's role be versus that of the Department of 
Transportation in this initiative? Why is this Office proposed to be 
established in the Office of Policy rather than in the Transportation 
Security Administration with transportation expertise?
    Answer. The Intermodal Security Coordination Office (ISCO) is part 
of a Presidential initiative to improve the safety and security of the 
Nation's transportation infrastructure, particularly intermodal hubs 
such as seaports. Ensuring the security of these intermodal 
transportation hubs is critical, since a vast amount of overseas cargo 
flows into the country via these hubs, and we must prevent the hubs 
from being used to convey threats such as nuclear, radiological, 
biological, chemical or explosive terror weapons. These hubs can also 
be the entry points for ``accidental'' threats, such as invasive 
species or agricultural pests, which can cause serious economic damage 
if allowed to enter the country.
    In addition to ensuring the security of goods entering the country 
through these hubs, we must ensure the flow of goods is as efficient 
and safe as possible. Moving cargo through these hubs quickly and 
safely helps maintain our economic well being. Many jobs across the 
country are directly or indirectly dependent on the efficient flow of 
goods through our intermodal transportation hubs.
    The Presidential initiative provides DHS $10 million to address the 
security of our Nation's transportation infrastructure, and the 
Department of Transportation (DOT) $15 million to address safety 
issues. This is consistent with each department's mission. The ISCO 
will work with the DOT to identify ways to coordinate DOT and DHS 
programs to make the best use of available resources to improve both 
safety and security of intermodal hubs, while also improving their 
operational efficiency.
    The ISCO is located in the Office of Policy at DHS headquarters to 
better coordinate the various DHS components and offices with critical 
knowledge and responsibilities for intermodal transportation 
infrastructure security, including the Transportation Security 
Administration, the U.S. Coast Guard, the Office of Infrastructure 
Protection, U.S. Customs and Border Protection, the Domestic Nuclear 
Detection Office, and the Science and Technology Directorate. The 
Office of Policy is also the most appropriate office for 
interdepartmental and intergovernmental coordination on this 
initiative, with the Department of Transportation as well as with 
State, local and private sector agencies.
    Leveraging the knowledge and experience of all these stakeholders, 
the ISCO will chart a course for improvements in the security of the 
Nation's transportation infrastructure. In fiscal year 2010, the office 
will deliver the following: (1) a strategic plan and strategic metrics 
to guide development and modernization of intermodal freight 
infrastructure linking coastal and inland ports to highways and rail 
networks; (2) intermodal freight infrastructure security needs and 
capability gaps; and (3) program and budget recommendations to address 
critical security needs and gaps. These recommendations will be 
incorporated into DHS's 5-year programming and budgeting guidance as 
appropriate, and tracked to ensure they are achieved. Similar 
recommendations for DOT will be provided to DOT for disposition within 
their programming and budgeting process.

              INSPECTION OF HIGH-RISK CHEMICAL FACILITIES

    Question. The fiscal year 2010 budget requests funds to expand the 
hiring of chemical site security personnel and initiate inspections of 
high risk chemical facilities nationwide. What is the fiscal year 2009 
on-board level of chemical inspectors and how many additional personnel 
are proposed for fiscal year 2010? When do you expect to initiate 
inspections of high-risk chemical facilities and how many facility 
inspections do you estimate to complete in fiscal year 2010 of the high 
risk facilities?
    Answer. The current Full-Time Equivalent (FTE) level of chemical 
inspectors is 51 onboard, with 35 additional selections in process. The 
projected total of FTEs onboard by the end of fiscal year 2009 is 178. 
In the effort to support this accelerated growth of the inspector 
cadre, the Department realigned base programmatic funding in fiscal 
year 2009 to support hiring above the previously authorized level of 78 
FTEs and in the fiscal year 2010 Budget Request has included funding to 
increase staffing levels of 246 FTEs in fiscal year 2010. The fiscal 
year 2010 FTE level will provide for 139 chemical facility inspectors 
and 20 additional cross-trained chemical/ammonium nitrate inspectors. 
The Department is working to accelerate and improve its hiring and 
security clearance processes to bring qualified and vetted personnel 
onboard in an expeditious manner.
    Initial inspections of final high-risk chemical facilities are 
expected to begin in the first quarter of fiscal year 2010, commencing 
with the final Tier 1 facilities. The Department's current goal is to 
conduct initial inspections of 100 percent of the final Tier 1 high-
risk chemical facilities and 25 percent of the final Tier 2 facilities 
during fiscal year 2010.

                   IN-LINE BAGGAGE SCREENING SYSTEMS

    Question. The fiscal year 2010 budget requests an increase of 
$565.4 million to support the purchase and installation of in-line 
baggage screening systems at the Nation's airports. This is a 
significant increase following the additional $1 billion investment for 
fiscal year 2009 made in the American Recovery and Reinvestment Act of 
2009 for procurement and installation of explosives detection systems 
and explosives trace detection systems. Why is a significant investment 
in this program a priority for fiscal year 2010?
    Answer. In order to consistently meet the demands of optimal 
systems deployment and stabilize the recapitalization and system 
resizing requirements, the Electronic Baggage Screening Program will 
require an increase in fiscal year 2010 to support this effort. The 
program is responsible for ensuring that 100 percent of all checked 
baggage is screened with an in-line explosive detection capability 
system, or a suitable alternative.
    This request supports the administration's desire to accelerate the 
Electronic Baggage Screening Program to reach full operating capability 
of optimal solutions at all airport terminals nationwide as 
expeditiously as possible. The fiscal year 2010 budget will allow TSA 
to meet this objective by providing the necessary funds for facility 
modifications, recapitalization efforts, and procurement and deployment 
of electronic baggage screening technology systems.

                      EXPLOSIVE DETECTION SYSTEMS

    Question. The Department of Homeland Security Appropriations Act, 
2009 (Public Law 110-329) makes $294 million available for purchase and 
installation of explosives detection systems, of which not less than 
$84.5 million is available for the purchase and installation of 
certified explosives detection systems at medium and small-sized 
airports. How much is being allocated for medium and small-sized 
airports of the $294 million appropriated? What is your estimate of the 
dollars which would be allocated purchase and installation of certified 
explosives detection systems at medium and small-sized airports if the 
fiscal year 2010 request is approved?
    Answer. The Department of Homeland Security Appropriations Act, 
2009 (Public Law 110-329) makes $294 million available for purchase and 
installation of explosives detection systems, of which not less than 
$84.5 million is available for the purchase and installation of 
certified explosives detection systems at medium and small-sized 
airports.
    NOTE FROM DHS: Of the $294 million appropriated, approximately $90 
million is estimated for allocation for the purchase and installation 
of certified explosives detection systems (EDS) at medium and small 
sized airports. While the specifics of our annual expenditure plan 
remain dynamic and will require adjustments as we continue to work with 
airports in the TSA fiscal year 2010 funding application process, 
current estimates would allocate approximately $99 million for purchase 
and installation of certified EDS at medium and small-sized airports. 
Additionally, facility modifications at airports in this category are 
estimated at approximately $260 million. TSA anticipates finishing its 
review of the initial completed applications by mid-June, and the 
remaining applications (those requiring more data) by the end of July. 
TSA will submit a spend plan for fiscal year 2010 EDS funds to Congress 
before funding is allocated.
    Question. Is all funding for explosives detection systems awarded 
competitively? Please explain what laws and regulations govern these 
procurements.
    Answer. All legacy contracts were awarded in accordance with the 
Acquisition Management System. One of the three legacy Explosives 
Detection Systems (EDS) contracts was awarded competitively and is 
currently active. TSA plans to award two bridge contracts for the 
remaining two legacy EDS and related services on a sole source basis 
under the Federal Acquisition Regulation (FAR). These two vendors 
produce the only two medium size EDS that have met the statutorily 
required certification standards. The sole source contracts will serve 
as bridge contracts that allow TSA to continue to meet the mandates for 
screening checked baggage until competitively awarded FAR contracts 
with enhanced detection requirements can be awarded. All fiscal year 
2010 requirements are planned for award from competitive contracts by 
the fourth quarter of fiscal year 2010.

                               VIPR TEAMS

    Question. The budget requests an increase of $50 million to fund 15 
additional Visible Intermodal Prevention and Response (VIPR) teams 
dedicated to surface transportation. How many additional mass transit 
and rail VIPR operations do you anticipate this will allow you to 
conduct over the current fiscal year? At how many additional sites?
    Answer. In fiscal year 2008, TSA received funding to support ten 
dedicated Visible Intermodal Prevention and Response (VIPR) teams. 
These teams are co-located within existing Federal Air Marshal Service 
(FAMS) field offices in the following locations:
  --Boston, MA
  --Chicago, IL
  --Denver, CO
  --Detroit, MI
  --Houston, TX
  --Los Angeles, CA
  --Miami, FL
  --New York, NY
  --Seattle, WA
  --Washington, DC
    The ten teams funded in fiscal year 2008 have conducted a total 
1,437 VIPR operations with 848 (59 percent) in the surface modes and 
589 (41 percent) in the aviation mode.
    TSA plans to establish 15 additional VIPR Teams within existing 
FAMS field offices and Resident Agent in Charge (RAC) offices in the 
following locations:
  --Newark, NJ
  --Philadelphia, PA
  --Charlotte, NC
  --Pittsburgh, PA
  --Cleveland, OH
  --Atlanta, GA
  --Orlando, FL
  --Dallas, TX
  --Las Vegas, NV
  --Minneapolis, MN
  --Cincinnati, OH
  --San Francisco, CA
  --San Diego, CA
  --Phoenix, AZ
  --Tampa, FL
    TSA is committed to both maintaining the number of surface missions 
that are accomplished with existing teams and augmenting missions in 
surface through increased surface operations conducted by the new 
teams. TSA estimates that it will be possible to add approximately 
2,155 additional surface operations.

            PERFORMANCE ACCOUNTABILITY AND STANDARDS SYSTEM

    Question. TSA operates one of the largest performance based pay 
systems in the Federal Government. How does the fiscal year 2010 
request support TSA's efforts to further refine the Performance 
Accountability and Standards System (PASS) in order to empower its 
Transportation Screening Officer (TSO) workforce and improve its 
effectiveness?
    Answer. In accordance with the Aviation and Transportation Security 
Act, all employees in the Transportation Security Officer workforce 
must participate in an Annual Proficiency Review (APR) to ensure that 
they meet all of the qualifications and performance standards required 
to perform their duties. The Performance Accountability and Standards 
System (PASS) is 70 percent objective testing. In fiscal year 2009, as 
part of the APR, PASS Technical Proficiency assessments focus on image 
recognition, proper screening techniques, and the ability to identify, 
detect and locate prohibited items.
    In fiscal year 2010, performance assessments and reviews will focus 
on the same. The performance review process will use a menu-based 
approach allowing airports to choose from a series of real-life 
scenarios designed to accurately reflect checkpoint threats.
    In fiscal year 2010, TSA will also continue to align the PASS 
program with new training initiatives (such as Checkpoint Evolution) to 
ensure its workforce is being assessed on the most current threats and 
that the workforce is utilizing all the necessary tools to efficiently 
and effectively screen passengers and personal property.

                         COLLECTIVE BARGAINING

    Question. What is the status of the Department's review of the 
question of extending collective bargaining rights to TSOs? If 
complete, please provide the findings from the review. Will you take 
steps administratively extend collective bargaining rights to TSOs?
    Answer. The review is ongoing.
    Question. Would extending collective bargaining rights to TSOs 
require additional funding not included in the fiscal year 2010 budget 
request?
    Answer. Any budgetary impacts are contingent upon the outcome of 
the ongoing review.

                     OTTAWA COUNTY, OHIO, FACILITY

    Question. Last year U.S. Customs and Border Protection (CBP) 
announced plans to construct a new CBP facility in Ottawa County, Ohio 
and locate new CBP employees at that facility. What is the status of 
CBP's plans for a facility in Ottawa County, including a timeline for 
when the facility will be completed and how many CBP employees will be 
based at that facility?
    Answer. The Sandusky Bay Station is currently operating out of a 
temporary facility at 160 East Market Street, Sandusky, Ohio. A 
permanent location has not yet been chosen for the new station. 
However, it is tentatively scheduled to be located in the Ottawa County 
area and is tentatively planned to be a joint CBP facility--housing 
Border Patrol, Office of Field Operations (OFO), and CBP Air and Marine 
(AMO) offices. The projected occupancy date is December 2011.
    The Border Patrol station is planned to be a 50-man station. CBP is 
working on determining the size of the OFO and AMO offices.

                     RADIATION DETECTION EQUIPMENT

    Question. The fiscal year 2010 request does not provide funding to 
support acquisition of radiation detection equipment, including the 
Advanced Spectroscopic Portal (ASP) technology. How will the Department 
fund the acquisition of the ASP, pending Secretarial certification, and 
other radiation detection equipment, such as handheld radiation 
detectors? How will the Coast Guard and Customs and Border Protection 
acquire such equipment?
    Answer. DNDO has approximately $120 million in prior year funds to 
procure RPM units. After ASP detectors have been certified for 
deployment, approximately 50 units will be acquired. In addition, prior 
year funds will also be used to procure handheld radiation detection 
equipment for the Coast Guard and TSA's Visible Intermodal Prevention 
and Response (VIPR) teams.

                       RADIATION PORTAL MONITORS

    Question. When and if the ASP monitors are certified as providing a 
significant increase in operational effectiveness, how do you plan to 
weigh cost effectiveness in any decision to acquire and deploy these 
portals?
    Answer. DNDO has prepared, and is in the last stages of reviewing, 
a comprehensive Cost Benefit Analysis and Life Cycle Cost Estimate to 
determine the cost effectiveness of ASP detectors. This analysis, along 
with input from the stakeholders, and concurrence from the DHS 
Acquisition Review Board, will form the basis of any acquisition or 
deployment decisions.

               TRANSFER OF THE FEDERAL PROTECTIVE SERVICE

    Question. Please expand on the rationale in the fiscal year 2010 
request to transfer the Federal Protective Service (FPS) to the 
National Protection Programs Directorate (NPPD) from Immigration and 
Customs Enforcement (ICE). How will the Department ensure a smooth the 
transition? Will NPPD assume responsibility for support functions 
currently provided to FPS by ICE?
    Answer. The appropriate placement of the Federal Protective Service 
(FPS) within DHS has been a topic of periodic review since the creation 
of DHS in March 2003. The final decision to place the FPS within the 
U.S. Immigration and Customs Enforcement (ICE) was based on aligning 
law enforcement organizations to share and leverage specialized 
equipment, training and support required by all DHS law enforcement 
organizations. In addition, ICE's financial system was identified as 
having the capacity and capability to support the unique FPS offsetting 
collections funding structure through which FPS recovers 100 percent of 
the cost for law enforcement and security at approximately 9,000 
Federal facilities across the Nation from the agencies receiving those 
services. Although the ability of ICE to provide law enforcement and 
financial support was critical to the initial transition of the FPS 
from the General Services Administration to DHS, the FPS mission to 
secure and protect Federal offices and employees is outside the scope 
of ICE's primary mission.
    The proposed transfer of the FPS to the National Protection and 
Programs Directorate (NPPD) will align the FPS mission for protecting 
Federal facilities infrastructure with the NPPD mission of critical 
infrastructure protection and the responsibility for establishing 
government-wide physical security policy for the protection of 
government facilities. The missions of NPPD and FPS are complementary 
and mutually supportive, and their alignment resulting from the 
transfer will improve and advance mission effectiveness of both FPS and 
NPPD. Further, the formulation and execution of building security 
policy will be combined within the same DHS component, as NPPD chairs 
the operations of the Interagency Security Committee (ISC), a group 
that includes the physical security leads for all major Federal 
agencies whose key responsibility is the establishment of government-
wide security policy.
    To ensure a smooth transition following Congressional approval of 
the transfer, NPPD, ICE and FPS will form a joint transition team. An 
inventory of the financial and administrative support services that ICE 
currently provides for FPS, along with the annual ICE charges for those 
services, has been completed. The transition team will transfer those 
services that can be more efficiently provided by NPPD from ICE to 
NPPD. In those cases in which it is determined that ICE should continue 
to be the service provider, a Service Level Agreement (SLA) between FPS 
and ICE will be established. For example, ICE currently provides 
financial and accounting services to multiple DHS components, including 
NPPD. The costs for financial and accounting services that FPS receives 
now are reimbursed to ICE in the annual budget execution plan. In 
addition, ICE provides procurement support for FPS. If continuation of 
this contracting support is deemed to be most efficient, this 
arrangement could be continued as well. Based on a preliminary review 
of the budget and financial operations, it is not anticipated that the 
transfer of the FPS to NPPD will affect the continuity of support 
services or cause an increase in the current cost of the services.
                                 ______
                                 

              Questions Submitted by Senator Thad Cochran

                  COAST GUARD NATIONAL SECURITY CUTTER

    Question. The fiscal year 2010 budget proposes $281.48 million for 
production of the fourth Coast Guard National Security Cutter. The 
Coast Guard has consistently indicated that it plans to produce at 
least 8 National Security Cutters. No funding for long-lead materials 
for additional National Security Cutters is included in the request. 
Are plans for 8 National Security Cutters still in place? Does the 
Department not risk a gap in production and additional costs to the 
program if these additional funds are not provided in fiscal year 2010? 
What additional amount is needed for long-lead materials for the fifth 
National Security Cutter? What additional funds are needed for 
production of the fifth National Security Cutter?
    Answer. Completion of the NSC Acquisition Program Baseline (APB) of 
eight hulls to replace the in-service High Endurance Cutter fleet 
continues to be the Coast Guard's highest recapitalization priority.
    The fiscal year 2010 Budget Request is sufficient to backfill the 
current funding gap and enables Coast Guard to award a contract for 
NSC-4 so there will be no gap in production in 2010. The Budget Request 
does not fund procurement of a fifth NSC, recognizing that future 
procurements will more successfully meet planned costs and schedule 
milestones if risks and unknowns are reduced by fully completing a lead 
ship. Coast Guard is focused on completing NSC-1 to obtain a final, 
stable, per-ship cost estimate before proceeding with additional 
procurements. Coast Guard anticipates NSC-1 acceptance in early 2010, 
which would allow procurement of the next cutter (NSC-5) to begin in 
2011.
    Under the current Acquisition Program Baseline, approved in 
December 2008, $587 million has been allocated for procurement of NSC-
5.

             DEPARTMENT OF HOMELAND SECURITY DATA MIGRATION

    Question. I am very pleased that the fiscal year 2010 budget 
request contains approximately $200 million department-wide for data 
center migration efforts. Your department's leadership in data 
consolidation is to be commended. Such efforts are critical to our 
future as data operations are scattered throughout Federal agencies 
with little rhyme or reason and are consuming energy at an alarmingly 
growing rate. Of the $152 million requested for Security Activities by 
the Office of the Chief Information Officer, how much would be used for 
power capabilities upgrades at DHS Data Center 1 (DC1)? How critical do 
you believe data center consolidation is to the Department's ability to 
operate effectively and efficiently? Do you intend to choose a Chief 
Information Officer with a commitment to continuing the Department's 
consolidation efforts?
    Answer. Data Center consolidation is very critical to the 
Department's ability to operate effectively and efficiently. I will 
ensure that the Department's CIO shares my commitment to completing 
this critical project. Of the $152 million requested for Security 
Activities, $38.5 million will be used for power capabilities upgrades 
at DC1. These costs are as follows:
  --Power Upgrade Phase II--Upgrade Electrical Service, Entrance, 
        Additional Switchgear, Expand Zones E and F to 2.8 Megavolt 
        Amperes--$12,600,995
  --Power Upgrade Phase III--Electrical upgrade, 5th UPS/zone, 2 
        Additional Generators--$14,439,150
  --Power Upgrade Phase IV--Tier III Mechanical, 2 Additional Chillers, 
        4 Additional Generators--$11,500,000
    Consolidating services into two Enterprise Data Centers will enable 
DHS to effectively monitor all information technology (IT) systems for 
IT compliance while reducing the risk of vulnerabilities in our 
information systems in a cost-effective and sustainable manner. The 
main benefits of the data center consolidation project are outlined 
below.
Reduced Equipment Procurement Costs
    Moving to a virtualized utility model will allow DHS to run 
Windows, Linux, Solaris and NetWare operating systems and software 
applications on the same piece of hardware at the same time. Running 
multiple workloads on highly virtualized servers will allow DHS to 
increase server utilization from 5-15 percent to as much as 80 percent.
    Industry studies show that virtualization reduces overall costs by 
$2,000-$3,000 per server annually.
Reduced Energy Costs
    Every server virtualized saves 7,000kWh of electricity annually, or 
about $700 in energy costs. DHS has the capacity to virtualize several 
hundred servers if hosted in a DHS Enterprise Data Center.
    Improved server utilization rates from 5-15 percent to 60-80 
percent. Running fewer, highly utilized servers frees up space and 
power.
    Four tons of CO<INF>2</INF> are eliminated for every server 
virtualized, or the equivalent of taking 1.5 cars off the highway.
More Efficient and Denser Use of Data Center Hosting Space Reduces the 
        Need for Physical Expansion
    Reducing the overall computing asset footprint will result in 
reduced system maintenance, management, and administration costs, while 
a merging of existing operations and maintenance contracts will 
increase operational efficiency overall.
Easier and Faster System Management
    DHS will develop a robust, resilient infrastructure by using 
mirrored sites, resource redundancy, data duplication and virtual 
infrastructure hosted in a cloud computing environment between the two 
Enterprise Data Centers. Economies of scale can be achieved by using 
ghost virtual machines (VMs), which participate in application 
clusters; these resources are not activated unless the resource 
management starts up the system (usually within a few seconds with 
negligible overhead).
    Virtualization and Utility computing with allow DHS to unify the 
management of existing different operating systems, including Windows, 
Linux, and Netware systems, by placing them on a single virtual 
hardware platform. This will greatly simplify and streamline the 
existing multiple systems and groups across DHS performing different 
versions of network and system management.
    DHS will be able to eliminate repetitive installation and 
configuration tasks with virtual machine templates. These reusable 
images make it fast and simple to provision new server workloads. When 
coupled with the hardware independence afforded by virtualization, DHS 
can reduce the time it takes to deploy new IT services by as much as 50 
percent-70 percent.
    DHS will also be able to more easily enforce Department standards 
such as anti-virus and management software in any machine connected to 
the network.
    Reduced Wide Area Network (WAN) costs.
    Greater ability to easily share data and information within DHS.
    Server-based computing and self organizing resource utilities 
(server/network/storage farms) are the basis for dependable computing 
in the future. Individual applications can specify their performance 
and availability requirement.
    Software will be hosted off-premise and delivered via web to a 
large number of tenants. This will allow DHS to provide a multitude of 
options and variations using a single code base for each agency to have 
a unique software configuration.
    Access to applications over the Internet using industry-standard 
browsers or web services clients will provide a cost saving benefit of 
no longer relying on COTS/GOTS applications to manipulate data.
Cybersecurity Enhancements
    The two Enterprise Data Centers were designed with security as a 
top priority. Data center enhancements include the stand-up of Trusted 
Internet Connections (TIC) at both locations, and the department is in 
the process of realigning DHS systems into the data centers, thus 
ensuring that both systems and users may only access the Internet from 
behind one or both TICs. Each TIC includes a comprehensive suite of 
security capabilities that include firewalls and proxy services, for 
enforcing the Department's internet usage policies, and monitoring 
tools that are designed to alert on a wide range of threats. Einstein I 
and Einstein II sensors are also deployed at each TIC to ensure 
visibility for sophisticated threats that regularly target the 
Department.

              SOUTHEAST REGION RESEARCH INITIATIVE (SERRI)

    Question. Congress has included significant funding for the 
Southeast Region Research Initiative (SERRI) in the last several 
Department of Homeland Security Appropriations Bills. Officials in the 
previous administration often expressed to me the value of SERRI in 
addressing the unique Homeland Security challenges faced by the 
Southeastern part of our country. Previous leadership at the Department 
committed to including SERRI in future budget requests, but I see that 
the budget request does not include any funding for SERRI. Do you 
believe that the Department is well served to invest in researching the 
unique Homeland Security challenges faced by the Southeastern part of 
our country?
    Answer. Yes. The Southeast Regional Research Initiative (SERRI) is 
conducting needed research on behalf of the Department of Homeland 
Security. The SERRI research projects have been aligned to the Science 
and Technology Directorate's Infrastructure and Geophysical Division's 
Geophysical research efforts. For example, the Community and Regional 
Resilience Institute (CARRI), within SERRI, works to assist communities 
and regions to prepare for, respond to and recover from natural and 
man-made disasters by developing processes and tools to help 
communities become more resilient across the critical asset protection 
continuum.

                      FEMA HOUSING CASE MANAGEMENT

    Question. I want to express my appreciation to FEMA and the 
Department for the assistance it provided to my State last March 
through the Disaster Case Management Pilot Program for temporary 
housing. This program has helped non-profit organizations in South 
Mississippi to reduce the number of families remaining in temporary 
FEMA housing due to Hurricane Katrina from nearly 8,000 in August 2008 
to just 2,000 today. Could you assess the effectiveness of this program 
in Mississippi? In the case of disasters of the magnitude of Hurricane 
Katrina where tens of thousands of families are displaced, will 
temporary housing case management continue to be required to properly 
assist families in returning to permanent housing?
    Answer. FEMA provided a grant to the State of Mississippi to 
provide case management services to households residing in FEMA-
provided temporary housing (temporary housing units and emergency 
lodging assistance) until June 1, 2009. An independent evaluation is 
being conducted on the implementation of the Disaster Case Management 
Pilot Program in Mississippi. The evaluator is currently completing 
interviews and analyzing data from the Mississippi Case Management 
Consortium for Hurricane Katrina. The deadline for completion of the 
evaluation is June 1, 2009, with a final report due to FEMA by June 30, 
2009.
    Based on authority granted to FEMA by the Post Katrina Emergency 
Management Reform Act (PKEMRA), FEMA has partnered with the U.S. 
Department of Health and Human Services' Administration on Children and 
Families (ACF) to develop a Disaster Case Management Pilot Program. The 
evaluator working on the evaluation of the Mississippi Disaster Case 
Management Pilot program is also conducting an evaluation of the ACF 
program that was implemented for Hurricanes Gustav and Ike in 
September, 2008.
    FEMA will work with ACF to incorporate lessons learned and best 
practices from each implemented Disaster Case Management program to 
produce workable solutions for meeting the needs of future disaster 
applicants and cultivating partnerships with other Federal and 
Voluntary Agencies.

                     LARGE SPECTATOR EVENT SECURITY

    Question. I recently visited with the directors of security for 
Major League Baseball, the National Football League, and Indy Racing 
League. All three officials expressed to me the urgent need to improve 
the resources available to ensure safety at large spectator events. The 
ability for tens of thousands of Americans to assemble freely in one 
area to collectively enjoy sports or entertainment is an integral part 
of our culture and heritage. Has the Department put together an 
assessment of the vulnerabilities of such events? In what new, 
innovative ways can we go about meeting some of these challenges? What 
additional authorities or resources could Congress provide to help in 
this effort? I understand if you feel it is necessary for you to 
address these questions in a classified setting.
    Answer. Yes, the Department of Homeland Security's Office of 
Infrastructure Protection (IP) works very closely with and has direct 
Sector Specific Agency (SSA) responsibility for the Commercial 
Facilities Sector, including stadiums and arenas. As a result of 
hundreds of assessments, IP has broadly distributed key reports and 
materials to the private sector dealing with common vulnerabilities, 
potential indicators of terrorist activity, and recommended protective 
measures for large spectator events. IP has conducted vulnerability 
assessments via the following methods:
  --Conducted buffer zone plans for 219 stadiums, arenas, and 
        racetracks, facilitating the award of approximately $11.228 
        million in grant funding to first responders in surrounding 
        jurisdictions. The grant funding is used for protection and 
        prevention equipment for first responders to mitigate the 
        identified vulnerabilities, thereby directly contributing to 
        the hardening of stadiums and arenas.
  --Conducted site assistance visits for 61 stadiums, arenas, and 
        racetracks. Site assistance visits are ``inside the fence'' 
        vulnerability assessments jointly conducted by the Department 
        in coordination and cooperation with Federal, State, local and 
        Critical Infrastructure and Key Resources (CIKR) owners and 
        operators that identify critical components, specific 
        vulnerabilities and security enhancements.
  --Conducted computer-based assessments for 23 stadiums, arenas, and 
        racetracks. These assessments make use of a 360-degree, 
        spherical camera system that captures the facility, routes and 
        specific areas, and provides situational awareness during 
        vulnerability assessments.
  --Conducted 24 enhanced critical infrastructure protection visits to 
        stadiums, arenas, and racetracks, and discussed options for 
        consideration and potential protective measures to address any 
        identified vulnerabilities.
  --Provided support during four Super Bowls, including Super Bowl 
        XLIII in February 2009.
    IP continues to look for and provide innovative initiatives to 
enhance security. IP is working with the Center for Spectator Sports 
Security Management at the University of Southern Mississippi to 
address the myriad of potential and actual threats and risks to the 
ongoing safety and security of fans at sporting events by working to 
expand online and web-based training.
    IP conducts training courses for stadium and arena personnel that 
include the Soft Target Awareness (STA) Course, Surveillance Detection 
(SD) Course, and Protective Measures Course. A total of 1,569 
participants have attended the STA course tailored for stadiums/arenas; 
4,501 State and local law enforcement and CIKR owner/operators and 
security staff have attended the SD course; and nearly 500 CIKR owner/
operators and security staff have completed the Protective Measures 
Course.
    The Commercial Facilities SSA has developed several innovative 
programs in partnership with the Commercial Facilities Sector 
Coordinating Council and the Government Coordinating Council to address 
the vulnerabilities of large spectator events. The programs include a 
risk self-assessment tool (RSAT) for stadiums and arenas--a web-based 
module for stadiums and arenas that was made available in March 2009. 
RSAT enables facility managers to balance resiliency with focused, 
risk-informed prevention, protection, and preparedness activities so 
that they can manage and reduce their most serious risks.
    The Commercial Facilities SSA developed evacuation planning guides 
to ensure the safety of the public, increase the level of preparedness, 
allow personnel to respond to an incident quickly and appropriately, 
and assist stadium owners/operators with preparing an evacuation plan 
to determine when and how to evacuate, shelter in place, or relocate 
stadium spectators and participants. The NASCAR evacuation guide was 
modified into an evacuation planning guide for stadiums by a working 
group comprising various Federal agencies, members of the Commercial 
Facilities Sector Coordinating Council, other interested private-sector 
security partners, and academia.
    IP also has new initiatives that will have a positive impact on 
addressing the vulnerabilities of large spectator events including 
developing ``best practices'' and standard guidance for conducting bag 
searches and credentialing during a large spectator event. In addition, 
IP has developed guides and materials for general protective measures 
and, specifically, for responding to ``Active Shooter'' situations.
  --Protective measures guides provide an overview of best practices 
        and protective measures designed to assist owners/operators in 
        planning and managing security at their facilities or events. 
        The measures identified in the guides reflect the special 
        considerations and challenges posed by specific facility or 
        event types.
  --Active Shooter materials are designed to be used as training 
        guidance to address how employees, managers, training staff, 
        and human resources can mitigate the risk of and appropriately 
        react in the event of an active shooter. The final products 
        include a desk reference guide, a reference poster, and a 
        pocket-size reference card that provides guidance to managers, 
        employees, and human resources departments. The following 
        materials were distributed to private-sector partners 
        electronically through various outreach channels: 10,000 desk 
        reference guide books, 10,000 reference posters, 250,000 
        pocket-sized reference cards, and copies of the publications.
    Facilities that host large spectator events include a wide range of 
asset types; as a result, facilitating effective protection and 
preparedness at a facility can pose a challenge. The following 
describes some of the challenges in implementing CIKR protection 
programs, activities and tools:
    With a few exceptions, owners and operators bear most of the costs 
of protecting their assets (e.g., equipment and personnel). Budget 
requirements pose a challenge, particularly for smaller facilities that 
have thinner operating margins than major corporations. The Commercial 
Facilities SSA encourages a strategy that promotes security upgrades as 
an investment against a multitude of threats. The Commercial Facilities 
Sector is a very broad sector and covers disparate venues from Super 
Bowls to museums. Although some similarities exist between the various 
events, there is still a wide variance among protection-related 
activities.

                    ASSISTANCE TO RURAL FIREFIGHTERS

    Question. The strict training and certification requirements placed 
on fire departments who wish to apply for Assistance to Firefighters 
Grants leaves volunteer fire departments with little ability to compete 
for these funds. These primarily rural departments service far more 
land area and are often in more need of resources than their urban 
counterparts. In my State of Mississippi, professional fire departments 
even advocate for resources for volunteer departments in outlying areas 
because cooperation these departments is so critical to their mission. 
Do you believe that the current distribution of Assistance to 
Firefighters Grants resources is equitable? Should volunteer fire 
departments be denied access to these grants because they do not have 
the resources or flexibility to send their firefighters to training 
sessions that are often located far away from home and take place over 
the course of several months?
    Answer. FEMA and DHS understand and appreciate the role that 
volunteer fire departments play in the Nation's first response. We also 
recognize the importance of training since consequences can be 
catastrophic if an individual or organization is not properly trained.
    One of the funding criteria of AFG is that no applicant can request 
equipment that the applicant is not trained to use unless the applicant 
is also seeking the necessary training. We believe it would, for 
example, be dangerous to provide hazardous materials handling equipment 
to first responders that are not trained in the use of that equipment. 
This criterion is also true for firefighting vehicles as well as 
breathing apparatus--firefighters should be trained in the use of 
equipment before they use it.
    Accordingly, AFG provides financial assistance for training, 
instructors, training materials, and the cost of any transportation to/
from training. AFG will also cover lost wages for a volunteer who has 
to take time off from his/her regular job in order to attend training.
    Since 2002, volunteer fire departments have been awarded 29,312 
AFGs totaling $2.2 billion. This is 66 percent of the 44,342 grants 
awarded and 53 percent of the $4.2 billion grant funds awarded. To put 
this in perspective, according to NFPA's U.S. Fire Department Profile, 
volunteer fire departments protect approximately 22 percent of the 
population.

              COAST GUARD UNMANNED AIRCRAFT SYSTEMS (UAS)

    Question. No funding is included in the fiscal year 2010 Coast 
Guard request for the Unmanned Aircraft Systems (UAS). Why? Will this 
impact the planned testing schedules?
    Answer. Cutter based UAS testing: Utilizing fiscal year 2008 and 
fiscal year 2009 funding, the Coast Guard will continue progress and 
reduce the risk associated with projected NSC-based UAS field tests. 
The Coast Guard is pursuing 3-pronged testing that includes: (1) shore-
launched UAS field tests over water, (2) participation in the Navy's 
underway developmental and operational testing of the Fire Scout on 
board the USS McInerney, and (3) field validation of the NSC's air-
search radar to determine the cutter's ability to manage its own air 
space for UAS operations. These concurrent field tests are the key 
remaining portions of the congressionally directed research funded in 
the fiscal year 2008 Research, Development, Test, and Evaluation 
(RDT&E) Appropriation to identify the most effective UAS to operate 
from the NSC. These efforts will be completed with available funds with 
completion and final reporting expected in late March 2010 on schedule.
    Consistent with the UAS Acquisition Decision Memo approved by DHS, 
upon completion of the 3-proged test, the next step is to conduct NSC-
based vertical launch dynamic interface UAS trials, anticipated to 
start in 2011.
    Land-based UAS Testing: Customs and Border Protection is the DHS 
lead for land-based UAS testing and USCG is working closely with CBP to 
incorporate their experience into planning for any additional field 
testing of land-based UAS that may be needed for use in the maritime 
environment.
                                 ______
                                 

              Questions Submitted by Senator Sam Brownback

             NATIONAL BIO AND AGRO-DEFENSE FACILITY (NBAF)

    Question. It's come to my attention that the most recently released 
CBO Baseline scored the sale of Plum Island in fiscal year 2015. As you 
know, if this doesn't change, it would cause a very large problem for 
both you and this committee because we wouldn't have the offsetting 
collections in fiscal year 2011 to offset the large amount of funding 
that we'll need for construction. So, to clarify for this committee and 
for CBO, do you indeed intend to sell Plum Island in calendar year 2010 
and use the proceeds from this sale as an offsetting collection for 
funding the construction of NBAF in fiscal year 2011?
    Answer. Using the authority granted by Congress in the fiscal year 
2009 DHS Appropriations Act (Public Law 110-329), the Department is 
working with the General Services Administration (GSA) to sell Plum 
Island. GSA expects to put the island on the market in fiscal year 2010 
with a final sale and closing date in fiscal year 2011. The sale 
proceeds will be an offsetting collection to the appropriation for 
National Bio and Agro-defense Facility (NBAF) construction and all 
other associated costs including Plum Island environmental remediation. 
The Science and Technology (S&T) Directorate plans to request the 
appropriation from Congress in fiscal year 2011, which is the fiscal 
year in which S&T plans to sell Plum Island as well as begin 
construction of the actual building that will house the NBAF.
    Question. Also, I notice that in the budget tables for future year 
expenditures for NBAF construction, you lump fiscal year 2011-2014 in 
the same column. Just to clarify, do you intend to budget the entire 
$584 million in fiscal year 2011?
    Answer. Yes, the Science and Technology Directorate will budget the 
full cost for constructing National Bio and Agro-defense Facility and 
all other associated costs including Plum Island environmental 
remediation to coincide with the offsetting collection in fiscal year 
2011.
    Question. I've been informed that CBO will resubmit their adjusted 
baseline to Congress on May 29, which is coming up quickly. Will you 
commit to informing CBO as soon as practical of your intentions to 
budget these funds in fiscal year 2011 so that they can adjust their 
baseline when they resubmit it to Congress later this month?
    Answer. In the fiscal year 2010 President's Budget Request, the 
Science and Technology (S&T) Directorate included its intention to work 
with the General Services Administration to sell Plum Island in fiscal 
year 2011 following a model GSA successfully used to sell another piece 
of property, Middle River. The S&T Directorate is working closely with 
the Office of Management and Budget and the Congressional Budget Office 
(CBO) to ensure that the sale of Plum Island is scored in the 
appropriate year.
    Question. According to the Congressional Justification the design 
work for the NBAF is to be completed by the 4th quarter of fiscal year 
2010 and the construction work is scheduled to begin, with $36.3 
million is included in the President Budget request. If the receipts 
from the sale of Plum Island are not available as offsetting 
collections to fund the costs of construction of the NBAF, how will you 
keep this project on schedule?
    Answer. To keep National Bio and Agro-defense Facility on schedule, 
$500 million would need to be appropriated for construction in fiscal 
year 2011, and an additional $200 million would need to be appropriated 
for Plum Island cleanup in fiscal year 2012-2015.
    Question. As the H1N1 outbreak has shown, animal disease and 
zoonotic disease research is an urgent national and international, 
issue. Simply put, in the interest of protecting our agriculture 
economy and public health, America needs to accelerate the NBAF's 
research mission. When can we expect DHS and USDA will initiate NBAF-
related research in Kansas?
    Answer. The current plan is for National Bio and Agro-defense 
Facility (NBAF) to begin some operations in 2015 and to be fully 
staffed and operational by 2017. Operations will continue at Plum 
Island until all activities are transitioned to NBAF.
    Question. As you may know, the Government Owned- Contractor 
Operated, or Go-Co model is currently being used to manage 19 Federal 
laboratories. In fact, DHS's main research operations, as well as DOE 
and other Federal labs operate in a GOCO environment. Will your 
Department work with the USDA to discuss the advantages and potential 
efficiencies gained by utilizing the GOCO model for the NBAF?
    Answer. The Science and Technology (S&T) Directorate will work with 
U.S. Department of Agriculture to determine the most appropriate and 
efficient arrangement for the operation of and research at the National 
Bio and Agro-defense Facility (NBAF). To make a final decision, the S&T 
Directorate will perform an Analysis of Alternatives (AOA) to determine 
the optimal operating model for NBAF. The S&T Directorate expects to 
complete the AoA by the end of fiscal year 2010.
    The S&T Directorate has experience in managing both government and 
contractor operated laboratories as it currently operates the National 
Biodefense Analysis and Countermeasures Center as a GOCO FFRDC and the 
Transportation Security Laboratory as a government owned, government 
operated lab.
    Question. Would you mind reviewing DHS' construction timeline for 
the National Bio and Agro-defense Facility, specifically addressing the 
current status of the selection of the contract manager, the proposed 
timeline to initiate pre-construction and actual construction and 
facility completion?
    Answer. Bids for National Bio and Agro-defense Facility (NBAF) 
construction were due to DHS on May 14, 2009. The construction manager 
will be selected in September 2009. The construction manager will 
provide pre-construction services and will provide fixed prices for two 
phases of construction. The schedule for these activities is displayed 
in the following table:

------------------------------------------------------------------------
          Construction Milestone                        Date
------------------------------------------------------------------------
Award Option 1 for site preparation work..  July 2010 (fiscal year 2010)
Award Option 2 for facility construction..  November 2010 (fiscal year
                                             2011)
Complete Construction.....................  December 2014
------------------------------------------------------------------------

               FLOODPLAIN REMAPPING, GARDEN CITY, KANSAS

    Question. FEMA has been instructed to complete floodplain remapping 
nationwide. Of particular concern to me is the lack of common sense 
applied to the remapping process. The city of Garden City in Kansas has 
planned their growth responsibly, avoiding development in those areas 
which have been historically located within the Special Flood Hazard 
Area. The remapping places two drainage ditches and their surrounding 
areas within the redefined 100-year floodplain, even though this area 
was not included in the last 4 Flood Insurance Rate Maps (FIRMS) that 
date all the way back to 1971. I was informed by FEMA that had the city 
not been responsible and built the two drainage ditches, then the area 
would not have been included in the new floodplain. I am concerned that 
this is not a common sense approach to the floodmapping process. 
Included is a letter from Garden City outlining their specific 
circumstances. Can I count on you to revisit this issue and reconsider 
the inclusion of these ditches in the new floodplain map?

                                       City of Garden City,
                                 Garden City, Kansas, May 13, 2008.
Senator Sam Brownback,
303 Hart Senate,
Washington, D.C. 20510.

    Senator Brownback: The City of Garden City and Finney County have 
always planned our growth responsibly, avoiding development in those 
areas which have been historically located within the Special Flood 
Hazard Area. However our community is confused by the sudden inclusion 
of two stormwater drainage districts in the most recent FEMA updates 
especially considering that:
  --The original study performed in 1971 did not include the drainage 
        districts;
  --The 1978 FIRM did not include these ditches;
  --The 1980 FIRM did not include the ditches;
  --The 1997 revised FIRM and Flood Insurance Study did not include the 
        ditches.
    FEMA, the Kansas Department of Agriculture (the State agency to 
which FEMA outsourced the map modernization responsibility), and AMEC 
(the private consultant hired by the Department of Agriculture) have 
not provided a reasonable explanation as to why these omissions were 
present on the previous FIRMs submitted since 1978.
    Despite the ``rule'' of including man-made waterways on the books 
for decades, the Federal Government never applied that to the two 
ditches. That made perfectly good sense because the ditches were put 
there to alleviate flash flooding of rain water in an extremely flat 
area. As a result, and because the improvement of the ditches solved 
the rain water issue for the community, the community planned its 
growth toward the north and the east. We have grown and prospered 
consistent with that plan for over 50 years. The DD1 now runs through 
the core of our residential community and our next area for growth is 
in and around DD2. When we first met with FEMA to review the floodplain 
over a year ago, our expectation was that they were updating the map as 
it relates to the Arkansas River. This expectation was based on our 
past experience working with FEMA in 1971, 1978, 1980 and 1997. We 
participated and were attentive to our responsibilities. It was beyond 
anyone's expectation that the preliminary maps we would receive later 
that year would suddenly create two new, overly expansive flood zones.
    Our community has planned, built, maintained and (when necessary) 
improved these ditches to handle the localized rain events that affect 
them. This has nothing in common with an event that would flood the 
Arkansas River, which would only come from extreme events further up 
river.
    The negative economic consequences resulting from the way FEMA and 
the State Department of Agriculture carried out their map modernization 
task are tremendous; potentially draining a million dollars per year 
from the local economy and significantly dropping the market and 
taxable value of a huge portion of our residential property.
    Locally we are perplexed by the notion that the State Division of 
Water Resources and FEMA recognize that this is not an exact science. 
It is an approximation based on aerial photography instead of surveys 
and hydrologic studies. They recognize that those are the more 
appropriate tool to be used, but have neither the time nor the 
resources to be that accurate because of the daunting task of remapping 
the entire country. We provided them aerial photography accurate to the 
2 ft. level. 2 ft. change in elevation in Garden City takes in a 
substantial amount of ground. For most people it is the difference in 
their property being in or out of the supposed floodplain. It is 
shameful that the burden of proof (which includes a considerable 
immediate and long-term financial burden) is placed on them to correct 
the ``approximation'' used by the Federal Government for the sake of 
expedience. You can probably understand why people are angry at FEMA 
and feel over ran.
    FEMA has a process and it appears they are following the minimum 
requirements of it. We feel there is a reasonable expectation on this 
community's part that the Federal Government ought to recognize that 
something that was permitted for 50 years after numerous Federal 
reviews and examinations influenced this community to plan and grow in 
a certain manner. To suddenly change course from a computer screen in 
Topeka or Washington D.C. and not even attempt to give special 
consideration to the devastating impact it would have locally has 
discouraged many folks. I suspect that you have begun to hear from them 
about their dissatisfaction in their government and you will 
undoubtedly get more when they begin paying thousands of dollars in 
unnecessary premiums.
    As for FEMA touting that they took into consideration our local 
aerial photography and redid the maps . . .they did. They did so 
because we had sent them to the Division of Water Resources prior that 
year. When the staff person denied ever receiving them in a public 
meeting, we provided a copy of e-mail correspondence where we had 
followed up with him on the subject and asked for his feedback. We 
never heard from him. I think they redid the maps because they knew 
they had dropped the ball on their end. Nonetheless, we are still left 
with two barriers to local growth and future development which 
shouldn't be there and our counter to five decades of successful 
planned growth in Garden City.
    We are requesting that FEMA re-consider the inclusion of Drainage 
Districts 1 and 2 ditches on the most recently submitted FIRM on behalf 
of the Citizens of Garden City and Finney County. Your assistance and 
support would be greatly appreciated.
            Respectfully yours,
                                                Matt Allen,
                                                      City Manager.

    Answer. In the 1950's, Garden City, Kansas did do the responsible 
thing of trying to control flood conditions by constructing two 
drainage ditches within their community to alleviate the resulting 
flood conditions that were occurring during the more frequent flood 
events. As the City has been doing, it is important for them to 
continue to utilize all available information to communicate the 
existing flood risks to their citizens and to exercise good floodplain 
management practices to minimize those risks.
    FEMA is charged with identifying the Nation's flood prone areas. 
This information is crucial for communities and citizens to protect 
themselves from the disastrous effects of flooding. In order to best 
update the flood hazards for the communities like Garden City in Finney 
County, FEMA established a partnership with the Kansas Department of 
Agriculture's Division of Water Resources. FEMA recognizes that these 
partnerships between Federal, State and locals bring the necessary 
resources and local knowledge together to more accurately identify the 
existing flood risks. In March 2007, along with the appropriate State 
representatives, FEMA began meeting with Garden City officials to 
discuss our concern that a flood risk may exist within their community 
that had previously not been mapped on our Flood Insurance Rate Maps 
(FIRMs). While the two ditches built in the 50's may be mitigating some 
of the effects of those flood hazards, the initial analysis performed 
by the State indicates that there is still residual risk that should be 
properly communicated.
    As always, FEMA is committed to working with our State and local 
partners to ensure that the most accurate information is presented on 
the FIRMs. FEMA welcomes continued dialog with the officials of Garden 
City to discuss how we as a unified government team can properly 
identify, communicate and mitigate flood risks with the common desire 
to protect the citizens of Garden City.

          ESTIMATING FLOOD ELEVATIONS WITH AERIAL PHOTOGRAPHY

    Question. FEMA currently uses aerial photography to estimate flood 
elevations as they modernize county floodplain maps throughout the 
country. This aerial photography is only accurate within 10 ft. of 
elevation, dramatically less accurate than the survey quality 
information previously used to establish these floodplains. Yet in your 
testimony you stated that FEMA uses the best science available when 
updating their floodplain maps. How does using aerial photography with 
this limitation on elevation accuracy allow FEMA to use the best 
science available?
    Answer. For over 30 years, including during Flood Map 
Modernization, FEMA has used more precise mapping methods in higher 
risk areas and other methods in lower risk areas. The National 
Academies of Science has recently completed two assessments of FEMA's 
mapping methods. The reports confirmed that adjusting the precision of 
the mapping approach relative to the risk produced the maximum cost 
benefit for flood hazard mapping and substantially validated FEMA's 
technical approach to flood hazard mapping.

                         CONCLUSION OF HEARING

    Senator Byrd. Very well. I thank all the Senators, and the 
subcommittee is recessed.
    Secretary Napolitano. Thank you, sir.
    [Whereupon, at 3:40 p.m., Wednesday, May 13, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Homeland Security for inclusion in the record. 
The submitted materials relate to the fiscal year 2010 budget 
request for programs within the subcommittee's jurisdiction.]

   Prepared Statement of the International Association of Emergency 
                                Managers

    Chairman Byrd, Ranking Member Voinovich, and distinguished members 
of the subcommittee, thank you for allowing me the opportunity to 
provide a statement on critical budget and policy issues for the 
Federal Emergency Management Agency/Department of Homeland Security.
    I am Russ Decker, the Director of Emergency Management and Homeland 
Security for Allen County, Ohio. Allen County is a mid-size rural 
county in northwest Ohio with a population of just over 100,000. I 
serve as the President of the United States Council of the 
International Association of Emergency Managers (IAEM-USA). I have 19 
years of emergency management experience, with the last ten as a local 
director. I have also served as President of the Emergency Management 
Association of Ohio.
    IAEM-USA is our Nation's largest association of Emergency 
Management professionals, with more than 4,000 members including 
emergency managers at the State and local government levels, tribal 
Nations, the military, colleges and universities, private business and 
the nonprofit sector. Most of our members are city and county emergency 
managers who perform the crucial function of coordinating and 
integrating the efforts at the local level to prepare for, mitigate the 
effects of, respond to, and recover from all types of disasters 
including terrorist attacks. Our membership includes emergency managers 
from large urban areas as well as rural areas.
    We deeply appreciate the support this subcommittee has provided to 
the emergency management community over the past few years, 
particularly your support for the Emergency Management Performance 
Grant Program as well as strengthening FEMA. We have also appreciated 
your continued direction to DHS and FEMA to consult with their primary 
local and State stakeholders.
Emergency Management Performance Grants (EMPG)
    The President's fiscal year 2010 includes $315 million for EMPG. We 
urge that EMPG funding be increased to a minimum of $487 million, that 
the program be retained as a separate account, and that Congress 
continue to include language making it clear that the funding is for 
all hazards and can be used for personnel. We are certainly pleased 
that thirty-nine Senators signed a letter to the committee recommending 
that EMPG be funded at $487 million. We are concerned about the 
language in the budget justification which indicates ``the award 
allocation method will incorporate risk methodology''. Since EMPG 
represents the Federal investment in a viable national emergency 
management system, we have serious concerns about any altering of the 
long standing allocation formula.
    EMPG which has been called ``the backbone of the Nation's emergency 
management system'' in an Appropriations Conference Report constitutes 
the only source of direct Federal funding for State and local 
governments to provide basic emergency coordination and planning 
capabilities for all hazards including those related to homeland 
security. The program supports State and local initiatives for 
planning, training, exercise, mitigation, public education, as well as 
response and recovery coordination during actual events. All disasters 
start and end at the local level, which emphasizes the importance of 
building this capacity at the local level. Funding from EMPG frequently 
makes a difference as to whether or not a qualified person is present 
to perform these duties in a local jurisdiction.
    We appreciate that the Subcommittee has recognized that EMPG is 
different from all the other post September 11, 2001 homeland security 
grants. Specifically, EMPG has existed since the 1950s. It was created 
to be a 50-50 cost share program to ensure participation by State and 
local governments to build strong emergency management programs. The 
program has been under funded for decades and remains so today.
    The program is authorized at $680 million in Public Law 110-53. The 
legislation creating EMPG is purposefully broad to allow jurisdictions 
to focus their attention on customizing capabilities for each local 
jurisdiction. Therefore, FEMA's guidance should not try to make one 
size fit all, but should be written so as to allow maximum flexibility 
in meeting the specific capability requirements within each local 
jurisdiction.
    Funding from EMPG has always been important to local government 
emergency management offices, but it is becoming even more so during 
the current economic downturn. Many of our IAEM-USA members have told 
us that their programs are facing budget reductions which will result 
in reduced staffing, reduced or eliminated training, and reduced public 
outreach. Perhaps most importantly, our members have told us that many 
emergency management programs are at the point where local elected 
officials are considering reducing their commitment from a full time 
emergency manager to a part time emergency manager, or moving the 
emergency management functions as added duties to other departments. 
This will have the effect of actually reducing emergency management 
services in many areas of the country--all this at a time when 
disasters and emergencies threaten more people and property than ever 
before.
    Many local emergency management programs have historically provided 
significantly more than the 50 percent match that is required for their 
EMPG allocations. Simply receiving all of the 50 percent Federal match 
of their contributions would make a big difference in maintaining their 
programs.
Emergency Management Institute (EMI)
    We urge the subcommittee to provide needed additional funding to 
update the key emergency management courses of the EMI curriculum and 
develop new ones, to provide additional personnel required to handle 
the workload associated with updating and developing new courses, to 
support technology upgrades, and to support the Emergency Management 
Higher Education Program. We would also suggest that funding be 
provided to review and modernize the Integrated Emergency Management 
Course (IEMC) which trains the leadership of communities to respond. We 
would respectfully suggest that the Subcommittee request that FEMA 
provide information on the funding necessary to accomplish these tasks.
    We appreciated the additional $1.253 million in EMI funding 
provided by Congress in fiscal year 2009 and the direction that 
detailed budget information on EMI be included in the Congressional 
budget justification for fiscal year 2009.
    The Emergency Management Institute (EMI) provides vitally needed 
training to State and local government emergency managers through on-
site classes and distance learning. This ``crown jewel'' of emergency 
management training and doctrine has suffered from lack of funding and 
loss of focus on the primary objectives of the Integrated Emergency 
Management System (IEMS).
    A renewed focus on continuing education for professional emergency 
managers is vital. EMI core curriculum, including the Master Trainer 
Program, E-Courses and G-Courses are essential to the professional 
development of career emergency managers and to support State level 
training programs.
    We also continue to support the highly successful Emergency 
Management Higher Education Program at EMI. This program, though 
underfunded, has produced significant improvements in the preparation 
of emergency managers at the over 160 colleges and universities now 
offering emergency management academic programs. In addition they 
interact with over 400 colleges and universities. The program has also 
established and maintained the essential collaboration between 
emergency management practitioners and the academic and research 
disciplines so essential to a comprehensive approach to emergency 
management. To continue to achieve these results and accomplishments 
and further advance the Higher Education Program, it is necessary to 
augment the existing two person staff.
PreDisaster Mitigation (PDM)
    We support the request for $150,000,000 for the PreDisaster 
Mitigation program and support reauthorization of the program. The 
Budget request proposes to terminate the nation-wide competitive 
program and allocate the funds to States on a base plus risk system. 
These changes were not discussed with the authorizers, the 
appropriators, or stakeholders in advance of the release of the budget. 
It is our understanding that the risk methodology has not yet been 
developed. We will be reviewing the proposal and seeking comments from 
our members and do not have a position on the proposal at this time.
Principal Federal Official (PFO)
    We urge the Subcommittee to again include the bill language which 
was included in Section 526 of the fiscal year 2009 Appropriations 
prohibiting the funding of any position designated as a Principal 
Federal Official (PFO) for Stafford Disaster Relief Act declared 
disasters or emergencies. The fiscal year 2010 budget request deletes 
the limitation and includes the explanation as follows: ``This 
provision restricts the Secretary's ability to manage disaster 
response.''
    IAEM has consistently opposed the appointment of PFOs. It leads to 
confusion. Instead, our members want the Federal Coordinating Officer 
(FCO) to have unambiguous authority to direct and manage the Federal 
response in the field. It is absolutely critical for State and local 
officials to have one person empowered to make decisions and coordinate 
the Federal response in support of the State.
New FEMA Leadership
    IAEM-USA applauds the President's selection of Craig Fugate as the 
Administrator of FEMA and Tim Manning as Deputy Administrator for 
National Preparedness. Both of these individuals represent actual 
emergency management practitioners from the local and State government 
arena. They bring a wealth of professional credentials, experience, and 
a seasoned understanding of the importance of the partnerships required 
between local, State and the Federal Government for effective emergency 
management. We look forward to working with Craig and Tim and other 
members of the new leadership team at FEMA and anticipate an expanded 
level of dialogue between FEMA leadership and the stakeholders at the 
local and tribal levels.
Review of Programs
    The arrival of these new, experienced and professional emergency 
managers to positions of leadership within FEMA offers an ideal 
opportunity for FEMA to do a comprehensive and critical reexamination 
of several functions and programs established and partially implemented 
toward the end of the last Administration. Some of the programs appear 
to be increasing the burden of ``unfunded mandates'' on State and local 
agencies without providing value or meeting the needs of FEMA's 
customers. Over the last two years, IAEM has been asked to review and 
comment on a number of such initiatives. While we took a positive 
attitude and tried to suggest ways to make them more effective and 
``reality-based'', the underlying concepts driving some of these 
initiatives appeared to us to be fundamentally flawed. Two of the 
initiatives that require immediate review are the GAP analysis and the 
Integrated Planning System (IPS). For example, IPS should be reviewed 
to determine if it fully meets the needs of local, State and Federal 
disaster planners. The current version, based heavily on the DOD Joint 
Operations Planning and Execution (JOPES) model may be a great model--
if you are the military and funded and equipped with the resources of 
the military. State and local governments do not have that luxury. We 
urge Congress to work with the new leadership of FEMA and to support a 
much needed ``reality check,'' in the form of a comprehensive program 
review, to ensure that FEMA is making the most of its resources.
Implementing Legislation to Strengthen FEMA
    IAEM-USA strongly supports the full implementation of Post-Katrina 
Emergency Management Reform Act (PKEMRA), Public Law 109-205, and we 
urge the subcommittee to support the efforts of Craig Fugate, Tim 
Manning, and the other new leaders of FEMA by insisting on its 
implementation. There must be a return to established emergency 
management doctrine within FEMA--all hazards, integrated, all phases 
(preparedness, mitigation, response, and recovery).
    The FEMA Administrator should have the maximum amount of access to 
the White House and the FEMA Administrator should be clearly 
responsible for the coordination of the Federal response to disasters 
as the legislation clearly requires. Homeland Security Presidential 
Directive-5 and Homeland Security Presidential Directive-8 should be 
revised to conform to the requirements of PKEMRA.
    All elements of preparedness must be returned to FEMA to comply 
with PKEMRA. Functions that are duplicative or possibly competing with 
those of FEMA should not be established and funded in other DHS 
offices. For example, the Office of Operations Coordination was created 
shortly after the enactment of PKEMRA and it was assigned several 
responsibilities that PKEMRA assigned to FEMA notwithstanding PKEMRA's 
prohibition on transferring functions, responsibilities, etc. outside 
of FEMA. These include, but are not limited to coordinating activities 
related to incident management, the national planning scenarios, the 
Integrated Planning System, and duplicating the role of the Office of 
Disaster Operations in FEMA. It is unclear what the roles are of the 
National Operations Center and the National Response Coordination 
Center in managing the coordination of the Federal Response in 
preparation for responding to an event.
    An example of the problems caused by duplication of FEMA services 
within DHS is the discussion regarding the perceived differences 
between Incident Management and Emergency Management. Emergency 
Management is the broader, overarching and systematic approach to the 
issue of dealing with the consequences of all disasters and 
emergencies, whether natural, technological, or homeland security. 
Incident management, while important, is a much more narrowly focused 
sub-element of response, one of the four phases of emergency management 
(mitigation, preparedness, response and recovery). Functions clearly 
and unambiguously assigned to FEMA by law should not be moved out or 
duplicated on the basis that the administrator of FEMA is the lead 
``only'' in Emergency Management, not incident management.
    Congress made it clear when the Post Katrina Reform Act was passed 
that they want a strong FEMA with an administrator with clear authority 
for managing all aspects of disasters and emergencies. Some specific 
examples from the Act which we believe are not being followed include:
    Section 611(12)(B) is of particular importance. This amended the 
Homeland Security Act of 2002 by ``striking the matter preceding 
paragraph (1)'' which contained the language, ``the Secretary acting 
through . . . and inserted instead the following language. ``In 
General.--The Administrator shall provide Federal Leadership necessary 
to prepare for, protect against, respond to, recover from or mitigate 
against a natural disaster, act of terrorism and other man-made 
disaster including . . . managing such response.'' Congress acted 
intentionally to transfer these responsibilities from the Secretary to 
the administrator.
    Section 503 Federal Emergency Management Agency
    (b)(2) Specific Activities.--In support of the primary mission of 
the Agency, the Administrator--
            (A) Lead the Nation's efforts to prepare for, protect 
        against, respond to, recover from, and mitigate against the 
        risk of natural disasters, acts of terrorism, and other man-
        made disasters, including catastrophic accidents.
            (H) develop and coordinate the implementation of a risk-
        based, all hazards strategy for preparedness that builds on 
        those common capabilities necessary to respond to natural 
        disasters, acts of terrorism, and other man-made disasters 
        while also building the unique capabilities necessary to 
        respond to specific types of incidents that pose the greatest 
        risk to our Nation.
    Section 503 (c)(4)(A) In General.--The Administrator is the 
principal advisor to the President, the Homeland Security Council, and 
the Secretary for all matters relating to emergency management in the 
United States.
    Sec. 503(c)(5) Cabinet Status--
            (A)  In General.--The President may designate the 
        Administrator to serve as a member of the Cabinet in the event 
        of natural disasters, acts of terrorism, or other man-made 
        disasters.
            (B) Retention of Authority--Nothing in the paragraph shall 
        be construed as affecting the authority of the Secretary under 
        this act.
    We believe that DHS frequently and mistakenly quotes Section 
502(c)(5)(B) regarding the authority of the Secretary and the 
Administrator as being applicable across the entire act when, in fact, 
it is limited in scope only to paragraph (5).
    We strongly request the committee to provide continual oversight of 
DHS on these matters to ensure they are following the clear and direct 
law on these issues.
    Congress rejected the DHS Stage 2 Reorganization and clearly and 
unambiguously moved all Preparedness functions and personnel to FEMA. 
IAEM-USA believes that Section 506(c)(1) and (2) of the Homeland 
Security Act as amended by the Post Katrina Reform Act clearly 
prohibits the transfer of any asset, function or mission from FEMA 
without a specific act of Congress. A major function of FEMA is to 
rebuild relationships with State and local officials. Therefore, the 
Intergovernmental Affairs function assumes a much higher level of 
importance. Despite the clear prohibition on moving this function from 
FEMA, we understand there are still 11 positions performing this vital 
role still under the National Protection and Programs Directorate 
(outside of FEMA) on a non-reimbursable detail. The fiscal year 2010 
Budget Request proposes to move the DHS intergovernmental function to 
the Office of Stakeholder Affairs in the Office of the Secretary and 
transfer 17 positions and $2,000,000 from FEMA to fund it. We remain 
concerned about the seriously understaffed and under funded 
Intergovernmental Affairs Office in FEMA and suggest that rather than 
transfer the funding and positions from FEMA that additional funding 
and positions be sought by DHS.
Conclusion
    In conclusion, we urge the Subcommittee to continue to build 
emergency management capacity by increasing EMPG to $487 million. We 
urge increased funding for the Emergency Management Institute. Congress 
passed the PKEMRA to give FEMA the clear authority and tools to do its 
job and put a fence around it to give protection for its mission and 
resources. We urge the Subcommittee to insist on the appropriate 
implementation of the act.
                                 ______
                                 

  Prepared Statement of the National Emergency Management Association

                              INTRODUCTION

    Thank you Chairman Byrd, Ranking Member Voinovich, and 
distinguished members of the Committee for allowing me the opportunity 
to provide you with a statement for the record on the Department of 
Homeland Security's (DHS) fiscal year 2010 budget. I am Nancy Dragani, 
President of the National Emergency Management Association and 
Executive Director of the Ohio State Emergency Management Agency. In my 
statement, I am representing the National Emergency Management 
Association (NEMA), whose members are the State emergency management 
directors in the States, the U.S. territories, and the District of 
Columbia. NEMA's members are responsible to their Governors for 
emergency preparedness, homeland security, mitigation, response, and 
recovery activities for natural, man-made, and terrorist caused 
disasters.
    In 2008, FEMA declared 75 major disasters; 17 emergency 
declarations; and 51 fire management assistance declarations. Overall, 
40 States and two territories were impacted. The multi-hazards 
emergency management system continues to be the means to practice and 
exercise for devastating acts of terrorism, while at the same time 
preparing the Nation for hurricanes, tornadoes, earthquakes, hazardous 
materials spills, and floods. We respectfully ask for your Committee to 
consider the role of emergency management as you address the fiscal 
year 2010 appropriations and ask for your serious consideration of 
additional Federal support for the only all-hazards program to build 
State and local emergency management capacity. Emergency Management 
Performance Grant (EMPG) is the only State and local matching grant 
program supporting preparedness efforts.
    The Department of Homeland Security budget provides critical 
support to State and local emergency management programs. NEMA would 
like to address four critical issues regarding the proposed Federal 
budget for the Department of Homeland Security:
  --Addressing the needs for the Emergency Management Performance Grant 
        (EMPG) level and maintaining flexibility in State's use of the 
        program;
  --Federal support for the Emergency Management Assistance Compact 
        (EMAC);
  --Significant deficits for improving State and local Emergency 
        Operations Centers (EOCs); and
  --Additional investment is needed for the Nation's mitigation 
        programs including the Predisaster Mitigation Grant Program.

              EMERGENCY MANAGEMENT INFRASTRUCTURE FUNDING

EMPG is the Only Program for All-Hazards Preparedness
    Natural disasters are certain and often anticipated. Every State 
must be able to plan for disasters as well as build and sustain the 
capability to respond. EMPG is the only source of funding to assist 
State and local governments with planning and preparedness/readiness 
activities associated with natural disasters. At a time when our 
country is continuing to recover from one of the largest natural 
disasters in history and making strides to improve the Nation's 
emergency preparedness/readiness, we cannot afford to have this vital 
program be cut or just maintained. EMPG is the backbone of the Nation's 
all-hazards emergency management system and the only source of direct 
Federal funding to State and local governments for emergency management 
capacity building. EMPG is used for personnel, planning, training, and 
exercises at both the State and local levels. EMPG is primarily used to 
support State and local emergency management personnel who are 
responsible for writing plans; conducting training, exercises and 
corrective action; educating the public on disaster readiness; and 
maintaining the Nation's emergency response system. EMPG is being used 
to help States create and update plans for receiving and distribution 
of emergency supplies such as water, ice, and food after a disaster; 
debris removal plans; and plans for receiving or evacuating people--all 
of these critical issues identified in the aftermath of Hurricane 
Katrina and the following investigations and reports. EMPG is the 
program being used to support State and local efforts for Federal 
preparedness initiatives like the Target Capabilities List, Cost to 
Capability, Comprehensive Planning Guide 101, and Gap Analysis.
    The State and local government partnership with the Federal 
Government to ensure preparedness dates back to the civil defense era 
of the 1950s, yet increased responsibilities over the last decade have 
fallen on State and local governments. NEMA's 2008 Biennial Report 
shows that the shortfall in EMPG funding has reached $172 million. The 
total need for the program is $487 million annually. The 9/11 
Implementation Act authorized EMPG at $680 million for fiscal year 
2010.
    We appreciate all of the efforts of members of Congress and the 
Administration to allow for increases to the EMPG program; however, 
adjusted over the last 15 years, the increases have not kept pace with 
inflation at a time when capacity is supposed to be increasing. 
Continued funding increases are necessary to make up for over a decade 
of degradation of funding and increased State and local commitments. 
The President's fiscal year 2010 budget calls for EMPG to be rolled 
into the State and Local Account and eliminates the program's separate 
line item. We strongly support maintaining a separate line item for 
EMPG since the program is all-hazards focused. Additionally, we are 
studying the proposal made in the budget to make the program risk based 
and would like to get back to you with our analysis of how the change 
may impact States.
    EMPG is the only all-hazards preparedness program within the 
Department of Homeland Security that requires a match at the State and 
local level. The 50/50 match is evidence of the commitment by State and 
local governments to make public safety and security a top priority. 
According to the Council of State Governments, 49 of 50 States are 
currently in a recession, and 41 States are looking at shortfalls in 
2009 or 2010. States are faced with an estimated $140 billion overall 
shortfall. The fiscal conditions warrant maintaining the intent of EMPG 
as all-hazards and as a flexible program. States should not be forced 
to set aside arbitrary amounts of EMPG for specific tasks--each State's 
hazards and risks are unique as is the approach to addressing these 
hazards. One size does not fit all in terms of the overall emergency 
management needs. Additionally, many of the EMPG funds help pay for the 
personnel to run key programs and reducing flexibility means that 
critical functions could be lost.
    NEMA surveyed States on the fiscal impact of the current economic 
conditions earlier this month. Some of the statistics that we found 
include:
  --At least 23 State EMAs indicated a budget reduction in fiscal year 
        2010. Cuts range from $200,000 to over $6 millions and from 1 
        percent budget reductions to 30 percent;
  --Seven States plan to use disaster ``rainy day or related set aside 
        emergency funds to cover overall State budget shortfalls;
  --Hiring freezes are in place in 32 States and may impact anywhere 
        from 2-31 positions in a given State. Elimination of positions 
        is expected in 28 States ranging from 1-17 positions in a given 
        State. Emergency management agencies are traditionally 
        understaffed and any cut in positions will impact services;
  --States report the greatest impact stemming from budget cuts will be 
        their ability to provide the 50 percent match for Federal 
        funding provided through the Emergency Management Performance 
        Grant (EMPG). This is the single source of funding that 
        supports all hazards emergency preparedness at the State and 
        local level. Budget cuts also threat the States' abilities to 
        support State funded disaster assistance programs for 
        individuals and businesses. Other emergency management 
        functions that may be most impacted includes planning, training 
        and public outreach/education on emergency preparedness.
    At the same time as the fiscal challenges, States are doing more 
with less and finding innovative ways to use EMPG funds to address 
emergency management capacity building. Attached is a recent document 
that outlines how States are using EMPG funds. Some of the key examples 
include:
  --ARIZONA.--The Emergency Management Performance Grant (EMPG) has 
        enabled the State of Arizona to achieve a level of 
        collaboration between the State, counties, cities, tribes, 
        volunteer and faith-based organizations and the private sector 
        that never existed before. EMPG recently funded the largest 
        full-scale exercise ever conducted in Arizona, the ``Coyote 
        Crisis Campaign,'' a mass-casualty incident that over-burdened 
        the surge capacity of area hospitals and challenged the ability 
        of officials to manage a multi-jurisdiction response. Arizona's 
        first responders, health care providers and other emergency 
        management partners responded to the terrorist scenario.
      EMPG funds have provided the means to develop the capability to 
        respond to bi-national incidents along the Arizona-Sonora 
        border. The grant has been used to pay for State and local bi-
        national emergency preparedness activities (planning, training, 
        and exercising) and the implementation of bi-national emergency 
        alert and notification systems, interoperable communications, 
        and IT systems that support the sharing of information and 
        maintaining a common operating picture for emergency incidents.
  --CALIFORNIA.--The establishment of the Office for Access and 
        Functional Needs (OAFN), in January 2008 is the result of EMPG 
        funding. As part of the California Emergency Management Agency 
        (CalEMA), the office identifies the needs of people with 
        disabilities before, during and after a disaster; and 
        integrates disability elements and resources into all aspects 
        of emergency management systems. OAFN is currently funded by 
        EMPG and provides two employees. In July 2008, OAFN published 
        Guidance on Planning and Responding to the Needs of People with 
        Disabilities and Older Adults, and released it specifically to 
        California emergency managers, planners, and disability and 
        older adult service systems, for planning and responding during 
        disasters and recovery.
  --CONNECTICUT.--During the past 3 years, the Connecticut Department 
        of Emergency Management and Homeland Security (DEMHS) has used 
        EMPG to improve participation in the State's High Band Radio 
        System. This is a communications network of last resort during 
        a major disaster. Because of EMPG, 96 percent of Connecticut 
        communities are connected to the system, as compared to only 24 
        percent in 2006. In a serious event, it would help impacted 
        areas convey their most urgent life-sustaining needs, such as 
        food, water and temporary shelters. The High Band System also 
        links regional emergency management offices to local towns and 
        to the State EOC.
  --HAWAII.--Emergency shelters can mean the difference between life 
        and death in a vulnerable State like Hawaii, which is 
        confronted by the possibility of many different types of 
        hazards--earthquakes, hurricanes, tsunamis and volcano 
        eruptions. In 2009, the State is dedicating part of its EMPG 
        funds to conduct assessments and surveys of public and private 
        facilities that could serve as emergency shelters; and support 
        State and county participation in the development of a 
        catastrophic hurricane disaster plan. EMPG money is also 
        contributing to State readiness exercises involving terrorism, 
        earthquake, tsunami, and hurricane emergency response 
        scenarios.
  --KENTUCKY.--In 2008, the Commonwealth of Kentucky used EMPG dollars 
        to develop and exercise a plan in the event of a New Madrid 
        earthquake occurring in the western portion of the State. When 
        the State was hit with a massive ice storm earlier this year, 
        resulting in its worst disaster ever, State emergency 
        management used the earthquake plan to support western counties 
        decimated by the storm. Though designed for an earthquake, the 
        plan was adapted for this disaster and was key in delivering 
        aid to 103 counties with hundreds of thousands of citizens who 
        had no power, no heat and no food. Also, because the plan had 
        been thoroughly exercised--again due to EMPG funds--the State 
        had already made adjustments and knew that it would work. 
        Advance planning and exercise supported through EMPG saved 
        lives in Kentucky.
  --MISSISSIPPI.--Thanks to the current EMPG funding level, all 82 
        counties in Mississippi, as well as the Mississippi Band of 
        Choctaw Indians, have emergency management programs and 
        emergency management directors. This was not always the case. 
        Back in 2000, when EMPG funding was significantly lower, there 
        were only 43 county emergency management programs. At the State 
        level, nine area coordinators--all funded by EMPG--cover 
        between six and 11 counties. Each coordinator works closely 
        with their respective local emergency managers, responding to 
        their requests for support and resources, and conducting 
        training for the staff and educational presentations for 
        residents. The importance of this integration came into play in 
        September 2008 when Hurricane Gustav hit. The Mississippi 
        Emergency Management Agency (MEMA) helped coordinate the 
        unprecedented evacuation of more than 3 million people from 
        South Louisiana and the city of New Orleans. The large number 
        of evacuees was able to move easily through Mississippi and 
        find shelter thanks to the coordination of all the county 
        emergency managers and MEMA.
  --OHIO.--In 2008, the State of Ohio allocated approximately 74 
        percent of its EMPG funds directly to local governments to 
        focus on sustaining and enhancing emergency management 
        capability. Ohio recognizes the critical importance of building 
        and sustaining local capabilities throughout the planning, 
        response, recovery and mitigation phases of a disaster. As 
        such, EMPG grant funds support 170 full time emergency 
        management personnel in 88 counties who update and enhance 
        county Emergency Operations Plans and applicable annexes that 
        serve as the foundation of local capabilities. The State 
        supports the counties in all aspects of emergency management, 
        including grants management, planning activity identification, 
        training and exercise and special projects. These efforts, 
        coupled with the detailed guidance established for EMPG funds, 
        further enhance the local capabilities and allow for increased 
        identification of risks and hazards that threaten the 11 plus 
        million residents of Ohio's 88 counties.
      One such threat occurred in September 2008 when Ohio was faced 
        with hurricane force wind gusts from the remnants of Hurricane 
        Ike. As the winds moved through a large portion of the State, 
        more than 5 million Ohioans were impacted and many lost power 
        for more than a week. The ability of county emergency 
        management agencies to coordinate response and resource support 
        for the needs of the residents was a credit to their planning 
        and preparedness efforts, supported by Ohio's allocations of 
        EMPG funding.
  --WISCONSIN.--EMPG is a major reason for the successful response by 
        both the State and local jurisdictions to the severe storms and 
        flooding that occurred in Wisconsin in June 2008. Wisconsin 
        requires the State, counties and municipalities to develop 
        consistent, emergency management programs. To accomplish this, 
        Wisconsin Emergency Management provides two-thirds of its EMPG 
        grant to county emergency managers. They in turn assist 
        municipalities in developing their annual plans of work. These 
        documents include areas of planning, training, exercising, 
        public education/information, grant administration, and other 
        initiatives that focus on specific local needs.
          building our nation's mutual aid system through emac
    The Emergency Management Assistance Compact (EMAC) remains a the 
vehicle to utilize mutual aid assistance during disasters. Congress 
enacted EMAC in 1996 (Public Law 104-321). Currently 50 States, the 
U.S. Virgin Islands, Puerto Rico, Guam, and the District of Columbia 
are members of EMAC. EMAC requires member States to have an 
implementation plan and to follow procedures outlined in the EMAC 
Operations Manual. EMAC addresses issues such as reimbursement, 
liability protections, and workers' compensation issues.
    In the last year, EMAC has provided critical aid to impacted 
States. In support of the 2009 Flooding in North Dakota and Minnesota, 
States deployed equipment, sandbags, and 1,029 personnel to North 
Dakota and 6 personnel to Minnesota. Two individuals were deployed to 
the National Response Coordination Center (NRCC) at FEMA Headquarters 
to coordinate the State response under EMAC with the Federal response. 
In all, 727 National Guard personnel and 302 civilians were sent to 
assist via the compact.
    In February 2009, generators, cots with blankets, and 702 personnel 
were deployed to Kentucky to assist in the response and recovery 
following an ice storm that impacted the majority of the State. 528 
personnel with civilian and 174 personnel were National Guard assets.
    In response to the 2008 Hurricanes Gustav and Ike States deployed 
12,274 personnel under EMAC to support the impacted States of Texas, 
Louisiana, and Florida. The response lasted 63 continuous days with a 
total of 265 completed missions.
    In October 2006, Congress, under The Post-Katrina FEMA Reform Act 
authorized FEMA to appropriate up to $4 million annually in grants in 
fiscal year 2008 to support EMAC operations and coordination 
activities, but no funds have been appropriated.
    Prior to 2004, deployments under EMAC were primarily State 
emergency management and National Guard personnel. The value of EMAC 
was reaffirmed following Hurricanes Katrina and Rita by demonstrating 
that EMAC can be used to deploy ``any resources one State would want to 
share with another''. Combined with the requirements in the Post-
Katrina Emergency Management Reform Act of 2006, EMAC has resulted in 
an unprecedented growth and involvement in EMAC across the Nation. EMAC 
has also demonstrated the need for a unified mutual aid system 
(intrastate to interstate) that coordinates with the Federal response.
    EMAC has a 5 year strategic plan to put lessons learned into 
practice. The After-Action process from Hurricane Katrina allowed EMAC 
to examine how to improve the system after unprecedented disasters and 
an unparalleled growth in the use of the system.
    Examples of improvements to be made with current and future funding 
as a result of lessons learned are outlined below:
  --NEMA has been working with first responder disciplines to provide 
        EMAC educational and training materials. This includes training 
        on EMAC, integration with State Emergency Operations Centers, 
        Incident Command Systems, resource typing, and credentialing;
  --NEMA has established an EMAC Advisory Group that is working to 
        better integrate mutual aid partners into the EMAC system 
        before future disasters occur. The group includes 
        representatives from State and local government associations, 
        the National Guard Bureau, emergency responder associations, 
        public utility associations, the private sector, DHS/FEMA, and 
        the Centers for Disease Control. The discussions and 
        interactions of this group serve to assist in adding local 
        government assets to the scope of resources and other 
        disciplines that can be readily plugged into the system;
  --EMAC is evolving the tracking of resources through NEMA 
        administrative management. EMAC is working towards an 
        integrated system to allow for swifter approvals from the 
        requesting and responding States, which will ultimately allow 
        for improved tracking and faster response to requests for 
        assistance;
  --States are engaged in developing their own resource typed mission 
        ready packages and EMAC is involved in assisting with 
        responsibilities set in both the Post-Katrina Emergency 
        Management Reform Act and the Implementing the 9/11 Commission 
        Recommendations Act for resource typing and credentialing; and
  --Building capabilities for A-Team operations to assist during 
        disasters outside of State Emergency Operations Centers with 
        resource management, integration of EMAC into exercises with 
        the development of table-top exercises and inclusion in 
        national level exercises such as TOPOFF, as well as address 
        reimbursement ahead of mission deployments for both State and 
        local resource providers.
    While Emergency Management Performance Grants and homeland security 
grants are helping to build capabilities, the National Homeland 
Security Strategy counts on the fact that mutual aid is going to be put 
to use in a disaster. The support of EMAC is critical to helping offset 
the costs of disasters and building costly infrastructure at the 
Federal level that could sit unused until a disaster. In order to meet 
the ever-growing need for and reliance on interstate mutual aid, NEMA 
is seeking reauthorization at $4 million annually for 2010 and beyond 
and an annual $4 million line item in the FEMA budget for building EMAC 
capabilities and our Nation's mutual aid system.

         IMPROVING STATE AND LOCAL EMERGENCY OPERATION CENTERS

    During emergencies and disasters, emergency operations centers 
(EOCs) serve as the nerve center for State and local coordination. 
Federal agencies as well use these facilities to act as a central point 
for communication during response and recovery phases. States continue 
to require more monies to enhance State primary and alternate EOCs. 
According to data in the 2008 NEMA Biennial Report, it is estimated 
that almost $497 million would be needed to build, retrofit and upgrade 
the facilities. The amount is a 26 percent increase over the 2006 
estimate. For local EOCs, that number increases to $1.1 billion, for a 
total of almost $1.6 billion. This includes the costs to upgrade 
equipment and software, train personnel, and conduct operations during 
emergency and non-emergency situations. We appreciate Congress' 
recognition of the need for EOC improvements in the fiscal year 2008 
and fiscal year 2009 appropriations as these investments are a down 
payment towards addressing this critical shortfall.
    A separate line item for EOC improvements should be continued in 
the budget and the program should not be eliminated as these are both 
critical functions that need adequate resources. Maintaining the 
flexibility of EMPG and having the separate program specific for 
emergency operations centers continue are priorities for emergency 
management.

                  INVESTMENT IN PREDISASTER MITIGATION

    As the Nation continues to recover from the 2004 and 2005 hurricane 
season and the numerous other disasters, mitigation opportunities are 
the only way to take advantage of lessons learned during disasters. The 
Disaster Mitigation Act of 2000 (DMA2K and Public Law 106-390) 
authorized a national disaster hazard mitigation program ``to reduce 
the loss of life and property, human suffering, economic disruption, 
and disaster assistance costs resulting from natural disasters and to 
provide a source of predisaster hazard mitigation funding that will 
assist States and local governments in implementing effective hazard 
mitigation measures that are designed to ensure the continued 
functionality of critical services and facilities after a natural 
disaster.'' The title of the bill that authorizes the Predisaster 
Mitigation program is scheduled to sunset on September 30, 2009, after 
a 1-year extension of the program.
    Predisaster Mitigation grants accounts contained significant 
earmarks in fiscal year 2008 and fiscal year 2009, thus reducing the 
amount available for State and local governments to openly apply to be 
considered for the grants. The program funding is sorely under the 
total national need, especially with the original intent of the law to 
provide each State with a portion of funding so lessons learned from 
disasters could be taken advantage of by all States. Each year, FEMA 
typically receives requests for grants averaging over $450 million 
annually. When the program was proposed for the first time in fiscal 
year 2003, the President proposed $300 million annually. The fiscal 
year 2003 figure was derived by taking a decade of mitigation 
opportunities annual averages, but took out the large disaster spikes 
like Hurricane Andrew and the North Ridge and Loma Prieta earthquakes.
    While Federal costs towards disasters remain a concern, significant 
commitments must be made towards both predisaster and post-disaster 
mitigation in order to lower overall disaster costs in the long run. 
With such low levels of funding, the predisaster mitigation program has 
never been fully able to address the intent of DMA2K. In 2005, the 
Multi-Hazard Mitigation Council published a study that found that every 
$1 FEMA invested into mitigation projects saves society approximately 
$4. The key to the value of the programs is that predisaster mitigation 
is coordinated through the Governors and the State hazard mitigation 
plan as required by DMA2K. The program addresses the unique areas of 
greatest need to prepare for and reduce the overall costs of a disaster 
event.
    While NEMA is supportive of the Predisaster Mitigation Program, we 
remain supportive of both pre- and post-disaster mitigation. The Hazard 
Mitigation Grant Program (HMGP) must not be changed in order to ensure 
a balanced holistic national mitigation program that includes both pre- 
and post-disaster mitigation. As the Congress considers the Predisaster 
Mitigation program's reauthorization, adequate funding levels are 
needed to give the program the opportunity to demonstrate real value 
for the investments. Additionally, we are studying the proposal in the 
President's budget to make PDM a base plus risk program, however NEMA 
has supported a base plus population formula for the program since the 
program's creation. NEMA supports the program's reauthorization and 
looks forward to working with Congress to improve the program.

                               CONCLUSION

    Congress has affirmed their support for ensuring preparedness for 
our Nation's continuous vulnerability against all-hazards with 
additional investments to EMPG and emergency operations centers 
improvements. We must continue to build national preparedness efforts 
with a multi-hazard approach. In this year's appropriations process 
Congress will make critical decisions that shape the future of 
emergency management in this country. As you begin your consideration, 
we ask you to recognize the importance of adequately funding the EMPG 
program and maintain the program's flexibility for building capacity 
through people at the State and local level for all disasters. I thank 
you for the opportunity to testify on behalf of NEMA and appreciate 
your partnership.
                                 ______
                                 

      Prepared Statement of the National Treasury Employees Union

    Chairman Byrd, Ranking Member Voinovich, distinguished members of 
the Subcommittee; I would like to thank the Subcommittee for the 
opportunity to provide this testimony. As President of the National 
Treasury Employees Union (NTEU), I have the honor of leading a union 
that represents over 22,000 Customs and Border Protection (CBP) 
Officers and trade enforcement specialists who are stationed at 327 
land, sea and air ports of entry (POEs) across the United States. CBP 
employees make up our Nation's first line of defense in the wars on 
terrorism and drugs.
    In addition, CBP trade compliance personnel enforce over 400 U.S. 
trade and tariff laws and regulations in order to ensure a fair and 
competitive trade environment pursuant to existing international 
agreements and treaties, as well as stemming the flow of illegal 
contraband such as child pornography, illegal arms, weapons of mass 
destruction and laundered money. CBP is also a revenue collection 
agency, expecting to collect an estimated $29 billion in Federal 
revenue according to fiscal year 2009 revenue estimates.

            FUNDING FOR LAW ENFORCEMENT ENHANCED RETIREMENT

    First, NTEU would like to thank the Committee on Appropriations for 
rejecting the previous Administration's fiscal year 2009 budget request 
to repeal the law and rescind the fiscal year 2008 appropriated funding 
to implement a new enhanced retirement benefit for all eligible CBP 
Officers. The Committee also included $200 million in its fiscal year 
2009 funding bill to cover the conversion costs associated with this 
enhanced retirement benefit.
    NTEU members are extremely grateful that, despite then-President 
Bush's request, the Committee remained firmly committed to this new 
enhanced retirement program. NTEU commends the Committee on its 
forethought and perseverance in enacting and funding this vital 
legislation. Nothing that the Committee has done since the creation of 
the Department of Homeland Security (DHS) has had a more positive 
effect on the morale of the CBP Officer.
    The new administration in its fiscal year 2010 budget request seeks 
an increase of $25 million to provide enhanced retirement benefits to 
CBP Officers. An additional $25 million is required in fiscal year 2010 
(for a total of $225 million) as a final increment that will fully fund 
the new retirement coverage. NTEU fully supports this final installment 
of Federal funding of the CBP of Officer enhanced retirement package 
and asks the Committee to include this funding in its fiscal year 2010 
DHS appropriations bill.

           FUNDING FOR DHS HUMAN RESOURCES MANAGEMENT SYSTEM

    NTEU also commends the Committee for adding a provision, Section 
533, in the Consolidated Security Disaster and Continuing 
Appropriations Act for fiscal year 2009 that prohibits the expenditure 
of funds to apply a new DHS human resources management system to 
employees eligible for inclusion in a bargaining unit. Because of this 
funding prohibition, DHS announced that the agency would rescind 
application of this new human resources system as of October 2, 2008.
    The Department's fiscal year 2010 budget request proposes deletion 
of Section 522 of the DHS fiscal year 2009 appropriations bill. Section 
522 prohibits spending of any appropriated fund for implementation of 
this DHS human resources management system fund (MaxHR). NTEU has great 
concerns about deleting this language. Even though DHS has rescinded 
the application of the human resource system and DHS has no authority 
to issue any new regulations, regulations remain in place for adverse 
actions, appeals, performance management, and pay and classification 
and can be reactivated if the funding prohibition is lifted.
    If the appropriations prohibition language were dropped from the 
fiscal year 2010 appropriations bill, DHS would be free to revive the 
regulatory provisions of MaxHR that were not enjoined by the courts. 
Though DHS could not modify the regulations (since the authority to do 
that expired in January 2009) these regulations remain on the books as 
originally promulgated and could be given effect, if DHS were allowed 
to spend appropriated funds to make them effective.
    Even though the fiscal year 2010 budget request states that old 
section 522 is no longer necessary because ``the department has 
withdrawn its coverage under 5 U.S.C. 9701.'' DHS by itself cannot 
withdraw ``its coverage under 5 U.S.C. 9701.'' Title 5, Section 9701 by 
its terms covers DHS and only Congress can change that. To the extent 
that DHS has decided not to implement MaxHR, as noted above, that 
decision could be revisited if the appropriations ban were lifted.
    In the 110th Congress, the full House voted to repeal Title 5, 
Chapter 97 in its entirety, and any regulations issued under its 
authority. NTEU is working with both the House and Senate DHS 
authorizing committees to achieve enactment of this title 5, Chapter 97 
repeal by the 111th Congress. Until this statutory authority is 
repealed by Congress, inclusion of the of section 522, the fiscal year 
2009 appropriations prohibition language, in the DHS fiscal year 2010 
appropriations bill remains necessary. NTEU therefore requests that 
identical language to Section 522 prohibiting the use of appropriated 
funds to implement any part of the regulations promulgated pursuant to 
Title 5, Chapter 97 is again included in the fiscal year 2010 DHS 
funding bill.

      FUNDING FOR CBP SALARIES AND EXPENSES AT THE PORTS OF ENTRY

Staffing Southbound Inspections at U.S.-Mexico Land Ports
    In the last year, an epidemic of violence has erupted right across 
the U.S. southern border in Mexico due to an increase in Mexican drug 
cartel activity there. Drug violence in northern Mexico has skyrocketed 
with more than 6,000 homicides since January 2008. This violence is 
fueled by arms smuggling and bulk cash drug proceeds transiting south 
from the United States.
    The last administration fell down on the job of inspecting outbound 
traffic through U.S. land ports and not all U.S.-Mexico passenger 
vehicle, rail and truck port crossings are staffed or equipped to 
conduct southbound inspections. Rightfully, the new administration is 
focused on putting more resources into southbound inspections to help 
curb arms and bulk cash trafficking into Mexico.
    NTEU is providing information to Congress and the administration to 
help formulate this new policy and to assess security equipment and 
other needs to address the increased threat to CBP personnel at the 
southern border. Safety of CBP Officers at the ports of entry is a 
major concern. Appropriate facilities, staffing and equipment are 
necessary at the southern land ports to ensure CBP Officers' safety.
    NTEU supported an amendment offered by the Chairman and Ranking 
Member of the Senate Homeland Security and Government Affairs Committee 
Senators Joe Lieberman (I-CT) and Susan Collins (R-ME), to the fiscal 
year 2010 budget resolution, to provide an additional $550 million to 
fight drug violence along the border. This budget amendment, approved 
by Congress, includes $260 million for Customs and Border Protection to 
hire, equip, train and deploy 1,600 additional personnel and 400 canine 
teams to the border to increase the number of inspections of vehicles 
heading south into Mexico.
    This increase in CBP staffing at the ports of entry called for in 
the budget resolution, however, must be in addition to the increase in 
staffing called for in CBP's own staffing allocation models. The 
Department's fiscal year 2010 budget request includes $8.1 million for 
65 CBP Officers and 8 support staff positions to be dedicated to 
``Combating Southbound Firearms and Currency Smuggling.'' NTEU believes 
that this staffing increase is insufficient to address the staffing 
needs at southern ports of entry and well below the 1,600 additional 
personnel and 400 canine teams sought by the Senate authorizing 
committee. NTEU asks the Committee to increase funding for salaries and 
expenses at the ports of entry to fight drug violence along the 
southern border and increase the number of inspections of vehicles and 
travelers heading south into Mexico.
CBP Officer Staffing
    NTEU was very grateful that the Committee, in its fiscal year 2007 
DHS appropriations conference report, directed CBP to submit a resource 
allocation model for current and future year staffing requirements. For 
years, NTEU has said that CBP needs several thousand additional CBP 
Officers and CBP Agriculture Specialists at its ports of entry; that 
insufficient staffing and scheduling abuses are contributing to morale 
problems, fatigue, and safety issues for CBP Officers and CBP 
Agriculture Specialists, and that CBP is losing personnel faster than 
it can hire replacements.
    CBP's 2007 staffing model concluded ``that the agency needs 1,600 
to 4,000 more officers and agricultural specialists at the Nation's 
air, land and sea ports, or a boost of 7 to 25 percent, the GAO 
reported.'' (Washington Post, November 6, 2007).
    NTEU is grateful that the Committee, in its fiscal year 2009 DHS 
Appropriations bill, provided funds for 1,373 U.S. Customs and Border 
Protection Officers and CBP Agriculture Specialists at the ports of 
entry--an increase of 834 beyond those requested by the Bush 
Administration. Also, CBP announced in January 2009 that it is hiring 
11,000 new CBP employees; however, the majority of these hires are to 
keep up with attrition, not to address optimal staffing levels as 
determined by CBP's own Resource Allocation Model. According to CBP, 
there are currently 19,726 CBP Officers of which nearly 3,400 are non-
frontline supervisors--a ratio of one supervisor for every 5 CBP 
Officers.
    NTEU is disappointed that the Department's fiscal year 2010 budget 
outline includes increasing new hires for CBP Border Patrol Agents from 
17, 499 to 20,000--an increase of 1,500, but no increase at all in the 
number of frontline CBP Officer or CBP Agriculture Specialist new 
hires.
    NTEU agrees with the observation of Senate Homeland Security and 
Governmental Affairs Committee Chairman Lieberman in his March 13, 2009 
letter to the Senate Budget Committee. Chairman Lieberman states that 
``[t]he Border Patrol has almost doubled in the last 3 fiscal years, 
while the number of CBP officers at ports of entry has remained 
basically stable despite long wait times at the border. If this trend 
continues, it could lead to a misalignment of resources and the under-
funding of critical border security priorities, in particular this 
Nation's efforts to enhance the security of our ports of entry through 
the deployment of programs such as the Western Hemisphere Travel 
Initiative (WHTI), the Electronic System for Travel Authorization 
(ESTA), and US&ISIT.''
    Again NTEU calls on the Committee to fund staffing levels for CBP 
Officers at the ports of entry as specified in CBP's own workforce 
staffing model by at least 1,000 new hires in the fiscal year 2010 
appropriations bill, in addition to sufficiently funding an increase in 
CBP Officer staffing needed to expand outbound inspection and address 
the increasing violence at the U.S.-Mexico border.
Agriculture Specialists Staffing
    NTEU was certified as the labor union representative of CBP 
Agriculture Specialists in May 2007 as the result of an election to 
represent all CBP employees that had been consolidated into one 
bargaining unit by merging the port of entry inspection functions of 
Customs, INS and the Animal, Plant and Health Inspection Service as 
part of DHS' One Face at the Border initiative.
    According to GAO (GAO-08-219, page 31), CBP's staffing model 
``showed that CBP would need up to several thousand additional CBP 
Officers and agriculture specialists at its ports of entry.'' And GAO 
testimony issued on October 3, 2007 stated that, ``as of mid-August 
2007, CBP had 2,116 agriculture specialists on staff, compared with 
3,154 specialists needed, according to staffing model.'' (See GAO-08-
96T page 1.) According to CBP, the current number of CBP Agriculture 
Specialists staff is 2,277, of which 312 are non-frontline supervisors. 
This is unacceptable.
    The Department's fiscal year 2010 budget request includes no 
additional funding for CBP Agriculture Specialist new hires. CBP needs 
to dramatically increase frontline Agriculture Specialist staffing 
levels to address current needs as stated in its own workforce 
allocation model. NTEU therefore requests that the Committee include 
funding in its fiscal year 2010 appropriations bill to increase the 
number of CBP Agriculture Specialists by at least 500 new hires.
    NTEU also recommends that Congress, through oversight and statutory 
language, make clear that the agricultural inspection mission is a 
priority. NTEU would support asking DHS to report on how it is 
following U.S. Department of Agriculture procedures on agriculture 
inspections. The report should include wait times for clearing 
agricultural products and what measures could be implemented to shorten 
those wait times.
One Face at the Border and Training
    In 2006, Congress requested that the Government Accountability 
Office (GAO) evaluate the One Face at the Border initiative and its 
impact on legacy customs, immigration and agricultural inspection and 
workload. GAO conducted its audit from August 2006 through September 
2007 and issued its public report, Border Security: Despite Progress, 
Weaknesses in Traveler Inspections Exist at Our Nation's Ports of Entry 
(GAO-08-219), on November 5, 2007. The conclusions of this report echo 
what NTEU has been saying for years:
  --CBP needs several thousand additional CBP Officers and Agriculture 
        Specialists at its ports of entry.
  --Not having sufficient staff contributes to morale problems, 
        fatigue, and safety issues for CBP Officers.
  --Staffing challenges force ports to choose between port operations 
        and providing training. In these instances--training is often 
        sacrificed.
  --CBP's onboard staffing level is below budgeted levels, partly due 
        to high attrition, with ports of entry losing officers faster 
        than they can hire replacements.
    The Homeland Security Appropriations Committee added report 
language to the fiscal year 2007 DHS Appropriations bill that, with 
regard to CBP's One Face at the Border initiative, directs ``CBP to 
ensure that all personnel assigned to primary and secondary inspection 
duties at ports of entry have received adequate training in all 
relevant inspection functions.'' NTEU asks the Committee to again seek 
this information in report language to its fiscal year 2010 DHS 
Appropriations bill.
    NTEU's CBP members have told us that CBP Officer cross-training and 
on-the-job training continues to be woefully inadequate. In addition, 
staffing shortages force managers to choose between performing port 
operations and providing training. In these instances, it is training 
that is sacrificed.
    It is apparent that CBP sees its One Face at the Border initiative 
as a means to ``increase management flexibility'' without increasing 
staffing levels. NTEU again calls for Congress to end the failed One 
Face at the Border experiment and ensure that expertise is retained 
with respect to customs, immigration, and agriculture inspection 
functions at CBP.
Trade Operations Staffing
    When CBP was created, it was given a dual mission of not only 
safeguarding our Nation's borders and ports from terrorist attacks, but 
also the mission of regulating and facilitating international trade; 
collecting import duties; and enforcing U.S. trade laws. In 2005, CBP 
processed 29 million trade entries and collected $31.4 billion in 
revenue. In 2009, the estimated revenue collected is projected to be 
$29 billion--a drop of over $2 billion in revenue collected.
    To insure the proper focus by CBP of trade operations staffing 
needs, Congress included Section 402 in the SAFE Port Act of 2006. This 
provision required CBP to prepare a Resource Allocation Model (RAM) 
every 2 years to determine optimal staffing levels needed to carry out 
the commercial operations of CBP, including commercial inspection and 
release of cargo. The first RAM was delivered to Congress in June of 
2007 and proposed significant increases from the Homeland Security 
Act's section 412(b) floor of 2,263 customs revenue function employees, 
which includes Fine, Penalty and Forfeiture Specialists, Import 
Specialists, International Trade Specialists, Customs Attorneys, 
Customs Auditors, Chemists and CBP Technician positions. The next RAM, 
as mandated by the SAFE Port Act, is due on June 30, 2009 and NTEU 
expects to see similar numbers in terms of CBP trade operations 
staffing needs.
    The Department's fiscal year 2010 budget request seeks an increase 
of $9.3 million to hire a total of 103 new positions that includes 12 
scientists, 1 paralegal, 34 international trade specialists, 32 
auditors, 10 attorneys, 3 import specialists and 11 support personnel. 
This increase is well below the number of new hires needed for many of 
these CBP trade operation occupations.
    According to CBP's 2007 RAM, in fiscal year 2010, 1,100 Import 
Specialists are needed to adequately staff CBP's trade enforcement 
mission. The current number of non-supervisory Import Specialists is 
799. The Administration's request for 3 additional Import Specialists 
is well below the number of new hires needed according to CBP's own 
data.
    And, according to the 2007 RAM, 295 International Trade Specialists 
are needed for optimal performance in fiscal year 2010. The current 
number of non-supervisory International Trade Specialists is 54. The 
Department's request in its fiscal year 2010 budget is only 34 
International Trade Specialists new hires, bringing this to a total of 
only 88 non-supervisory positions, well below the 295 optimal 
performance staffing number.
    NTEU, therefore, urges the Committee to ensure that trade 
compliance personnel is increased to the fiscal year 2010 staffing 
levels that CBP itself states in the 2007 RAM are sufficient to ensure 
effective performance of customs revenue functions.
Conclusion
    Each year, with trade and travel increasing at astounding rates, 
CBP personnel have been asked to do more work with fewer personnel, 
training and resources. The more than 22,000 CBP employees represented 
by the NTEU are capable and committed to the varied missions of DHS 
from border control to the facilitation of legitimate trade and travel. 
They are proud of their part in keeping our country free from 
terrorism, our neighborhoods safe from drugs and our economy safe from 
illegal trade. These men and women are deserving of more resources and 
technology to perform their jobs better and more efficiently. Thank you 
for the opportunity to submit this testimony to the Committee on their 
behalf.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Brownback, Senator Sam, U.S. Senator From Kansas, Questions 
  Submitted by...................................................    98
Byrd, Senator Robert C., U.S. Senator From West Virginia:
    Opening Statement of.........................................     1
    Questions Submitted by.......................................    36

Cochran, Senator Thad, U.S. Senator From Mississippi, Questions 
  Submitted by...................................................    93

International Association of Emergency Managers, Prepared 
  Statement of...................................................   103

Napolitano, Hon. Janet, Secretary, Department of Homeland 
  Security.......................................................     1
    Prepared Statement of........................................     6
    Statement of.................................................     4
National:
    Emergency Management Association, Prepared Statement of......   107
    Treasury Employees Union, Prepared Statement of..............   112

Voinovich, Senator George V., U.S. Senator From Ohio:
    Questions Submitted by.......................................    79
    Statement of.................................................     2


                             SUBJECT INDEX

                              ----------                              

                    DEPARTMENT OF HOMELAND SECURITY

                                                                   Page
Accident at Bayer Crop Science Chemical Plant....................    17
Acquisitions.....................................................    36
Action Orders....................................................    44
Additional Committee Questions...................................    36
Advanced Training Center.........................................    48
Agricultural Specialists.........................................    47
Air:
    Exit.........................................................    63
    Passenger Fee Increase.......................................    55
All-hazards......................................................    69
Arctic Policy....................................................    57
Assistance to:
    Firefighter Grants...........................................23, 33
    Rural Firefighters...........................................    97
Automation Modernization.........................................    46
Behavior Detection...............................................    55
BioWatch.........................................................    65
Biodefense Countermeasures.......................................    87
Biometric Air Exit...............................................    82
Bioshield........................................................    65
Border Patrol Agents.............................................    50
Building our Nation's Mutual Aid System Through EMAC.............   110
CEDAP Grants.....................................................    79
Capital Improvement Plan.........................................    64
Chemical Security................................................    61
Coast Guard......................................................    56
    Assets in Iraq...............................................    56
    Icebreaker Polar Star........................................    25
    National Security Cutter.....................................    93
    Unmanned Aircraft Systems (UAS)..............................    98
Collective Bargaining............................................    92
    Rights.......................................................    55
Commercial Mobile Alert System...................................    72
Consolidation of Leases..........................................    87
Construction.....................................................    47
Contractor Conversions...........................................    76
Contractors......................................................    63
Conversion of Contractors to Government Positions................    84
Coordination With DOJ............................................    34
Cuts to Port:
    And Rail Security Grants.....................................    20
    Security and Rail Security Grants............................    21
Cyber Security...................................................    61
Declaration of Major Disaster....................................    32
DHS:
    Consolidated Headquarters Project............................    41
    Data Migration...............................................    93
    Headquarters Consolidation...................................    86
    Role in Cyber Security Efforts...............................85, 86
Departmental Management..........................................    36
Detention Beds...................................................    52
Disaster:
    Costs........................................................    66
    Relief Fund..................................................    17
Domestic Nuclear Detection Office................................    76
Effect of Economic Downturn on Fee-Funded Programs...............    83
Effectiveness of Grants..........................................    79
Efficiency Review................................................    14
Emergency Management Infrastructure Funding......................   107
Estimating Flood Elevations With Aerial Photography..............   101
Explosive Detection Systems......................................    90
E-Verify.........................................................35, 73
Federal:
    Emergency Management Agency..................................    66
    Housing Case Management......................................    95
    Information Security Management Act..........................    59
    Protective Service...........................................    64
    Requirements.................................................    71
Fees.............................................................    74
Fire Grant Funding Distribution..................................    69
Firefighter Assistance...........................................    66
Fiscal Year 2010 Budget Request..................................     6
Flood Mapping....................................................    28
Floodplain Remapping, Garden City, Kansas........................    99
Funding:
    Crosswalk....................................................    60
    For:
        Biometric Air Exit.......................................    19
        CBP Salaries and Expenses at the Ports of Entry..........   113
        DHS Human Resources Management System....................   113
        Enforcement Enhanced Retirement..........................   113
Great Lakes Icebreaker...........................................    57
Guidance.........................................................    70
Housing Case Management..........................................    22
H1N1 Supplemental Funding........................................    81
HSPD-12 Card Issuance............................................    43
ICE Leases.......................................................    53
Improving State and Local Emergency Operation Centers............   111
In-Line Baggage Screening Systems................................    90
Inspection of High-Risk Chemical Facilities......................    89
Interagency Operation Centers....................................    57
Intermodal Security Coordination Office..........................    89
Investment in Predisaster Mitigation.............................   111
Loran-C..........................................................    58
Large Spectator Event Security...................................    96
License Plate Readers............................................    47
Mail Facility....................................................    60
Mass Evacuation..................................................    67
Medical Stockpile................................................    82
National:
    Bio and Agro-Defense Facility (NBAF).........................26, 98
    Cyber Security Center........................................    85
    Guard on the Border..........................................    81
    Protection and Programs Directorate..........................    61
    Security Cutter (NSC)........................................    55
    Special Security Events......................................    60
Need for:
    Mission Support..............................................    48
    National Guard to Secure Southwest Border....................    18
Non-pay inflation................................................    44
Number of Grant Programs.........................................    80
Obligations......................................................    63
Office of Health Affairs.........................................    65
Ottawa County, Ohio, Facility....................................    92
Out-year Funding.................................................    44
Overseas Activities..............................................    59
Oversight of Management Functions................................    87
Pacific Northwest National Lab...................................    24
Performance Accountability and Standards System..................    91
Piracy...........................................................    21
Preparedness Grants..............................................    67
Principal Federal Official.......................................    68
Program Integrity................................................44, 51
Project Newton...................................................    75
Protection of U.S.-Flagged Vessels...............................    78
REAL ID..........................................................    75
    Act Implementation...........................................    80
Radar Coverage...................................................    50
Radiation:
    Detection Equipment..........................................    92
    Portal Monitors..............................................    92
Realignment of Grant Programs....................................    80
Reduction:
    For Stimulus Bill Funded Activities..........................    16
    In Grants....................................................    77
Regulations......................................................    72
Reliance on Contractors..........................................    38
Role of Contractors..............................................    83
Science and Technology...........................................    75
Secure:
    Border Initiative (SBI)......................................33, 49
    Communities..................................................    52
Securing the Cities (STC)........................................    77
Security of Chemical Facilities..................................    16
Sole Source Contracting..........................................    29
Southeast Region Research Initiative (SERRI).....................    95
Southwest Border Fencing.........................................    32
Systems Acquisition..............................................    76
Technology Transfer to Iran......................................    78
Timeliness of Spend Plan Submission..............................    62
Trade Regulations................................................    45
Transfer of:
    Sensitive Technology to Hostile Nations......................    21
    The Federal Protective Service...............................    92
Transformation and Systems Consolidation (TASC)..................    39
Transportation Security Administration...........................    54
    Acquisitions Process.........................................    30
    Air Cargo Inspector Staffing.................................    54
2010 Olympics....................................................    25
UASI Grant Program Reductions....................................    22
Unaccompanied Alien Children.....................................    81
USM Conversion of Contractors to FTE.............................    44
Uniformed Division Modernization.................................    60
Unique Identity..................................................    63
U.S.:
    Citizenship and Immigration Services.........................    73
    Coast Guard..................................................    55
    Customs and Border Protection................................    44
    Immigration and Customs Enforcement..........................    50
    Secret Service...............................................    59
US-VISIT.........................................................    62
    Program......................................................    31
Vehicles.........................................................    48
VIPR Teams.......................................................    91
Visa Waiver Country Information Sharing..........................    83
West Virginia Chemical Explosion.................................    62
Worksite Enforcement.............................................    50

                                   - 

</pre></body></html>
